<html>
<title> - LEGAL ISSUES RELATING TO FOOTBALL HEAD INJURIES (PART I & II)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                        LEGAL ISSUES RELATING TO 
                  FOOTBALL HEAD INJURIES (PART I & II)

=======================================================================

                                HEARINGS

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                       FIRST AND SECOND SESSIONS

                               ----------                              

                  OCTOBER 28, 2009 AND JANUARY 4, 2010

                               ----------                              

                           Serial No. 111-82

                               ----------                              

         Printed for the use of the Committee on the Judiciary


   Available via the World Wide Web: http://judiciary.house.govFOR 
                               SPINE deg.
            LEGAL ISSUES RELATING TO FOOTBALL HEAD INJURIES 
                             (PART I & II)



                       LEGAL ISSUES RELATING TO 
                  FOOTBALL HEAD INJURIES (PART I & II)

=======================================================================

                                HEARINGS

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                       FIRST AND SECOND SESSIONS

                               __________

                  OCTOBER 28, 2009 AND JANUARY 4, 2010

                               __________

                           Serial No. 111-82

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
53-092                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
ROBERT WEXLER, Florida               STEVE KING, Iowa
STEVE COHEN, Tennessee               TRENT FRANKS, Arizona
HENRY C. ``HANK'' JOHNSON, Jr.,      LOUIE GOHMERT, Texas
  Georgia                            JIM JORDAN, Ohio
PEDRO PIERLUISI, Puerto Rico         TED POE, Texas
MIKE QUIGLEY, Illinois               JASON CHAFFETZ, Utah
JUDY CHU, California                 TOM ROONEY, Florida
LUIS V. GUTIERREZ, Illinois          GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York

       Perry Apelbaum, Majority Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             HEARING DATES

Wednesday, October 28, 2009<greek-l>first date deg.
  Legal Issues Relating to Football Head Injuries (Part I).......     1

Monday, January 4, 2010<greek-l>second date deg.
  Legal Issues Relating to Football Head Injuries (Part II)......   265

                                (PART I)
                October 28, 2009<greek-l>first date deg.

                           OPENING STATEMENTS

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     3
The Honorable Tammy Baldwin, a Representative in Congress from 
  the State of Wisconsin, and Member, Committee on the Judiciary.     5
The Honorable Daniel E. Lungren, a Representative in Congress 
  from the State of California, and Member, Committee on the 
  Judiciary......................................................    16
The Honorable Mike Quigley, a Representative in Congress from the 
  State of Illinois, and Member, Committee on the Judiciary......    17
The Honorable Darrell Issa, a Representative in Congress from the 
  State of California, and Member, Committee on the Judiciary....    18
The Honorable Henry C. ``Hank'' Johnson, a Representative in 
  Congress from the State of Georgia, and Member, Committee on 
  the Judiciary..................................................    18
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Member, Committee on the Judiciary..    19

                               WITNESSES

The Honorable Bill Pascrell, a Representative in Congress from 
  the State of New Jersey
  Oral Testimony.................................................    20
  Prepared Statement.............................................    26
Mr. Roger Goodell, Commissioner, National Football League
  Oral Testimony.................................................    29
  Prepared Statement.............................................    31
Mr. DeMaurice Smith, Executive Director, NFL Players Association
  Oral Testimony.................................................    37
  Prepared Statement.............................................    39
Dr. Gay Culverhouse, Ed.D., former President, Tampa Bay 
  Buccaneers
  Oral Testimony.................................................    44
  Prepared Statement.............................................    46
Dr. Andrew M. Tucker, M.D., Member, NFL Mild Traumatic Brain 
  Injury Committee and Team Physician, Baltimore Ravens
  Oral Testimony.................................................    59
  Prepared Statement.............................................    62
Dr. Robert C. Cantu, M.D., Chief of Neurosurgery Service, and 
  Director, Sports Medicine, Emerson Hospital, Concord, MA
  Oral Testimony.................................................    66
  Prepared Statement.............................................    68
Dr. David R. Weir, Ph.D., Lead Author, NFL Player Care Foundation 
  Study of Retired NFL Players
  Oral Testimony.................................................    72
  Prepared Statement.............................................    74
Mr. George Martin, Executive Director, NFL Alumni Association
  Oral Testimony.................................................    77
  Prepared Statement.............................................    79
Mr. Merril Hoge, Retired NFL Player
  Oral Testimony.................................................    82
  Prepared Statement.............................................    84
Dr. Eleanor M. Perfetto, Ph.D., M.S., wife of Ralph Wenzel, 
  former NFL Player
  Oral Testimony.................................................   120
  Prepared Statement.............................................   122
Mr. Tiki Barber, Retired NFL Player
  Oral Testimony.................................................   126
Mr. Dick Benson, High School Football Safety Advocate
  Oral Testimony.................................................   127
  Prepared Statement.............................................   129
Mr. Christopher Nowinski, Co-Director, Center for the Study of 
  Traumatic Encephalopathy, Boston University School of Medicine
  Oral Testimony.................................................   133
  Prepared Statement.............................................   139
Dr. Ann C. McKee, M.D., Associate Professor, Neurology and 
  Pathology, Boston University School of Medicine
  Oral Testimony.................................................   153
  Prepared Statement.............................................   156
Dr. Joseph Maroon, M.D., Vice Chair, Department of Neurosurgery, 
  University of Pittsburgh
  Oral Testimony.................................................   196
  Prepared Statement.............................................   198
Dr. Julian Bailes, M.D., Chairman, Department of Neurosurgery, 
  West Virginia University School of Medicine
  Oral Testimony.................................................   211
  Prepared Statement.............................................   214
Dr. Joel Morgenlander, M.D., Professor of Neurology, Duke 
  University Medical Center
  Oral Testimony.................................................   219
  Prepared Statement.............................................   222

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Letter from the Institute for Social Research (ISR) to the New 
  York Times, submitted by the Honorable Lamar Smith, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Committee on the Judiciary.............................     4
Article from The New Yorker, submitted by the Honorable Tammy 
  Baldwin, a Representative in Congress from the State of 
  Wisconsin, and Member, Committee on the Judiciary..............     7
Letter from Roger Goodell, Commissioner, National Football 
  League, submitted by the Honorable Bill Pascrell, a 
  Representative in Congress from the State of New Jersey........    23
Phamphlet submitted by the Honorable Linda T. Sanchez, a 
  Representative in Congress from the State of California, and 
  Member, Committee on the Judiciary.............................   114
Information from the Sports Legacy Institute submitted by 
  Christopher Nowinski, Co-Director, Center for the Study of 
  Traumatic Encephalopathy, Boston University School of Medicine.   135
Paper entitled ``Building the Enlightened Warrior,'' submitted by 
  Dick Benson, High School Football Safety Advocate..............   145
Review Article entitled ``Chronic Traumatic Encelphalopathy in 
  Athletes: Progressive Tauopathy After Repetitive Head Injury,'' 
  submitted by Ann C. McKee, M.D., Associate Professor, Neurology 
  and Pathology, Boston University School of Medicine............   169
Article from The New York Times submitted by the Honorable John 
  Conyers, Jr., a Representative in Congress from the State of 
  Michigan, and Chairman, Committee on the Judiciary.............   241
Prepared Statement of Brent Boyd, disabled retired player, 
  concussion victim of the National Football League, submitted by 
  the Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................   244

                               (PART II)
                January 4, 2010<greek-l>second date deg.

                           OPENING STATEMENTS

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................   265
The Honorable Linda Sanchez, a Representative in Congress from 
  the State of California, Committee on the Judiciary............   271
The Honorable Steve Cohen, a Representative in Congress from the 
  State of Tennessee, Committee on the Judiciary.................   272

                               WITNESSES

Mr. DeMaurice Smith, Executive Director, NFL Players Association
  Oral Testimony.................................................   275
  Prepared Statement.............................................   277
Dr. Joseph C. Maroon, M.D., Professor and Vice-Chairman, 
  Department of Neurosurgery, University of Pittsburgh Medical 
  Center
  Oral Testimony.................................................   280
  Prepared Statement.............................................   282
Mr. David Klossner, Director, Health and Safety, NCAA
  Oral Testimony.................................................   285
  Prepared Statement.............................................   287
Mr. Bob Colgate, Assistant Director, National Federation of State 
  High School Associations
  Oral Testimony.................................................   295
  Prepared Statement.............................................   297
Mr. Scott Hallenbeck, Executive DIrector of USA Football
  Oral Testimony.................................................   304
  Prepared Statement.............................................   306
Mr. Lemuel Barney, Detroit Lions Hall of Fame Player
  Oral Testimony.................................................   321
  Prepared Statement.............................................   323
Mr. Bennet I. Omalu, M.D., Co-Director, Brain Injury Research 
  Institute, West Virginia University
  Oral Testimony.................................................   325
  Prepared Statement.............................................   327
Dr. Ira R. Casson, M.D., former Co-Chairman, NFL Mild Traumatic 
  Brain Injury Committee
  Oral Testimony.................................................   334
  Prepared Statement.............................................   336
Mr. Dan Arment, Assistant Director, National Federation of State 
  High School Associations
  Oral Testimony.................................................   347
Mr. P. David Halstead, Technical Director, Southern Impact 
  Research Center
  Oral Testimony.................................................   348
  Prepared Statement.............................................   351
Mr. Vincent R. Ferrara, Founder and CEO, Xenith, L.L.C.
  Oral Testimony.................................................   354
  Prepared Statement.............................................   356
Dr. Randall R. Benson, M.D., Assistant Professor of Neurology, 
  Wayne State University
  Oral Testimony.................................................   382
  Prepared Statement.............................................   388
Dr. Jeffrey Kutcher, M.D., Director, Michigan Neurosport
  Oral Testimony.................................................   399
  Prepared Statement.............................................   402
Mr. Christopher Nowinski, Co-Director for the Center for the 
  Study of Traumatic Encephalopathy, Boston University School of 
  Medicine, President and CEO, Sports Legacy Institute
  Oral Testimony.................................................   410
  Prepared Statement.............................................   413
Mr. Kyle Turley, retired NFL Player
  Oral Testimony.................................................   421
  Prepared Statement.............................................   427
Mr. Robert L. Schmidt, Chairman and Co-Founder, Vincent T. 
  Lombardi Foundation
  Oral Testimony.................................................   437
  Prepared Statement.............................................   440
Mr. George Martin, Executive Director, NFL Alumni Association
  Oral Testimony.................................................   451
  Prepared Statement.............................................   454
Mr. Luther Campbell, trainer of professional athletes
  Oral Testimony.................................................   457
  Prepared Statement.............................................   463
Mr. Bernie Parrish, retired NFL Player
  Oral Testimony.................................................   468
  Prepared Statement.............................................   472

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................   266

                                (PART I)
                October 28, 2009<greek-l>first date deg.
                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable James Moran, a Representative 
  in Congress from the State of Virginia.........................   481
Material submitted by the Honorable Steve King, a Representative 
  in Congress from the State of Iowa, and Member, Committee on 
  the Judiciary..................................................   482
Response to Questions submitted to Roger Goodell, Commissioner, 
  National Football League, by the Honorable Linda T. Sanchez, a 
  Representative in Congress from the State of California, and 
  Member, Committee on the Judiciary.............................   486
Follow-Up Material submitted by Roger Goodell, Commissioner, 
  National Football League.......................................   490
Post-Hearing Questions submitted to Roger Goodell, Commissioner, 
  National Football League.......................................   492
Letter from Roger Goodell, Commissioner, National Football 
  League, to the Honorable Steve King, a Representative in 
  Congress from the State of Iowa, and Member, Committee on the 
  Judiciary......................................................   493


                       LEGAL ISSUES RELATING TO 
                    FOOTBALL HEAD INJURIES (PART I)

                              ----------                              


                      WEDNESDAY, OCTOBER 28, 2009

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 10:02 a.m., in 
room 2141, Rayburn House Office Building, the Honorable John 
Conyers, Jr. (Chairman of the Committee) presiding.
    Present: Representatives Conyers, Scott, Watt, Jackson Lee, 
Waters, Delahunt, Cohen, Johnson, Quigley, Weiner, Sanchez, 
Wasserman Schultz, Smith, Coble, Goodlatte, Lungren, King, 
Jordan, Poe, and Rooney.
    Staff Present: (Majority) Eric Tamarkin, Counsel; Jason 
Everett, Counsel; Elizabeth Kendall, Counsel; Perry Apelbaum, 
Staff Director and Chief Counsel; Brandon Johns, Staff 
Assistant; Reuben Goetzl, Staff Assistant; (Minority) Daniel 
Flores, Counsel; and Sean McLaughlin, Chief of Staff and 
General Counsel.
    Mr. Conyers. Good morning. The meeting will come to order.
    Everyone that plays football at any level knows it is a 
dangerous sport. In fact, everyone that watches it knows it is 
a dangerous sport. There should be no surprise when a football 
player separates his shoulder, twists an ankle, busts a knee. 
But over the past several years, an increasing number of 
retired players have developed long-term memory and cognitive 
diseases such as dementia, Alzheimer's, depression, and chronic 
traumatic encephalopathy (CTE). And it comes much later than 
after their careers end. As a matter of fact, sometimes it is 
not even detected until the autopsies, after they are dead. 
These are not the types of risks most players or their families 
ordinarily associate with the game of football.
    As the National Football League is a monopoly by way of 
congressional sanction in 1970, whose existence was 
legislatively sanctioned, the causes and pervasiveness of these 
football injuries warrant Federal scrutiny. I say this not 
because of the impact of these injuries on the 2,000 current 
players and 10,000 retirees associated with the football league 
and their families, I say it because of the effect on the 
millions of players at the college, high school, and youth 
levels. My 13-year-old-son plays a game at 4:30 at Cranbrook 
today.
    The questions before us are several. How serious is the 
problem? What can be done about it? And where do we go from 
here?
    There appears to be growing evidence that playing football 
may be linked to long-term brain damage. For example, a 2003 
University of North Carolina study found that professional 
players who suffered multiple concussions were three times more 
likely to suffer clinical depression than the general 
population. A follow-up study in 2005 showed NFL players 
suffering concussions had five times the rate of cognitive 
impairment. And retired players were 37 percent more likely to 
suffer from Alzheimer's than the population as a whole. Earlier 
this year, the University of Michigan released a study that 
found that 6.1 percent of NFL players over 50 years of age 
reported they had received a dementia-related diagnosis--a 
statistic five times higher than the national average. Players 
age 30 through 49 showed a rate of 1.9 percent of dementia-
related diagnosis 19 times that of the national average.
    Last week, The New York Times prepared an analysis of the 
data from the NFL's plan to reimburse retired players for 
dementia-related medical expenses, which found similar data. 
Medical researchers also cite autopsies performed on numerous 
former NFL players, who following their death, were diagnosed 
to be suffering from CTE brain disease. And some of these 
deceased players: we remember Mike Webster, a 50-year-old, 
nine-time Pro Bowl center for the Pittsburgh Steelers who died 
regrettably a penniless recluse, sleeping on the floor of a 
Pittsburgh train station. Terry Long, 45-year-old ex-Steeler 
who died after drinking antifreeze. Andre Waters, a 44-year-old 
former safety with the Philadelphia Eagles, who suffered from 
chronic pain and depression and later shot himself in the 
mouth.
    Today Dr. McKee will testify that former Detroit lions 
offensive lineman Lou Creekmur was tormented by CTE so much 
that in his final years he lost the ability to speak, and 
frequently turned violent. Lou was a player who was not the 
victim of multiple concussions, and he reportedly never missed 
a game during his 10-year career.
    The National Football League is performing its own long-
term study, and has largely sought to discredit these reports 
or some of the conclusions drawn from some of these reports. 
The football league described the reports as flawed.
    Dr. Ira Casson, the co-chair of the NFL's Mild Traumatic 
Brain Injury Committee, denied the linkage on six separate 
occasions. When asked whether there was any linkage between 
playing football and CTE, Dr. Casson stated that it has never 
been scientifically, validly documented. The league said the 
recent University of Michigan study was flawed and that further 
study was necessary. The New York Times data released last 
week, was, they said, for self-promotional and lobbying 
purposes of the union. Given there is no consensus between the 
league and its players and the medical community about the 
causes of these cognitive disorders, it should come as no 
surprise there is little agreement about how to respond.
    Former players believe it is unconscionable that the 
current disability plans only permit a full disability award 
for conditions developed within 15 years of retirement. Such a 
limit, they argue, makes no sense for diseases that frequently 
take more than 15 years to manifest themselves.
    Player advocates also ask why there has not been more done 
to limit the likelihood of long-term brain injury. For example, 
giving the Players Association input in the selection of team 
doctors and trainers, granting players unlimited access to 
their medical records, requiring that all injuries be reported 
to the league and the Players Association, and limiting the 
frequency of full contact drills to cite some of the 
possibilities that exist.
    The NFL responds that it has set up a no-fault compensation 
scheme, paying ex-players with dementia up to $88,000 a year, 
and has instituted rule changes to limit serious injuries and 
develop standards for concussion management. However, when it 
comes to making further changes in its disability plan to 
account for long-term injuries, the NFL asserts that that is a 
subject for collective bargaining. Now, the answer to how to 
resolve these differences and where we go from here is the 
realization that we need an expeditious, independent review of 
the data.
    And so I am asking all parties and their personnel to make 
their records available to us to permit such review and 
analysis. The request goes to the NFL, NFLPA, relevant medical 
researchers, NCAA, and the National Federation of State High 
School Associations.
    Now, when it comes to public health issues, I do not 
believe it is adequate for the league or the Players 
Association to hide behind a collective bargaining agreement. 
Surely, an $8 billion a year industry can find it within its 
budget to make sure players are adequately protected and that 
any victims of long-term brain disease are fairly compensated. 
The serious issues presented in today's hearing are life and 
death issues. They go to the heart of our Nation's most popular 
sport. And equally importantly, they affect millions of players 
of all ages and their families.
    I would like now to invite our distinguished Ranking 
minority Member, Lamar Smith, for his opening remarks.
    Mr. Smith of Texas. Thank you, Mr. Chairman. Mr. Chairman, 
the recently released University of Michigan study of retired 
NFL players indicates that overall, retired professional 
football players are, in fact, in good health. The New York 
Times has suggested that the study also points to higher than 
normal rates of dementia or other memory-related problems among 
former players. But the study does not support that view. And 
prior studies have been argued to point both ways. While we 
need to take this issue seriously, we should not jump to any 
conclusions. As the lead author of the Michigan study has 
stated, ``The study did not conclude that football causes 
dementia.'' Highly publicized claims that the study supports a 
link between football and dementia stem largely from The New 
York Times misreporting on the content of the study. The 
study's authors have drawn this misreporting to The New York 
Times' attention.
    The authors stressed that they do not believe ``Any 
responsible scientist would conclude from the study that 
retired football players had higher rates of dementia than any 
other group,'' which was alleged by The New York Times. Mr. 
Chairman, I would like unanimous consent to put a letter to The 
New York Times from the study's authors----
    Mr. Conyers. Without objection, so ordered.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Smith of Texas [continuing]. Into the record. Thank 
you, Mr. Chairman. Mr. Chairman, the authors also underscore 
that ``The comparison study used for dementia dramatically 
understates the true rates of dementia in the American 
population.'' In other words, according to the authors 
themselves, the rates of dementia for retired NFL players ``are 
likely comparable to the American population in general.'' So 
we need to be careful about what conclusions regarding dementia 
and other memory problems we draw from the most recent look at 
retired players' health.
    Professional football is the most popular spectator sport 
in America. It is important that the league and its players 
take every effort to make pro football as safe as reasonably 
possible. The NFL should continue to study the potential long-
term effects of head injuries on player health. The league 
should also study whether equipment improvements or stricter 
rules enforcement could help to reduce any long-term impacts of 
head injuries. And, of course, college and high school 
officials should do the same. But Congress should not attempt 
to influence the upcoming collective bargaining process the NFL 
and its players union are about to undertake. We should also 
avoid the temptation to legislate in this area. Football, like 
soccer, rugby, and even basketball and baseball, involves 
contact that can produce injuries. We cannot legislate the 
elimination of injuries from the games without eliminating the 
games themselves.
    The retired players study concludes, ``The study finds 
retired players to be in very good stead overall. Their history 
of physical fitness shows up in lower rates of diabetes and 
cardiovascular disease. Playing in the NFL was a very positive 
experience for most retired players.'' Congress can highlight 
the potential long-term consequences of playing professional 
football through hearings like this one, but the NFL does not 
need Congress to referee this issue. While many of us would say 
that we are fans of football, Monday morning quarterbacking 
does not necessarily qualify us as experts. Both teams are at 
the table here today, or will be shortly, and we should work 
together to find a solution where both the players and the 
league win.
    Mr. Chairman, I look forward to the witnesses' testimony, 
and hope that this hearing will result in neither in 
exaggerating the problem of injuries, nor in downplaying the 
need to look for ways to reduce injuries. Mr. Chairman, thank 
you, and I will yield back.
    Mr. Conyers. Thank you very much, Mr. Smith. Did Jim Brown 
of Cleveland come in yet?
    Out of the natural generosity of my heart, I am going to 
allow three people to make 2-minute statements. Ms. Baldwin, 
Mr. Quigley, and Hank Johnson. If you agree to that, you will 
be recognized. So we will start off with Tammy Baldwin of 
Wisconsin.
    Ms. Baldwin. Thank you, Chairman Conyers. I want to thank 
you for holding this important hearing, as well as extend my 
thanks to our many witnesses who have taken the time to be with 
us this morning. I also want to acknowledge the presence of Mr. 
Willie Wood, a retired NFL player from the Green Bay Packers. 
As a proud Packer fan, I would like to boast for a moment or 
two about Mr. Wood. He made the All Pro team nine times in his 
12-year career, and played in both Super Bowl I in 1967 and 
Super Bowl II the following year. Thanks in no small part to 
Mr. Wood's impressive work as a starting free safety for the 
Packers, Green Bay won both of those inaugural Super Bowls. He 
finished his 12 NFL seasons with 48 interceptions, which he 
returned for 699 yards and two touchdowns. Mr. Wood was 
inducted into the Pro Football Hall of Fame in 1989.
    Mr. Chairman, I know that Wisconsinites and Packer fans 
across the country are grateful to Mr. Wood for an incredible 
career. While we all know what an outstanding player he was 
during his seasons with the NFL, I think there is less 
awareness or understanding of the hardships that players like 
Mr. Wood endure later in life because of a lack of health care 
coverage. Mr. Wood is currently living in an assisted care 
facility, and his NFL pension of a little over $1,100 per month 
is not enough to pay all of his bills. Although he is the 
beneficiary of what is known as the 88 Plan, these funds are 
often not enough to cover his monthly medical care. So Mr. Wood 
relies on the charity of others.
    These situations are unfortunately not uncommon among 
former NFL players suffering from disabilities, and even 
dementia. We have lots of questions, and that is why we are 
having this hearing today. I look forward to learning more 
about the issue from our expert witnesses. Mr. Chairman, I do 
ask unanimous consent to submit for the record an article 
called Offensive Play that appeared in The New Yorker.
    Mr. Conyers. We will be happy to introduce that into the 
record.
    Ms. Baldwin. Thank you.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Conyers. Dan Lungren, California.
    Mr. Lungren. Thank you very much, Mr. Chairman. I just make 
several points. Number one, I appreciate this hearing, although 
I am surprised that this hearing takes precedence over us 
reconsidering the major elements of the PATRIOT Act which have 
to be determined in our effort on the war on terror before they 
expire. Secondly, I must say that I had the good fortune of 
getting to know John Mackey through Jack Kemp, and have seen 
the deterioration of that great man, a leader in the NFL and 
the players union, and believe that an investigation of the 
kind of injuries suffered in the NFL and other levels of 
football is appropriate.
    And third, I hope that beyond everything we are dealing 
with here, that the greatest thing that can come out of this is 
serious studies as to the impact of the use of equipment, the 
head as a weapon in football, and the rules to protect players 
that will not only affect the NFL, college, but high school as 
well. Too often I hear on television commentators talking about 
the great hit. And you examine the hit, and it is often a hit 
used with the head or not an enforced rule against head hits, 
both on the pro, the college, and the high school level. And if 
there is any one thing we could do, it would be to show that it 
is not a game to destroy people's brains with respect to the 
misuse of helmets and the misuse of the head during football.
    I love football, I grew up loving football, I happened to 
go to Notre Dame, I know a good number of guys who played in 
the NFL, but we ought to face facts. Football is a great game, 
but using the head in the way it has developed, with the 
protection of the helmet, people don't understand you don't 
have to worry about breaking teeth any more and breaking jaws, 
but because we have that comfort, too often the helmet encasing 
the head allows players to believe they are invulnerable 
because we can't see the injury.
    The injury is impactful, the injury is long lasting, and we 
ought to at least get as much information as we can so we can 
be honest about the decisions we make. Thank you very much, Mr. 
Chairman.
    Mr. Conyers. Thank you, Mr. Lungren. Mike Quigley of 
Illinois.
    Mr. Quigley. Thank you, Mr. Chairman. Well then, let me try 
to focus this on a broader scale. If our concern is that 
perhaps we should be dealing with the PATRIOT Act or other 
matters of perhaps greater importance, let me try to put it on 
a broader scale.
    The NFL is the role model for high school players. It is 
important to understand the extent of the risk these athletes 
take when they step on the field each week. And it is natural 
to center our attention on the professionals who fill our 
Sunday afternoons. But I think it is absolutely critical that 
in addition to focusing on the athletes who play in front of 
season ticket holders, that we remember the ones who play in 
front of their family, friends and peers on Friday nights.
    The norms of the NFL, for better or worse, become the norms 
of high school football players. While contact and collision 
are inherent to the game, so too is a certain code that comes 
to the game that you go back to the huddle no matter how badly 
you are hurt, that you play no matter how badly you are hurt, 
that full contact drills all the time are okay, that you don't 
need water in a sufficient basis when you prepare. So what I 
guess I am getting to here is whatever we address and deal with 
the NFL goes beyond the concerns that we have with NFL players. 
It goes to those young people who play on Friday nights 
throughout our country. And while we can't do everything to 
change the dangerous nature of the game, we want to ensure that 
the NFL is doing everything in its power not only to provide 
for the well-being of its players, but to set the right example 
for the millions of high school football players who follow 
their lead. Very, very few of them will become NFL players. But 
they still can be hurt and still can have long-lasting injuries 
as a result of their play and what they follow on Sunday 
afternoons. So I hope that one of the benefits of today's 
discussion is that it serves as a launching point to broaden 
the discussion on the precautions that can be taken to increase 
player safety at all levels. Thank you.
    Mr. Conyers. Thank you. Darrell Issa of California.
    Mr. Issa. Thank you, Mr. Chairman. And as a Member both of 
this Committee and the committee on steroids next door, I want 
to thank you for taking up this issue. I believe that when 
Government Oversight and Reform began looking at steroids with 
a bent toward a union negotiation that had failed, I believe 
that we didn't realize at that time that we could be as 
successful as we were in getting professional baseball to get 
steroids out, to have testing, and for that to fall down into 
college and high school ball, where today I believe that we 
have done a better job of eliminating that on our young 
athletes.
    I believe that at its best, that is what we are going to do 
here. We are going to cause the ongoing union negotiations to 
focus on prevention, on dealing with changes in officiating, 
and we are obviously going to see behind closed doors the NFL 
deal with the question of how much do you pay up front and how 
much do you hold back for the long-term care of athletes. I 
believe that it is appropriate that we not judge those 
negotiations, because ultimately there is only so many dollars, 
and those dollars have to be allocated by a form of negotiation 
in which we are not participants. But when it comes to changes 
in the tolerance at professional and collegiate level of, if 
you will, head butting and other techniques that are growing 
and growing in their use, and as a result, leading to 
unnecessary head injuries, I think your leadership will be long 
appreciated for the fact that if we make it an issue here in 
Congress, it becomes an issue at the bargaining table. It 
ultimately will make a difference in the next USC-Notre Dame 
game, which means a lot to my colleague, and I am sure to all 
of us. I thank you and yield back.
    Mr. Conyers. Thank you very much, Mr. Issa. The last one on 
our side is Hank Johnson. Last one on the other side is Bob 
Goodlatte. Hank Johnson of Atlanta, Georgia.
    Mr. Johnson. Thank you, Mr. Chairman, for holding this 
important hearing. I am glad this Committee is taking the 
opportunity to look at how football head injuries have the 
potential to affect one's quality of life. Today we will hear 
testimony from several witnesses who will discuss the necessity 
of independent research as well as the importance of 
incorporating any findings linking concussions and cognitive 
damage into preventive practices. Failing to have research that 
is independent could easily mislead the public into 
underestimating the serious impact of football head injuries.
    In the long run, the old mantra of perseverance has the 
dangerous trickle-down effect of influencing over a million 
children who play high school football and the thousands who 
are injured every year. ``Walking off the pain,'' as it is 
called, in an NFL game turns into ``walking it off'' in a 
Little League game, as young children are, often encouraged by 
parents and coaches, attempt to imitate what they view as the 
noble behavior of their football heroes and gladiators. This 
behavior is clearly dangerous. And a refusal to recognize and 
respond to this danger is reckless and irresponsible.
    Not only are the direct impacts of these head injuries 
dangerous, the trickle-down effects on high school and college 
players are very real and can be fatal, as we will hear today. 
I look forward to hearing the witnesses' testimony on this very 
important and urgent necessity to conduct an independent study 
on the cognitive impact of football head injuries and the legal 
ramifications of this brain damage. I thank the Chairman again 
for allowing me to make an opening and yield back the balance 
of my time.
    Mr. Conyers. Thank you, Mr. Johnson. A senior Member of the 
Judiciary Committee from Virginia, Bob Goodlatte.
    Mr. Goodlatte. Mr. Chairman, thank you for holding this 
hearing. I want to take the opportunity to welcome Tiki Barber, 
a great star of the New York Giants, now retired, who hails 
from my hometown of Roanoke, Virginia, and who will be 
testifying on the second panel, I believe, and can share a lot 
with us. He and his brother Ronde not only were great stars in 
the NFL, but also at the University of Virginia, and prior to 
that in the City of Roanoke in football played there, in high 
school.
    So they can share this perspective with us at each level of 
competition. I also want to note the great work that he has 
done in promoting football and recreation and athletics in 
general. He and his brother have sponsored camps and other 
activities, and I have seen firsthand their great passion for 
our young people.
    I also want to associate myself with the remarks of the 
gentleman from California and as well the Ranking Member. I 
share the concern about some of the practices that take place 
in football, and I think this is a great opportunity for us to 
learn more and to shine a spotlight on this issue. But I also 
associate myself with the remarks of Mr. Smith in saying that 
while we do want to pay close attention to what is going on 
here, I do not think the Congress should inject itself into the 
negotiations between the NFL and its players. Nor do I think 
that, as some have proposed here in the Congress, the Congress 
should engage in legislation that would allow or prohibit 
certain types of plays from taking place in high school or 
college or major league athletics.
    Quite frankly, that is something that should be left to 
other people who are in better places and better positions 
around the country to make those decisions. And we here, the 
amateur quarterbacks on the House Judiciary Committee, should 
not take up that kind of micromanagement of American athletics. 
So I thank you, Mr. Chairman, for having this hearing today and 
allowing us to learn more about this issue.
    Mr. Conyers. Of course, we would never do anything like 
that. We have a distinguished Member of Congress, the founder 
and chair of the Congressional Brain Injury Task Force, Bill 
Pascrell. He has been at all our hearings. He sometimes thinks 
he is a Member of the Judiciary Committee. And we would like 
him to begin this discussion today. We welcome you back again 
to the Committee, Mr. Pascrell. All other Members that have an 
opening statement, we will take it into the record. And we 
welcome you again before us.

 TESTIMONY OF THE HONORABLE BILL PASCRELL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pascrell. Thank you, Chairman Conyers and Ranking 
Member Smith, Members of the Committee, for having me here to 
speak on a very important topic of brain injury. It has become 
part of my life, literally.
    Mr. Chairman, you have done a great job in bringing 
together a wide array of experts to discuss what can be a 
difficult and very controversial topic. These wounds may be 
invisible, but the consequences are very real. You have taken a 
stand to ensure that these consequences are addressed. As 
cofounder and co-chair of the Congressional Brain Injury Task 
Force, which is comprised of over 130 Congressional Members 
from both sides of the aisle, since its founding in 2001, it 
has been the task force mission to expand the understanding and 
public awareness of brain injury. Mr. Chairman, Mr. Ranking 
Member, educating members and the general population has been 
the most difficult effort of this task force. In recent years, 
the task force has taken a greater focus on brain injuries that 
have become the signature injury of the Iraq and Afghanistan 
war.
    It is estimated that as many as 20 percent of soldiers 
returning from Iraq and Afghanistan have sustained a brain 
injury. The brain injuries of our soldiers have spurred 
Congress to make unprecedented investments in brain injury 
research, research that will benefit soldiers and civilians 
alike for years to come. And we have done this in a bipartisan 
fashion. The same way that we have gained greater understanding 
in research from the brain injuries from our soldiers, we 
should also take this opportunity to learn from the injuries of 
professional athletes.
    In recent months, the task force has placed considerable 
attention on the issue of so-called mild brain injuries, 
specifically on concussions, which affect everyone from our 
soldiers in the battlefield to our children who play on various 
sports fields. In fact, the task force held a panel discussion 
that featured two of your witnesses today, Dr. Tucker, who is 
the team physician of the Baltimore Ravens, Mr. Nowinski, who 
is director for the Center for the Study of Traumatic 
Encephalopathy. These discussions and the growing number of 
studies, like the one commissioned by the National Football 
League, open our eyes to the implications of head injuries. 
Unfortunately, these consequences hit close to home. On October 
the 16th, 2008, Ryne Dougherty, a 16-year-old from Montclair, 
New Jersey, tragically died from a brain hemorrhage after 
returning to play football without fully recovering from a 
concussion sustained earlier in the season. I hope you 
understand what I am laying before this Committee.
    In the later panel, you will hear the story of the untimely 
death of another young athlete, Will Benson. Please listen 
carefully so that we can work together and do something about 
preventing these things from happening. These stories are not 
unique to these young men. According to the Centers for Disease 
Control and Prevention, as many as 3.8 million concussions 
related to sports and recreation are estimated to occur each 
year. After sustaining one concussion, an athlete becomes as 
much as four to six times more likely to sustain a second 
concussion. I also want to point out that recent studies show 
that girls may be at higher risk for concussions and face 
longer recovery times. Clearly, this is a problem that can 
impact all children.
    In fact, Mr. Chairman, it is startling to see the numbers 
within a sport that we usually don't associate with problems of 
brain injury, soccer. And I have never seen a soccer game with 
anybody wearing any kind of protective head gear. I want to 
point out that recent studies show that girls may be at higher 
risk. I repeat that because study after study shows this. This 
is not something that is picked off a shelf. These are 
scientific studies. A recent study from the Center for Injury 
Research and Policy at Nationwide Children's Hospital in 
Columbus, Ohio, also found that as many as 41 percent of 
concussed high school athletes may be returning to play too 
soon.
    And I would suspect that when we look into this further, 
when the NFL does its studies, that that will be the 
centerpiece of whatever we are going to do in the future. Many 
colleges and professional athletic associations, including the 
NFL, have all adopted guidelines for the management of 
concussions.
    However, much of this information has not made its way to 
our local middle schools or high schools. I think that is 
imperative. This is serious business when you see how many of 
these concussions are taking place and how many children are in 
jeopardy of losing their lives. In response to the growing 
problem, last November I introduced the Concussion Treatment 
and Care Tools Act, better known as the ConTACT Act, with Todd 
Platts, who is the leading Republican in the task force. He is 
co-chair with me. Early in 2010, we expect that this bill will 
be heard. The ConTACT Act is designed to provide our schools 
and coaches with the tools they need to ensure that student 
athletes receive the proper care for concussions regardless of 
the sport that they play. Because varied and conflicting 
concussion management guidelines have caused confusion, the 
ConTACT Act provides for the establishment of a consensus set 
of guidelines that work for schools by bringing together a wide 
range of experts.
    This bill also incentivizes the adoption of guidelines by 
schools to ensure that student athletes receive the proper care 
and are given adequate time to recuperate before they are 
returned to play. Need I say that it doesn't matter how young 
or how old you are, or what sport you play, or whether you play 
professional football, this should be a guiding principle of 
our research. In 2006, I worked with the Brain Injury 
Association of New Jersey to provide grants to New Jersey 
schools for the purchase of these technologies that are 
available. The ConTACT Act provides funds for the adoption of 
these technologies in our Nation's middle and high schools. If 
we are seeking the kinds of tangible long-term consequences of 
brain injuries as revealed by recent studies of NFL players, 
you have state of the art equipment and access to the best care 
available, then we have to consider what this means for our 
young athletes. Because damage to a maturing brain can be 
catastrophic, it is even more important to ensure that we 
understand these consequences and that the proper care is 
provided to young athletes. I am happy to report this morning, 
and I just received it, that both the National Football League 
and the National Football League Players Association have 
endorsed the ConTACT Act. The letter is before me if anyone 
cares to read it.
    Mr. Conyers. We will accept it into the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Pascrell. Thank you, Mr. Chairman. If we are 
encouraging young people, I will be closing, to be healthy 
athletes who embrace ideas like teamwork and doing their best, 
then this Congress must do everything it can to protect them as 
they participate in sports. That is what we call fair play. It 
is my hope that this hearing will generate a national 
conversation, spur innovation in equipment, lead to action 
regarding brain injury and the implications that these findings 
have for athletes of all ages, male and female in all sports. I 
thank you again, Mr. Chairman and Mr. Ranking Member, for 
holding this important hearing, and I would gladly answer any 
questions if there are any.
    Mr. Conyers. There are plenty, but we are not going to go 
into it today. But we do welcome your coming with us again and 
the work that you and your caucus is doing in this regard. So 
we thank you so much, Bill Pascrell----
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Conyers [continuing]. For kicking us off.
    [The prepared statement of Mr. Pascrell follows:]

        Prepared Statement of the Honorable Bill Pascrell, Jr., 
       a Representative in Congress from the State of New Jersey

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. The first panel consists of Merrill Hoge, 
George Martin, Dr. David Weir, Dr. Robert Cantu, Dr. Andrew 
Tucker, Dr. Gay Culverhouse, Mr. DeMaurice Smith, and the 
Commissioner of the National Football League, Roger Goodell.
    We welcome you all, urge you to take your seats. The 
current Commissioner of the National Football League is also 
the son of Senator Charles Goodell, who was both a Member of 
Congress and a United States Senator. Roger Goodell played 
football himself in college, and he has been with the National 
Football League for many years. We appreciate his good work, 
his cooperative spirit that he brings to these hearings. And we 
will accept all of your written testimony into the record and 
invite you--we welcome you all and invite you, Mr. Goodell, 
Commissioner, to begin our discussion.

           TESTIMONY OF ROGER GOODELL, COMMISSIONER, 
                    NATIONAL FOOTBALL LEAGUE

    Mr. Goodell. Thank you, Mr. Chairman. Ranking Member Smith, 
Members of the Committee, I submitted a full statement and 
would ask it be included in your record. Since becoming 
Commissioner of the National Football League a little more than 
3 years, I can think of no issue to which I have devoted more 
time and attention than the well-being of NFL players, and 
particularly our retired players. I want to review what we have 
done in the past 3 years and make clear that we are not 
finished. Our initiatives generally for retired players include 
the following: Since I became Commissioner, we have made a wide 
range of improvements in both the benefits and the 
administration of the disability plan. We have doubled the 
minimum benefit and lengthened the time within which players 
can apply for benefits. We have retained a new independent 
medical director. We have reduced red tape. We have simplified 
the process for applicants and their families and sped 
disability determinations. Each of these changes was made at 
our initiative. As we proceed with the current round of 
collective bargaining, we look forward to making further 
improvements in this plan. Apart from the disability plan in 
2006, we created the 88 Plan, which provides up to 88,000 per 
year for any former player and his family who has dementia or 
Alzheimer's. Those players do not need to show that their 
condition is related to football. We have developed and funded 
new medical benefits for retirees, including programs for joint 
replacement surgery, cardiovascular and prostate cancer 
screening, spinal care, assisted living arrangements, and a 
discount card for prescription drugs. Retirees are eligible for 
these benefits at no cost to themselves. In each successive 
collective bargaining agreement since 1993, we have increased 
pension benefits and done so retroactively. We want that to 
continue.
    And as we negotiate with the NFLPA for a new agreement, the 
clubs have again identified retired player pensions as a 
specific priority, and look forward to discussing our proposals 
with the union. Through these and other benefits, retired 
players will receive more than $100 million in 2009. And I have 
committed to our retirees, and I will repeat that commitment 
today, that we will not reduce or eliminate funding for these 
benefits based on the status of our collective bargaining 
agreement, and we will continue to accept new applications for 
disability or 88 Plan benefits.
    We have also tried to understand the needs of our retirees 
and their families. I have met with hundreds of them across the 
country. We have commissioned the University of Michigan phone 
survey that Dr. Weir will discuss. We learned a good deal from 
the report, and are actively following up with the 56 players 
who report memory problems. I know that a specific matter of 
interest is concussions and their effects. We know that 
concussions are a serious matter, and that they will require 
special attention and treatment. And in this area, I have been 
clear. Medical considerations must always come first.
    Decisions regarding treatment of players with concussions 
and when they can resume play must be made by doctors and 
doctors alone. We are changing the culture of our game for the 
better. Again, it is important to look at what we have done. In 
addition to research that has led to better equipment, we have 
made numerous rule changes to sharply limit the kinds of hits 
that lead to concussions. We have also emphasized proper care 
and education. Prior to 2007, we took a number of steps, with 
the active participation of the NFLPA and its medical director.
    We held an open medical conference on concussions. Many of 
the doctors here today participated and shared their findings. 
We developed new educational materials for players and their 
families, and the doctors developed new guidelines for 
management of concussions that have reinforced a clear trend 
toward increasingly conservative care. The NFLPA and I jointly 
communicated these initiatives to all players, owners, head 
coaches, doctors, and trainers, and they were of course widely 
publicized. So we welcome the union's interest in this subject 
and look forward to continued collaboration. Just 2 weeks ago I 
met with Dr. Cantu in Boston. Based on that discussion, I have 
asked John Madden, who is now a special adviser to me, to work 
with a group of coaches to identify new practice techniques, or 
practice techniques that have been used in the past, that could 
reduce the risk of head trauma outside of the games themselves.
    We must continue to learn from and base our decisions on 
science, but we cannot stand by while research continues. So we 
will continue to have a singular focus on player safety and do 
all we can through equipment changes, rules, education, and 
medical care to make the game as safe as possible. We will also 
support all manner of ongoing research. One other outcome of my 
discussion with Dr. Cantu is I expect shortly to be able to 
announce the NFL support for ongoing research into CTE. We 
recognize that our example extends to young athletes who play 
football. Accordingly, through USAFootball we have distributed 
material on concussions developed by HHS and the CDC to 9,000 
youth programs across the country. And the USAFootball Web 
site, visited by as many as 200,000 people each month, contains 
a wealth of information on concussions and other health and 
safety issues. We will continue to do more to disseminate 
information and to emphasize safe and fair play.
    In conclusion, Mr. Chairman, our goal will continue to be 
to make our game as safe as possible for those who love to play 
it, and to give our retirees the support and respect they 
deserve. Thank you.
    Mr. Conyers. Thank you very much, Mr. Commissioner.
    [The prepared statement of Mr. Goodell follows:]

                  Prepared Statement of Roger Goodell

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Conyers. Our next witness is Attorney DeMaurice Smith, 
who did his thing in varsity track and field, went on to law 
school, University of Virginia Law School, worked in the U.S. 
Attorney's office, served under Eric Holder when he was a 
Deputy Attorney General, as a trial lawyer, was President of 
the Assistant United States Attorneys Association, and has 
received many awards. And we welcome you. We have your 
statement. And we encourage you to expound on it in the time 
that you have.

 TESTIMONY OF DeMAURICE SMITH, EXECUTIVE DIRECTOR, NFL PLAYERS 
                          ASSOCIATION

    Mr. Smith. Yes, sir. Good morning, Mr. Chairman, Ranking 
Member Smith, Members of Congress, Congresswoman Sanchez, and 
others. Thank you very much for the opportunity to testify this 
morning. I would also like to take the time to welcome and 
thank Ms. Sylvia Mackey, wife of John Mackey, as well as Mr. 
Wood. Other former players are also in attendance. Mr. Brent 
Boyd and I welcome each and every one of them, and thank them 
for their attendance today. As executive director, my number 
one priority is to protect those who play and have played this 
game. There is no interest greater than their health and their 
safety. Let me say this again. The safety of our players is 
paramount. Mr. Chairman, you and this Committee deserve immense 
credit and appreciation for consistently bringing this issue of 
concussions, brain trauma, health and safety in the sport of 
football to the forefront. This Committee and this hearing will 
be a turning point on this issue. My hope is that this day will 
serve as a marker denoting the day that we are committing 
ourselves to finding the right answer. It will influence not 
only this game at the professional level, but the one that so 
many of us love for our players in college, high school, and in 
youth football.
    I have one simple declaration on behalf of those who play 
and those who played this game. We are committed to getting the 
right answers, to work with everyone who has the goal of 
protecting our players, and to serve as a model for football at 
every level. Given that commitment, I acknowledge that the 
players union in the past has not done its best. We will do 
better. To men like John Mackey, to men like Brent Boyd, to men 
like Mr. Wood, and to families of Mr. Mike Webster and to Andre 
Waters, and to those organizations like the Gridiron Greats 
that stand with us, I commit and we commit this as our primary 
mission. We will not fail them. I will not fail them. Both 
myself and the current retired players of the National Football 
League are committed to getting this answer right. I was 
elected by the board of player reps in March of this year. 
Since that time, we have taken the following steps to address 
this issue. In May of 2009, we created the NFL Players 
Concussion and Traumatic Brain Injury Committee to address two 
critical issues, the diagnosis, treatment, and prevention of 
concussions and TBI in active players, and second, the long-
term cumulative effects of TBI in NFL players as patients, to 
analyze and study this issue of NFL players as patients, and 
how these effects can be reduced or eliminated.
    This Committee, funded by the players, will act as a 
superconductor of current and future studies, and is charged 
with one overarching goal, to get the answer right. Two weeks 
ago I met with all of the chapter presidents and steering 
committee members who represent the retired players of the 
National Football League. This 40-person Congress of former 
players that represent and make up the NFL Retired Players 
Association is an organization with over 25 years of history. 
At that meeting, they all embraced the creation of this 
committee and joined our call to have the National Football 
League release all aggregate medical information that has been 
collected over the years to benefit both current and retired 
players.
    Third, several players have dedicated their bodies to 
medical science in the effort to provide researchers with the 
best information to aid those who will play this game in the 
future. This body of retired players also had several players 
who are willing to do the same thing. Not only to help the 
players who are playing this game today, but as they have done 
in the past, to stand up for the people who will play this game 
tomorrow. Because they know that it will be their sons, it will 
be their daughters who are playing sports that will benefit 
from this research. For the first time ever, the Players 
Association medical director, Dr. Thom Mayer, is present at 
every meeting, including collective bargaining meetings that 
deal with player health and safety. He will chair the Players 
Traumatic Brain Injury Committee.
    Finally, Mr. Chairman, to everyone here, to the retired 
players, to those who are watching us across the country, the 
players of the National Football League will not bargain for 
medical care. We will not bargain for health and safety. We 
will not bargain for basic provisions of the law as patients. 
We will continue to work with the league, but medical care is 
not and will never be just a collective bargaining issue. While 
all players understand that professional football is a violent 
game, we must do our best to keep them informed of the game's 
potential consequences. Yes, it is true that professional 
football players are the best, most well conditioned athletes 
in the world, but even those blessed with tremendous athletic 
gifts are vulnerable to severe injuries. We must know and 
embrace all of the medical data to prevent, treat, and manage 
the long-lasting effects of these injuries. Mr. Chairman, I 
welcome any questions, am prepared to submit any other 
information that you may request, and am happy to be here 
today.
    [The prepared statement of Mr. Smith follows:]

                 Prepared Statement of DeMaurice Smith

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thank you, Attorney Smith.
    Our next witness is the daughter of the late Hugh 
Culverhouse, the first owner of the Tampa Bay Buccaneers, Dr. 
Gay Culverhouse. She has an MA and a doctorate in education 
from Teachers College, Columbia University.
    While her father was owner of the Buccaneers, she served in 
administrative roles within the team and eventually became its 
president. She is in the process of concluding her work on a 
book entitled, Violence: The Underbelly of the National 
Football League, which was prompted by learning about the 
deteriorating health of her former players who suffered from 
concussions.
    She has received many other degrees and honors, and I am 
very happy to have her before us here today.
    Welcome.

             TESTIMONY OF GAY CULVERHOUSE, Ed.D., 
             FORMER PRESIDENT, TAMPA BAY BUCCANEERS

    Ms. Culverhouse. Thank you us, Mr. Chairman, and thank you, 
Committee, for giving me the opportunity to address you today. 
It is a great honor for us.
    Mr. Conyers. Pull it closer.
    Ms. Culverhouse. I will just yell.
    In 1974, my father was awarded the expansion team in Tampa, 
Florida. And, from that point on, I have been intimately 
involved in football. Prior to that, I did go to the University 
of Florida. The years I was there, Steve Spurrier was the 
Heisman Trophy Award winner.
    Yes, I am a grandmother of six children, and I feel like 
these people's grandmother here because I have been involved in 
football for so long.
    The one thing that I would like to bring to your attention 
that I think that I can have a unique perspective on is--Mr. 
Goodell spoke to the medical aspects and having the doctors 
make these decisions.
    One of the things you, as a Committee, need to understand 
very clearly is the fact that the team doctor is hired by the 
coach and paid by the front office. This team doctor is not a 
medical advocate for the players. This team doctor's role is to 
get that player back on the field, even if that means injecting 
the player on the field.
    I have seen a wall of players surround a player, a 
particular player, and seen his knees injected, seen his hip 
injected between plays and him back on the field. This is 
inexcusable. And I want you to understand the role that the 
medical community has in facilitating these concussions.
    The players get to a point where they refuse to tell the 
team doctor that they have suffered a concussion, as well. They 
do not self-report because they know there is a backup player 
sitting on the bench ready to take their position. Most of 
their contracts are back-end loaded with performance bonuses. 
They need those extra yards and those interceptions in order to 
make their salaries.
    The team doctor goes to the combine, where he goes over the 
medical records and helps the team coach choose the incoming 
players for the next season. He is involved in the draft 
process because he evaluates how severe that knee injury was in 
college, or that concussion. He is part of the selection 
process. So he has a very vested interest in that player's 
success on the field.
    The team doctor dresses as a coach on the sidelines, and he 
acts in many ways as a coach on the sidelines. He is not an 
independent advocate for the player. If a player chooses 
independent medical counsel, he is considered to be not a team 
player. He becomes a pariah to the team. We have to stop that.
    We also need to have at every game an independent 
neurologist or neurosurgeon on the sidelines who takes care of 
either side in the game, who is not prejudiced, who is 
independent, who can make an independent judgment if he sees a 
player in a huddle throwing up.
    Something needs to be done about this medical care. You 
cannot leave it in the hands of the team physician to make 
these decisions. And the players are at the point now where 
they will not self-report because they need the money. They are 
a disposable commodity. There is a draft coming up every April, 
and these players fight to hold on to their jobs. And they 
welcome shots and anything else that will keep them on the 
field. This is, in my idea, inhumane.
    And I have watched it since the early 1970's, and I will 
tell you that it has not changed. Do not be fooled that, since 
I left the game in 1994, that this game has changed. You can 
see the discussions on whether Tim Tebow of the University of 
Florida should play against LSU. My grandson is 9 years old. 
Tim Tebow is his idol. You better believe my grandson is going 
rush back out there and play. We need an independent doctor on 
the sidelines to tell my grandson ``no.''
    I appreciate the opportunity to address you. Thank you.
    [The prepared statement of Ms. Culverhouse follows:]

                 Prepared Statement of Gay Culverhouse

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Conyers. Thank you very much, Dr. Culverhouse.
    Dr. Andrew Tucker, medical director of the Union Memorial 
Sports Medicine Program in Baltimore; fifteen years' experience 
providing primary medical care to professional, collegiate, 
scholastic, and recreational athletes; head team physician for 
the Baltimore Ravens, and serves on a number of advisory 
committees focused on performance-enhancing agents, mild 
traumatic brain injury, and cardiovascular health. And, as I 
understand it, is currently the president of the National 
Football League Physicians Society.
    He has written chapters on various subjects, sport health 
topics, including concussions. And I will put the rest of his 
resume, which is pretty long, into the record, as I will with 
all of the other panelists.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Conyers. Dr. Tucker, we are very pleased that you could 
be with us today.

TESTIMONY OF ANDREW M. TUCKER, M.D., MEMBER, NFL MILD TRAUMATIC 
  BRAIN INJURY COMMITTEE AND TEAM PHYSICIAN, BALTIMORE RAVENS

    Dr. Tucker. Thank you, Mr. Chairman.
    I will correct one piece of information. I am past 
president of the NFL Physicians Society, immediate past 
president.
    I have been a team physician in the NFL since 1991 and a 
member of the NFL Committee on Mild Traumatic Brain Injury 
since its inception in 1994. From both perspectives, I have 
seen positive changes both in the science and in the culture 
related to the injury of concussion in the NFL and would like 
to summarize these for you now.
    First, from the perspective of the concussion committee 
member. In 1994, when Commissioner Paul Tagliabue requested 
that a committee be formed to determine what was known about 
concussions in sports and to study every facet of the injury as 
it related to the game of football, it revealed a stark 
reality: We did not have much scientific data on sports-related 
concussions.
    Evaluation and treatment guidelines were well-intentioned 
but not based on solid science. Major helmet manufacturers told 
us that their products had not changed substantially in many 
years. Their products were adequately protecting players from 
catastrophic brain injuries, but there was no stimulus for 
innovation to decrease the risk of concussion.
    The first several years of the committee activity 
concentrated on understanding the very basic epidemiology, the 
who, what, why, where, when of the injury. And that study 
continues even today.
    In parallel work, the committee enlisted the help of highly 
respected biomechanical people from academic communities in the 
United States and Canada to study concussions in professional 
football in new and creative ways.
    Game videotape of actual concussive injury on the field of 
play was studied and analyzed. Researchers were able to 
recreate laboratory reconstructions of collisions of helmeted 
test dummies that accurately represented what was happening to 
players on the field. In effect, this had never been done 
before.
    Research breakthroughs resulted in many tangible benefits, 
which are listed in your statement, and I will just highlight a 
few.
    Number one, helmet design. The information that we shared 
with helmet manufacturers was a critical stimulus to the first 
substantive changes in helmet design in many years and provides 
us with some optimism that the risk for concussion in players 
at all levels--not elimination, but the risk of concussion in 
players of all ages might decrease with these improved designs.
    Secondly, helmet testing. Because we have a valid 
laboratory protocol for recreating the conditions that result 
in concussion on the field, this laboratory set-up can be used 
to evaluate the new products that I just spoke about.
    Thirdly, the interaction with NOCSAE, also part of helmet 
testing. NOCSAE, as you may know, is the committee that 
establishes safety standards for sports equipment, including 
helmets, the same helmets that our players wear, the same 
helmets that our children wear. The biomechanical research 
allowed us to understand that the speeds and forces associated 
with injury and concussion in the NFL were quite a lot 
different from what they were using to test helmets. Thus, our 
open dialogue with NOCSAE has resulted in modifications in how 
helmets are tested for efficacy.
    And as the commissioner reminded us, number four: rules 
changes. A greater understanding of how concussions occur on 
the field has been shared with the National Football League and 
provides the Competition Committee with valuable, objective 
information to make rule changes to protect players and make 
the game safer.
    I would like to also take a couple of moments to talk about 
neuropsychological testing and, also, the study of retired 
players.
    Neuropsychological testing has been utilized in the study 
of neurological patients for over half a century. Our 
colleagues in Pittsburgh and other academic centers were 
leaders in developing neuropsych testing for the evaluation of 
brain injury in athletes in the early 1990's. The test has 
evolved into a valid and reliable evaluation and management 
tool for sports-related concussion.
    Our committee was instrumental in supporting the use of 
this technology across all NFL teams in the mid to late 1990's. 
Today, its use is mandated for all NFL clubs. The committee's 
support of this tool was also instrumental in promoting the use 
of the evaluation and treatment of athletes at all levels of 
competition.
    Retired players: The study of retired players remains 
probably the most concentrated focus of our committee's 
activities today. While other researchers have published 
findings from survey and questionnaire data that suggest that 
recurrent concussions may increase the risk for chronic changes 
in brain function in retired players, our committee has noted 
this, we regard it as valuable, we regard it as concerning, and 
we regard it as not yet definitive. These are due to 
limitations in research methods, which will be spoken about.
    The committee is supervising a study of retired players 
that involves comprehensive neurological testing and imaging 
with a control group of men who have played college football in 
order to more definitely ascertain whether playing professional 
football is associated with increased risk of brain dysfunction 
in the retired athlete.
    The issue of chronic traumatic encephalopathy in former 
players has been and will be a most vigorously examined, 
debated, and scrutinized topic among experts inside and outside 
our committee. Some experts believe autopsy findings of former 
football players are due solely to the effects of trauma, while 
other experts feel repetitive head trauma and repetitive 
concussions are only a piece of the puzzle of a very 
complicated issue. The committee has hosted scientific 
exchanges on this topic as recently as May and will have 
another meeting next month.
    Lastly, education: Education of our own medical staffs, 
players, coaches, and team administrators has been a priority 
of our committee since its inception. The first educational 
symposium was soon after the committee started in the mid 
1990's. The most recent one was in Chicago in 2007, and another 
is being planned for 2010.
    Ongoing concussion education is regularly a part of our 
scientific interchanges at the combine in Indianapolis on an 
annual basis. And we have shared our knowledge and experiences 
with our colleagues in sports medicine through our biannual NFL 
team physician meetings.
    Clearly, the last 15 years has been a time for important 
advances in concussion research and clinical care. While our 
committee has published 17 articles from our research, we 
hardly admit that we have all the answers. Our charge remains 
overseeing quality research for the benefit of our active and 
retired players and to advance the science of sports-related 
concussion.
    My last perspective is that of a team physician. There are 
many challenges to evaluating and treating concussions in 
athletes of all ages. While the injury is easy to diagnose in 
some cases, there are other situations in which--many 
situations, actually, in which an athlete who has sustained a 
concussion is difficult to diagnose.
    With concussion, as with any other medical issue, the 
medical staff is dependent on the athlete giving us accurate 
information to help us make a diagnosis and properly care for 
the player.
    Team physicians and athletic trainers have long observed 
two primary barriers to this important exchange: First, the 
athlete for too long has thought that being dinged or mildly 
concussed is simply part of the game and not important 
information to share with their medical staff. Secondly, 
athletes want to compete and they want to play, and they tend 
not to give us information that might result in restriction to 
play.
    I feel strongly that, not only in NFL players but, as well, 
my high school and college athletes, these barriers of, number 
one, lack of patient education and, number two, a conscious 
reluctance to share information are much less imposing now than 
they were 10 or 15 years ago.
    Finally, as a team physician at all levels of competition, 
I certainly evaluate and manage concussions differently today 
than I did 15 years ago. While we try to understand the 
potential effects of head injury on our currently retired 
players, I don't think it is wise to indict the care being 
provided today's players based on reports treated a generation 
or more ago. I am truly optimistic the care being rendered to 
today's athletes will prove very beneficial to the retired 
athletes of tomorrow.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Tucker follows:]

                 Prepared Statement of Andrew M. Tucker

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Dr. Tucker, we thank you for your statement.
    I am now pleased to recognize Dr. Robert Cantu, clinical 
professor of neurosurgery, Boston University School of 
Medicine; author of over 300 scientific publications, including 
21 books on neurosurgery, sports medicine, and lots of chapters 
on peer-reviewed papers and others of the like.
    He has served as associate editor of Medicine & Science in 
Sports & Exercise. He is still doing a lot of health things 
himself. And we will put this very extensive resume into the 
record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Conyers. And I welcome you to the Committee. We are 
pleased and honored to have you here.

   TESTIMONY OF ROBERT C. CANTU, M.D., CHIEF OF NEUROSURGERY 
   SERVICE, AND DIRECTOR, SPORTS MEDICINE, EMERSON HOSPITAL, 
                          CONCORD, MA

    Dr. Cantu. Thank you, sir.
    Mr. Chairman, Members of the Judiciary Committee, I am 
honored to be here today, and thank you for allowing me to 
provide this testimony.
    I am a neurosurgeon who has spent the past 30 years of my 
career focusing on issues pertaining to sports-related 
concussion. As the author of the first return-to-play 
guidelines after a football concussion nearly 30 years ago, I 
have been fortunate to be able to participate in the 
development of and be a coauthor of numerous international--
Vienna, Prague, and Zurich--as well as national--the National 
Athletic Trainers' Association and the American College of 
Sports Medicine--return-to-play guidelines for athletes 
following a concussion.
    We are here today because there is a growing awareness of 
the public health crisis we are facing due to long-term 
consequences of football-related brain trauma. Over the past 
several years, there has been growing and convincing evidence 
that repetitive concussive and subconcussive blows to the head 
in NFL players lead to a progressive neurogenerative brain 
disease called chronic traumatic encephalopathy, CTE.
    This Judiciary Committee hearing was scheduled soon after a 
newspaper report of an NFL-funded research study of 1,063 
former NFL players who were given a lengthy telephone survey, 
which concluded, among other questions, that the incidence of 
dementia and memory-related diseases was 19 times higher than 
the national average in the 30-to-49-year-old age group and 
nearly six times higher in the over-50-year-old age group.
    While this comes as no surprise to those of us at the 
Center for the Study of Traumatic Encephalopathy at BU, as we 
have found all brains studied so far of NFL players who played 
after the age of 25 to have full blown CTE, the question 
remains, was this survey and their findings accurate? And I am 
sure we are going to hear more of that shortly.
    Unfortunately, the diagnosis of dementia cannot be made on 
a phone survey, and the term ``memory-related diseases'' is not 
a precise medical term. Thus, this study design is highly 
flawed. But even though it is flawed, it has had a positive 
effect of increasing the public awareness of this important 
issue.
    I am not here to debate the merits of this study but to 
point out that we have, in my opinion, a serious public health 
problem today resulting from repetitive head trauma too often 
experienced by NFL players. But the problem is much bigger than 
the NFL. It affects football players at all levels, including 
college, high school, and youth leagues. And it is not just 
football. It is all sports at high risk of brain injury, 
especially hockey, soccer, lacrosse, among others, that is at 
risk for CTE.
    The brain does not know what caused it to be violently 
shaken inside the skull: a football helmet-to-helmet hit, a 
left hook to the jaw, a check against the boards, or even a 
blast injury in military combat. The response in all may be the 
conversion of a naturally occurring brain protein, tau, T-A-U, 
into a hyperphosphorylated form that is toxic to nerve cells 
and their connections and causes death of nerve cells and 
disruption of their connections.
    While our research shows that this abnormal accumulation of 
tau is widespread throughout the brains of individuals with 
CTE, it is especially concentrated in the medial temporal lobe 
structures, as Dr. Ann McKee will point out for you, and thus 
leads to a clinical triad of recent memory failure progressive 
in extreme cases to dementia, depression, and lack of impulse 
control.
    While CTE has been mostly reported in the world's 
literature in boxers and for the longest period of time, over 
80 years, nearly 20 cases in the last several years have been 
reported from individuals that formally played in the NFL. In 
our group, we have recently reported a case of CTE in a man who 
only played football at the college level. So, obviously, some 
of these individuals have entered the NFL already with 
incipient, if not full-blown, CTE. Our group has even found the 
beginning of CTE in an 18-year-old high school athlete who died 
of rugby-related head trauma.
    Now that we are aggressively looking for CTE, there has 
been a 40 percent increase in the recognized cases in just the 
last 2 years alone. And we believe this is but the tip of the 
iceberg.
    Thus, I believe we have a serious public health problem and 
a massive underappreciation of what head trauma, especially 
multiple head traumas, at both the concussive and subconcussive 
levels, can lead to. There is no doubt that these injuries do 
lead to an incurable neurodegenerative brain disease called 
CTE, which causes serious progressive impairments in cognition, 
emotion, and behavior control, even full-blown dementia.
    Obviously, not every athlete who experiences head trauma 
develops this disease. Future research will reveal additional 
important factors that make some athletes more prone than 
others to developing CTE.
    But the public health crisis is already here, and we cannot 
afford to wait any longer to make changes to the way we play 
sports, especially sports like football that is today being 
played in a way far different than it was initially conceived. 
Blows to the head, as we have heard earlier, need to be 
minimized through rule and technique changes, especially in 
those sports such as football.
    Thank you.
    [The prepared statement of Dr. Cantu follows:]

                 Prepared Statement of Robert C. Cantu

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thank you very much.
    We now turn to Dr. David Weir, who is currently a research 
professor at the University of Michigan's Institute for Social 
Research, specializing in research on the measurement of 
health-related quality of life, the use of cost-effectiveness 
measures in health policy and medical decision-making, the role 
of supplemental health insurance in the Medicare population, 
and has had recent research projects commissioned by the NFL 
Player Care Foundation.
    He was awarded the Cole Prize for best paper in the Journal 
of Economic History twice, in 1984 and 1995, and the Alfred P. 
Sloan Research Fellowship.
    I presume, Dr. Weir, that you are not connected with the 
University of Michigan Injury Institute recently formed there.
    Mr. Weir. No.
    Mr. Conyers. All right. We welcome you, and we look forward 
to your testimony.

TESTIMONY OF DAVID R. WEIR, Ph.D., LEAD AUTHOR, NFL PLAYER CARE 
            FOUNDATION STUDY OF RETIRED NFL PLAYERS

    Mr. Weir. Thank you, Mr. Chairman and Members of the 
Committee, for inviting me here today.
    The Institute for Social Research at the University of 
Michigan is committed to the use of social science survey 
research to serve the public interest. And we are always ready 
to respond to you, as representatives of the public interest.
    I appreciate the opportunity to set the record straight on 
our study of retired NFL players. Faced with the aging of the 
U.S. population, we are all looking for policies and programs 
to serve the needs of people after a lifetime of hard work. 
This unique population of retired football players is an 
intriguing place to look for challenges and solutions.
    Our study had two broad goals: The first, at the request of 
the NFL, was to describe the population of retired players 
across a wide range of topics, from marriage and family life to 
health, to economic circumstances. In an environment of 
sensationalized press accounts, they sought some basic facts on 
which to create or improve programs to serve the needs of 
retired players.
    The second goal, at our suggestion, was to lay the 
foundation for future research that could follow up on specific 
health problems or other areas of need. I am pleased to say 
that the NFL agrees with us that further research on the 
dementia issue is warranted, and we are now actively planning 
that follow-up effort.
    Our initial telephone survey found that retired 
professional football players are, to put it mildly, a diverse 
and fascinating group. On average, they are highly 
accomplished, productive members of their communities, 
churches, and families. They suffer from aches and pains in 
shoulders, knees, backs, and necks that make difficult 
activities that many of us take for granted. Most are in 
comfortable financial circumstances, though many report having 
received bad financial advice somewhere along the way. Most 
have health insurance and are able to get the health care they 
need. They are proud of their achievements and of their time as 
professional athletes.
    For every such generalization, there are individual 
exceptions. There are retired players in poverty or without 
health insurance. Some don't particularly like the NFL. There 
are some who claim their knees don't hurt.
    This diversity is particularly true for the issue of 
cognitive impairment and dementia that is the focus of the 
hearing today. In our telephone interviews, 96 percent of NFL 
retirees report that they do not have such problems. But 4 
percent do, and, in some cases, the disability and the need is 
profound.
    Depending on the severity of the problems, which our study 
could not assess, those numbers may or may not indicate an 
elevated risk from a career playing football. We can't draw a 
conclusion, and no responsible scientist would do so.
    Those who assert that the rates reported by former players 
definitively show a higher risk do so by greatly 
underestimating the extent of dementia and cognitive impairment 
in the general population. I wish it were rare, but it is not. 
It is a major public health challenge facing the country.
    The follow-up study will address the major limitations of 
the telephone study with regard to the measurement of dementia 
and cognitive impairment. It will utilize the design and 
methods similar to ones we have used in a much larger study 
known as the ``Health and Retirement Study,'' which I have the 
privilege to direct at the University of Michigan with funding 
from the National Institute on Aging.
    The methods and results of this approach to diagnosis of 
impairment and dementia have been published in peer-reviewed 
scientific journals. It is done in the home by trained 
professionals and does not require travel or visits to clinics 
that might exclude some participants.
    With respect to individuals in the NFL study who did report 
a memory-related illness, it will be important to distinguish 
between the more severely disabling condition of dementia and 
the more common but less disabling mild cognitive impairment. 
The needs of these two groups are very different, and we will 
assess the extent to which the 88 Plan created by the league 
and the Players Association is meeting those needs.
    With respect to individuals who did not report any memory-
related illness, we will seek to determine whether there is any 
significant dementia or impairment in a sample of cases. By 
comparison to studies using the same methods in the general 
population, we would be able to say to what extent retired 
professional football players differ in their rates of 
impairment and dementia.
    I understand the intense interest in this issue and the 
impatience to have definitive answers. I have many friends who 
are parents of teenage athletes, and I know how much it worries 
them. We will not delay, but getting it right is more important 
than getting it fast.
    To those retired players who we will ask to participate in 
the next stage of this research, I make the promise that we 
will protect your privacy and we will report the truth.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Weir follows:]

                  Prepared Statement of David R. Weir

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thank you very much, Doctor. We appreciate 
that.
    Our next witness is George Martin, who is the National 
Football League's all-time leader in touchdowns. And it goes on 
from there, for quite a long time here.
    Are you still playing?
    Mr. Martin. No, sir.
    Mr. Conyers. Last year, George Martin walked across the 
country to raise money for medical care for the first 
responders to the September 11, 2001, terrorist attack. He 
raised close to $3 million for the families.
    And, just this month, he was elected to be executive 
director of the National Football League Alumni Association.
    And we will put all of your resume into the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Conyers. And we welcome you on that note. We are very 
proud to have you here, sir.

        TESTIMONY OF GEORGE MARTIN, EXECUTIVE DIRECTOR, 
                     NFL ALUMNI ASSOCIATION

    Mr. Martin. Thank you, sir.
    Chairman Conyers, distinguished Members of the House 
Judiciary Committee, my fellow colleagues, Commissioner Roger 
Goodell and Executive Director DeMaur Smith, I sincerely 
consider my presence here today to be both a privilege and an 
honor: a privilege in the fact that, for a moment, I have a 
respected platform on which to bring a rather alarming issue to 
light from an extremely unique perspective; and honored by the 
fact that I represent a constituency that will be observing the 
outcome of these hearings from more than a casual perspective. 
Therefore, I applaud these proceedings, and hopefully they will 
represent the impetus and serve as the catalyst to effect 
greater and even more meaningful responses to an ever-growing 
medical phenomenon.
    As executive director of the NFL Alumni Association, the 
recent medical findings surrounding head trauma in the NFL in 
general, and concussions more specifically, though admittedly 
inconclusive, has sparked sharp debate and generated 
considerable interest within this industry.
    While we, as concerned representatives of the Alumni 
Association, find the initial medical research alarming, to say 
the least, unlike my other esteemed colleagues here today--and 
with all due respect, I am the only one here that can give 
direct and actual firsthand accounts of the violence and the 
often injurious aftermath of professional athletics, which, in 
some cases, leads to an accelerated diminishing physical and 
mental capacity and sometimes fatal human collateral.
    As a former defensive lineman in the NFL for the last 14 
years, I have had the unenviable experience of enduring life in 
what is commonly referred to as the ``NFL trenches.'' And, 
unfortunately, during that era, when violent tactical maneuvers 
such as head slaps, forearm shivers, clothesline tackles, and 
violent head-butts were commonplace among all facets of 
football, although most have since then been eliminated, the 
resulting severity of these combative interactions were 
oftentimes trivialized and minimized by the powers that be, 
usually referring to such incidents as simply ``getting your 
bell rung,'' ``getting your clock cleaned,'' or ``having 
cobwebs in your bonnet.''
    You may ask the obvious question as to why: Why refer to 
such antiquated and archaic behavior that has long since been 
banned from use in professional athletics? The answer is rather 
simple. Though the practice of such brutality has long since 
vanished, the resulting delayed consequences remain present and 
are feared to be more prevalent and widespread among our aging 
NFL alumni population than any of us dared realize.
    Today we acknowledge that such blunt force trauma is 
inherently dangerous and, according to several recent studies, 
most notably the Center for the Study of Traumatic 
Encephalopathy, CSTE, of Boston University's School of 
Medicine, is that such incidents can perhaps lead to premature 
death among athletes.
    The sum total of such medical afflictions such as chronic 
traumatic encephalopathy, CTE, cannot be accurately measured 
merely by commissioning a single study, as the all-encompassing 
illness adversely affects each and every family member who 
happens to be associated with the victim or the patient.
    I reluctantly highlight this point by betraying a 
confidence of a very personal friend who, over the course of a 
professional lifetime, has meant the world to me as a mentor, a 
teammate, a business associate.
    After 10 seasons in the NFL as a highly respected running 
back, this gentleman retired, seemingly to be the picture of 
health. He diligently maintained a rigorous regiment of 
athletic activities, while playing competitive tennis for at 
least 3 days a week. He also maintained a healthy diet, and he 
never varied five pounds above or below his optimum weight.
    Additionally, he owns a string of fast-food franchises 
consisting of more than 40 stores throughout the Northeast 
region. Business travel, both domestically and internationally, 
was a necessity and frequent occurrence. To say that he 
maintained an active lifestyle would have been an 
understatement.
    There were no overt signs of diminished capacity in his 
lifestyle except for, one fateful day, after returning from a 
business trip, he simply forgot where he parked his car. Upon 
sharing the story with his friends, we all had an amusing laugh 
at his expense and naively chalked it up to simple 
happenstance. He himself would jokingly say on numerous 
occasions, ``George, I guess I got hit too many times in the 
head.''
    This incident happened only 2 short years ago. However, 
within the span of 24 months, this once vibrant, hyperactive 
individual has been reduced to a mere shell of his former self, 
who is now confined to self-imposed house arrest and, with each 
passing day, slips further and further away from the dynamic 
personality that we all once knew him to be.
    The shame, the embarrassment, the degradation are but the 
tip of the iceberg that he and his family are painfully 
enduring each and every passing day. This unfortunate scenario 
rings as a far too familiar refrain among many NFL alumni.
    If my presence here today and my very public betrayal of 
this deeply confidential situation of my former NFL colleagues 
results in illuminating this potential catastrophic medical 
calamity, then I would conclude that neither have been in vain.
    The general consensus among most NFL alumni centers around 
four primary concerns: First and foremost, prevention, so that 
the perpetual cycle of reoccurrence of these situations in 
sports itself is severely diminished or, better yet, totally 
eliminated through innovative rule changes and enhanced 
protective equipment.
    Secondly, proper diagnosis and effective medical treatment 
without laborious and agonizing red tape that oftentimes become 
a painful prelude that is discouraging and is completely 
exacerbating an already dire situation.
    Thirdly, that such medical treatment not result in a 
financial catastrophic tsunami which predominantly wreaks 
havoc, financial havoc, on the surviving family.
    Finally, a more comprehensive study which should include a 
veritable cross-section of alumni in order to accurately 
determine the full extent of the problem among retirees who may 
be predisposed to this insidious, debilitating medical 
situation.
    On behalf of the NFL alumni, we greatly appreciate this 
forum in which to state our position on this vital manner. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Martin follows:]

                  Prepared Statement of George Martin

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. That was very moving, and I am glad that you 
were here to tell it.
    Mr. Martin. Thank you, sir.
    Mr. Conyers. Merril Hoge, former Pittsburgh Steelers, was 
the team's starting running back for six seasons. He set the 
team record for the most receptions by a running back, totaling 
50 in 1988. But he suffered his first concussion with the Bears 
during the 1994 season, in a game in Kansas City, and he was 
back playing 5 days later.
    But when he suffered his second concussion 6 weeks later, 
it ended his career. He had to relearn how to read. Sometimes 
get lost coming home from a restaurant that he had frequented 
for years. He is now an analyst for ESPN national--an NFL 
analyst. And even, sometimes, things can trigger problems about 
concentration, and so forth.
    We are very proud to have you with us. We realize because 
of time constraints, and we received the concurrence of the 
Ranking Member, to take you from the second panel and put you 
on the first panel. And we are very pleased that you are here 
to talk with us today.

          TESTIMONY OF MERRIL HOGE, RETIRED NFL PLAYER

    Mr. Hoge. Thank you, Chairman Conyers. I appreciate that. 
And, Ranking Member Smith and Committee Members, it is an honor 
to be here.
    As mentioned, I played 8 years in the National Football 
League: 7 for the Pittsburgh Steelers and 1 for the Chicago 
Bears. In the prime of my career, a series of concussions cost 
me my career and nearly took my life.
    After my second concussion, I was escorted into the 
training room, where I flat-lined. As they started to 
resuscitate me, I popped back up, and they rushed me to the 
emergency room, where I lay in ICU for 2 days. In the first 24 
hours, I could not recall my wife, my daughter, or my brother, 
who were there at the time.
    I was confined at home for weeks, where I couldn't leave 
unless somebody went with me. I had to learn how to read again. 
I went through depression. And these major symptoms took nearly 
2 years to recovery from.
    Two things went wrong from my first concussion on a Monday 
night game in Kansas City: First, I never saw a neurological 
doctor. Second of all, I was cleared 5 days later to play the 
game of football over the phone by a family practitioner.
    Now, due to contrary testimony already, I will say this. 
There has been significant changes in the National Football 
League based on the NFL and the NFLPA. What happened to me 
would not happen in the National Football League today. That 
does not mean we are all the way there. We are on our way.
    Something that is also extremely important that we all 
understand, and that is why we are here: The brain is the most 
vital and sensitive organ in our bodies. Without it, we do not 
function, we do not operate.
    That is why I am going to kind of broaden the scope, Mr. 
Chairman, and ask that you help us establish a national 
standard. Part of that national standard--and this is where it 
can be somewhat of a calming and a soothing approach to this--
is that the standard be a part--part of the standard being that 
a neurological doctor is always part of the evaluation of head 
trauma, somebody who is trained for that. Secondly, within this 
national standard, that a player, he or she, does not return to 
play their particular sport until they are asymptomatic for 7 
consecutive days at exertion and at rest after they have 
cleared. If we established just those standards with all 
football, we would have less tragic stories than we have to 
this point.
    Now, as I broaden the scope just a little further, let me 
include our youth programs. Youth football from ages 6 to 14, 
we have over 3 million kids playing football. That is twice as 
many that exist in high school, college, or the NFL combined. 
And we cannot forget them.
    The reason I am somewhat adamant about this at this point, 
I am a youth coach; I am active in youth football and other 
sports. I am the head coach, I am the trainer, I am the 
equipment manager, I am the cheerleader, I am the psychologist 
all in one and especially in the early moments of injuries. My 
experiences have truly helped me in critical moments in these 
programs, but oftentimes I watch the sidelines with uneducated 
parents dealing with our youth. And it is a grave concern.
    Within that standard that I am trying to propose is because 
I have never been a part of a program where there is a standard 
or a protocol to head injuries; that if we were better educated 
in that fashion, we would have less tragedies. So I am asking 
you to help us with that. Help us create better standards, 
better requirements, and better education.
    And that we don't overreact, that we promote athletics, we 
promote activity. What is one of the biggest concerns that we 
have in our youth today within our society? It is obesity, the 
health care issues that exist with that. So we cannot say 
because of head trauma and concussions we must eliminate 
sports. We must educate, we must properly evaluate and properly 
take care of those athletes. If we do that and create a safety, 
that will encourage more youth to be involved in our sports, 
that we are properly taking care of them and educating them.
    Now, I have met many times with Roger Goodell. My words 
have not fallen on deaf ears. He has been genuine, sincere, and 
committed to this issue and the health and benefit issues of 
our former players. I have also met with DeMaur Smith many 
times. My words have not fallen on deaf ears. He is also 
genuine, sincere, and committed to helping this issue and our 
former players.
    And I address them for just a second. They are the people 
that we cannot forget. They are the ones that created the stage 
that I was fortunate enough to play on. I was part of building 
a stage that the current player is playing on. And the current 
player is continually building the stage in the National 
Football League that future players will build on.
    But, eventually, all will be retired players. And, too many 
times, the NFL and the NFLPA has made it too difficult on our 
retired players to get the proper care that they deserve. Being 
here today gives me great hope that we may bridge the gap, not 
only on this particular subject with brain trauma, but the 
health care and the health issues that exist in the NFL.
    Commissioner Conyers, I want to thank you for having me 
here, and the rest of the Committee. Thank you for your time.
    [The prepared statement of Mr. Hoge follows:]

                   Prepared Statement of Merril Hoge

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Well, thank you very much.
    I have three questions. But you referenced the uneducated 
parent. And I am not a very sensitive person, but would you 
describe that uneducated parent with a little more specificity?
    Mr. Hoge. Chairman Conyers, I actually would, and it is a 
great question. And I have a great example that just happened 
several weeks ago. And may I broaden the scope a little bit 
from the uneducated parent to the uneducated coach that works 
our youth sideline?
    I had a young kid named Griffin who got up from a collision 
and he was a little woozy. So he had sustained some type of 
head trauma. As I pulled him to the side, ironically, his older 
brother Jake helps coach. He is 25 years old. Now, Jake 
obviously knows Griffin much better than I, although I know 
Griffin very well. I wanted to address what was going on with 
Griffin. I wanted to talk, I wanted to address a lot of 
cognitive things that I am aware of now, from retrograde to 
anterograde, to his name, to what play we just ran, to find out 
where his senses were, looking at his pupils--some of the 
things I know. Then I asked Jake to sit there and talk to him 
and make sure that these didn't elevate from sickness to 
dizziness.
    Well, after 5 minutes, Jake ran up to me, and he said, 
``Grif is ready to go back in.'' And I am like, ``No. Grif is 
done playing.'' I just wanted to make sure that the symptoms 
did not elevate so that we could get him to the hospital, then 
after the game talk to his parents about monitoring him and 
taking him to the doctor if necessary.
    The caution and concern that I have there is Jake could 
very easily be a head coach in our youth program, and he was 
willing to put his own brother back on the football field, 
purely out of ignorance. And I understand that because me being 
25 years old and being Jake and the lack of experience I had at 
that time, I probably would have done the same thing.
    And that is why I think standards and education would help 
mistakes being made like that.
    Mr. Conyers. Thank you so much.
    My three questions are these.
    Commissioner Goodell, is there a link between playing 
professional football and the likelihood of contracting a 
brain-related injury such as dementia, Alzheimer's, depression, 
or CTE? And I also may ask Dr. Cantu to comment on it.
    My second question is, Commissioner Goodell and Executive 
Director Smith, will you agree today to open up your books, 
records, files, personnel of the league's, its teams, so that 
we may conduct an independent examination concerning brain-
related diseases?
    And, Madam Dr. Culverhouse, how does it make you feel to 
see your former players suffering from the repercussions of 
poor choices made to prematurely put players back into the game 
after injuries?
    Mr. Goodell. Chairman, let me address your first question.
    You are obviously seeing a lot of data and a lot of 
information that our committees and others have presented, with 
respect to the linkage. And the medical experts should be the 
one to be able to continue that debate.
    But our bottom line is, we are not waiting for that debate 
to continue. We want to make sure our game is safe, and we are 
doing everything we possibly can for our players now. And that 
is why we have engaged aggressively in making changes to our 
game. We have done some of the things that have been discussed 
here on a variety of levels.
    Let's start with the fact that we have made significant 
rule changes to our game. Five rule changes this year alone 
have been made that I think are improving the safety and 
welfare of our players. They have had a positive impact in the 
short term that they have been in place. And we will continue, 
as we have done every year, to evaluate rule changes to make 
our game safer.
    Many of those changes this year were specific to head 
injuries and making sure that we take certain techniques out of 
the game that can be unsafe for our players, both in the short 
term and potentially in the long term.
    We have also engaged very aggressively on education. We 
have worked with the Players Association, with our medical 
doctors to create information that we can share with our 
players and also with players at other levels. It is a very 
important responsibility to set the right----
    Mr. Conyers. Well, you have testified to that. But I just 
asked you a simple question. What is the answer?
    Mr. Goodell. The answer is, the medical experts would know 
better than I would with respect to that. But we are not 
treating that in any way in delaying anything that we do. We 
are reenforcing our commitment to make sure we make the safest 
possible deal for our----
    Mr. Conyers. All right. Okay. I have heard it.
    Dr. Cantu?
    Dr. Cantu. Sir, in the world's literature, the majority of 
chronic traumatic encephalopathy has been reported in boxers, 
and it is reported at a younger age in boxers because they 
probably take more head trauma than any other sport. But it is 
not confined to boxers. Obviously, we are here today because of 
this same entity due to head trauma in the NFL, but it has been 
reported in a soccer player, it has been reported in rugby. It 
has been reported in individuals that have head-banging 
disorders. It has been reported in a clown that got shot out of 
a cannon in a circus, and every time he got shot out of the 
cannon it was like being concussed.
    So, as I indicated, yes, I think there is cause and effect. 
It is not unique to the NFL, though.
    Mr. Conyers. Of course.
    Commissioner Goodell and Director Smith, will you let us 
see the records?
    Mr. Goodell. The answer to that question is absolutely yes. 
We first discussed this between the NFL and the NFLPA back last 
spring. We are going to make all medical records available to 
them. And we, of course, will do that for the Committee.
    Mr. Smith. Yes, sir, of course we will.
    Mr. Conyers. Thank you.
    Dr. Culverhouse?
    Ms. Culverhouse. Yes. As one could imagine, my children 
were involved in football early on. I have a child born in 
1972, 1973, and 1974. So they went with me to games, and they 
developed favorite players, players that took the time to give 
a handshake to my son or give my daughter a ride on his 
shoulders.
    In January, I learned that one of those players who had 
stayed in Tampa, Tom McHale, and started a successful business, 
was dead.
    Batman Wood, my son's favorite player because he wore bats 
on his shoulders and his elbows and his knees and my son could 
pick him out, was getting lost trying to drive home from 
Starbucks.
    And I met with Batman and heard about his story and asked 
him about another player that we had really liked, Jerry 
Eckwood. And he said, ``Gay, Eckwood is really bad. He is 
really bad.'' And I said, ``I have to find him, because I need 
to help him.''
    Same thing with Scott Brantley, a former Gator--I am big on 
Gators--but a former Gator. And Scott Brantley is in--Scott 
Brantley is in big trouble now. And he said to me this morning 
as I was coming over here, he said, ``Gay, you have always been 
a rebel, but you are a rebel with a cause. Make them hear that 
we are hurt. Make them hear that we can't fill out all of their 
forms. We can't do it. Our mental capacity isn't there to 
answer the questions on the phone and fill out the forms. They 
are missing those of us that are severely disabled.''
    And so what I am doing with Randy Grimes and a number of my 
players is I am filling out the forms, I am going through the 
networks for them to access the benefits that they may be 
entitled to--which are not enough to sustain them monetarily. 
They are not enough. Five thousand dollars for a hip 
replacement is not enough. I just had my knee done; I can tell 
you that for a big fact.
    But we have to get proactive for these players. So I am 
going to Little Rock, Arkansas, to find Jerry Eckwood to take 
him to the doctors myself and fill out the forms to get this 
man the help he needs. I don't want to read about another one 
of my players that is dead. I don't want to have to tell my 
children their favorite gentle giant is dead. This isn't 
working for me.
    Mr. Conyers. Our Ranking Member, Lamar Smith.
    Mr. Smith of Texas. Thank you, Mr. Chairman.
    Mr. Chairman, I would like to address my first question to 
Mr. Goodell, Dr. Tucker, and Mr. Martin. And I know you all 
will come at the answer from different perspectives.
    Mr. Goodell, you may want to address ways that you and the 
Players Association can cooperate or new rules that might come 
up.
    Dr. Tucker, you might address equipment.
    Mr. Martin, you might have some comments from your own 
personal experience.
    My question is this. We have discussed a lot today about 
the problems. We have discussed a lot about past actions that 
have been taken. My question is, what future actions should we 
take? What are the next steps to advance our understanding of 
the problem of head injuries, to try to improve treatment and 
to try to increase prevention of these head injuries?
    So, even though you have different perspectives, if you 
will talk about the future as opposed to the present or the 
past.
    Mr. Goodell?
    Mr. Goodell. Well, let me try to address that as concisely 
as I can without repeating a lot of the testimony.
    The first thing we have to do is continue to support this 
research and make sure we put more and more into this research 
so that we can find out what exactly are the medical facts. 
That is first, and we will continue to do that.
    The second thing we are going to have to do is to continue 
to prevent these injuries in the best way we can. That is rule 
changes that we have instituted that are making a difference. 
Second is we made some--because of the research we have done, 
made some very important changes to the equipment, particularly 
in the helmets and the chin straps.
    And these are important changes for us in making the game 
safer.
    The other issue that I would say is the education. I think 
the big issue for us and for every player at every level and in 
every sport, as was pointed out here, is to make sure they are 
aware of the issues that come when you have a concussion. And 
it is a serious injury, and you have to take it seriously and 
get medical care.
    Mr. Smith of Texas. Okay. Thank you, Mr. Goodell.
    Dr. Tucker?
    Dr. Tucker. At the risk of repeating some of the testimony, 
I will speak a little bit more specifically to equipment.
    We have made mention that research has shown that at least 
concussions that occur in the NFL frequently occur in blows to 
the side of the head and to the facemask. This information was 
given to the helmet manufacturers, and they responded with 
change--the first changes in many, many years.
    The new helmets that have been rolled out in the last 
handful of years at least test better in the laboratory. So we 
are optimistic that the forces being imparted to the brain are 
showing that they are decreased compared to the older helmets. 
It won't eliminate concussions, but if we can decrease the risk 
we will feel good about that.
    It will take more time and more study and more meticulous 
tracking of these injuries, which we have been doing for a lot 
of years, to figure out whether the new helmets actually 
decrease risk of concussion or the actual occurrence of 
concussion in the National Football League.
    Interestingly, over the last one to two seasons, the number 
of concussions diagnosed and recorded have actually dropped 
slightly, but I wouldn't make too much of that. I think it is 
premature to say.
    Mr. Smith of Texas. Okay. Thank you, Dr. Tucker.
    Mr. Martin, any practical advice you have for us?
    Mr. Martin. Yes, sir, I would like to add this, that I am 
optimistic that, in this new spirit of cooperation, that we can 
all come together with a unique plan to address many of these 
serious issues.
    But the three points that I am concerned about, 
particularly as it relates to a lot of the so-called heroes or 
our constituents, is that we must make sure that we determine 
and identify where they are. Because a lot of them, you know, 
they value their anonymity. And we want to make certain that we 
have identified them and embrace them in this new era.
    Secondly, we want to make sure that all of the splinter or 
faction groups that currently exist out there are working off 
of the same goal, to make sure that these are not isolated 
incidents and we can address them collectively.
    So I am very optimistic about this new era and this new 
platform that we have of recognizing the severity of this. And 
that is the message I am going to take from here.
    Mr. Smith of Texas. Okay. Thank you.
    I have to ask you a quick question. How much touchdowns did 
you score on the interceptions or fumbles?
    Mr. Martin. I have a total--and I will speak to Mr. Goodell 
about this. I held the record for most touchdowns by a 
defensive lineman, which was seven. However, I have one 
touchdown as an offensive lineman, which would make it eight. 
So I don't know how you----
    Mr. Smith of Texas. We will correct the record.
    Mr. Martin. So it is eight, sir.
    Mr. Smith of Texas. Thank you.
    Dr. Weir, my last question is for you, and that is in 
regard to the University of Michigan study by the Institute for 
Social Research. How was your study misrepresented, and what 
impact has that had on the discussion and debate?
    Mr. Weir. I believe, as I said in my testimony, it has been 
misrepresented to the extent that it is asserted there is a 
certainty that there is an elevated risk demonstrated by our 
study, which I don't believe there is.
    What is the harm in that? To the extent it focuses us on 
safety, who is going to be against that? My concern, and I 
think Mr. Hoge raised this very well, we have an epidemic of 
obesity among children. Do we want to tell prospective junior 
athletes there is a 19-to-one risk of dementia if you 
participate in sports? I think that is a very damaging kind of 
thing to have out there without really good scientific support 
for making it.
    So that would be my main concern, is that we are possibly 
frightening people away from healthy participation in things 
they should be in.
    Mr. Smith of Texas. Thank you, Dr. Weir.
    Thank you, Mr. Chairman.
    Mr. Conyers. Mel Watt, North Carolina, distinguished Member 
of the Committee.
    Mr. Watt. Thank you, Mr. Chairman. And let me thank the 
Chairman for convening this hearing. It has been very 
enlightening.
    And I especially want to express my thanks to the last two 
witnesses, the former players in the NFL, for the very balanced 
approach that they brought to their testimony.
    Maybe I could get Mr. Smith to cut his microphone off over 
there. Thank you.
    I am also a big NFL football fan, and certainly observed 
the change that has taken place in attitude about this issue. I 
am a big Carolina Panthers fan and observed the Dante Wesley 
hit that got him suspended and knew in my own mind that, 
several years ago, the response to that would have been a 15-
yard penalty and that would have been the end of it. So I 
understand that there is a change of attitude taking place 
here.
    And the one thing that I try to discern out of these 
hearings of this kind is what kind of public policy direction 
we might take. So I am extremely appreciative to the last two 
witnesses for their balance on that. Because, after all these 
years, we still haven't taken any steps to outlaw or ban 
boxing. And I don't think we are likely to take any steps to 
outlaw or ban football. So we have to look at what the possible 
adjustments are, short of that, that may be made either within 
the sport or from a public policy perspective.
    The one thing that I kept wondering about throughout the 
testimony, particularly Mr. Goodell, Dr. Culverhouse, Mr. 
Martin in particular, there seem to be financial incentives 
that discourage athletes from being honest about their own 
condition, even if they are capable of discerning their own 
condition. All of the counterpressures are there for them to 
get back into the game and be able to perform because there are 
financial incentives associated with that.
    Is there a policy in place already in the NFL, or is there 
some kind of policy that you all might be able to think of, 
that would minimize or eliminate that financial incentive by 
assuring that a person who is diagnosed with a concussion and 
has to miss a game as a result of the standards that I think 
Mr. Martin or Merrill Hoge outlined--is there some way to build 
a contract necessity that would shield those players against 
the consequences of the medical conditions that they incur?
    Mr. Goodell, Ms. Culverhouse, I would be particularly 
interested, and Mr. Martin, in your response to that.
    Mr. Goodell. Well, I would be happy to start.
    First off, you do identify an issue. Self-reporting of 
concussions has been an issue. And we have, I think by the 
education that we have jointly done with the Players 
Association and with the Player Advisory Committee, I think----
    Mr. Watt. You are evading the question again, Mr. Goodell. 
I asked you about contracts.
    Mr. Goodell. Well, let me address that directly then, on 
the contracts. If a player misses a game because of a 
concussion, he is still paid. So the athlete still gets paid.
    Mr. Watt. But there are financial consequences at the end 
of the contract, the incentive compensation for games played, 
for--that there are economic consequences that flow from that. 
Is there a way to protect against that?
    Mr. Goodell. There may be some incentive contracts that 
would be hindered by that, depending on the length of time the 
player was out. It would be something we would have to discuss 
with the Players Association and try to see if there is a way 
to address that.
    Mr. Watt. Mr. Martin? Dr. Culverhouse? And my time has 
expired. So I just won't interrupt you in your response.
    Mr. Martin. I will take a stab at it. I am not quite sure I 
have the answer to it, Mr. Watt, but I appreciate the question.
    I am not quite certain if you can disincent an athlete 
because of his predisposition to want to go out and perform. I 
am not sure how you protect both his financial incentive to 
want to go out and perform in light of being injured versus 
disincenting him to protect him from the injury. That is a 
difficult question, and I am afraid I don't have the answer.
    Ms. Culverhouse. I can say that it would be very difficult 
for the NFL to mandate to the owners how to structure their 
contracts. That would be a difficult thing, as I can tell you 
that owners are like a bunch of mavericks, and it would be very 
difficult to mandate to them how to have their players paid. 
Because incentive bonuses are the way you get those players 
back in the game and you win.
    They don't molly-coddle. This is a business. It is a 
blanking cut-throat business. The bottom line is making money. 
And if their player ain't playing and the team is losing, that 
is the bottom line.
    Mr. Watt. Thank you, Mr. Chairman. I went over. I yield 
back.
    Mr. Conyers. Senior Member Bob Goodlatte.
    Mr. Goodlatte. Well, thank you, Mr. Chairman.
    Mr. Chairman, I would like to direct my questions primarily 
to Mr. Goodell and also to Mr. Smith. And it regards, first of 
all, the problem that has been very, very well-described by 
everyone on this panel today in terms of the risk of these head 
injuries and the fact that this is something that starts 
becoming a problem at a very young age, in junior high school, 
high school, on up through college, and long before they get to 
the NFL.
    There are a number of good ideas that have been expressed. 
Mr. Hoge had some very good ideas regarding neurological 
examinations and with regard to 7 days, staying away from the 
football field until they are asymptomatic for at least 7 days. 
And I am sure there are a number of very good ideas that 
medical experts and coaches and others could offer in this 
regard.
    But one of the problems is getting the information out. I 
am not sure that, given the wide variety and changing opinions, 
that this is suitable for legislation from the Congress.
    But I am wondering, does the NFL during games use public 
service announcements, for example, to educate young people and 
their parents about the risks of head injuries and things that 
could be done on a practical basis to avoid them in Little 
League play and in high school and so on?
    Mr. Goodell. The answer to that question is, I believe we 
have used public service time. We could probably use more on 
this.
    But I would tell you that the most important thing is, we 
set the example on the NFL field. We saw just this past Monday 
night when we had Brian Westbrook, a player, go down in a game 
with a concussion. He was taken off the field. He did not come 
back to the game. And it was done in a very cautionary and 
conservative way.
    And I think that is the message we need to send to people. 
And we will look at the idea of whether we can give more public 
service time----
    Mr. Goodlatte. I missed that play. Did it involve a play 
that required a penalty or some other action on the part of the 
referees to indicate that this injury was sustained because of 
inappropriate activity, or was it simply----
    Mr. Goodell. It wasn't an inappropriate activity. It was 
actually just a knee that hit to the back of a player, which 
happens in our game and in other sports.
    Mr. Goodlatte. Well, I mean, I wonder if you would review 
the policy you have. I see many public service announcements 
that promote various things on the broadcasts of professional 
sports. And you could work with the broadcast companies to 
promote greater information, just promoting the very ideas that 
Mr. Hoge promoted.
    And, Mr. Smith, I wonder what you think about that but also 
what involvement the Players Association has in promoting 
getting that kind of information out to young people and their 
parents. Do you favor having greater contractual requirements 
for the players to actually get out and, whether voluntarily or 
as a part of their contract, be more engaged in communities 
around the country to promote this kind of safety?
    Mr. Smith. Congressman, our players are doing that right 
now. And I think, to answer your question succinctly, I think 
there are four or five things that we can actually do and, I am 
proud to say, we are doing.
    Our players in the National Football League, I believe, 
should be the model. I think that Commissioner Goodell is 
right, we have an obligation to set the standard. That standard 
is the standard that will be followed in college, it will be 
followed in high school, and it will be a role model for youth 
football. Both of us are vitally involved in the USA Football 
movement. We use that vehicle not only to encourage youngsters 
to play football but to do it safely.
    Third, our players are also a number of the individuals who 
end up being coaches, not only in the National Football League, 
but coaches on the college level, coaches on the high school 
level, and, as Merrill indicated earlier, coaches on the youth 
football level. So having our players understand and embrace 
all of the information to make safe choices is yet another way, 
in addition to PSAs, that we can get the message out.
    Lastly, we do a tremendous amount of work on the Players 
Association to get players to appreciate the best and the right 
helmets to wear. We believe that if we advise the players and 
give them all of the information, the most up-to-date 
information, urge them to wear specific helmets, that is yet 
another way that we serve to set the right example and to get 
the information out to the people that you mentioned.
    Mr. Goodlatte. Thank you.
    It sounds like both of you are very committed to trying to 
reduce these injuries, not only within the NFL, but in the 
sport of football at large. And I think getting that 
information down particularly to parents and coaches at the 
high school level and college level is very, very important.
    And I think you could both use more resources than are 
devoted to it now to play a major role in that, since you are 
the ultimate beneficiaries of that entire system that finds and 
recruits the finest football players, gets them into the NFL, 
and gives them the opportunities that they have and that all 
Americans have to enjoy professional football.
    Wouldn't it be the best path forward for the problems in 
the NFL itself for the private parties to come up with the best 
solutions? Are either of you arguing that the Congress should 
be making this decision? And, if so, why?
    Mr. Goodell. We are not arguing that. We think that we have 
pushed research, we have pushed education. We have made changes 
to our game, to the equipment.
    We have made significant changes, which I am happy to put 
into the record, with respect to the management of concussions. 
I think we are doing a terrific job and a much better job, much 
improved job of conservatively treating concussions and 
managing them when they occur so we don't have incidents like 
Merrill Hoge spoke about before.
    So I think that we are doing a job that is important 
because these are serious injuries, and we need to continue to 
make advances.
    Mr. Smith. Congressman, we don't believe that legislation 
is the only answer. One thing that we all know, just by all of 
us being brought here today, is this great body not only can 
spark public debate and serve to inform, to better the lives of 
everybody through legislation, but also by having these 
hearings.
    We have talked a lot today about a University of Michigan 
study. But one of the things that will be entered into the 
record is the fact that, over the last 10 years, there have 
been hundreds of studies on this issue that have talked about 
the links between on-field head trauma and the early onset of a 
number of mental illnesses.
    So while we are here, perhaps, because of the recent 
articles and the news that has come out about a number of 
players, the reality is, over the last 10 years, there has been 
study after study after study after study.
    And I do believe, to go back to your earlier point, how can 
we do a better job? That is to understand and embrace these 
studies as being game-changers and player safety and getting 
that information out to all of the--not only the kids who will 
play football from youth football going forward, but to the 
coaches and to the parents who gladly have their kids be 
involved in physical activity.
    Mr. Goodlatte. Thank you.
    Thank you, Mr. Chairman.
    Mr. Conyers. Thank you very much.
    Before I recognize Maxine Waters, we are pleased to 
appreciate the presence of Jim Brown of the Cleveland Browns in 
the room.
    Thank you for joining us, Jim.
    Mr. Brown. Thank you, Mr. Chairman.
    Mr. Conyers. The distinguished gentlelady from California, 
Maxine Waters.
    Ms. Waters. Thank you very much, Mr. Chairman and Members.
    Before I raise a few questions, I would like to submit for 
the record full disclosure of my husband's affiliation with the 
National Football League, having previously played for at least 
three teams: the Cleveland Browns with the great Mr. Jim Brown; 
Pittsburgh; and the Washington Redskins.
    And so I do have intimate knowledge, based on my 
interaction with a number of players and owners, about the NFL. 
Georgia Frontiere was a very close friend. And John Shaw, who 
was president of the Rams, and Chip, the new owner, are 
friends.
    However, having said that, I remain extremely concerned 
about the plight of football players, particularly some of the 
older ones who worked and played when times were even a lot 
more difficult for players.
    Let me just ask Mr. Goodell: in the October 2009 issue of 
GQ, we were told the story of Mike Webster, legendary center 
for the Pittsburgh Steelers from 1974 to 1988. At the height of 
his career, Mike Webster was publicly revered as an unstoppable 
titan and formidable force in the league. And yet, shortly 
before his death in 2002 at the age of 50, Mike Webster spent 
his latter years homeless, suffering from dementia, while in a 
contentious legal battle with the very organization that made 
him a legend.
    The GQ article called the legal dispute a battle against a 
multi-billion dollar industry that seemed to have used Mike 
Webster, allowed him to become destroyed, and then threw him 
away like a rotten piece of meat.
    I bring his case because he had dementia, which obviously 
was associated with the years that he played. Why could he not 
get taken care of by the NFL?
    Mr. Goodell. Well, Congresswoman, this was before my time 
as the commissioner. I will say, and I am happy to say, in our 
current state right now, he would be eligible to participate in 
our 88 Plan and would get the benefits of the 88 Plan, 
regardless of whether that was caused by playing in the game.
    Ms. Waters. How many players do you have out there who are 
suffering now, or have suffered from, dementia, or from other 
injuries related to playing football that have not been taken 
care of because of your benefits packages of the past?
    For example, I think you changed it, but I don't know, 
those people who took early retirement were not eligible for 
disability. Did you change that?
    Mr. Goodell. Yes, we did. What we did was we opened a 
window to allow them to come in and to get those benefits. So 
we opened that window for about a 6-month period.
    Ms. Waters. We know that the NFL and the NFL Players 
Association are currently renegotiating their collective 
bargaining agreements. What are you doing in this bargaining 
that you are involved in now that will deal with the very issue 
that we are talking about, related to brain injuries and 
dementia and Alzheimer's and all those other things related to 
these kinds of injuries? What are you negotiating that will 
better recognize the injuries and how you are going to take 
care of them, and their families?
    Mr. Goodell. Let me take the first start at it, and De can 
contribute to that.
    I think both of us have identified that the plight of our 
retired players is a priority in the----
    Ms. Waters. I can't hear you.
    Mr. Goodell. Both of us have identified in the collective 
bargaining process that this is a priority for the owners and 
for the players, to take better care of our retired players.
    One of the reasons we conducted the survey that may have 
been one of the impetuses for this hearing was to identify the 
priorities that our players need to have addressed. There are 
multiple issues that need to be addressed, as you point out 
some of them. Some of them are medical. Some of them are 
financial----
    Ms. Waters. If you would excuse me, I would like to take 
back my time. I appreciate where you are going.
    We have heard from the NFL time and time again. You are 
always studying, you are always trying, you are hopeful. I want 
to know, what are you doing in the negotiations that are going 
on now to deal with this problem, and other problems related to 
the injuries that football players obtain, and its impact on 
their health later on?
    Mr. Goodell. Well, again, we are at the very early stages 
of negotiations. But I believe that we will be addressing these 
matters in a responsible fashion, that we will be able to come 
back before you at some point in time and say that we have 
addressed these in a way that is responsible.
    In the meantime----
    Ms. Waters. Mr. Chairman, I appreciate the opportunity for 
the hearing.
    I know my time is drawing to a close, but let me just say 
this to Mr. Goodell and everybody who is here today, that I 
think it is time for the Congress of the United States to take 
a look at your antitrust exemption. I think that you are a, 
what, $8 billion organization who have not taken seriously your 
responsibility to the players.
    The fact of the matter is, yes, people want to play. The 
fact of the matter is they are going to be injured. And we 
know, no matter what kind of helmet you build, no matter what 
kind of equipment that you have, it is a dangerous sport and 
people are going to be injured.
    The only question is, what are you going to do? Are you 
going to pay for it? Are you going to pay the injured players 
and their families for the injuries that they have received in 
helping you to be a multibillion-dollar operation? That is the 
only question.
    And I know that you do everything that you possibly can to 
hold on to those profits. But I think the responsibility of 
this Congress is to take a look at that antitrust exemption 
that you have and, in my estimation, take it away.
    I yield back the balance of my time.
    Mr. Conyers. I thank the gentlewoman for her modest 
suggestions.
    The Chair recognizes Howard Coble, North Carolina.
    Mr. Coble. Thank you, Mr. Chairman.
    And thank you all for your testimony.
    Mr. Martin, Dr. Culverhouse, and Mr. Hoge mentioned this in 
their testimony. What does the alumni association have to say 
to active pro, college, and high school players about the 
importance of early and completely presenting to team 
physicians any symptoms that may have been caused by 
concussions, knowing full well, as has been pointed out, 
players are plenty reluctant to do it for fear of maybe losing 
a college scholarship or losing a lucrative pro contract?
    What do you say to that, Mr. Martin?
    Mr. Martin. Thank you very much for the question, sir.
    First of all, I would say that one of the major activities 
that alumni athletes have is to going back in the community and 
giving back. And we ourselves position ourselves as examples, 
both pro and con, both good and bad. And we have a platform 
that we take very seriously. And it is my job and it will be my 
responsibility to make sure that that is enhanced, particularly 
as we are addressing these very serious issues.
    The problem and the challenge that we have is disseminating 
this information among a wide grouping of constituents and that 
a lot of our members don't have this information. I think it is 
vital that they receive it. And once we obtain that 
information, we have to then be ambassadors to go back, as I 
said in my earlier point, to make sure that there isn't a 
propensity of these kinds of things happening down the line. 
And that will be our charge.
    Mr. Coble. And I am glad to hear you say that.
    Mr. Smith, in a recent New York Times piece concerning 
concussions, a former quarterback was quoted as having said, 
quote, ``They are legislating hitting out of the game,'' closed 
quote. We have had the same sort of comment from commentators, 
often retired players, echoing the same sentiment during 
television coverage of games.
    This suggests, it seems to me, that some of the retired 
players are concerned that the game is not tough enough anymore 
as a result of the rules changes made to hopefully protect 
players. How do you respond to that, Mr. Smith?
    Mr. Smith. Congressman, last weekend, I met with the 40-
person congress who represents retired players. They talk about 
the toughness of the game, but they also talk about the 
lifelong injuries that they sustained, the loss of their 
ability to keep a train of thought. When you talk to the Chair 
of the wives organization, they will tell you a story about 
players who are unable to move on Monday and Tuesdays. When I 
watched Brian Dawkins walk down the steps, who is a safety for 
the Denver Broncos, gingerly walk down the steps on a Monday 
afternoon--and while I shook his hand and went to embrace him 
he put up his hand and just said, ``Hey.'' Well, I don't think 
there is anyone who plays football today who doesn't believe 
that this is a very, very tough, tough game.
    No, we are not looking to legislate hitting out of the 
game. But, in the same way that this Congress has stepped in 
historically, whether it was the NCAA almost 40 years ago or 
whether it was other issues in professional sports, to ensure 
the safety of the players, this body works when you call a 
hearing like this, where you ask us tough questions, where we 
put forth information.
    But I do believe that this Congress, this body does have a 
role in making sure that the people who play this game on the 
professional level all the way down to the peewee football 
level are doing so safely.
    Mr. Coble. I thank you, Mr. Smith.
    Mr. Smith. Thank you.
    Mr. Coble. Dr. Weir, as your second study proceeds, what 
other research would you like to see performed to help better 
understand why, if at all, football head injuries cause long-
term neurological impairments in the players affected?
    Mr. Weir. As best I understand it, the study under way, 
under the direction of Dr. Ira Casson, should shed interesting 
light on the progression of head injury cases.
    I think it is actually of great importance to compare 
college athletes and professional athletes to those who did not 
participate, to look at the risks at each of those levels 
independently. That will probably require a larger study than 
that one is.
    I know there have been some criticisms of that study 
because it is being conducted directly under the auspices of 
the league. I think that could perhaps be addressed by an 
independent monitoring board that could come in and review 
those protocols, perhaps offer some advice on it.
    It would be a shame if that research ended up having no 
value because it was simply not considered credible. I suspect 
it will have great value. And that is the kind of study we 
need, is long-term follow-up of people, where we know what 
happened to them and we follow them afterward.
    Mr. Coble. Thank you, Dr. Weir.
    Mr. Chairman, I see the red light has illuminated, so I 
yield back. And I thank the panel again.
    Mr. Conyers. Thank you, sir.
    The Chair recognizes the distinguished gentlewoman from 
Houston, Texas, Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. And I 
thank you and the Ranking Member for this brilliant hearing.
    Actually, I would like to acknowledge, Roger, that both you 
and DeMaurice make a very good pair. And I think you should 
look at yourselves as part of the 21st-century NFL.
    I wanted to make mention, as I begin my questioning, of a 
meeting that I had this morning with NFL Hall of Famer Jim 
Brown. And we talked about the value of the NFL, the value of 
the players, particularly today. We talked about the raging 
violence among our communities and young men.
    DeMaurice, you know you have been with me, and we have 
addressed this question. We have acknowledged the fact that the 
NFL is respected and admired. The young men that are a part of 
this great family that you have can be wonderful role models. 
And, of course, Mr. Brown is aware of the dire need of 
mentorship and manhood training. He is in the room today.
    And we talked about the idea that I shared with the 
Attorney General recently that tracks Mr. Brown's program, but 
it is to build a partnership with the NFL and our government on 
this whole question of violence and, in particular, young 
African American men, young men, to create a new revolution in 
mentoring, to have NFL players out across America in these 
schools and addressing the question of manhood and how do you 
be, in essence, a manned-up man but also a compassionate, 
caring person that does not take up the gun.
    Our young people admire all of you. And I want to, myself, 
pay tribute to Jim Brown, who stayed, so that I could thank him 
for his genius on the idea of reaching out to young people.
    And I am going to, frankly, ask a very quick question to 
Mr. Goodell. Would you work with us to implement a program that 
I would like to start with the DOJ and others on this question 
of violence among our young people?
    Mr. Goodell. Congresswoman, yes, we would. As I said 
earlier in the testimony, we believe that we set the standard 
on the NFL level, that our players do, both on and off the 
field. I have spoken to Mr. Brown about the work that he is 
doing, and I encourage it. And we would welcome the 
opportunity.
    Ms. Jackson Lee. Well, I would look forward to it. And I do 
full disclosure that this separates from the questioning, but 
this would be something in addition to what you traditionally 
do, and I do appreciate the fact.
    Mr. Smith, would we be able to work with you on this issue?
    Mr. Smith. Absolutely. And you know that I am always happy 
to work with the Attorney General and to work with you, as we 
have done in the past. We have challenged our players to not 
only be good players but to be good men in their communities. 
So we would love to partner with you.
    Ms. Jackson Lee. This would be not an existing program, but 
we are talking about a whole new approach.
    Mr. Smith. Absolutely.
    Ms. Jackson Lee. And so I look forward to that issue.
    And this leads me to why I am here questioning today, 
because I want these young men to have completely vibrant lives 
into their middle ages and into their older ages.
    I thank Jim Brown for staying in the room. And we 
acknowledge and thank you for sharing your great leadership. 
Thank you so very much.
    Mr. Brown. Thank you very much.
    Ms. Jackson Lee. My questioning is in his name, but also in 
the name of Earl Campbell, my champion, my Tyler Rose, among 
many others that have come out of the great colleges in Texas. 
And let me just continue to say, keep on coming.
    But I do believe it is important--and my colleague made a 
very important point: We do not do this in anger. We do not do 
this in the need to undermine an organization that, frankly, 
there are many who will say you are America's pastime. The 
great interest of who bought the St. Louis Rams was not about 
trying to deny capitalism; it was to have you have the right 
image, the right attitude. That is why some of us expressed our 
opposition to who might be buying the Rams.
    So I would simply say to you, these are my questions, Mr. 
Goodell in particular. How does a former NFL player qualify for 
the league's pension plan and disability benefit plan?
    It is my understanding that a football player does not 
qualify for the pension plan until they have played for four 
seasons. However, the average span of a NFL career is 3.6 
years. Considering these figures, it appears that the 
substantial amount of players are not eligible for the benefits 
that the league does offer.
    Does the disability benefits plan operate under the same 
framework? So, is it not that they have to play 4 years, sir?
    Mr. Goodell. It is 3 years.
    Ms. Jackson Lee. They have to play 3 years.
    And they only stay for about 3.6. So we can imagine--Mr. 
Smith, would you imagine that there could be injuries prior to 
3 years?
    Mr. Smith. There are. There are people who do suffer those 
injuries. There are people who suffer significant injuries 
prior to their third year, second game.
    Ms. Jackson Lee. So, in actuality, this legislation, as we 
look at it, and the idea of the antitrust exemption which many 
of us are looking to consider as to whether or not that is a 
way of helping the NFL, are you suggesting that this kind of 
effort is very important to saving lives and saving future 
quality of life?
    Mr. Smith. I think anything that we can do to take a look 
at all of the information, to make reasoned decisions based 
upon that information so that we can aid more players who play 
this game, I think any step in that direction is positive.
    Ms. Jackson Lee. Ms. Culverhouse, could you just tell me 
again what you saw when NFL players had to fill out forms that 
had been so damaged? Could you just tell us again?
    I, frankly, believe this is like the robust public option: 
sick people who need help.
    Could you just give us that detail again, please?
    Ms. Culverhouse. Yes. You can imagine--I have suffered a 
concussion. I actually had a brain shear and could not access 
words for 2 years. Now, that was one concussion. You can 
imagine players who have sustained repeated concussions. They 
are now in their late 40's or 50's.
    And you look at reams of paperwork. The print is so small, 
I have trouble with my glasses. They look at it, and they say, 
``Gay, I don't remember what year, what game, what date. I 
don't remember that.'' And then they look at all of it, and 
they say, ``Is it worth it? What am I going to get? What am I 
going to get at the end of all of this?'' And they would much 
rather go home, take a pain pill, and lay on the sofa.
    It is daunting. And there are no advocates to help them 
fill this paperwork out. It is almost as though, if you have 
the intelligence to jump through those hoops, you are not 
disabled.
    Ms. Jackson Lee. Mr. Chairman, as I see the red light, let 
me just simply say this, Mr. Chairman. We are the help in this 
room. We are not the punishers, but we are the helpers.
    And, frankly, if we do need this extra hammer, which sounds 
negative, sounds punitive, I believe these young men and I 
believe the NFL for what it has become to America warrants the 
involvement of this congressional body, warrants a review, 
whether it is legislation before us, whether it is a question 
of the antitrust issue.
    Mr. Goodell, we are friends, but we must save lives. And 
these young people have so much to give America, that we must 
do that now.
    Mr. Chairman, I count myself as part of a friend of this 
great sport. I am from Texas, and, boy, are we wedded to you. 
But we want our young people to be able to live in a good 
quality of life, come back after the NFL, and share their 
stories, fighting against youth violence. And I look forward to 
being in touch with both of your offices on this issue.
    Mr. Chairman, you have been very kind. Thank you. I yield 
back to you.
    Mr. Conyers. Thank you.
    The Chair recognizes the distinguished gentleman from 
California, Dan Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    And let's not fool ourselves, football is controlled 
violence. That is the nature of the game.
    You don't have to play in the NFL to get hurt. I have five 
knee surgeries, a new hip and everything, and I didn't even 
play varsity at Notre Dame, for goodness sakes. But the 
question is, is the violence controlled?
    Teddy Roosevelt saved the game of football at the beginning 
of the last century, when things such as the flying wedge were 
allowed and players died. And the question was whether they 
were going to outlaw this game in the United States. And Teddy 
Roosevelt brought the leaders of universities to Washington, 
D.C., without legislation and said, ``Get your act together.'' 
So we don't always have to have legislation here. And I think 
this hearing does serve a very, very good purpose.
    I would like to just concentrate on two things. One is 
education, and the other is on-the-field enforcement.
    Players have a responsibility to be educated and to do the 
right thing. And we had a quarterback for the Redskins not too 
many years ago who head-butted a wall before a game and gave 
himself a concussion. We see players head-butting one another 
in celebration today. That is just nuts.
    There is peer pressure that needs to be utilized, with 
information that the commissioner's office and the owners and 
the Players Association can give to--I mean, it is not macho to 
be head-butting one another before the game, for goodness 
sakes.
    So, education is extremely important based on scientific 
information. I have no doubt about that.
    But part of that is this: And in a briefing we had with the 
NFL a little bit earlier, a couple days ago, I asked, do you 
have any control over your commentators? And the answer I got 
was ``no.'' But do you educate your commentators so that they 
don't make stupid statements about some of the plays on the 
field that will encourage that kind of conduct, maybe not by 
the players in the NFL, but by the kids watching?
    So I would hope education would be an important part of 
whatever you do, both the players and the commissioner's office 
and the owners.
    The other thing is on-the-field enforcement. We have had 
changes in rules. I am old enough to remember Jack Tatum. I am 
old enough to remember the cover story of Sports Illustrated 
where he was called ``the assassin'' and when he talked about 
trying to hit a player hard enough in the head that he hoped 
that he would drool as he was lying there on the field. And 
nobody really spoke out against that, in those days. That was 
considered, if not the norm, that was the bar that you wanted 
to achieve. And I know we have gone in a different direction 
since then, but we need to go even further.
    Tim Tebow, probably the most famous college football player 
there is today, suffered a major concussion evidently--it sure 
looked like it--and he was playing the next week. I don't think 
that met Merrill Hoge's standard of 7 days. I wonder what the 
story is there. I know there were doctors that were involved, 
but.
    And I attended a game at my alma mater just 2 weeks ago, 
and I saw a head hunter on the field that tore a helmet off a 
player, and he was left dazed. No penalty. The next week, that 
team played in the LA Coliseum; that same player did the same 
thing to a guy, I think, from it was either Oregon or Oregon 
State. No penalty. No penalty. He tore his helmet off. He is 
the second guy hitting him 2 weeks in a row. No penalty. And 
what the Pac 10 has just done is suspended the official for not 
calling a penalty. No penalty on the player.
    Now, I realize that is college, not pro. But I would say, 
without talking about that particular instance, Mr. Martin, 
what message would that send to the team or to the players if, 
2 weeks in a row--and I will take it away from that particular 
circumstance--but, 2 weeks in a row, a player did something 
which really went after a defenseless player and no call is 
made on that player 2 weeks in a row? What message does that 
deliver to the team and to the players?
    Mr. Martin. Well, first of all, from my humble opinion--and 
thank you for the question, sir--I think it sends the wrong 
message, not only from the player himself, but also the 
coaching staff and the institution which they both represent. 
And I know that the safeguards, at least from a structured 
point of view in the NFL, those situations would not happen.
    But I think that there has to be a point where the player, 
themselves, through education, I which I think is vitally 
important, has to realize it is incumbent upon him to conduct 
himself as part of that organization.
    And that is why I am proudly old-school and proudly one of 
those that are from the yesterdays period of the NFL, because I 
have taken my responsibility of giving back to the community 
and my obligation to my teammates very seriously. And I think 
that is one of the reasons that I now head this post. And I 
would like to see more of that self-conscientiousness happen 
throughout all the sports.
    Mr. Lungren. Mr. Goodell, I just have to say that, when 
that play has been shown, the ones that I referred to, the 
commentators almost always say, ``And this person will be a 
first-round draft choice of the NFL because he is the kind of 
guy they are looking for.''
    I just want to tell you, I know it is not your 
responsibility, but that message seeps down to kids. And kids 
see that. And these are their heroes. And if that message gets 
out, that that is allowed on the playing field, frankly, you 
will have more assassins out there, and you will have more kids 
hurt.
    And I don't think we can stand to allow that to occur with 
the knowledge we now have gained from the medical community, 
which we just didn't have before, just did not have before.
    So I am taking in good faith what you have said, what Mr. 
Smith has said, what the doctors have said here. I mean, I 
truly hope you are taking this more seriously. Because the 
tragedy of the NFL players that have suffered dementia is a 
tragedy--or any player who has--but I am thinking about the 
kids coming up. And I hope that you folks are genuine in what 
you are telling us here today.
    Mr. Conyers. Thanks, Dan Lungren.
    We have two Judiciary suspension bills on the floor right 
now, which requires that we declare a recess, lunch, et cetera. 
And we will resume after a series of votes as early as we can, 
which will be probably 45 minutes to an hour.
    The Committee stands in recess.
    [Recess.]
    [2:20 p.m.]
    Mr. Conyers. The Committee will come to order. The Chair 
recognizes Bill Delahunt, the distinguished gentleman from 
Massachusetts, to continue in the discussion.
    Mr. Delahunt. I had made some notes and now I am fumbling 
for them. This has been a very informative hearing. Do we 
have--I thought I saw Dr. Cantu. Is he still with us? I take it 
he has left. Well, maybe somebody on the panel can answer this 
question. It is a medical question, I presume. The term CTE, in 
what I have read, has--the information from the research done 
has come from--as a result of autopsies. Is there a technology 
now that exists that allows for the diagnosis or determination 
of CTE in a young male that is alive? I don't see anyone that 
knows the answer to the question.
    Mr. Goodell. I am not qualified.
    Dr. Tucker. Everybody is looking at me. I am not a 
neurosurgeon or a neuropathologist. So Dr. McKee, Dr. Maroon, 
Dr. Morgenlander will be able to answer that better. The quick 
answer from my perspective as a team physician is no. It is 
not--it is not easy or simple to make a diagnosis of CTE from 
an imaging study right now. Now, certainly there are MRI 
changes associated with dementia related diseases. But 
specifically to the question you ask, my answer would be no, 
but I would defer to the----
    Mr. Delahunt. Right. I understand there is a second panel. 
But the purpose of the question I tell you what concerns me is 
obviously the league itself is the standard in terms of where 
young people--this hearing is not just about the NFL, by the 
way. It goes beyond that. I think there was testimony earlier, 
I forget from whom, that there are some 3 million participants 
in youth football today, presumably that excludes the universe 
of young men that are playing in college and even playing at 
the high school level.
    So what we have at risk here aren't just players in the 
NFL, but thousands, hundreds of thousands of young males 
participating in football in this country, probably the most 
popular sport because of the popularity of the NFL. And I guess 
my question is, if there were to be a technology that could 
serve as--there was a diagnostic test to determine whether CTE 
was present in young people as they were playing the sport, it 
would serve as an early warning of a potential problem and 
inform those personnel who are coaches, who are athletic 
directors, that this young man should not be participating in a 
sport where there is the potential for a concussion.
    And if that diagnostic tool does not exist, it might be 
incumbent on Congress working with the Administration to 
examine the feasibility providing funding through NIH or 
through some other appropriate relevant agency to do some real 
serious work to develop that so that we don't have young people 
out there playing when they shouldn't be playing and where I 
think as parents they could feel much more comfortable, because 
obviously the stories that have been related to the Committee 
by this panel are truly heart-wrenching. And as a parent, and 
your testimony, Ms. Culverhouse, was very poignant in your 
concern and affection for your players, that I am sure you 
consider as part of your extended family.
    Multiplying your feelings times literally thousands, tens 
of thousands or hundreds of thousands of, sets of parents 
really demands an answer about this issue. It is not just about 
the NFL. The NFL is here today because this Committee has 
antitrust jurisdiction. But it is an issue that really I think, 
working together, needs to be responded to. But that was--that 
was my main question. And why don't I conclude with that and 
yield back.
    Mr. Conyers. This will be gone in further in the second 
panel. The distinguished gentleman from Iowa, the Ranking 
Member of immigration, Steve King.
    Mr. King. Thank you, Mr. Chairman. I want to thank the 
witnesses for your testimony today. And one of the things that 
came out of it for me was to be in the same room with George 
Martin and Willie Wood and Jim Brown. To see them all on the 
same field together, I didn't think I would ever actually see 
that. So I appreciate that. And I want to remind the folks here 
that just as I watched on Saturday night an Iowa-Michigan State 
game, there were two injuries that resulted in players being 
carried off the field and they were both helmet to helmet 
contact. So it comes in a particularly timely fashion. However, 
as I listen to the Members of this Committee discuss this and 
we have covered a lot of the territory, I note that Sheila 
Jackson Lee said that she is concerned that owners need the 
right image and her opposition to who might be buying the St. 
Louis Rams or her reason for that is owners that might not have 
the right image.
    She wasn't any more specific than that, but we know who she 
is talking about, and that is Rush Limbaugh. But I would ask 
Commissioner Goodell this question: Your position on owners 
having the right image--and I would direct it to your statement 
on the 13th of October where you said I think it is divisive 
comments are not what the NFL is all about. I would not want to 
see those kinds of comments from people who are in responsible 
positions within the NFL, no, absolutely not. Now, I take you 
as a man of your word, but I would point out that you have a 
couple of owners that have performed lyrics in songs that are 
far more offensive. In fact, I don't think anything that Rush 
Limbaugh said was offensive. But with Fergie and with JLo, they 
have between the two of them alleged that the CIA are 
terrorists and liars. They promoted sexual abuse of women.
    They have used the N word, verbal pornography, recreational 
drug use, et cetera and they are owners of the Dolphins. And it 
is also ironic that Fergie was approved as an owner on the very 
day that you made your statement against Rush Limbaugh. And I 
would point out for the Committee the statement that Rush 
Limbaugh made is this, that seems to be the one that survives 
the criticism. And that is, I think what we have had here is a 
little social concern in the NFL. The media has been very 
desirous that a Black quarterback do well. They are interested 
in Black coaches and Black quarterbacks doing well. McNabb got 
a lot of credit for the performance of the team that he really 
didn't deserve, closed quote. Now, I have scoured this quote to 
try to find something that can be implied as racism on the part 
of Rush Limbaugh and I cannot find it.
    There is an implication of racism on the part of the media. 
That is the only quote that seems to survive the scrutiny of 
Chase checking back original sources in at least nine quotes 
that were alleged to Rush Limbaugh. And by the way, of those, 
eight are complete fabrications, they are not based on 
anything, they are not a misquote, they are not a distortion. 
They are complete fabrication. And the one that remains stands 
true and shines the light against the media, not against Rush 
Limbaugh.
    So if you are concerned about this, Mr. Goodell, then I 
would ask you are you prepared to level the same charges 
against Fergie and JLo or are you prepared to apologize to Rush 
Limbaugh today?
    Mr. Goodell. Let me try to take this in a couple of 
different directions. First off, my comments at the annual 
meeting were directed about specific comments he made about 
Donovan McNabb. And I made the point--and I will make it again 
here today--that the NFL is about bringing people together, it 
is about unity and that we do not move toward divisive actions. 
And, in fact, our teams, I think, have demonstrated that both 
on and off the field. Nothing brings a team and a community 
together better than the NFL.
    Mr. King. Mr. Goodell, were you considering those other 
quotes that I referenced when you made your statement or were 
you considering the one that was true, the one that I have read 
to you and the one that doesn't shine a negative light on Rush 
Limbaugh but on the media?
    Mr. Goodell. I am not shedding any kind of light on Rush 
Limbaugh here. I am not an expert on all of his quotes and I 
would try to reinforce something to you I said at the time. He 
was not even under active consideration as an NFL owner. This 
is--I stated this several times before, that we had not started 
a process to review ownership groups. They had not even 
determined to sell the St. Louis Rams. And it is something----
    Mr. King. You were speaking directly of Rush Limbaugh. You 
said the comments that Rush made specifically about Donovan I 
disagree with very strongly.
    Mr. Goodell. I do. Because I think Donovan McNabb is an 
outstanding young man. He is an outstanding quarterback and it 
has nothing to do with the color of his skin.
    Mr. King. I will just close with this. Here are Rush 
Limbaugh's--his position. And after 20 years on the radio, 
there is nothing there that would undermine this. He says my 
racial views? Do you mean my belief in a colorblind society 
where every individual is treated as a precious human being 
without regard to his race. And I will close with that, Mr. 
Goodell. And I would ask you to go back and take a look at the 
owners of the Dolphins and the language that is in the public 
venue, the songs that they have recorded, review those lyrics 
and I will provide some of those lyrics to you. And I will ask 
you to come back and respond to that question after the hearing 
as to whether you will put the same scrutiny on those owners 
who have really shined a negative light on the NFL as opposed 
to somebody that the NFL apparently just doesn't agree with his 
politics. I yield back.
    Mr. Conyers. The Chair now turns to the gentleman from New 
York, Mr. Weiner--oh. We will defer, we will hold our Member--
our only Member whose athletic prowess was recently displayed 
just a few days ago. But I will now turn to Mr. Steve Cohen. 
Who is a Subcommittee Chairman and the gentleman from Memphis, 
Tennessee is recognized.
    Mr. Cohen. Thank you, Mr. Chairman. And I thank the 
gentleman from New York. The game Monday night, that was here 
in the D.C. area, that, there was a running back for the 
Eagles, Brian Westbrook that was injured. He, as I understand 
it, had a grade 3 concussion, which is the max grade. The coach 
has reportedly said that he is ``counting on Westbrook to be 
back on the field Sunday against the Giants.'' From what I 
hear, that doesn't necessarily sound like he is looking out for 
the most careful approach to Mr. Westbrook's concussion. Mr. 
Goodell, do you think that Coach Reid's comments were 
appropriate that ``he is counting on him,'' which sounds like 
he is putting a burden on him to rise to the occasion of play 
after he has had a concussion just 6 days later?
    Mr. Goodell. As you say, I have not seen the quote, but I 
know Coach Reid. He has heard me repeatedly say these are 
medical decision, they must be made by medical professionals. 
My presumption would be that he has gotten medical advice of 
how he has responded to the injury and that he is continuing to 
be under very strict and very careful medical attention, and 
the doctors have given him the indication that he should be 
able to play.
    Mr. Cohen. Let me ask you this, because Dr. Culverhouse 
made clear that the doctors are the teams' doctors. They are 
counting on him. They have got to get 3 yards. It is third and 
goal, and he is the guy. Well, when he is 60 years old, he 
might not have felt that it was good to be there on third and 
goal. Shouldn't there be some independent doctor that makes a 
decision when you are going to play, or possibly play, 6 days 
after a grade 3 concussion?
    Mr. Goodell. Well, I would offer to you that I believe our 
doctors did not work for the coaches. In many cases, in most 
cases do not actually work for the team. They work for other 
institutions, highly respected well, known medical 
institutions. They are doing this as part of their either 
representation of that institution. Or they are doing this 
because this is in addition to their other private practice.
    Mr. Cohen. I am sure they do and they have got a 
Hippocratic oath, and all that stuff. But nevertheless, 
somebody signs the check and chooses among all those fine firms 
who they are going to pick. And still--just like Cesar's wife 
in the be beyond reproach, and also to be sure the player is 
being looked after, don't you think it would be nice to have an 
independent panel in these circumstances where there is a 
player looking to play within 6 days or 7 days or some limit?
    Mr. Goodell. I would say as long as it is made by medical 
professionals, I would support it.
    Mr. Cohen. Medical professionals kind of, probably, okayed 
Muhammad Ali to fight Larry Holmes, which was a serious 
mistake. He did it for the money. There are medical 
professionals that send the boxer in the ring and send the 
football player on the field and they have--I just think you 
have to look after the players.
    Dr. Culverhouse is to be commended. She obviously--I read 
about her last name on The Times on the Web. She has a great 
love for her players. Dr. Culverhouse, what do you think? Do 
you think a player like that should be sent into action with a 
doctor?
    Ms. Culverhouse. Absolutely not. Thank you. Absolutely, 100 
percent not, no. There is no way. I have suffered a concussion, 
I have watched my players suffer concussions, I have talked to 
my players about their concussions and there is no way that 
that player should be back on the field within 7 days of that 
kind of stage 3 hit, there is absolutely no way.
    Mr. Cohen. Do you think there could be a system where there 
could be a 3-member group of physicians, or just some 
independent doctor, that could be created that the AMA would 
work with here, or some neuro----
    Ms. Culverhouse. Absolutely. That is what I had mentioned 
earlier. I think that if you have an independent neurologist 
and you only really need one per game because they would work 
for both teams as independent evaluator. But these players--we 
grew up with Marcus Welby. We trusted our doctors. Even when 
they said something, we didn't want to hear, we trusted Dr. 
Welby. These players go into the NFL and they trust their 
college doc, they trust their team doc. And then all of a 
sudden, their team doc is shooting them up in the locker room 
before they go out to play so that they can make the score, so 
that they can block. And then at half-time they are putting 
cuffs around their arm to IV them for the fluid loss. Cuffs are 
not best medical practice for IV'ing a player. The player is 
not being looked after by Dr. Marcus Welby. He is being looked 
after by a coach's ally whose goal is to get the player back on 
the field and make that score.
    Mr. Cohen. Barbaro has better independent advisor, did.
    Ms. Culverhouse. Yeah, I liked that horse.
    Mr. Cohen. Yeah, I did too. And there was--okay, Mr. 
Chairman, if I could ask one last question. Doctor, where are 
the other owners? Are there other owners that have the same 
feelings that you about their players, and have spoken out on 
these issues?
    Ms. Culverhouse. Not to my knowledge. I am a rebel with a 
cause. Not to my knowledge. You have to understand also that 
Mr. Goodell works alternate the pleasure of the owners, so 
actually he is representing here every owner in the NFL because 
if he was not saying what they wanted him to say, he would be 
replaced.
    Mr. Cohen. Thank you, Mr. Chairman.
    Mr. Conyers. The Chair is pleased to recognize Judge Louie 
Gohmert of Texas.
    Mr. Gohmert. Thank you, Mr. Chairman. And I do appreciate 
all the witnesses being here, your patience with us 
particularly. And, Mr. Smith, congratulations on being 
executive director of the NFL players. I know something about 
your background. And I understood one of the benefits that was 
deemed to have someone with your prestige from Patton Boggs 
that does some lobbying, was the contacts that you had had with 
Congress. Was there something in mind that you had and have 
that Congress might do to help the NFL?
    Mr. Smith. The NFL players?
    Mr. Gohmert. The NFL player--you don't want to help the 
NFL, you just want to help the players? Because I took it you 
would want to help the whole NFL?
    Mr. Smith. I think it is right to look at both the NFL and 
the players. I think that holding this hearing today is both in 
this instance and historically one of this great body's major 
roles, to shine not only the light that comes from asking tough 
questions of people who are brought before this Committee, but 
also serving in your role to bring it--to bring it out to the 
public in general. So I think when Congress asks tough 
questions, when we are asked to come forward and present 
information, I think that is a good thing for the National 
Football League. I know it is a good thing for the players of 
the National Football League.
    Mr. Gohmert. When I say NFL as an outsider, I always think 
of the players, everybody, owners, managers, coaches, all of 
that within the NFL. That is what somebody like me sees when we 
see the NFL. So it is nice when you work better together than 
Congress does. But, Dr. Culverhouse, I really appreciate your 
compassion for the players and all. I am curious, do you see 
Congress needing to do something to step in and start telling 
owners and players in the NFL what they need to do?
    Ms. Culverhouse. Absolutely. You are the only body that can 
tell the NFL what to do.
    Mr. Gohmert. I see. Well--okay. What if we decide we don't 
want you as an owner anymore? I mean that kind of thing.
    Ms. Culverhouse. Fine with me. Get somebody honest, 
straightforward, who cares about the players in there instead.
    Mr. Gohmert. What we find here in Washington is that it 
just seems to depend on who is in office. Currently we know for 
example, from the insurance industry that when the White House 
or leaders in Congress get upset with an industry and threaten 
them and say we may yank your antitrust exemption, that they 
are willing to retaliate and do something like that. So there 
is a message there. Some of us think it is important to make 
sure that everybody plays fair and there is a level playing 
field and then make sure that in the case of the NFL you have 
got the players and the owners who have a level playing field 
on which to meet and work things out for the benefit of the 
entire NFL. But when Congress steps in, it seems like 
invariably we don't make things better, we create more 
problems.
    Look at our track record. And in fact--in view of the way 
things have gone here lately, it seems like perhaps the 
solution that some here in Congress might come up with to fix 
the NFL would to be give people more choices, give them a 
Federal-public option. We know Green Bay has a city option, but 
give them a public option where we start having government 
teams because I think if we truly had some government run 
teams, that perhaps Tampa Bay, St. Louis, Tennessee would not 
be undefeated. They would have some wins under their belt if we 
had some government teams right now. So they would have 
somebody they could beat up on. But that is my concern. And Mr. 
Goodell. That is my concern. So often when we come in and weigh 
in to an issue, sometimes we muck it up even worse.
    Ms. Culverhouse. You know, I have more trust in you than 
that.
    Mr. Gohmert. You haven't been in Congress obviously.
    Ms. Culverhouse. Hope springs eternal in my world.
    Mr. Gohmert. It springs eternal in mine and that is why I 
am still here. But I still think the role of government is not 
to be a player, but to be a referee and make sure that 
everybody is playing fairly and that is the only time that we 
should step in, but if we get too involved in the intricacies 
of any industry--ask the car dealers. Good grief. So I have 
just dealt with so many people that said if I had known what 
you were going to do with our knee by the time it got to the 
floor and got voted on, I would never have asked Congress to do 
anything. So please keep that in mind when you ask for 
anything, it may come out as something you never dreamed that 
makes things worse. But I appreciate all of your patience. I 
appreciate the pleasure that you have brought to so many. We do 
want to make sure that people stay as healthy as possible in 
such a tough game. Thank you very much.
    Mr. Conyers. Thank you, Judge Gohmert. The Chair recognizes 
Linda Sanchez of California----
    Ms. Sanchez. I believe Mr. Weiner is ahead of me in line.
    Mr. Conyers. Two interceptions, plenty of respect. What are 
you talking about? I am very delighted to recognize the 
starring player representing the Congress, Mr. Weiner from New 
York.
    Mr. Weiner. Thank you, Mr. Chairman. I want to recognize 
someone who lived up to his storied family name, Tom Rooney 
from Florida, who played a remarkable job at tight end and, 
from time to time, did that thankless of all jobs, offensive 
line, who did a great job in the game as well. I want to thank 
you, Mr. Chairman and Ms. Sanchez. I just want to establish for 
the record, Commissioner, who is Dr. Irv Casson?
    Mr. Goodell. I believe you mean Ira Casson?
    Mr. Weiner. Do I mean Ira? Ira Casson.
    Mr. Goodell. Yes. He is a doctor that serves on our MTBI 
committee as co-chair.
    Mr. Weiner. Isn't it a fact that the Committee asked for 
his presence here today and he is an employee of yours, is that 
fair to say? Do you sign some element of his paycheck?
    Mr. Goodell. He is not an employee of the NFL.
    Mr. Weiner. Does he represent you?
    Mr. Goodell. He represents the MTBI committee as co-chair.
    Mr. Weiner. We asked him to participate in this hearing. He 
was unavailable and we asked for your help in having him appear 
here. Can you just clarify the record, did you ask him to be 
here and he said no?
    Mr. Goodell. I did not get involved in that, no.
    Mr. Weiner. If you could, while I am asking my question, 
members of your staff can find that out. I also--I think the 
record should show beyond any work of any Member of Congress, 
even you, Mr. Chairman, you, Ms. Sanchez, Alan Schwarz of The 
Times has been driving this issue with some of the reporting 
and we probably wouldn't even be here today if it were not for 
some of the stories that he has written both at the college 
level and the pro level about this problem. In a recent expose 
that he published, frankly went into the questions of 
credibility about the study that the league is currently 
undertaking.
    And basically three points of contention emerge from his 
reporting. And the first is the notion that any of the NFL 
supported and funded research would lack a basic level of 
independence. That some of the statements that have been made 
on behalf of the NFL put a cloud over whatever research might 
show.
    A second concern that was raised by experts not associated 
with this debate but associated with just research is the 
relative paucity of subjects that are being studied for the 
purpose of trying to clear some of the dust around this issue 
and get down to the brass tacks which is what every Member of 
the Committee has testified what they would like to do.
    And third has been the role of this Dr. Casson who has 
taken some rather high profile positions, pooh-poohing some of 
the research that has been done and basically driving a fairly 
hard line that in fact the saying, going as far as to say, to 
question and being a little dismissive of the notion that 
multiple concussions actually do lead to problems later on in 
life. Wouldn't it be, for the purpose of this conversation, 
getting back onto a more even keel where is not seen. We had a 
member of the NFL staff refer to the research that had come--
that reinforced dementia links as phantom. Bad use of language. 
I think everyone would agree that shouldn't have been language 
that was used.
    But let me give you the context of that quote to give you a 
sense of why I think this debate is not going in the right 
direction. ``I say phantom says this''--says Joe Brown, NFL 
spokesman, ``because we have not seen this analysis in our 
office. If it was done, it was obviously written for the NFL 
players union on self-promotional lobbying purposes in 
anticipation of next week's congressional hearing.'' That is 
this one. Putting aside that lines have been drawn here, for 
the purpose of really allowing the public to have confidence in 
the end product and given that this has been characterized as a 
political issue between the players and the league and given 
that there are experts who can give sound advice on this, 
wouldn't it be perhaps most wise to put the breaks on the study 
that is going on, the ADA plan that has raised so many 
questions about its impartiality, whether it has enough 
subject, whether or not the people supervising it have not 
already formed opinions, and say let us try to error on the 
side of absolute impartiality by saying, let us try to find 
somebody separate and apart from this whole debate, but someone 
who is good at this kind of stuff, that both sides of the 
debate at this table and all sides of the debate in public can 
take a look at that information and say we have absolute 
confidence in because for those of us for whom this--this is a 
worker safety issue for a lot of us.
    I mean, putting aside whether or not we like your product, 
and I do, this is a worker safety thing, no different than if 
someone was coming off the assembly line at a production plant 
and 20 years later they all had--they all had arthritis in 
their right knee. We would look at it the exact same way, I 
would think.
    So if you can give me the answer to that question, about 
why it might not just be better for your own purposes to say 
let's take this out of the existing structure, where so many 
questions have been raised about it, and do something truly 
independent, stop this where it is, something truly 
independent, something that the league, Congress, everyone 
agrees is independent, and start from scratch to try to get 
this right?
    Mr. Goodell. Well, the answer to your question is that we 
want you to have confidence in the studies. That is one of the 
reasons, for the 15 years that we have been involved in this 
issue, we have published every piece of data that we have ever 
done. We have published it publicly, we have given it to 
medical journals, and it is part of peer review.
    So I think when you talk about Dr. Casson and others, we 
don't control those doctors. They are medical professionals, 
they are scientists, they do this for a living. They look at 
these issues independently. They draw conclusions. We have 
obviously debates----
    Mr. Weiner. Let me stop you. Are you confident of that 
today as we sit here, that Dr. Casson is an independent viewer 
of this, given some of the statements he has made? I mean, do 
you believe that?
    Mr. Goodell. Independent of what? Independent of my views?
    Mr. Weiner. No, independent of a position here. It seems to 
me that he arrives at this debate with certain notions. I mean 
look, the NFL has said research has not shown any connection to 
long-term problems in NFL players. I mean obviously that is--I 
mean today I doubt you would say that multiple concussions 
don't create long-term problems today knowing what you do now. 
The question is the confidence in this report has been 
seriously undermined.
    I mean, you read Mr. Schwarz's reporting. He went around 
and called academics and physicians, and they asked him a 
couple of questions, and they said in these important areas 
already today before a single bit of--I shouldn't say that--at 
this early stage of the research there are already so many 
questions, why continue going down this path? Why not try to 
address the structural problems in the research, you know, that 
we don't have the classic garbage in, garbage out. I mean not 
to be too harsh and not to question anyone. Just the appearance 
is clearly that this research is stacked and is lacking in 
credibility. And it is also clear that the parties involved 
have developed--I mean I think you would agree with this--have 
developed a sense of loggerheads about this issue that I don't 
think serve most of the public. I mean most members of the 
public are not partisans for the players or for the union. We 
basically want to try to get this policy right and try to make 
sure that people are protected. So wouldn't it be better to 
start, get a fresh start with a fresh report?
    Mr. Goodell. Well, we want Congress, we want the medical 
community, we want everyone involved to have confidence in the 
work that is being done, and that is why we have medical 
professionals involved. That is why we put it up for peer 
review and why they choose that. If this Committee believes 
there are ways in which we can improve that by making it more 
independent in some fashion, I would be happy to work with the 
Committee to do that. We want you to have confidence in the 
work that we are doing.
    We have led the way. Many people have taken our research 
and used it, including, it was mentioned earlier this morning, 
the Department of Defense. We have met with them and shared our 
research.
    Mr. Weiner. Well, I appreciate your willingness to assess 
this as we go along. And did you find out an answer to the 
question whether a member of your staff made any effort to 
secure Dr. Casson for this Committee?
    Mr. Goodell. I am just reading this to you as I get it. Our 
office was not asked to help get Dr. Casson to testify.
    Mr. Weiner. Thank you.
    Mr. Conyers. Thank you very much. I am pleased to recognize 
Judge Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman. I want to thank all of 
you all for being here all day and your testimony. As the 
Chairman mentioned, I am from Texas. And when you talk about 
football, we believe we are the best, you know. And I have two 
favorite college teams, University of Texas and anybody that 
plays Oklahoma. My brother-in-law played for the New York 
Giants for 5 years. Everybody plays football, wants to, I 
think. My son started at 9 years of age and went all the way 
through college, played college ball, never missed a football 
game.
    So football, as all of you all know, is something that we 
do. And this report and your testimony about this report is I 
think important for us to be aware of injuries that can occur. 
But I am really not clear as to what Congress ought to be doing 
involved in professional football. I mean if Congress gets 
involved, it would seem to me it would be the end of football 
as we know it. We would all be playing touch football out there 
on these football fields, whether it is pros or college or high 
school or peewee league.
    People know when you play football there is a chance that 
you are going to get hurt. Parents know that, players know 
that, and all of you all know it better than anybody.
    My question really is what do you want Congress to do about 
the information that all of you all have testified about and 
the report? What is it you want us to do?
    Commissioner, I will start with you on this end if you 
don't mind.
    Mr. Goodell. Congressman, as I stated in my opening 
remarks, we are not waiting to see where the medical research 
goes. We are taking steps now to improve our game, prevent 
injuries, make sure when injuries do occur that they are 
treated properly, conservatively, and safely, and that we are 
caring for our athletes. We have to do a better job of that. We 
must continue to push this research.
    I think the exposure and the issue that is raising this is 
a public issue, a public health issue. And the debate that goes 
on within the medical community is healthy because it does put 
on a spotlight to something that can affect millions of people. 
Alzheimer's itself is projected to be affecting over a hundred 
million people in the very foreseeable future on a global 
basis.
    This is a significant issue. So we want to be part of the 
solution. We want to be able to share our data, share our 
information, and continue to make progress in this area that 
will affect thousands of people that are not playing football, 
that are playing other sports, or may not even be involved with 
sports. So if our data can be helpful to that, we would like to 
be part of that.
    Mr. Poe. Well, I understand what you have said. And the 
research has been passed on to not only other sports, but to 
health professionals as well, the research that has been done. 
But that doesn't really answer my question. What do you want 
Congress to do? Do you want more research funds from Congress 
to the private sector?
    Mr. Goodell. No, with all due respect, I was asked to come 
here. So I am not asking Congress to do anything.
    Mr. Poe. Well, that might be a first. But let's just go on 
down the row if we have got time. Mr. Smith, thank you.
    Mr. Smith. Yes, sir. I think two things. One, I think 
Congress should ensure or seek to ensure that there is the 
disclosure of the aggregate medical data that is being 
collected on NFL players. I think that is one. And number two, 
to take up your point earlier, I think it is Congress's role to 
make sure that the business playing field or the other playing 
fields that businesses engage in is fair, is equal.
    So when Congress assures itself that it has done everything 
it can do in order to protect the safety of the people who play 
this game on the professional level, on the college level, on 
the youth level, I think that is Congress serving its role.
    Mr. Poe. All right. Thank you. I am about out of time. I 
will just let anybody else weigh in on the last minute that I 
have. Anybody else want to weigh in on that?
    Ms. Culverhouse. I would like you to help me keep my 
grandson from being damaged.
    Mr. Poe. And how would you expect Congress to do that?
    Ms. Culverhouse. I think Congress is very creative. I 
believe in Congress. I believe in the United States. Don't get 
me started on that. But I believe you have power that others of 
us don't, and that is why we elect you to this office.
    As a constituent with six grandchildren, I am asking you to 
please help the youth of our day now and the future football 
players of tomorrow to stay safe. Call it an OSHA deal, call it 
anything you want, but they go from being our youth in America 
to our employees. And we have, I believe, as Americans an 
obligation to make this a safer sport.
    Mr. Poe. I appreciate that.
    Last comment. Mr. Chairman, as I mentioned, you are not the 
only person with grandchildren. I have got seven and a half and 
four kids, and I think it is a parent's role to at the very 
early age to take care of the safety of their children. I 
certainly don't think the Federal Government has a role to 
intervene in that. But Congress may have a role in making sure 
that there may be some funds for research and development. But 
getting involved in the everyday operation of an NFL football 
team, Congress is not qualified to do that. Maybe we should 
stick to what we know best.
    With that, thank you, Mr. Chairman. I will yield back the 
remaining portion of my time.
    Mr. Weiner. What is that? What do we do best?
    Mr. Poe. We discuss things, debate.
    Mr. Conyers. The Chair is pleased now to recognize our 
former Subcommittee Chair, Linda Sanchez of California.
    Ms. Sanchez. Thank you, Mr. Chairman. I want to start by 
making a comment first on some of the testimony before I move 
on to the questions that I have. And I want to start with 
something that Mr. Goodell said.
    You were quick to mention some improvements that the league 
has made in the last 2 years to try to minimize some of the red 
tape and some of the hurdles for NFL retirees who are applying 
for disability benefits, and I just wanted to point out to the 
skeptics on this dais that the changes that the league made 
were very much in keeping with some of the suggestions that 
came out of the Subcommittee's hearing on this very issue in 
June of 2007, which is about 2 years ago. So for those of you 
that think that Congress is ineffective, I think the 
congressional scrutiny might have had a little something to do 
with some of those positive changes.
    Now before I get to my questioning, I want to first show a 
brief clip that is courtesy of HBO's Real Sports.
    [Video shown.]
    Ms. Sanchez. Okay. And Mr. Goodell, you are about to be 
handed a copy of a pamphlet that I believe is currently 
distributed to NFL players. And I would ask you to please read 
the highlighted portion of the pamphlet. And if I may ask 
unanimous consent to also enter it into the record, Mr. 
Chairman.
    Mr. Conyers. Certainly. Without objection it will be.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Ms. Sanchez. Mr. Goodell?
    Mr. Goodell. Yes, I read it.
    Ms. Sanchez. Yes, please. Where it starts, ``If I have had 
more than one concussion''----
    Mr. Goodell. Yes.
    Ms. Sanchez. Can you read that out loud, please?
    Mr. Goodell. Oh, I am sorry. ``Current research with 
professional athletes''----
    Ms. Sanchez. Pardon me, can you back up and read the 
question and then the answer that is in the pamphlet?
    Mr. Goodell. ``If I have had more than one concussion, am I 
at increased risks for another injury? Answer: Current research 
with professional athletes has not shown that having more than 
one or two concussions leads to permanent problems if each 
injury is managed properly. It is important to understand that 
there is no magic number for how many concussions is too 
many.''
    Ms. Sanchez. Okay. Thank you. Now, the question that I have 
for you is, I am a little concerned, and I hear the concern 
expressed by some of the witnesses on the panel today, that the 
NFL sort of has this kind of blanket denial or minimizing of 
the fact that there may be this, you know, link. And it sort of 
reminds me of the tobacco companies pre-1990's when they kept 
saying no, there is no link between smoking and damage to your 
health or ill health effects. And they were forced to admit 
that that was incorrect through a spate of litigation in the 
1990's. And my question to you is wouldn't the league be better 
off legally, and wouldn't high school and college football 
players be better off, if instead of trying to minimize this 
issue, the league took the opposite perspective and said, look, 
even if there is a risk, however minuscule, that there may be 
this link, so we really need to jump on top of it and make kids 
and parents aware of this so that there isn't this sort of 
sense that the NFL is really just slow walking the issue to 
death by saying, well, we have been studying the issue for 15 
years, we are going to maybe study it another 15 more years, 
when there is already non-NFL paid for research that suggests 
that there is this very high correlation with cognitive 
impairment? Don't you think the league, you know, would be 
better off legally, and that our youth might be a little bit 
better off in terms of knowledge, if you guys just embraced 
that there is research that suggests this and admitted to it?
    Mr. Goodell. Well, Congresswoman, I do believe that we have 
embraced the research, the medical study of this issue. As you 
point out----
    Ms. Sanchez. You are talking about one study, and that is 
the NFL's study. You are not talking about the independent 
studies that have been conducted by other researchers. Am I 
correct in stating that?
    Mr. Goodell. I am not sure of your question.
    Ms. Sanchez. There are other studies, research in dementia 
and CTE that show that there is a link. But again the league 
seems to downplay that and say, well, you know, we are 
conducting our own study and, you know, when we have that study 
completed then we will know.
    Mr. Goodell. No, I think what we are doing is because we 
have to a large extent driven this issue by making sure that we 
have medical professionals studying this issue. I am not a 
medical professional.
    Ms. Sanchez. I understand that. And I understand that Dr. 
Ira Casson is, who unfortunately is not here to testify today, 
because there are a number of really great questions I would 
have loved to have asked him. And I would think that, as the 
person who is spearheading the research and the one who is 
individually examining the players who will participate in the 
study, I think it would have been really important for him to 
be here today. And I hope that in the future--maybe you didn't 
get asked to have him here today--but I think in the future it 
would be really appreciated by the Congress if you could ask 
him to come so that we could put specific medical questions to 
him. Because you know, without him here I am not going to get 
medical answers out of you, and that is very clear to me.
    But I just want to briefly go through one of the big issues 
with respect to the research that is currently underway by the 
NFL. There are other professionals who have looked at the 
methodology. And some of the concerns have been already raised, 
but I just want to kind of go through them again. One of the 
criticisms of the study is that the statistical comparison is 
going to be between professional football players and people 
who played football in college. That is sort of like comparing 
two-pack-a-day smokers with one-pack-a-day smokers to see what 
the differences are, instead of two-pack-a-day smokers with the 
general population to see whether there is an increased risk of 
the activity that they are participating in to their health. So 
that has been an issue that I think merits your going back and 
talking to the doctors who are conducting this study about 
trying to tweak in the study.
    The second thing that really troubles me is that the 
subjects are sort of self-selected. You sent out phone calls 
and letters and asked for people to participate. Well, homeless 
people don't typically have addresses where you can send 
letters. And people with cognitive impairment, some of the 
effects of which are slurred speech, trouble focusing, memory 
loss, physical incapacity, they are going to be unlikely to 
really respond to a phone call or to a letter or to physically, 
many of the worst cases, be able to travel to New York to be 
examined by Dr. Casson. So I think you guys need to go back and 
rethink how you are selecting the participants in this so-
called unbiased study.
    And third, and this is probably the most troubling, as was 
exhibited by the clip, it appears that Dr. Casson, who is the 
only one again who is going to be examining these former 
players, has already made up a determination of what the 
conclusion of the study is going to be.
    So my question is why are you even going through, you know, 
the charade of presenting the final analysis of going through 
this study if the determination, in my opinion, has already 
been made by Dr. Casson and, you know, is denied in the 
pamphlet that they hand out to NFL players?
    Mr. Goodell. Well, first let me say I do not, and I think 
you stated that he is the only one examining these patients and 
the findings. That is not correct.
    Ms. Sanchez. He is not controlling the examinations or the 
findings?
    Mr. Goodell. I would not say he is controlling that at all, 
no.
    Ms. Sanchez. He is participating in it, though.
    Mr. Goodell. I do not know if he is participating in the 
examinations. I can find that out.
    Ms. Sanchez. And he has been a consultant to the NFL, is 
that correct?
    Mr. Goodell. He has been on our MTBI committee for several 
years, yes.
    Ms. Sanchez. And some of the people who are participating 
in this study have other conflicts of interest. You know, one 
of the committee members on the concussion committee owns the 
company that makes and markets, mainly through its use by most 
of the NFL teams, the neuropsychological test that is used in 
the study. Isn't that true?
    Mr. Goodell. I don't know the answer to that question, but 
I will find out for you.
    Ms. Sanchez. Okay. I am just concerned because there are 
several people that are part of this study that are NFL-
related, either being paid by the NFL as consultants or actual 
employees of the payroll.
    Mr. Goodell. Well, Congresswoman, I go back to something 
that I stated early on in my opening remarks. We had a medical 
conference in 2007. And you are correct to your point about the 
last hearing we had here was very helpful. And I will submit 
for the record about 20 changes that we made that are 
significant to our player benefits. And I will submit that. And 
so we do acknowledge that and we appreciate that. But I have 
also been Commissioner for 3 years. So I want to make sure that 
that is clear. You are also raising a very important point. I 
don't control the doctors' output. The doctors that we have 
involved with this, I do not judge whether they have a 
particular view going in or going out. This is a collective 
group that are tremendous professionals, that have studied this 
and other issues on a scientific basis, and this is part of 
medical debate. And I think it is clear today there is a 
significant medical debate about the impact, what that impact 
is, and at what point. As I say, we are trying to move past the 
medical debate on one level, which is control, what we can 
control and try to bring solutions.
    Ms. Sanchez. My suggestion would be, and my time has 
expired, but my suggestion would be that instead of having NFL-
connected consultants and doctors, that perhaps the true 
findings of a truly unbiased study would be better conducted by 
people who have not been on the payroll or not been retained by 
the NFL in any capacity.
    And with that, I will thank the Chairman for his patience 
and yield back.
    Mr. Conyers. Thank you very much. Tom Rooney, of recent 
amateur football fame, is now recognized, the gentleman from 
Florida.
    Mr. Rooney. Thank you, Mr. Chairman. And I want to thank 
Representative Weiner for recognizing the people on the line of 
scrimmage who are allowing you to be heroic in getting the 
defensive game ball. I am going to recuse myself from asking 
questions specifically of the panel, though I do want to thank 
you all for being here and for your testimony today.
    I, like the Commissioner, played college football at 
Washington & Jefferson, and also on the other side of the 
table, although I see that he is gone now, I was roommates with 
Merrill Hoge for a year or so. I certainly empathize with both 
sides of this debate, although like some of my colleagues, I am 
not really sure what our role in Congress should be in getting 
involved with the National Football League.
    You know, football is a very violent game. And certainly as 
one who played it and suffered concussions myself, I can say 
that those that choose to play football, those that involve 
themselves with the sport fully understand that.
    I will take the liberty, briefly, to say and to question 
the statement that was made earlier that pro football teams 
don't care about their players beyond scoring touchdowns. I 
hope that is not true. I hope that that isn't what was meant. 
And in fact I know that is not true. Beyond this hearing, but 
at least this hearing, I would say, Mr. Chairman, raises the 
serious issues of safety and head injuries, and that is a good 
thing. And I am confident that the NFL and the players union 
will continue to work together to make sure that they are doing 
everything that they can to improve the league and improve 
player safety for years to come.
    I yield back. Thank you, Mr. Chairman.
    Mr. Conyers. Thank you very much, Mr. Rooney. And I thank 
the witnesses.
    Commissioner Goodell, in response to a question from the 
gentleman from New York, Mr. Weiner, you indicated that the 
Committee never requested that Dr. Ira Casson testify. I 
understand that you would like to clarify that response.
    Mr. Goodell. I was handed a note to respond to the 
Congressman. And I have just been handed another note which I 
will read to you as I see it: ``Tell them you will check 
further to get back to them in writing tomorrow. So I have not 
been contacted.''
    Mr. Conyers. Okay. This record will be open for a while 
afterwards, so you can submit any----
    Mr. Goodell. I will check with our staff further.
    Mr. Conyers. Well, I want to thank this panel. This has 
been surprisingly well-attended. The views are various. But I 
think there are some things that we can come to an agreement on 
about the serious nature of these injuries and the fact that 
there is still more that can be done about them. And for that 
reason, I am in your debt.
    I am sorry that we took so long to complete this first 
panel. I thank you very much, and you are now excused, or 
invited to stay and hear the second panel. Thank you very much.
    Now, our final panel is Bernie Parrish; Dr. Joel 
Morgenlander, neurology at Duke University; Dr. Julian Bailes, 
Chairman, Department of Neurosurgery, West Virginia School of 
Medicine; Dr. Joseph Maroon, Vice Chair, Department of 
Neurosurgery, University of Pittsburgh; Dr. Ann McKee, 
Associate Professor, Neurology and Pathology, Boston 
University; Mr. Christopher Nowinski, Co-Director, Center for 
the Study of Traumatic Encephalopathy; Dr. Eleanor Perfetto, 
wife of Ralph Wenzel, former NFL player; Dick Benson, high 
school football safety advocate. And we will be starting off 
with--and Mr. Tiki Barber, retired NFL player.
    Because of time constraints involving Dr. Perfetto, we are 
going to invite her to testify first. She is the wife of the 
former San Diego Chargers lineman Ralph Wenzel, and currently 
serves as the Senior Director in the Pfizer Evidence-Based 
Strategies Group. She is the caregiver for her husband, who has 
early onset Alzheimer's, and has been awarded the Advocacy 
Leadership Award by the New York City chapter of the 
Alzheimer's Association. Welcome to our second panel. And I am 
delighted, Dr. Perfetto, for you to begin our discussion.

 TESTIMONY OF ELEANOR M. PERFETTO, Ph.D., M.S., WIFE OF RALPH 
                   WENZEL, FORMER NFL PLAYER

    Ms. Perfetto. Thank you, Mr. Chairman. Chairman Conyers and 
Committee Members, thank you for inviting me to speak today. My 
name is Dr. Eleanor Perfetto, and I am a pharmacist with a----
    Mr. Conyers. Pardon me, pull the mike up closer.
    Ms. Perfetto. I am a pharmacist with a Ph.D. Degree in 
public health, concentrating in health policy and epidemiology, 
and I am employed by Pfizer. I tell you that because I wear two 
hats today, predominantly as a wife and caregiver, but also one 
as a health researcher.
    The topic of this hearing is very important to me, and it 
has been for almost 15 years. I want to tell you about my 
personal experience and provide suggestions about urgent 
actions that need to be taken by the NFL to help disabled 
retired players, current players, and children involved in 
sports today.
    My husband, Ralph Wenzel, played as an offensive guard in 
the NFL for 7 seasons, retiring in 1974. In 1995, over 20 years 
after retiring from the NFL, my husband began having vague 
disconnected symptoms, depression, uneasiness, anxiety, losing 
things. Today we recognize those symptoms as resulting from 
CTE. In the years following Ralph suffered obvious memory loss 
and confusion. And in the fall of 1999, 10 years ago, at the 
age of 56, Ralph was diagnosed with mild cognitive impairment, 
which progressed to severe dementia. In the last 10 years, 
Ralph has lost his ability to work, drive, play golf, read, 
cook, and enjoy a glass of wine. He can no longer dress, bathe, 
or feed himself. He lost his sense of humor, he lost his 
personality, and he lost his dignity. He lost it all.
    Almost 3 years ago, I had to place Ralph in an assisted 
living facility for dementia patients, and he resides there 
today. Frankly, my husband no longer has a life, and he 
certainly does not have a life that he would want for himself. 
And he does not have a life that he and I would want for anyone 
else.
    In almost 15 years since our ordeal began, we have been 
through many ups and downs. You have a spouse who becomes 
aloof, disconnected, irresponsible, who may be hostile and you 
don't know why. The diagnosis is frightening, but it is also a 
relief. You finally understand why these things are happening. 
It is not you, it is not him, it is an illness.
    I cared for Ralph at home for over 7 years and I learned: 
Living wills, power of attorney, guardianship, Social Security, 
home care, adult medical daycare, psychiatric admissions, long-
term care, et cetera, et cetera. These experiences are similar 
to those of anyone caring for someone with dementia, but there 
are some nuances when caring for an NFL player.
    I also learned that our current infrastructure is based on 
providing services for your grandmother, not for a very large 
man. The staff at these facilities are afraid. They are 
intimidated. I had to buy a full-size bed for my husband 
because these facilities provide a twin bed that was much too 
small for him. My husband was lucky in one way. He has a wife 
who is educated, who works in health care. She is the one who 
filled out all the forms. She has a good job with a company 
that offers excellent health care benefits, and she also 
happens to be one very pushy broad. So Ralph has fared well 
because he has had a very strong advocate.
    But there are many out there in the situation that Ralph 
and I have been in over the last 15 years, and they need help. 
I speak with family members regularly, and I help them find 
doctors and other services. Often I simply just talk to 
distraught women and help them get through it. They turn to me 
because they have no place to go and they are finding their way 
the way I did years ago.
    So what are my asks today? What do I want to see come out 
of this? I have four. The first is that the NFL must stop its 
denial of the relationship between brain trauma and brain 
disease and become a proactive leader that it should be. The 
evidence is there. The denial is disrespectful of the players 
and the families that are suffering, and it endangers current 
players and children.
    Second, the NFL must do more to protect current players and 
children so they are not faced with this travesty later in 
life. The NFL is in a prime position to educate on and advocate 
for prevention, and it is a moral imperative.
    My third ask is that the NFL go beyond the 88 Plan, which 
assists players diagnosed with dementia. Players and families 
suffer for many years before the diagnosis comes. The NFL must 
educate and find players with early signs and symptoms to 
provide support so their families can better manage the ordeal 
before them. This is not an academic exercise. This is 
something that the NFL should be doing for all of the players, 
not a handful or a group of players that participate in a 
study. For former players like Mike Webster, the diagnosis came 
too late.
    Lastly, I mentioned earlier that I wear a second hat as a 
researcher. My fourth ask is that you examine carefully the 
studies put before you. Some will tell you these studies should 
be disregarded or that they have been misreported or that they 
have been exaggerated. I encourage you to talk with third-party 
experts about the quality of these studies. There are different 
kinds of bias. There is the bias of an opinion. Of course I 
have a bias with my husband being where he is today. I have a 
bias about the studies. The NFL has its bias about the studies. 
But there is also other kinds of methodological bias, and I 
encourage you to listen to experts about those kinds of things 
and to listen to the experts about the issues of statistical 
power.
    And I provided more details about this and examples in my 
written testimony. I know that you are not doctors and I know 
that you are not scientists, but I know and I have the 
confidence that you are able to understand clear information 
that is provided to you in these studies, especially with the 
assistance of third-party methodologists who can make all of 
this very clear, and I thank you for letting me be here today.
    [The prepared statement of Ms. Perfetto follows:]

               Prepared Statement of Eleanor M. Perfetto

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Conyers. We are grateful to you for your presentation 
and some relation of your experience, your very personal 
experience. The four asks we are going to take into careful 
consideration. And so I am going to excuse you now, because I 
know of your previous commitment. But thank you very much for 
joining us this afternoon.
    We now turn to the former running back for the New York 
Giants, Tiki Barber, who set virtually every career offensive 
record for the Giants. And being voted three times NFL Pro 
Bowl, all time records with the Giants for a number of things. 
And we are lucky to get this perspective, because here is a 
person that retired at a relatively young age, and he is now a 
correspondent for the Today Show.
    Welcome, Mr. Barber.

          TESTIMONY OF TIKI BARBER, RETIRED NFL PLAYER

    Mr. Barber. Thank you, Chairman. I appreciate you being 
here. I appreciate being here. Mr. Goodell, it is good to see 
you as well.
    It is a privilege and an honor, and also a little bit of 
source of entertainment to hear some of the tangential 
conversations surrounding our discussion on brain injury. I 
have one ask of this Committee, and I will be brief. And I will 
get to it shortly.
    I played football for 10 years. I had exactly two 
concussions, both of which I came back from in the same game. I 
was not affected. As you mentioned, I retired really for a 
quality of life decision, so that I didn't lose my knees, I 
didn't lose my cognitive abilities, and I could live a 
productive life.
    My other hat that I wear, as you mentioned, is with the 
``Today Show'' and ``NBC News.'' And a story that I have been 
working on recently involves new helmet technology and the 
troubles that high school kids have with concussions. In the 
course of our research and our studies, we met with Vin 
Ferrara, who is here. He is the creator of a new helmet called 
a Xenith. But what he told me most that troubled me about high 
school athletics is that less than half of high school teams 
have access to an athletic trainer. Now, you can all understand 
why that can be dangerous.
    In the National Football League, as much as you hear the 
anecdotal evidence, you hear the bile that comes from people 
who think that the NFL is not addressing this issue. At the end 
of the day, it is a player's choice. When we get injured, when 
we break our arms, when we break our fingers, when we pull our 
hamstrings, when we get concussions, ultimately the doctors 
give us advice, but it is our choice to go back into the 
football game. At a high school level, it is not so much so 
because they do not have the advice.
    My ask of you is that you find a way to mandate that every 
high school athletic program has access to medical doctors who 
can diagnose, understand, and treat concussions so that kids 
who are trying to emulate and be like me and be like the 
current players in the National Football League know the 
dangers of playing the sport that we all love.
    I thank you for your time.
    Mr. Conyers. That is a very important aspect that sort of 
blends into our next witness, Dick Benson, who as a result of 
the tragedy in his family has a Texas law named after his son. 
And it goes to the same point that has been raised, the 
hundreds of teenagers who have been seriously injured, some 
killed, because of their lack of information about concussions.
    Welcome, Mr. Benson, to our hearing. And you may proceed.

 TESTIMONY OF DICK BENSON, HIGH SCHOOL FOOTBALL SAFETY ADVOCATE

    Mr. Benson. Thank you, Mr. Chairman, and Members of the 
Committee for the honor to testify in front of you. I have a 
short story to tell about the untimely death of my 17-year-old 
son, excuse me, who died of a head injury he received in a 
football game. And this football team had trainers and had 
doctors and is an elite private school. It had generally the 
access to the best of everything, but it wasn't effectively 
employed. We had a team doctor, for example, but as is common 
in Texas and maybe in the rest of the country, the team doctor 
was an orthopedic surgeon. And for all I know, he may have been 
the best orthopedic surgeon in Austin. But he admitted later 
under oath that he didn't know how to diagnose a concussion, 
and yet he was a team doctor of our team.
    These kids die of head, neck, heart, heat, and asthma-
related injuries. That is what kills them. They don't die of 
orthopedic injuries. Now, if orthopedic doctors want to be team 
doctors, if it is a franchise that is commercially or morally 
valuable to them, I think that is great. I simply ask that they 
get the training in emergency sports medicine that will enable 
them to be qualified to handle these kind of injuries.
    Additionally, our law, called Will's Bill, after my son, 
requires that the coaches, the trainers, the sponsors of any 
competitive activity in public schools in Texas get that 
training. That includes band directors. And the reason we have 
band directors is you know we have 105 and 100-degree days in 
Texas in August when the band is working out, and we have had 
heat-related injuries on the part of band members. So those 
band directors need to have the same kind of training for heat-
related injuries.
    I think most importantly, what we have asked for, and 
frankly I am sorry to say that the most uncertain I am about 
the legal compliance, is the training for the kids. You know, 
we have a concept in our society called informed consent. And I 
don't think anybody can make the argument that a 16 or 17-year-
old kid, no matter how intelligent or no matter how emotionally 
mature, can give informed consent unless he has gotten the 
information. And we require that in Will's Bill. And I am not 
completely sure it is being delivered.
    The gentleman on my left, Mr. Nowinski, has written an 
outstanding book about the issues of concussion and head injury 
called Head Games. I refer it to all of you. And I challenge 
you to read it and not come back with a moral sense of the 
necessity for action.
    Now, there has been some earlier objection that maybe the 
Congress shouldn't be making these rules, maybe the NFL and the 
players union shouldn't be making those rules--or should make 
them for themselves. Who speaks for the 2 million young people 
who benefit or suffer from those rules? Nobody in that setup. I 
think you should make some rules because you can. And if you 
don't want to, I would like to see your list of who you think 
is going to step in.
    Getting Will's Bill passed in Texas was very difficult. It 
took 4 years. It took two professional lobbyists. It took lots 
of money. It took lots of phone calls. It received virtually no 
public opposition and received massive private opposition from 
that huge slice of Texas culture that is concerned with 
football. I don't know if you know or not, but in small town 
Texas, and I would include some pretty affluent suburbs of big 
towns in this particular definition, the most important man is 
the football coach. And if you are running for public office in 
Texas on a statewide basis, you make it your business to try to 
get every football coach you can to be an endorser of your 
campaign because they have so much to say about the future of 
the children.
    So football is part of Texas culture. And I must say, based 
on my observation beyond that, it is a cult as well. And like 
most Americans, you know, we all love not to be told what to 
do. Simultaneously, we love to tell other people what to do. 
And I am sure that describes me as well as it does the football 
culture.
    But finally, we made some progress frankly because we made 
a breakthrough with a male coach who was the head of the girls' 
coaches association in Texas. And he came in and he persuaded 
the boys' football coaches, and they persuaded our public 
entity, the University Interscholastic League that is 
responsible for all of this, and we finally achieved it, and we 
had broad bipartisan support, and it was signed by the 
Republican Governor of Texas, Governor Rick Perry, in 2007.
    So my one request is don't let it happen again, please. 
Thank you.
    [The prepared statement of Mr. Benson follows:]

                   Prepared Statement of Dick Benson

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thank you very, very much, Mr. Benson.
    Chris Nowinski is the former World Wrestling Entertainment 
professional wrestler who turned his background as a Harvard 
football star into one of the most entertaining and probably 
hated characters on television. He debuted on the World 
Wrestling Entertainment flagship program in 2002, when he was 
named newcomer of the year, and was the youngest male hard core 
champion in history before his career was ended by a 2003 
concussion. And he began a quest to better understand his 
condition. And his relentless effort has resulted in a lot of 
educational work. And he specializes in commercial strategy and 
licensing. And if I am not mistaken, he has also published a 
book on the subject.
    We are very pleased to have you here, Mr. Nowinski.

TESTIMONY OF CHRISTOPHER NOWINSKI, CO-DIRECTOR, CENTER FOR THE 
STUDY OF TRAUMATIC ENCEPHALOPATHY, BOSTON UNIVERSITY SCHOOL OF 
                            MEDICINE

    Mr. Nowinski. Thank you. Mr. Chairman, Ranking Member 
Smith, and Members of the Committee, thank you for the 
invitation to testify today on an issue that has become my 
life's work.
    My name is Chris Nowinski, and I am a Co-Director of the 
Center for the Study of Traumatic Encephalopathy at Boston 
University School of Medicine, and also Co-Founder, President 
and CEO of the nonprofit Sports Legacy Institute, which is 
dedicated to solving the sports concussion crisis, as well as a 
member of the board of directors of the Brain Injury 
Association of America. But when it comes to my personal 
identity, I will always see myself as a former Harvard football 
player. And I hope to provide a unique perspective as a former 
player, current brain trauma researcher, and post-concussion 
syndrome survivor.
    When I learned I was following Merrill Hoge, whose story he 
shared with me for my book Head Games, I realized that you 
don't need to hear my personal story. You only need to know 
that I also lost my career as a professional wrestler with 
World Wrestling Entertainment and then lost the next 5 years of 
my life to post-concussion syndrome all because I ignorantly 
tried to push through concussions.
    After the damage was done, I was lucky enough to find Dr. 
Robert Cantu. He taught me for the first time that repetitive 
brain trauma can lead to cumulative damage. Second, he told me 
that had I rested any of the concussions I had received, I 
would have limited that damage. But it seemed very strange to 
me that I was a 24-year-old with a Harvard degree and over 11 
years of brain trauma under my belt, and I had no idea the risk 
I was taking or how to protect myself. When I began asking 
around with the men I played with, I learned that no one had 
told them either. And that is when, 6 years ago, I decided to 
dedicate my life to this issue. But while 6 years ago I had a 
notion that something was wrong with football and other contact 
sports, now when led to the diagnosis of CTE by Dr. McKee and 
others, and the diseased and battered brains of ex-football 
players, combined with the lack of awareness of the 
consequences of brain trauma, I am certain that radical 
measures are needed for football to continue safely.
    CTE is an ugly disease that slowly kills brain cells and 
connections. I don't know if I have CTE inside my head right 
now because today we cannot diagnose it while someone is alive. 
But it doesn't matter if I know, because we cannot treat it and 
we cannot cure it. Today we can only prevent it.
    But to do this, we have to dig deep and find the will. 
Because this Friday night in towns across America you can be 
sure we are creating it. This Friday night over a million kids 
will take to the football field, one in eight boys in America. 
One in eight boys plays football at the high school level. And 
thousands will suffer concussions.
    One, a fictional boy we will call Mike, will take a hit to 
the head number 1,000 this season. But this one will make him 
feel stunned and confused. And he will see double and forget 
where he is for a few moments. He will begin walking toward the 
wrong sideline, a clear indication he is concussed. And his 
coach, who is a good guy, but was never trained on the dangers 
of concussions, will see it and think, oh, he just got a little 
dinged. The referee will notice, but he won't know if it is his 
place to say something. Sometimes an athletic trainer might 
notice, but Mike's high school is one of the 58 percent without 
one. So Mike won't know to say something because Mike's brain 
isn't functioning correctly. So a teammate will grab Mike by 
the jersey and pull him back into the huddle. Mike's parents 
will notice from the stands, but they don't understand. All 10 
other guys in the huddle will see that Mike's concussed, but 
that happens all the time. So instead of calling time out, they 
just keep telling him the play over and over when he forgets 
while walking to the line of scrimmage. The teammates don't 
know that by playing, Mike is exposing himself to further brain 
damage or sudden death from second impact syndrome. After a few 
more plays, Mike appears better, although he has a raging 
headache he doesn't tell anyone about. The concussion is never 
diagnosed.
    What happens to Mike? I don't know. He might be fine or he 
might be laying the groundwork for CTE, or next week he might 
get another concussion, and if that doesn't kill him, the post-
concussion syndrome might be so bad that he can't focus in 
class, his grades slip, and he becomes unmotivated, and his 
promising life becomes permanently derailed. While the 
discussion of the concussion crisis has primarily been focused 
on the professional game, the focus needs to be on youth 
football.
    As we now think of how to solve this crisis, remember that 
95 percent of the players are under the age of 18 and under the 
age of consent, as Mr. Benson said. So the idea that we know 
what we are getting into is erroneous. The fact is we aren't 
even giving these kids a chance to protect themselves. In fact, 
for most kids, the only source of this information would be the 
great work that is coming out of the New York Times, because 
there is no formal education for kids.
    So when I think of the immense scope of the problem, I am 
reminded that football has not always been played as it is 
today. In 1905, the game was so dangerous that President 
Theodore Roosevelt summoned leaders to Washington for a summit 
on how to make the game safer. He threatened to take action in 
the absence of significant reform, and he got it.
    Today it is important to realize that football has evolved 
into something it was never intended to be. I believe the CTE 
research has shown us that it is time for a new change, and 
maybe even a new committee like Roosevelt's. Except this time I 
think it is a committee to save football, because we cannot in 
good conscience allow this scenario to continue.
    If we agree that the game is broken and needs to be fixed, 
we can develop a solution, and that solution may be easier than 
we think. Today the members of the Sports Legacy Institute, 
including doctors and ex-NFL players, posted a 10-point plan on 
how to save football at our Web site at sportslegacy.org, which 
I would like to enter into the record.
    Mr. Conyers. Without objection, it will be.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Nowinski. Thank you.
    The document highlights 10 different proposals to create a 
safer game. And everything is on the table, from rule changes 
to mandatory education. The first proposal, to reevaluate how 
we practice, could cut the number of blows to the head in half. 
Imagine if we only allowed hitting 1 day a week. The plan as a 
whole could easily eliminate 75 percent of brain trauma and 
concussions without fundamentally changing football. It is 
simply a question of leadership.
    So much of this crisis has mirrored big tobacco and the 
link between smoking and lung cancer. And I ask you if you were 
able to create all the smoking laws and awareness we have today 
back in the 1950's when the first conclusive pathological 
research was done linking smoking to lung cancer, would you 
save those millions of people who smoked without understanding 
the risks?
    As you listen to Dr. McKee next describe these diseased and 
battered brains of former football players, think of it as if 
you are hearing the first cases of pathologically described 
lung cancer from smoking. But in this case remember that the 
choice these men made to play football was made when they were 
just children. And then think about what you are willing to do 
to ensure this doesn't happen to future generations. Although 
there has been progress, the NFL has not been eager to take 
this on. So maybe it is time for another committee, a committee 
to save football. Let's not let this opportunity pass us by.
    Thank you.
    [The prepared statement of Mr. Nowinski follows:]

               Prepared Statement of Christopher Nowinski

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thanks, Mr. Nowinski.
    Mr. Benson?
    Mr. Benson. I am sorry, Mr. Chairman, but I forgot, I have 
a paper written by Vin Ferrara, who invented the Xenith 
football helmet technology. He is the CEO. It is a very well 
considered, carefully thought out paper, much like the one that 
Mr. Nowinski is talking about. And with your permission, I 
would like to introduce it into evidence.
    Mr. Conyers. We would be happy to accept that paper, and 
thank you.
    Mr. Benson. Thank you, sir.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Conyers. Dr. Ann McKee has a lot of experience, medical 
experience. She was Assistant Professor of Nuclear Pathology at 
Harvard Medical School, and then became Associate Professor of 
Neurology at Boston University School of Medicine, has served 
as the Director of the Neuropathology Corps of Boston 
University. She has conducted groundbreaking research on CTE. 
She is the chief neuropathologist at Framingham Heart Study. 
She also has the same title for the Boston-based Veterans 
Administration Medical Centers and for the Sports Legacy 
Institute. And we are so pleased that you could join us this 
afternoon.

TESTIMONY OF ANN C. McKEE, M.D., ASSOCIATE PROFESSOR, NEUROLOGY 
      AND PATHOLOGY, BOSTON UNIVERSITY SCHOOL OF MEDICINE

    Dr. McKee. Well, thank you, Mr. Chairman and Members of the 
Committee. It is a pleasure to be here. And I am glad to speak 
on an issue that I think is extremely important.
    My name is Dr. Ann McKee, and I am an Associate Professor 
of Neurology and Pathology at Boston University Medical School. 
I received my medical degree in 1979, and I am board certified 
in both neurology and neuropathology.
    I come at this issue with a slightly different perspective. 
I examine the brains of individuals after death. And for the 
past 23 years, I have examined the brains of thousands of 
people, brains from people from all walks of life, and from 
individuals who lived to be well over the age of 100.
    Through Chris Nowinski's efforts in early 2008, I had my 
first opportunity to examine the brain of a retired 
professional football player. It was the brain of John 
Grimsley, a former linebacker for the Houston Oilers, who had 
died of an accidental gunshot wound while cleaning his gun at 
the age of 45. According to his wife, he was concussed three 
times during his college career and eight times during his NFL 
career.
    John began showing changes in his behavior and cognitive 
decline at the age of 40. He developed difficulties in short-
term memory, attention, concentration, organization, planning, 
problem solving, judgment, and ability to juggle more than one 
task at a time. He would ask the same questions repeatedly over 
the course of the day, and would ask to rent a movie that he 
had already seen. He had trouble assembling his tax records, 
shopping alone, and understanding television. He developed a 
shorter and shorter fuse, and would become angry and verbally 
aggressive over seemingly trivial issues.
    When I looked at his brain on postmortem examination, I 
found a massive buildup of tau protein as neurofibrillary 
tangles. The neurofibrillary tangles were distributed in a 
unique pattern, a pattern not found in any other 
neurodegenerative condition except chronic traumatic 
encephalopathy, or CTE. In CTE, tau protein builds up in the 
individual nerve cells, preventing them from making normal 
connections with other nerve cells, and eventually killing the 
cells. In this man's brain there were massive numbers of NFTs, 
so many that you could see the abnormalities on the glass 
slides without the use of a microscope, as you can see in the 
middle panels of the figure that is being presented. There is 
tremendous accumulation of tau protein that appears as a brown 
pigment. All the brown pigment you see is abnormal. And please 
compare what you see in the middle panel, John Grimsley's 
brain, to the brain of a normal man on the left, where you see 
absolutely no brown pigment.
    All these slides are prepared and stained in the identical 
way and there is no brown pigment visible in the normal 
individual, whereas the brain of this 45-year-old husband and 
father at the prime of his life showed profound changes of CTE. 
In John's brain, there were striking changes in regions of the 
brain that controlled personality and behavior, such as the 
frontal lobes. There were extreme changes in areas controlling 
rage behavior and impulsivity, such as the amygdala. And there 
were severe changes in areas that are also responsible for 
memory, such as the hippocampus.
    I remind that you in a normal 45-year-old, absolutely none 
of these changes would be found. In fact, you wouldn't find 
these changes in a normal 65-year-old, 85-year-old, or 110-
year-old.
    The next five brains that I examined from former NFL 
football players all showed the same distinctive changes of 
chronic traumatic encephalopathy, including the brain of Thomas 
McHale, a former Tampa Bay Buccaneer.
    The seventh brain of a former NFL player I analyzed was 
that of Louis Creekmur, a former offensive lineman for the 
Detroit Lions and an eight-time Pro Bowler. Louis Creekmur 
played 10 seasons for the Lions and was famous for suffering at 
least 13 broken noses and 16 concussions. Beginning at the age 
of 58, he began to show increasing cognitive and behavioral 
difficulties that included memory loss, problems with attention 
and organization, and outbursts of anger and aggression.
    Mr. Creekmur was a member of the NFL's Plan 88. He died 
from complications of dementia at the age of 82. The brain of 
Mr. Creekmur showed extensive damage. There were widespread 
NFTs throughout his brain in the unique pattern that is found 
in CTE. There was no evidence of Alzheimer's disease or any 
other neurodegenerative disorder. The findings indicated that 
if Mr. Creekmur had not sustained repetitive head trauma during 
the play of football, he would be alive and well today enjoying 
his family and grandchildren.
    I also have examined the brain of a high school player who 
suffered several concussions and died at the age of 18. Now, 
the brain from an 18-year-old man should be perfect. There 
should be no abnormalities anywhere. But in the brain of this 
young man at the age of 18, there were already spots of extreme 
damage and you could see the areas of damage, looking at the 
slides again, just with your naked eye as you see in the top 
panel in the red boxes. Those are areas of extreme damage found 
in an 18-year-old high school football player.
    These are changes--the earliest changes of CTE, had he 
lived longer he certainly would have developed the same full 
blown CTE we have found in college and professional football 
players.
    I have now examined the brains of seven former NFL players 
and four college players, and I have found the profound changes 
of CTE in all of them. I have also found the earliest changes 
of CTE in a high school football player.
    I realize this is only a handful of cases. So what can you 
say about that? What can you say about only 11 cases? Well, 
what I can say is for the past 23 years I have looked at 
literally thousands of brains, from individuals of all walks of 
life, of all ages, and I have only seen this unique pattern of 
change with this severity in individuals with a history of 
repetitive head trauma, and that has included football as well 
as boxing.
    None of my colleagues has ever seen a case of CTE without a 
history of head trauma, and there has been no documented case 
of CTE in the medical literature that did not occur without 
head trauma. The changes that we have seen today are 
dramatically not normal. There is no way that these pathologic 
changes represent a variation in normal that we would find 
under a bell-shaped curve. We have found these changes in every 
professional football player's brain that has come into the 
CSTE laboratory, and I have never seen this elsewhere in 20-
plus years of examining brains. I have had colleagues of mine 
from other institutions, including leading pathologists from 
Harvard and Mount Sinai, independently examine these brains and 
they have come up with the same diagnosis, which is CTE.
    I know that the argument is often made that there are 
hundreds of thousands of former football players, including 
professional players, that have no signs of cognitive decline 
or memory loss or personality change. But what I don't 
understand is why we are expecting that exposure to repetitive 
head trauma will cause disease in 100 percent of the 
individuals that suffer this trauma. Do we expect 100 percent 
of cigarette smokers to develop lung cancer? Do we expect 100 
percent of children who play with matches or even with 
chainsaws to get hurt. No. Even if the percentage of affected 
individuals is 20 percent, or 10 percent or 5 percent, there 
are still thousands of kids and adults out there right now 
playing football at all levels who will eventually come down 
with this devastating and debilitating disorder. And as a 
doctor and as a mother, I think this calls for immediate 
action. We need to take radical steps to change the way 
football is played and we need to change this today.
    [The prepared statement of Dr. McKee follows:]

                   Prepared Statement of Ann C. McKee

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Conyers. Thank you so much for your testimony.
    Dr. McKee. Thank you. And I just want to introduce also a 
paper that we have written for your consideration.
    Mr. Conyers. We will accept it into the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Conyers. Dr. Joseph Maroon, board certified Clinical 
Professor of Neurological Surgery, the University of Pittsburgh 
Medical Center, Vice Chairman of the Department and the Heindl 
Scholar in neuroscience. He has clinical and research 
interests. He has worked with neuropsychologist Mark Lovell, 
and with him they have developed the first computerized system 
to determine concussion severity and the timing for return to 
contact sports. It is now the standard of care for concussion 
management in the football league, the hockey league, Major 
League Baseball, NASCAR and is used in over 2,500 colleges and 
high schools in the United States.
    He has been team neurosurgeon to the Pittsburgh Steelers 
for 20 years and honored by neurosurgical societies around the 
world, and has been honored in more than one Hall of Fame in 
addition.
    We are delighted and honored you would be with us today, 
Dr. Maroon. You are invited to proceed.

  TESTIMONY OF JOSEPH MAROON, M.D., VICE CHAIR, DEPARTMENT OF 
             NEUROSURGERY, UNIVERSITY OF PITTSBURGH

    Dr. Maroon. Thank you very much, sir. I am here first as a 
neurosurgeon from the University of Pittsburgh Medical Center, 
with a career-long interest in preventing head and neck 
injuries in sports, and in particular football. I am also here 
as a former collegiate football player myself. I went to 
Indiana University on a football scholarship, which was good 
and bad. I went there and had a concussion like Mr. Nowinski, a 
very significant concussion that erased about 2 to 3 weeks from 
my mind but it also forced me to quit football and apply to 
medical school. So I probably wouldn't be here if it weren't 
for that concussion.
    Thirdly, I am here as a team neurosurgeon for the 
Pittsburgh Steelers, and I have been very, very honored and 
pleased to work with three Super Bowl coaches, Coach Charles 
Noll, Coach Bill Cowher and Coach Mike Tomlin, and I must say 
at no time in my 25 years of professional career with that 
sports organization have I ever felt any pressure, any coercion 
or any suggestion that I should modify my diagnostic or 
decision making for any particular individual.
    I must challenge Dr. Culverhouse in that regard in 
suggesting or intimating that most college or most professional 
team doctors are in the pocket of the team owners or compromise 
their own scientific and their own medical integrity for the 
team. I don't think that is the case now. In days gone by, it 
may have--there may have been some of that. But at the present 
time, I would strongly dispute that.
    In addition, I was challenged once by Coach Chuck Noll in 
1990 when I told him that his starting quarterback could not go 
back to play against the Dallas Cowboys the next week because 
he had a concussion. And he asked me why can't he? I said well, 
the guidelines say such and such. He said who wrote the 
guidelines. And then basically he said look, Maroon, if you 
want me to keep an athlete out of football, I want objective 
data that you can show me indicating that there is something 
wrong with his cognitive ability.
    It was at that point that I called Mark Lovell, a 
neuropsychologist. And we went into the medical literature and 
we designed a test subsequently called impact which measures 
concentration, the ability to focus and memory and also 
reaction time to 1/100ths of a second. Dan Rooney and Coach 
Noll then allowed us to do the whole Pittsburgh football team, 
and subsequently there have been over 75 papers written 
validating the test and confirming that it is a neurocognitive 
test that is baselined--the athletes are baselined before the 
season and, if there is a concussion, retested to assess 
cognitive functions, which is an extremely important aspect 
that all of the panelists have spoken to at this point.
    And fourthly, I am here on behalf or as part of the MTBI 
committee of the NFL. So I am here to tell you four things. 
Number one, concussions are serious problems. I know personally 
and they have the potential for long-term neurological damage. 
At the University of Pittsburgh, we see 150 athletes a week. I 
am going to say that again. 150 athletes a week with post-
concussion syndrome. This is a very serious entity and one that 
we must work to prevent.
    I am here also to tell you that prevention is essential. 
Hippocrates, the Father of Medicine, said that the first 
responsibility of a physician is to prevent illness. If that be 
impossible, to cure it. Unfortunately, we don't have any cures, 
as Mr. Nowinski said and Ann McKee, for this entity of post-
traumatic problems.
    Third, I am here to tell you that from my experience, the 
NFL is a model in concussion management. The things they are 
doing, and I will go into that in just a second, are exactly 
what should be passed on to youth football. Merril Hoge this 
morning, who I will say I personally, after evaluating Merril 
after his concussions, advised him to quit football based on 
his neurocognitive tests and his examination. I suggested, 
Merril, this is not good for your brain. And fortunately he 
listened. But as he said, there are 3 million youth athletes. 
There is 1.1 million high school athletes. There is 50,000 
college athletes. All of these need to have the same 
protective, preventive measures in place that are used for our 
professional athletes.
    And I would go farther than that and say that what 
Congressman Pascrell said this morning about our troops in 
Afghanistan and Iraq, they should have the same benefits as our 
NFL quarterbacks in terms of when they should return to combat.
    Finally, what is the NFL doing? You have heard of the NFL 
committee that was formed 15 years ago. So they have not had 
their head in the sand. There has not been denial about the 
effects of concussion. They have published many papers and done 
research. They have also educated the players, the coaches, and 
the trainers on the significance of concussion, the long-term 
effects of concussion, and the dangers of concussion. That is 
not denial.
    Number two, they have instituted mandatory neurocognitive 
testing. They have instituted strict return to play guidelines. 
They have penalties and fines for hits to the head and there is 
a whistleblower program. If any player feels that he is being 
coerced to going back prematurely following a concussion, he 
can call a hotline and immediately have assistance in this.
    And fourth, there is continued research going on. I was so 
pleased today when the Commissioner stated that he is now--that 
the NFL is going to make a joint effort to participate in the 
CTE programs that are looking at this in terms of the research 
going on.
    So I think in summary, I commend you, Mr. Chairman, and 
your Committee for bringing everyone together today in this 
meeting and also putting the national spotlight on this problem 
so that it can have a positive effect on the millions of kids 
who aren't playing professional football.
    Thank you.
    [The prepared statement of Mr. Maroon follows:]


                  Prepared Statement of Joseph Maroon
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Conyers. We are indebted to you. And we look forward to 
our discussion as soon as we finish up with Dr. Julian Bailes, 
Chairman of the University of West Virginia Medical School's 
Department of Neurosurgery. During his career, he was a 
finalist in the National Association of Emergency Medical 
Physicians' Cerebral Resuscitation Program Competition and has 
been awarded the West Virginia School of Medicine Dean's 
Excellence Award for his work there. He has received research 
grants that nearly reach $27 million in amount and has 
investigated head injuries in numerous football players, has 
publications, several that are mentioned here that will be put 
in the record.
    Thank you, Dr. Bailes, for joining us. We appreciate your 
patience.

   TESTIMONY OF JULIAN BAILES, M.D., CHAIRMAN, DEPARTMENT OF 
   NEUROSURGERY, WEST VIRGINIA UNIVERSITY SCHOOL OF MEDICINE

    Dr. Bailes. Good afternoon, Chairman Conyers and Ranking 
Member Smith and Members of the Committee, And I appreciate 
being able to meet with you.
    My background is as a former player for 10 years, a 
sideline physician at the NFL or NCAA Division I level for the 
last 20 years, a neurosurgeon who runs the neurological service 
of a busy Level I trauma center, and as a laboratory researcher 
using models of concussion. I am also the father of five 
children, and I will say up front that I think football is the 
greatest sport in America and it is the one that I love the 
most.
    I have worked extensively at the Brain Injury Research 
Institute with Dr. Bennet Omalu, the neuropathologist who first 
discovered CTE in the former Hall of Famer, Mike Webster, in 
2002.
    My current position, as you said, is Professor and Chairman 
at West Virginia University Department of Neurosurgery. In 
2000, Frank Woschitz, who was the Executive Director of the 
NFLPA retired players, asked me to set up a center to study the 
health of retired players, which we did. We put it at the 
University of North Carolina Chapel Hill. I remain the Medical 
Director, Kevin Guskiewicz is the Center Director. And we 
looked at all sorts of health issues of retired players. We 
found expected incidence of heart problems and aches and pains 
and spinal problems and arthritis. But what surprised us way 
back then was out of this big funnel of data came the issue 
that these guys were cognitively impaired, the mental problems 
they were having. And that was way more than we expected or 
that you would expect for the population age-matched controls. 
The only risk factor we found for them having CTE--we analyzed 
all of their past medical history--was three or more 
concussions and if they had had three or more concussions 
during their career, they had a five times increased chance of 
having been diagnosed with cognitive impairment. Cognitive 
impairment is not good, because within a decade the vast 
majority of those people go on to being diagnosed as having 
Alzheimer's disease.
    We published that 4 years ago. So that has been out there. 
Two years ago we published a second study that said once again 
if you have three or more concussions you had a triple 
incidence of having depression diagnosed when you were retired. 
So both of these, cognitive impairment and depression, 
obviously are not good.
    We continue our work there. We in fact have a study 
currently of retired players with great detail, the MRI scans, 
the neuropsychological testing and others, and we expect that 
study to be completed next spring.
    We were in 2000 and we remain today the only entity, the 
only center that was ever envisioned to study the health of 
players once they retire. With special standing methods used 
for detecting Alzheimer's disease, Dr. Omalu and I have gone on 
to examine the brains of 17 modern contact sport athletes.
    As you can see from the slide, a normal brain on the left 
and on the right, a slide of the first case of CTE, the great 
Steeler center, Mike Webster, who played 17 years, you can see 
the brown spots, similar to what was shown before with--
representing dead neurons, this tau protein, it is in a way 
sort of like sludge which clogs up the brain cell, the neuron. 
It can't clear it. It is portions of this dead protein in the 
brain cells and their connections. In every case, where similar 
behavioral or psychological problems, such as personality 
changes, memory loss, business and personal failures, 
depression and suicide, we found extensive areas of tauopathy, 
which is the abnormal collection of tau protein.
    Many continue to say we are going to keep studying this, we 
are going to keep after it. However, it is my scientific and 
medical opinion that we now have enough indisputable research 
from examination of the brains of dead players to the lives of 
retired players that confirms the reality of CTE. Unless 
changes occur, further injuries will happen in professional 
football players, all the way down to all levels of play.
    And we heard today a lot about a lot of changes that have 
been made and are going to be made, and I think that is great.
    I believe also that the velocity of the head impacts today 
in football are one of the biggest differences. The velocity of 
the hits and the hits to the head are a big, big part of the 
problem.
    I also think there is an emerging concept of subconcussive 
injuries. In other words, all of our energy and all of our work 
has been toward the diagnosing the player who had concussion. 
What about the players--and we have autopsied several linemen, 
none of them who had a history of concussion--who had extensive 
tau protein deposition and all died with a clinical syndrome of 
CTE, behavioral and psychological problems. So I think that 
subconcussive blows, undiagnosed concussions is more a problem 
than previously appreciated.
    I would like to conclude by saying that obviously 
concussion is a complex issue. In response to Dr. Culverhouse's 
comments, I will tell you that 20 years at the NFL level with 
the Rooney family and the Steelers and Coach Chuck Noll and 
Coach Bill Cowher and 10 years at the NCA Division Level I 
level, I never had one occasion of a coach or anyone else 
trying to influence my medical decision. So I respectfully 
disagree. I don't really think that is where the problem lies. 
I think the problem lies in maybe improving rules, always 
trying to improve helmets and realizing about velocity. I am 
here today to try to keep the game alive by making it safer.
    Thank you again for allowing me to speak, and I will be 
glad to answer any questions.
    [The prepared statement of Dr. Bailes follows:]

                  Prepared Statement of Julian Bailes

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Conyers. We appreciate your conclusions and your 
analysis. You bring a lot of experience here.
    Dr. Joel Morgenlander, from Duke University, Professor of 
Neurology, runs the Clinical Neurology Service at Duke and is 
Medical Director of the Neuroscience Clinical Service Unit at 
Duke Hospital, and he is also connected with the committee that 
works with the National Football League on this same subject.
    We welcome you, and we appreciate your patience with us. It 
has been a long day. But I think it has been more than 
worthwhile, I can say on behalf of the Members of the 
Committee, for all of you to give us this very invaluable time.

 TESTIMONY OF JOEL MORGENLANDER, M.D., PROFESSOR OF NEUROLOGY, 
                 DUKE UNIVERSITY MEDICAL CENTER

    Dr. Morgenlander. Thank you, Chairman Conyers, Members of 
the Committee.
    I was contacted 3 years ago by Dr. Tom Mayer, the Medical 
Director of the NFL Players Association. I was asked to 
consider joining the Mild Traumatic Brain Injury Committee of 
the NFL. At that time, Dr. Elliott Pellman was the Chair of the 
MTBI Committee. I was very clear with Dr. Pellman from the 
beginning that I was interested in helping with the committee's 
work on player safety as long as I was convinced the committee 
was going to take my ideas and concerns seriously. I am a 
neurologist and to my way of thinking, all concussions are to 
be avoided. I wanted Dr. Pellman to understand my vantage 
point.
    The MTBI Committee is compromised of team physicians, 
trainers, an engineer, a statistician, neurosurgeons, a 
neuroradiologist, a neuropsychologist, neurologist, and NFL and 
NFLPA representatives. I feel it is important for the Members 
of the Judiciary Committee to hear that in my 3 years that I 
participated in this work, I feel that all of my ideas and 
those of other committee members have been heard and discussed 
fairly.
    The support for our work goes past the MTBI Committee to 
the Commissioner's office. I have been privy to no hidden 
agenda during my work with the MTBI Committee. Those that I 
have worked with are focused on player safety. Our hope is that 
lessons learned will help with injuries beyond the realm of 
professional football, but the NFL players are a central 
concern.
    The issues of the MTBI Committee's work include injury 
prevention, player and medical personnel education, return to 
play decisions, and evaluations of late effects of concussion. 
During the years I have been on the committee, we have 
communicated directly with players and families about the 
symptoms of concussion to try and facilitate understanding on 
their part.
    We have held several conferences with leaders in the field 
of head injury and sports concussion, including the Department 
of Defense, to share ideas and better understand opportunities 
for future research. With the Commissioner's support, we 
instituted a rule to not return any player with loss of 
consciousness to the same game. Each team is now required to 
have a neuropsychology consultant and baseline cognitive 
testing for each player.
    We continue to work with manufacturers of helmets and other 
equipment on improvements targeted at player safety. We have 
much more to do, but I believe we are making a difference. As 
physicians, we strive to use the highest level of medical 
evidence when making evaluation and treatment recommendations.
    Unfortunately, in my opinion, the area of sports concussion 
is behind in many areas in neurology in the amount of 
prospective data on injury and recovery. Retrospective data is 
never as reliable as prospective results and associations do 
not prove causation. Therefore, at this time it is not possible 
to specifically determine the long-term risks of a single or 
repeated concussion.
    For the return of play decision, it is recommended that the 
player be asymptomatic both at rest and with exercise. As you 
have heard, the medical evaluation rests partly on the player's 
report. NFL team concussion data has shown that over the past 
several years, more players with concussion are not returning 
to play on the same day.
    Our committee has worked with team physicians and trainers 
to update our concussion report forms for the purposes of 
improving data collection and looking for clinical keys to 
player outcomes. Members of the MTBI Committee are concerned 
about reports of pathologic brain findings in retired NFL 
players and other athletes as well as nonathletes who have 
sustained multiple head injuries.
    The syndrome term, chronic traumatic encephalopathy, or 
CTE, as you have heard, appears to be pathologically different 
from other neurodegenerative diseases. In my conversations with 
the NFL players, it has become clear to me that nearly all of 
them have had concussions at some point in their careers. This 
includes concussions occurring during high school, college, and 
professional football.
    If the majority of players sustain concussions during their 
career, then why are only certain players affected with CTE? 
The majority of players lead cognitively normal lives after 
football. So what is different about these subjects that 
predisposed them to additional risk? We know that from 
Alzheimer's disease literature, genetics factors interact with 
environmental factors to advance cognitive decline in some 
patients. We do not know the effects of other medical factors, 
including illness and exposures that might have an impact on 
this repeated head injury.
    We now hear reports of high school and college athletes 
with pathologic changes of the brain consistent with CTE. Might 
there be a particular age at injury that predisposes the player 
to these late effects?
    All of these questions are very important and need to be 
sorted out in order to determine the actual risk of brain 
injury from contact sports for those who choose to participate.
    In one attempt to get more information, the MTBI Committee 
and the NFL have sponsored the retired players study you have 
been talking about. This study is an attempt to gain more 
information about middle aged retired players, comparing 
players with different NFL career duration. We are including 
past medical history and player examinations with state-of-the-
art Magnetic Resonance Imaging studies, genetic screening and 
neuropsychological testing. These tests have normative data by 
age to compare to.
    Neuroradiology and neuropsychology consultants, independent 
of the MTBI Committee, have been involved in this study both 
from design data analysis and will be involved in the 
publication. We hope data from this study will add further 
information concerning the risk to players and help improve 
future player evaluation and testing. I personally feel that 
this neuropathologic work you have been hearing about is 
important and know that those involved plan to continue.
    Players with no history of cognitive complaints are 
currently being recruited as controls and that will be 
important. Future prospective studies following a cohort of 
young players may be particularly helpful. These studies should 
include medical and concussion histories, neuropsychological 
evaluations and neuroimaging studies. Many researchers are 
interested in these areas concerning sports concussion and more 
precise information should be forthcoming.
    I hope that my testimony has been helpful to the Committee, 
and I will be happy to answer any questions you may have.
    [The prepared statement of Dr. Morgenlander follows:]

                Prepared Statement of Joel Morgenlander

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Conyers. It has been very helpful. All of your 
testimonies have left us with a whole new and important 
perspective. And, Mr. Dick Benson, I would like you to think 
along with me about two considerations that leave me to discuss 
with everybody here.
    The first is what Dr. Maroon described so eloquently is 
very important, except for the fact that many of, if not most 
of, the high school, middle school kids that are in football 
don't have the kind of people around with the talent and 
medical expertise to accomplish the excellent kind of results 
that he has reported. Pro football--well, I am assuming pro 
football does, but I don't even do that with any sincere degree 
of certainty. But I know when you go down and when you get out 
into the little leaguers where they don't have an orthopedic 
surgeon who doesn't know concussion if it hit him in the face. 
They don't have anybody. They don't have any--they don't even 
have a doctor of any kind. They trained--they trained parents 
at the school about--they give them a few things about health.
    So there is one problem, isn't it? And I want you to talk 
with me about it. But I want to get the other one out so that 
we can all talk about this together.
    The other question is that I find that I have had a little 
experience listening. I am disturbed that Dr. Gay Culverhouse 
seems to be the only one that sees something that many people 
have commented critically on. Now, is it that she doesn't have 
any experience about football or she is not--well, to put it in 
a more colloquial way, Mr. Barber, what is your problem? Where 
does she--how does she get so distraught about something that 
nobody else can put a finger on?
    What does that tell the Chairman of this Committee? Well, 
one thing it could tell me, Mr. Benson, is that she may be on 
to something that nobody else wants to break the news to all of 
us Federal legislators, and I want to now yield to Mr. Benson 
and Mr. Nowinski to help me feel better as this thing comes to 
an end. Maybe we can rationalize this away a little bit better.
    Mr. Benson. Mr. Chairman, it is obviously true that the 
younger players and younger leagues don't have adequate medical 
care, and I would argue that is mostly true through high school 
in Texas, because until the passage of Will's Bill there is no 
requirement that the team doctors, whether they are an 
orthopedist, a psychiatrist, a dentist or whatever willing 
volunteer, actually catch up and learn the technology of the 
injuries that are potentially catastrophic. That is what we are 
looking at.
    The purpose of Will's Bill was to try to cut back and deal 
with and treat catastrophic injuries, those that cause death, 
permanent or long-term disability. I personally--I am not 
enthusiastic about very young football leagues. I think maybe 
it is a lot of fun for the kids when you turn a blind eye to 
the potential cost and you turn a blind eye to the fact that 
they are more susceptible to concussion and less likely to 
report it and, as I understand it, experience the conditions 
longer. I don't like that. I wouldn't let my children engage in 
that league, not anymore.
    Mr. Nowinski. Thank you for the question, Mr. Chairman. I 
will answer the second one first in terms of Dr. Culverhouse.
    I do believe the stories that Dr. Maroon--I think he is a 
great guy and I am guessing the Steelers have been fine for a 
while. But I will tell you that I know of plenty of stories of 
guys who have been mistreated and a lot of those guys coming 
forward and telling their stories has created the awareness 
that we have.
    I will give you one example, is Ted Johnson. Ted Johnson is 
a middle linebacker for the Patriots for 10 years. A few years 
ago he got a concussion in a preseason game, 2 days later 
showed up to practice, had not seen a doctor, should not have 
been able to practice. And in the middle--when he had--in the 
middle of practice, he had a noncontact jersey on and an 
assistant came up and said put this full-contact jersey on and 
Coach Belichick wants you back in the game. No medical person 
intervened. They allowed him to go back into the practice. He 
took another concussion on the next play and that pretty much 
derailed his career, derailed his life. He retired from 
concussions and he is not the same guy he was.
    That was a very obvious example of mismanaged medicine.
    Kyle Turley, if he was here today, just retired last year 
in the Pro Bowl, has been telling stories left and right of 
times when he was mistreated by the teams he played for, had a 
bad concussion, locked in a room and left there unchecked for 
hours.
    My best friend and roommate from college, Isaiah 
Kacyvenski, played 8 years in the league. Team to team is very 
different. He was with the Seahawks at first and couldn't speak 
well enough for how well they did it. Went to other teams and 
spoke of a time he got concussed, was on the sidelines and they 
had a neural expert but he was up in the sky box. The other 
doctor tried to examine him. He couldn't smell the smelling 
salts. He couldn't see straight and they were trying to tell 
him to go back in. And it wasn't until the neuro guy got all 
the way down from 10 floors above and said that is crazy, you 
can't put him back in.
    So there are definitely holes in the system, and the 
players would be happy to tell you themselves, and most of them 
are on the record with it.
    In terms of the youth issue, I think you are absolutely 
right. There is something very strange about not telling the 
kids or the coaches about one of the most common injuries they 
can get in football and the most serious one. The idea that we 
are willing to put a helmet on a kid and tell him to run into 
his friends a thousand times every fall but not tell him to 
look out for this, not tell him how to look out for concussions 
or tell him how to take care of it and not tell the only adult 
there, the coach how to do it, and not providing medical staff 
seems to me to be a mistake.
    Mr. Conyers. Before I turn to Bob Goodlatte, could any of 
you weigh in on my final two questions? Anybody else have a 
thought about this? Please make me feel better as we bring this 
hearing to an end.
    Dr. Maroon. I think in the past, as I think Bob Cantu this 
morning, one of the speakers this morning said, that his 
management of concussions and the management of injuries in the 
last 5 to 10 years is clearly different from the way we managed 
injuries before. And I think that I am--in terms of the 
comments of Dr. Culverhouse, I think that clearly in the 1970's 
and the 1980's and the 1960's, the culture was very different. 
And what I am seeing now is a major culture change and a 
culture shift in the appreciation of the players as well as the 
administrating physicians and trainers in the handling of 
injuries.
    Clearly there have been errors in the past in judgment. But 
I think as Chris said, there are holes in the system. But it is 
our responsibility to try to patch those holes as quickly as 
possible for the benefit of the athletes.
    Mr. Conyers. Bob Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. Mr. Chairman, I 
want to thank you for holding this hearing. This is not an 
ordinary topic for the Judiciary Committee to cover, but it has 
certainly been a very enlightening one for all of us who have 
participated, and I must say that it is my hope that those 
people who are able to view this on the streaming, on the 
Internet, or perhaps this will be rebroadcast on C-SPAN, that 
if there are just some parents who see this and hear this they 
will be better informed, either to be better informed about 
decisions made by their children, whether or not they play 
football, but also more importantly many of them are going to 
decide to play football and they can advocate for better 
conditions under which they do play.
    I have the greatest concern for those young people. 
Obviously I am concerned about anybody who sustains the kind of 
concussions that we have talked about here today and the life 
impairing injuries that they could sustain.
    Mr. Benson, I think you have done it the right way in 
getting that passed through the Texas legislature. I am very 
concerned about this, but I have to say that given the 
considerations of the Commerce Clause of the U.S. Constitution, 
it would be difficult, I think, for the Congress to extend the 
long arm of the Federal Government down to high school football 
games and be able to enact the kind of regulations that you and 
Mr. Hoge and Mr. Barber and others have referred to here. But 
the awareness that you brought that we have been able to 
facilitate here I think is a good thing.
    And I would like to ask, Mr. Barber, who I am delighted is 
here. He has excited a lot of fans in my hometown of Roanoke, 
Virginia, playing for Cave Spring High School and subsequently 
for the University of Virginia and then of course the New York 
Giants. And I would like to ask Dr. Maroon as a team physician, 
and maybe Dr. Bailes as well.
    This problem at the NFL level, you have a multi-billion 
dollar industry, players with multi-million dollar contracts, 
fans that pay hundreds of dollars for a ticket to see the game 
in person or watch it on TV in the hundreds of millions and we 
all know what an ad goes for for 30 seconds on the Super Bowl. 
So there are lots of resources available to address this.
    Is the risk reduced by that or is it just as great because 
while you have more equipment and better physicians on the 
ground, you also have stronger, faster, more aggressive--I 
mean, you are playing at the very top of this game. And is that 
more likely to result in those kinds of concussions? Or is the 
risk greater for high school and college teams that don't have 
those same resources, obviously especially at the high school 
level, and are faced with making a different set of decisions? 
Is the problem the same or is it different at the high school 
level and at the professional level?
    Mr. Barber. I appreciate the question, Mr. Goodlatte, and I 
will answer this in two ways. I think on the high school level 
the danger is because of ill-fitting helmets. It is a lot of 
hand-me-down things that aren't specifically structured for a 
young athlete's head. It is whatever is in the bin. In the NFL, 
things get a little bit better because they are custom made.
    We have to remember that helmets were originally made to 
prevent skull fractures. We used to play with leather helmets. 
But when people started hitting each other very hard skulls 
were cracking, and so the original designs of helmets were not 
to protect us from concussions. It was to prevent our brains 
from cracking open.
    I think on a more important issue, it is about people, it 
is about the individuals who play the games. And what I mean by 
that is from a very young age, if you are an athlete, a star 
athlete, you are ushered along, you are fed meals, you are 
taken care of medically, so that when you get to the point in 
college and high school, you almost don't know how to think for 
yourself, and so the empowerment of individuals to know their 
own bodies, to be able to make their own decisions I think is 
the most paramount thing that we need to focus on.
    As I mentioned earlier, when you get a concussion, as I did 
in 1997, and you break your arm as I did in 2000, and 
ultimately decided to play in both cases, it was my informed 
decision to do so with the input from my doctors, with the 
input from my training staff, with the input from my coaches. I 
felt like I was capable of doing it because I was informed.
    A lot of athletes are not informed because they just listen 
to what is told them. If there is one thing that I could change 
and empower and inform fellow athletes, it is to learn 
yourself. Don't trust what everybody else tells you. Learn it 
yourself.
    Mr. Goodlatte. Thank you. Dr. Maroon.
    Dr. Maroon. Thank you. That was an excellent question, sir, 
from a couple of different viewpoints. You started with the 
financial aspect of it and relative to high schools versus the 
professional team, and Tiki had a very excellent point that the 
testing requirements up until recently have been to prevent the 
fatal head injuries and the penetrating experiences through the 
skull and the head to protect the outer shell. Recently, the 
NFL has and presently, actually ongoing, is evaluating five 
different helmet manufacturers and their helmets. In other 
words, in the past, if you go to the equipment manager of the 
Pittsburgh Steelers, the various companies will come in and 
make assertions that my helmet is better than this helmet, is 
better than that helmet, and can reduce concussions by X 
percentage with no good data out there to substantiate that. So 
what the NFL has done, they invited all helmet manufacturers to 
submit models of their helmets for 23 separate individual tests 
that have evolved from the video analysis done by--on the 
research that has been ongoing with the NFL, and these helmets 
are being tested now for their ability to prevent the 
subconcussive blows and the concussions. Not necessarily fatal 
injury, but what are we doing to prevent subconcussive blows in 
helmet design.
    Well, we really are making progress in that area. And very 
many concepts--Dr. Bailes mentioned that--the formula of force 
is equal to mass times acceleration. In the NFL and in college 
and high school, we have massive--big masses, as you know, 300, 
350-pound individuals going at a very fast speed, high 
velocity. Mass times velocity equals force. So there is much 
more force.
    But if you ask what is acceleration, it is the delta, the 
change in velocity over time. So if you are driving home on the 
Washington Parkway and you come to a bifurcation in the road, 
instead of hitting the coffin corner with no--with a concrete 
embankment, you know the Highway Department now has telescopic 
compressible water filled cushions that absorb the velocity. It 
takes longer, the time is increased, thus reducing the velocity 
and reducing the force.
    So this kind of new helmet technology that is evolving is 
actually here. The problem of cost is definitely a significant 
one. These helmets are in the range of $300 a piece. The older 
helmets, which still 40 to 50 percent of NFL players use, are 
in the 160 to $180 range. So cost is a factor and how to bring 
that down at the high school level, I don't know.
    Mr. Goodlatte. Dr. Bailes.
    Dr. Bailes. Yes, briefly. I think one way to look at it is 
the high schools and the lower levels of play have less 
everything. They have less education, they have less medical 
advice and attention, they have less numbers of athletic 
trainers, less good headgear, for instance. So I think they 
just have a lot less. They also have a brain that is probably 
more vulnerable at the younger age.
    Now, the NFL, the issue there, you asked about that, is I 
believe they have much bigger and much faster players, as we 
have said. And they also have a much higher velocity of impact. 
Secondly, they have accrued more years of exposure. So I think 
that also is another factor.
    So I think both at the highest levels and the lower levels, 
I think you have different factors at play.
    Mr. Goodlatte. The Chairman has indicated we are probably 
not going to do another round of questions. This is an 
excellent panel and he has given me leave to ask one more 
question. And I would like too direct it to Mr. Nowinski and 
Dr. McKee.
    A lot of discussion, both from Members here and from some 
of the Members of the panel, analogizing the problem with head 
injuries in football to cigarette smoking and cancer. Obviously 
one big difference is that if you asked almost anybody on this 
panel on either side of the aisle, we would tell somebody who 
was considering smoking don't do it, period. End of discussion. 
Avoid all of the risks that are entailed therein.
    On the other hand, I think if you asked most Members of 
this panel whether or not we should tell everybody not to play 
football, there would be maybe a much stronger on the other 
side saying, no, we are not going to tell people not to play 
football.
    So given your concerns and what you have said, are you 
advocating, Mr. Nowinski, that people not play football? Where 
do you come down in trying to address this problem? Because 
obviously based upon what the two doctors said and what Mr. 
Barber said, the resources just aren't there to make this sport 
as safe as you or I would like to make it be for high school 
students, and yet it is something very popular not only with 
the players, but obviously with the large populations in almost 
every community in America.
    Mr. Nowinski. I thank you for your question. I would like 
to begin by actually addressing your last question. There is 
another piece of data. In terms of the difference between high 
school and pro sports, there was a study that came out of the 
University of Illinois this summer that showed that the average 
force of the head of a high school player was actually higher 
per collision than a college player, who is 24 Gs to 22, with a 
theory being the high school players have weaker necks and they 
use their helmets more because they need to. They are not as 
strong. So the problem is really at the lower level.
    So the question being should people be playing. The problem 
I had when I got in the situation I was in as a pro wrestler, 
and then as an adult, was I didn't know. I never had a choice 
in my outcome. So the fact that I had to deal with 5 years of 
headaches and depression and short-term memory problems and 
couldn't go back to work to any job for a couple of years, I 
was very frustrated by the fact that I didn't know any better 
and I could have prevented it.
    So I think that goal number one is to make sure that every 
parent who signs up their kid to play football understands the 
risk. And I think goal number two is to make sure that 
everybody who plays understands the risk and also understands 
how to minimize it.
    I do not want to see football go away. I still enjoy going 
back to Harvard football games every Saturday and rooting to 
beat Yale, which we always do now, which is great. And I don't 
want to--I don't want to see it go away. So what I do want to 
see, though, is this radical change, this whole idea of this 
10-point plan. I don't think--if we are committed to assessing 
everything, putting everything on the table, saying look, these 
guys, these 11 brains we have looked at, the brains Dr. Bailes 
and this group have looked at, these are the canaries in the 
coal mine. This is showing that the game has evolved into 
something we didn't understand. It is nobody's fault, but it is 
something it shouldn't be. And if we don't put everything on 
the table and say let us change it, then I don't know--if the 
commitment doesn't show, then I don't know what to tell 
parents. I think they have to make up their own minds. But I 
want to see it changed first.
    Mr. Goodlatte. Dr. McKee.
    Dr. McKee. I would agree with everything Mr. Nowinski has 
said. I do believe that the game can be changed. I too, believe 
it or not, am a huge football fan. But I think it can be 
changed. And I don't play football, so I wouldn't be able to 
elucidate all the different ways we would minimize the injury 
during the play of the game. But Chris has come up with a 10-
point plan--reducing contact during practicing, reducing 
scrimmage. All those things I think we need to do and I think 
we need to do them immediately.
    Football is an American sport. Everyone loves it. I 
certainly would never want to ban football. But I think we can 
play it smarter. There is a lot of risks associated with 
football and they may be very great for the young player. We 
maybe need to reconsider when kids start playing football and 
we need to consider what kind of support we are going to allow 
for the football to be played. I mean, do certain things have 
to be in place for football to take place at the high school 
level? And maybe that does mean that we can't play football 
unless there are resources there to support it adequately.
    And then in the case of the pro player, I think that of 
course football can go on but we need to adequately inform the 
players about their risks. We haven't banned cigarette smoking. 
People smoke. People make that choice. But they need to make an 
informed decision. They need to understand the risks and it 
needs to be out there if they want to pay attention to what 
those risks are.
    Mr. Goodlatte. I agree with your analysis, and I hope that 
we can make progress in finding ways to make football as safe 
as possible but still keep this very popular national pastime.
    Mr. Chairman, thank you again. I have to say that I think 
that in terms of education, this has been a great hearing. I 
still feel that the Congress should not inject itself into the 
negotiations between the NFL and the NFL players. And I think 
that as this pertains to improving the safety of football, we 
can promote research and we can promote education. I think some 
of the tough decisions that have been advocated for have been 
made at the State and local level just because of how our 
system of government works.
    Thank you very much for holding this hearing.
    Mr. Conyers. Thanks for those two excellent questions.
    Bill Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. And I want to 
acknowledge the great work that is happening at the university 
in my hometown, Boston University. Professor Cantu, Chris is 
here and Professor--Dr. Ann McKee. I had posed a question to 
the first panel and no one had an answer. But I think the point 
that Bob Goodlatte made--or I think you made actually, Dr. 
McKee, that goes to the issue of the individual or in the case 
of those who have not attained majority, their parents should 
be well informed. And from my very cursory reading of the 
reality that often times indicia of problems occur decades 
later, is there--and it would appear that the protein, tau, 
is--as was shown on the slides earlier--is a red flag, and that 
seems to be indisputable.
    Is there a tool that can measure CTE while an individual is 
alive, or is this always done in the course of an autopsy?
    Dr. McKee. Well, no. Right now we have no way to diagnose 
CTE during life. And, you know, it has been a huge battle, I 
think, for us to even recognize that CTE is an issue. We have 
had to wait until these players died and they had a postmortem 
diagnosis to recognize the condition.
    Mr. Delahunt. It would appear, however, according to what 
seems to be more than a consensus, almost a unanimous opinion, 
that CTE is indicative, is without doubt a factor that, if we 
had awareness of, could be a prognosticator in terms of what 
would happen, particularly to young people who were 
participating in football later in life.
    Dr. McKee. Oh, I think there is just tremendous things that 
we need to learn. And we can actually learn them first from 
these autopsied individuals. We have learned where the disease 
affects the brain the most. We didn't know that 2, 3 years ago. 
Believe it or not, there has been an explosion of knowledge 
just concerning this disorder. And----
    Mr. Delahunt. I don't have too much time. Is there research 
being done now----
    Dr. McKee. Yes.
    Mr. Delahunt [continuing]. That would provide a diagnostic 
tool so that, if I happen to have sons and I was concerned, 
that I could refer them to your shop or some hospital to inform 
me as to whether there may be a future risk involved?
    Dr. McKee. Well, what we are doing is setting up 
longitudinal studies of players, and we are looking for that 
way to diagnose it during life. We are going to take what we 
have learned from it at postmortem exam and apply it to people 
that are living. We don't have that technique yet. We----
    Mr. Delahunt. Is there enough funding available?
    Dr. McKee. No, we always need more funding. We have just 
the beginnings of funding.
    Mr. Delahunt. Well, what I think we have is an epidemic. 
And I dare say that, just given the autopsies that have been 
performed on deceased NFL players--I mean, how many players at 
any given time are in the National Football League? I mean, it 
is minuscule when compared to the universe of 5 million 
participants any given year in football.
    And we hear that, you know, in terms of people in high 
school, obviously they don't have the same physical capacities 
and strengths that someone would in college or someone would in 
professional sports.
    There could very well be--I am going to put this out as a 
premise and welcome comment--there very well could be much of 
our concerns about depression, about Alzheimer's, about the 
whole array of injuries or symptoms associated with the 
functioning of the brain could be as a result of, I think the 
term is post-concussion syndrome. Am I in the ballpark, or am I 
way off?
    Dr. McKee. No, I think you are absolutely in the ballpark. 
The point I think that I am hearing from you is that CTE could 
be playing a much bigger role than we presently realize and 
that CTE may be responsible for the depression we are seeing in 
these retired players, may be responsible for the cognitive 
impairments in the retired players, but may also play a role in 
society at large.
    Mr. Delahunt. Exactly.
    Dr. McKee. There are lots of people that have suffered head 
injuries; they have lots of memory disorders and psychological 
problems. We have no--this is really an untapped concern that I 
am sure our knowledge needs to expand dramatically in to.
    And then don't forget the soldiers.
    Mr. Delahunt. Right.
    Dr. McKee. I get calls and e-mails from soldiers every day 
talking about memory concerns, how they had an IED.
    So this has huge legs, and we are just scratching the 
surface.
    Mr. Delahunt. I would suggest, Mr. Chairman, that there 
should be a real sense of urgency about the kind of funding 
that would be appropriate and necessary to deal with this. 
Because, on the other end, the costs that are associated with 
depression, with memory loss, with dementia, with Alzheimer's 
are costing society far more than the funding that would 
hopefully result in a diagnostic tool for us to have the kind 
of informed patient or informed parents to make a decision.
    And, with that, if anyone else wants to comment. Chris, do 
you want to comment?
    Mr. Nowinski. I think you are absolutely right. You know, 
we have a longitudinal study now of 175 athletes that are going 
to donate their brains to us when they die. And most of them 
come out to us because they have this constellation of 
symptoms, but they have never been diagnosed. Most of the 
brains we looked at that had dementia were originally diagnosed 
as Alzheimer's brains. So a significant percent of Alzheimer's 
patients are actually CTE patients; we just don't know what 
that is.
    And, if you want to look at outside research, look at the 
head injury rate in the prison population. You wonder what 
maybe turned these people bad. I will give you one example, my 
former colleague at WWE, Chris Benoit, who killed his wife, 
killed his son, killed himself. He had a very severe case of 
this disease at 40 years old. So this is much bigger than we 
realize.
    Mr. Conyers. Thank you for your line of inquiry, Mr. 
Delahunt.
    Mr. Benson. I would like to add a brief comment to what Mr. 
Nowinski said. When we are talking about disorders that cause 
cognitive disorders, we are not just talking about Alzheimer's, 
or maybe we are not even talking about lower SAT scores. We are 
talking about fundamental problems like emotional control and 
impulse control that can show up as huge distractions and 
disorders throughout life.
    And every year there is some kind of extravagant behavior 
on the part of football players in one age group or another, 
and I am forced to wonder what is the true cause of that 
behavior. Could they have had impulse control loss due to a 
football injury?
    Mr. Conyers. Uh-huh.
    Sheila Jackson Lee, Texas.
    Ms. Jackson Lee. Thank you, gentlemen and lady, very much. 
We are in and out because there are overlapping hearings and 
meetings. But I can't express, articulate, I think, at the 
level of importance that this hearing, I believe, is for the 
Congress but also for the American people.
    I disagree with my colleague, and I do believe that labor 
negotiations are vibrant and vital. And I think they are what 
they should be: adversaries or maybe even people who agree with 
each other working out responsible rights for both management 
and players.
    But, as I have listened to the witnesses and listened to 
Mr. Benson, who hails from my home State, and I know from which 
he speaks--no politician sets up an event on Friday night 
football unless you are sitting in the stadium watching Friday 
night football in Texas. And so I know how intimately this 
whole game is for those who live in many places and certainly 
Texas.
    But, as I listen to you, I don't see any way to handle this 
holistically unless it rises to the level of the national game. 
It is a national game. It is America's pastime. It raises to 
the level of a congressional response, as I said, not in a 
punitive manner, but in a collaborative manner, in a manner 
that says, ``We want the sport to last. We want there to be 
more boys playing.'' And, of course, we have girls football, I 
understand. But we want more people playing and more people 
lasting.
    So, Mr. Barber, let me thank you for the good times you 
have given to a lot of folk who have watched you play. But let 
me just ask this question. I am going to give rapid-fire 
questions if I can get rapid-fire answers.
    Do you think the structure of the NFL contracts are 
contributory to players shielding their injury and symptoms? 
And is there anything we can do to change that culture?
    And I am going fast because I am going to Mr. Benson and 
Mr. Nowinski.
    Mr. Barber. I will answer that question. Thank you for that 
question, Ms. Jackson Lee.
    I think a lot of it comes down to pride. I know when I was 
playing and I would get hurt, I didn't want to come out of the 
game because I hated seeing someone else do my job. I never 
thought about the economic benefits of playing. I think my 
contracts weren't incentivized based on playing time, yardage, 
et cetera. But, for me, it was a sense of pride, because I 
loved doing my job.
    Ms. Jackson Lee. Can we balance that pride with ways of--
and you are right, I was going to refer to playing time and 
incentives to keep people in, but you are saying pride.
    Mr. Barber. I think how you balance that is with education. 
If you give players--and I mentioned this with Mr. Goodlatte, 
as well--if you give players the knowledge of their injuries 
and the potential dangers of their injuries and have them take 
control of it, as opposed to relying solely on doctors' inputs 
or trainers' inputs or coaches' inputs, they are much more 
likely to make the correct decision should they get a 
concussion.
    Ms. Jackson Lee. But we need to help support them in that 
by educating trainers and coaches so that they don't get the 
evil eye when they do decide to come out because they do have 
CTE.
    Mr. Barber. Of course.
    Ms. Jackson Lee. And I know the evil eye is there.
    Mr. Benson, let me offer to you my sympathy, and try to get 
just an understanding. You said something very important, that 
we need to--Mr. Chairman, I am hoping that this testimony that 
we have heard might be on the Judiciary Committee Web site, and 
indicate to parents across America, spend some time reading the 
outstanding testimony that this panel has given.
    Mr. Benson, your bill in particular--and I had many of 
these cases in my own congressional district. In fact, one 
summer it looked as if we had one or two or three or four of 
those kinds of incidents on the field. People were dehydrated, 
et cetera. You believe that we should include the high school 
playing of football, is that not correct?
    Mr. Benson. Could you ask it again? I am sorry. I didn't 
quite hear you.
    Ms. Jackson Lee. You believe we should include high school 
football, as well, in our assessment of improving safety and 
ensuring safety on the field?
    Mr. Benson. Absolutely. And the summer you are referring to 
may have been the summer my own son died. Seven players died 
that summer.
    Ms. Jackson Lee. And so, your ``Will's Bill'' in Texas 
deals with that kind of inattention and requires more attention 
to these young men?
    Mr. Benson. Absolutely.
    Ms. Jackson Lee. I want to get a copy of the bill.
    I want to go to Mr. Nowinski because he fascinated me with 
referring to that shocking incident that everyone was just 
saying why. Tell us about the wrestler that no one could 
explain what was going on. You have documented evidence that 
that was a CTE victim?
    Mr. Nowinski. I worked on that case with Dr. Bailes and Dr. 
Omalu. It was summer of 2007. Chris wrestled for 23 years and 
was known as a guy who wouldn't take a day off. He was a very 
physical wrestler. He once confided to me about a year before 
the incident, when I was working on my book, that he had had 
more concussions than he could count. And he actually seemed 
very interested in my work, so I think he knew something was 
wrong with him.
    In talking to wrestlers who knew him in the last year, he 
stopped calling wrestling matches beforehand because he 
couldn't remember. He started acting very emotionally bizarre. 
He was keeping a very strange journal. And then the incident 
happened, he killed everyone over a couple of days.
    The media jumped on ``it was a steroid incident.'' And we 
knew that, from what he told me and what I had known with these 
other cases with Andre Waters and with Terry Long both 
committing suicide, I thought otherwise. We looked at his 
brain, and it was actually, at that time, it was the most 
damaged brain. It was more damaged than Waters and Webster and 
those guys. It was very severely damaged.
    Ms. Jackson Lee. So you were able to look at Chris's brain?
    Mr. Nowinski. Yes.
    Ms. Jackson Lee. And found the evidence of CTE.
    Mr. Nowinski. Yes.
    Ms. Jackson Lee. So if we take both of these--the 
wrestlers, as I understand it--correct me--don't wear helmets. 
And I have listened to, I think, Dr. Bailes--I am sorry, I am 
looking at--the testimony as I came into the room, talking 
about the new technology. Which I don't understand, if we can 
land people flying into space, as I am an advocate of, we can 
do better on technology.
    But do you wear helmets wrestling?
    Mr. Nowinski. No.
    Ms. Jackson Lee. So how would we intervene if we took the 
two together?
    Mr. Nowinski. Dr. Maroon and I were talking about that, 
because he is the new medical chair for the WWE. And it is 
actually much easier, because since pro wrestling is fake, the 
contact is always accidental. It is just a question of risk 
management and education of our guys.
    Ms. Jackson Lee. All right. So what we have overall is, in 
essence, a curable entity. It may mean that we look at the NFL 
in terms of legislation or some intervention that, again, is 
not punitive but is helpful. And then we look at the high 
school football--you made a very important point, weaker necks 
in high school students, using the helmets.
    And I guess the last point is to go on to Tiki Barber's 
point, and I think you made it too. What is this about being in 
a circle and you know you have a concussion or you think you 
have one but just go on and play? How do we break that for your 
age, for the high school and the college players?
    Mr. Nowinski. Yeah, I would echo Tiki; it is education. It 
is always going to be hard yourself to self-diagnose and take 
yourself out, not only because of pride, but also because you 
just had a brain injury and you aren't thinking straight.
    Ms. Jackson Lee. Right.
    Mr. Nowinski. But if every one of your teammates knows, by 
you staying in the game, you could really end up messed up, 
those guys like you, they are your friends--there are many 
incidents now in the last probably only year or 2 where players 
will tell the coach, ``Get him out of there. There is something 
wrong. Get him evaluated.'' So if everybody knows, if the 
coaches know and the players know and the parents know, this 
stuff would not happen.
    Ms. Jackson Lee. And then we work on the other side with 
getting the technology investment to make a helmet that is 
befitting of a Nation who travels into space and has an 
international space station.
    Mr. Nowinski. Absolutely.
    Ms. Jackson Lee. Wouldn't that work?
    Mr. Nowinski. Big improvements in the helmet.
    Ms. Jackson Lee. Mr. Chairman, let me thank you for 
allowing the line of questioning. I think I was able to listen 
to the statements or the testimony from the neurologists that 
this is something that we cannot overlook, and we can find ways 
of solving it.
    I hope the education, however, is for the whole structure. 
Because players being educated--and parents be frightened and 
intimidated, ``I don't want my son to be the one on the bench 
and miss these opportunities, and my coach and trainers don't 
understand.'' So I think the whole--it has to be an 
infrastructure change if we are going to get the best results.
    Thank you. I yield back.
    Mr. Conyers. Thank you.
    Maxine Waters, you are now the person that will end our 
discussion that has gone on so long. We thank you.
    Ms. Waters. Thank you very much, Mr. Chairman, for your 
patience. Thank you for your interest in this subject. And this 
is not the first hearing you have held basically focusing 
somewhat on the NFL but focusing on various aspects of the 
problems with football and the NFL in particular. And today 
this focuses on brain injury.
    I would like to first thank--aside from thanking you, 
secondly I would like to thank Mr. Dick Benson. I thank you for 
coming to this Committee to relive the pain and trauma of your 
child's death. That is not easy, and I understand that. And I 
certainly respect you for coming here and sharing with us today 
what happened to your child. Thank you very, very much.
    I thank all of the other persons who have come today on 
both of the panels.
    I did not have an opportunity to hear it all because, as 
Ms. Jackson Lee said, we are between Committees. But I did hear 
part of Dr. Gay Culverhouse, former president, Tampa Bay 
Buccaneers. Thank you so very much, not only for actually 
stepping way outside of the box and telling it like it is, but 
hearing it come from a woman is just so pleasing, to know that 
not only were you president of Tampa Bay, Dr. Culverhouse, but 
that you dare to say what a lot of others don't dare to say.
    We had a lot of people in here today who were protecting 
the NFL and a lot of people here today on the payroll of the 
NFL and hoping that somehow they will look good enough to maybe 
get a pay raise because they came here and performed for them 
today. As you know, I don't take a back seat on these issues.
    Now, I respect everything that is being done to try and 
prevent these head injuries. And I have heard everything that 
everybody has said about what we know, what we don't know, 
about how we should do a better job of educating and advising. 
And I have heard what was said about helmets and, I guess, 
other kinds of equipment, et cetera, et cetera, et cetera.
    But, in the final analysis, if you play football, in 
particular, and other sports, some other sports, there are 
going to be head injuries. There will be head injuries. I am 
told that simply by the movement of the brain inside the head 
that you are going to have people who are going to end up with 
injuries.
    And the reason that I come in here today is not so much 
that I need to be told that the study is correct or maybe it is 
not so correct. I mean, I have common sense, as most of us 
have, and we know that hard hits and people hitting their heads 
will do something; you are not going to be the same.
    And we do know that there are people who have had 
concussions, football players, who were sent back out on the 
field. My husband was a football player. He told me about the 
times that people were knocked out and they were put back. And, 
in the day, it certainly happened perhaps more than it happens 
now. So I am concerned about the children, the football 
players, et cetera.
    But for the NFL that is $8 billion strong, I am concerned 
about what they are going to do to compensate these players and 
their families after it is known that they have dementia or 
that they have received these serious injuries and they have to 
end up fighting--I mean fighting with the NFL to try and get 
some support for their families.
    I have not been involved with the brain injuries, but I 
have been involved with trying to assist other football players 
who happened to be friends of ours, two of whom have died, who 
fought with the NFL for support.
    Today, as we sit here and talk, the NFL is in negotiations. 
And I asked if, in fact, they were entertaining anything in 
those bargaining sessions about head injuries. Of course I 
didn't get an answer, because it is not happening.
    And so, Mr. Chairman, while, in fact, I know that you 
wanted to take a look at the study today and to learn exactly 
what is going on that will be helpful in preventing these 
injuries and what can be done to prevent them and all of that, 
we must keep our eye on the ball, and we must understand that 
the NFL has an antitrust exemption and that that is big. I 
mean, that is huge. And if we ever want to get them to do the 
right thing, we have to have them know and understand that we 
are going after that antitrust exemption.
    They cannot continue to enjoy making the money that they 
are making and not being willing to compensate these injured 
players and their families, who are dying on the street and 
dying in alleys, broke, with dementia. And they are not the 
stars that they were when they played when they are in those 
alleys.
    And so I am committed to the proposition that we have the 
authority, we have the authority, to take away that exemption. 
And that is what we need to start down the road to do, in order 
to get some compensation for injuries that are going to 
continue to happen no matter what anybody says.
    I yield back the balance of my time.
    Mr. Conyers. Thank you so much.
    I am going to insert The New York Times article by Alan 
Schwarz in today's The New York Times, ``N.F.L. Players with 
Head Injuries Find a Voice.''
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Conyers. And I can't thank all of the witnesses enough.
    Without objection, we will have 5 days for Members to 
submit additional testimony. We will also have 5 days for other 
witnesses to submit any materials or additional comments to 
their own statements.
    And I will submit a statement received from Brent Boyd, a 
retired NFL player who suffers from cognitive problems 
resulting from football head injuries.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________

    Mr. Conyers. I thank Mr. Goodlatte and Ms. Waters for their 
tenacity and staying power.
    And this hearing is adjourned. Thank you.
    [Whereupon, at 5:08 p.m., the Committee was adjourned.]


                       LEGAL ISSUES RELATING TO 
                    FOOTBALL HEAD INJURIES (PART II)

                              ----------                              


                        MONDAY, JANUARY 4, 2010

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 1:02 p.m., in 
Room 1460, Wayne State University, 540 East Canfield Street, 
Gordon H. Scott Hall, Detroit, Michigan, the Honorable John 
Conyers, Jr. (Chairman of the Committee) presiding.
    Present: Representatives Conyers, Sanchez, and Cohen.
    Mr. Conyers. Well, good afternoon. Since the room has 
quieted down, let's begin the hearing. I welcome everybody and 
thank you all for coming. This hearing's being held at Wayne 
State University Medical School where we've been before on 
other related subjects of healthcare. One I remember most was 
with the late Senator Ted Kennedy and the Dean of the Congress, 
Michigan Congressman John Dingle, and myself. We had a 
wonderful evening, and it's memorable in many respects because 
that was the last time that Ted Kennedy graced us with his 
presence.
    The medical school was created in 1868 before the rest of 
the university, and it has been the focal point for brain 
injuries and related matter since 1939. We are very pleased 
that the dean and her staff, vice-president, and others have 
been with us today. So many of you here are distinguished, and 
the subject matter is one that interests us all.
    You might want to know that on October 28 in Washington, 
D.C., this Committee held a hearing on that subject, the same 
subject that brings us here today, closed-head injuries in 
football, but the subject of concussions and related matters in 
general in Washington, and so this constitutes the second 
hearing, and we're pleased that all of you are here.
    We're particularly excited by the fact that there are so 
many people with particular expertise, not just testifying but 
many here that may not testify, and I just wanted to note that 
we have wide receiver Herman Moore; Greg Landry, quarterback of 
some fame; Ron Kramer, tight end, Horace King, fullback, Tom 
Lewoski (ph.) Fullback, Ron Rice, safety, among others that are 
here.
    Mr. Thrower. Jim Thrower.
    Mr. Conyers. Jim.
    Mr. Thrower. Thrower.
    Mr. Conyers. Jim Thrower is here.
    Gallery Member. Defensive back line.
    Mr. Conyers. So--and there are others, other players here 
that their names will be sent up to me as we go along.
    [The prepared statement of Mr. Conyers follows:]
     Prepared Statement of the the Honorable John Conyers, Jr., a 
 Representative in Congress from the State of Michigan, and Chairman, 
                       Committee on the Judiciary
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. We'd like to start out with Ms. Linda Sanchez 
who wants to make a few opening remarks. She's a distinguished 
attorney who I remember campaigning for when she came to the 
Congress in the Los Angeles area. She started off being 
remembered as the first Member to join her twin sister in the 
Congress, as well, Loretta Sanchez, and we were very pleased 
that we could get her on the Committee on the Judiciary. She 
was at our--well, she was holding hearings in 2007 on this 
subject, and we're delighted that she left the snowy, cold 
frigid areas of Los Angeles to be with us today, so I'm very 
pleased to welcome her, and the only thing we're sorry about, 
she didn't bring her little boy, who I claim some extended 
jurisdiction over, and I'm so glad that you're here, and I'm 
going to put my statement in the record, and ask you to begin 
the discussion. Welcome to Detroit and to the medical school.
    Ms. Sanchez. Thank you, Chairman, and I just want to make 
one quick, minor correction. My sister Loretta is not my twin, 
she's 9 years my senior, and that's very important for me to 
get out there, and I'm particularly pleased to be in your 
hometown of Detroit for what I consider to be a very important 
field hearing, and I think the importance of this hearing is 
underscored by the number of witnesses who have come today to 
testify and by the fact that I left 80-degree weather in 
Southern California to be here, myself, this afternoon.
    But as everybody here probably knows, the issues of 
concussions in professional and amateur sports is a very 
serious one that deserves scrutiny, and while the NFL is moving 
toward the playoffs, and the NCAA is concluding its bowl games, 
it's important to note that we're not addressing this 
particular issue simply because it's relevant only to football. 
We're here today because this is a worker safety issue, and it 
impacts athletes of every level in many different sports.
    I'm pleased that since this Committee's October hearing, 
the NFL has taken a number of serious steps to try to help 
address this issue of concussions, but I can't help but 
wondering would the NFL have been as proactive if Congress 
hadn't taken an interest in the issue and scheduled the 
hearings in the first place. So I think that our role up here 
is a very important one because I think we can be a catalyst 
for change even though there are skeptics who simply deny that 
Congress is effective at doing anything in particular.
    There are increasing studies and a body of evidence that 
show that there is a significant risk to individuals who suffer 
repeated head trauma, whether it's in the NFL, in professional 
boxing, or even high school sports, and while there are those 
here today who will argue against the validity of some of these 
studies, there appears to be a preponderance of evidence that a 
number of professional athletes who suffer repeated head trauma 
experience physical and mental decline earlier than the general 
population at large, and it would seem to me--and I stated this 
to Commissioner Goodell at the last hearing that we held that 
it would be better for the NFL and the NFLPA to be proactive in 
alerting its players to the risks that they face, and it's my 
hope that in the discussion that we have here today, the NFL 
and the NFLPA will make continued improvements in educating 
players on the dangers they face by playing with a concussion, 
treating those athletes appropriately who do have concussions, 
and removing the stigma that pressures players to play through 
the injury, and one of the most recent quotes that was heard on 
November 29th, 2009, was an interview during the pregame show 
before the Steelers' matchup with the Ravens when somebody 
said, basically, that he had been dinged up and got right back 
into the game and that, you know, just because somebody's 
having headaches, pretty much the quote is, you know, they need 
to suck it up and continue to play on, and the fact of the 
matter is that sucking it up and continuing to play on may mean 
very serious and grave consequences down the line.
    Many witnesses that we have had before the Committee have 
testified about how the NFL, like it or not, influences the 
lower levels of football, and the actions that they take or the 
actions that they choose to ignore to take have significant 
impact on players at lower levels. The NFL, quite frankly, has 
vast resources available to its disposal to educate coaches and 
players and medical personnel on the proper way to handle a 
concussed player, and if they have all these resources 
available to them and are not addressing the problem, imagine 
how can we expect every high school or college to be able to 
properly treat a concussed player if that proper action isn't 
being taken at the very top levels of the sport?
    I believe one of the most important things that can come 
from this hearing is the strong need for those who are coaching 
younger athletes to recognize the damage that repeated head 
trauma can have on developing brains, in particular, and I look 
forward to the testimony of our witnesses who will talk about 
the steps that are being taken to educate athletes on the--at 
the high school, college, and lower levels to see what further 
steps we can take to ensure that we are protecting these kids 
at all level of play.
    Mr. Chairman, as I noted above, the last Committee hearing 
resulted in many positive steps being taken, and I'm pleased 
that this Committee's continuing to focus on this issue, and I 
hope that the outcome of this hearing is similarly positive, 
and I thank you for my time, and I yield back.
    Mr. Conyers. Thank you very much, Linda Sanchez, younger 
sister of Loretta by 9 years. I don't know why I made that 
mistake.
    I'm now pleased to recognize Subcommittee Chair Steve 
Cohen, Memphis, Tennessee, who has some familiarity with 
football, not as a player but as a fan, and a very good friend 
of mine. I was--remembered him for many years as a State 
senator from Tennessee before he began his congressional 
career. He is currently the Chair of the Commercial and 
Administrative Law Subcommittee, and we worked very closely 
together on many civil rights issues, civil liberties issues, 
and we work on copyright, patent, and other matters that come 
before what many regard as one of the most significant 
Committees in the Congress. Welcome, Chairman Steve Cohen.
    Mr. Cohen. Thank you, Mr. Chairman Conyers. I first would 
like to ask Mrs. Sanchez to--somewhat unfortunately, I want to 
correct you. You obviously did not read the Pasadena Star News 
in November 1965 when I caught the last pass in the Black Hawks 
game.
    Mr. Conyers. You know, I did miss that. I don't know how I 
could have missed that.
    Mr. Cohen. It was the only game my parents ever came to 
witness, and it was the only game in which I was able to have a 
pass thrown to me and I caught it. But it's a pleasure to be 
here with you, and it's an honor to serve in the United States 
Congress. This is my second term, and I'm fortunate to be on 
the Judiciary Committee that I think is so important because 
it's the basics--the base of America, what it is, basic rights, 
bill of rights, and values, and due process, and equal 
protection, and nobody does more to protect these than Chairman 
Conyers. He is legendary and a stalwart and a voice of 
conscience of the United States Congress, and so I'm fortunate 
to serve on this Committee with you and to return to Detroit.
    The last time I was here in Detroit was when the GMAC Bowl 
was playing and DeAngelo Williams who gave Memphis our wholly 
particularly outstanding year during this century led us to 
victory over Akron. I did not, like Ms. Sanchez, leave 80-
degree weather to come here, but I did leave Elvis at the donut 
shop.
    This hearing is most important, and some people would 
question the idea of Congress having hearings on issues like 
this because, as Ms. Sanchez has properly cited, the NFL has 
changed its policies, and that's important, and the NCAA has 
some changes in store, as well. They have had a committee 
recommend some changes on concussions and how to deal with 
them, unlike the way they deal with them in Lubbock, Texas, you 
should be sent to the neurosurgeon, not to the shed, and that 
is shameful what apparently went on there.
    But in college and in lesser-level, younger football 
activities, young people are potentially endangering their 
future cognitive abilities and ability to enjoy life. Nobody, 
particularly the very, very, very involved sports fan from 
childhood wants to see anything happen to this wonderful sport, 
that is--rivals baseball or maybe has surpassed baseball as 
America's game.
    But nevertheless, the players who we revere, and as I 
mentioned earlier, as a child, Les Bingamen was my favorite, I 
guess because he was just so big and he stood out on the 
screen, but I liked Les Bingamen, and I remember Gale Larry 
(sic) punted in ``Night Train'' Lane, who was the defensive 
back, and all the great lines back then, and Ollie Matson was 
my hero, and to think that these players may have suffered some 
type of permanent brain injury and there is plenty of data that 
gives any person, at least a reasonable cause to believe that 
there is the potential of brain--permanent brain injury from 
the concussions that are received on the field.
    This is a violent sport, and with the increase in--well, 
Joe Donellini started it, but the weightlifting, and I don't 
know who else started the rest of what made everybody so big 
and so strong, but you've got a lot of violence out there 
directed at different players and head-on collisions, and when 
people have concussions, there's damage.
    We know it from boxing, I talked to Dr. Casson earlier, and 
we know boxing has that damage by Harold Ford Patterson 
suffered from it, Muhammad Ali suffers from it, and we 
shouldn't put our athletes who are our heros, in many cases, in 
this type of harm's way if we can protect them by seeing that 
the medical attention they receive is independent, that it is 
cautionary, and that the helmets are the best that can be--and 
other equipment is the best to protect them from injuries, we 
need to do that.
    This Committee and the hearings we've had have made a 
difference, I think, in the NFL on this issue, and I appreciate 
the NFL and Mr. Goodell for taking the positions they've done 
since. There are other things we can do with the committee and 
bring the attention of America to different problems, and I 
don't want to divert much but the NBA's one-and-done rule is 
the situation where the ownership uses the players for a year 
and takes away the earning capacity for a year from players who 
could be making money in the short earning capacity they have 
because the owners have a vested interest, and Commissioner 
Stern was honest about it, he said we do this for the good of 
the team, for the good of the league, not for the good of the 
players, and in this situation in football, I think 
Commissioner Goodell has shown some interest in the players, 
but, nevertheless, there's some, maybe, concern of some 
lawsuits or what do we know and when did we know it, and that 
should be secondary to the health of the NFL players and the 
college players, and the kiddie league players and the high 
school players, which we all need to be concerned about.
    We ask motorcycle, in most states, riders to have helmets 
and most folks to wear seat belts because we know that they 
could be injured, and while we don't want to have touch 
football, we want to have equipment that at least gives, you 
know, utmost scientific research and development to protect the 
players from serious injuries.
    I look forward to the testimony. I've read much about the 
different studies in the past, the work at UNC and the 
University of Michigan and EU, and I look forward to the 
testimony, and as a fan of the NFL and a fan of athletes, I 
want to see the athletes come first. I think the owners owe it 
to them, and I think the owners have not looked after the 
players as they should have in the past.
    Mr. Chairman, I thank you for the opportunity to be with 
you to be in the great city of Detroit--that is, as Motown, as 
we have stats that share Ben Hooks and Kenneth Whalum with our 
cities of Memphis and Detroit, and that has a great NFL 
football team--a great NFL football history. Thank you, Mr. 
Chairman.
    Mr. Conyers. Your qualification has been duly noted, and 
most of us agree with it. We have a distinguished panel, and 
other Members will be able to submit their statements--other 
material can be submitted by all of the panelists here. We have 
Vin Ferrara, founder of Xenith, L.L.C., Harvard graduate; David 
Halstead, Technical Director of Southern Impact Research 
Center; we have Dan Arment, President of Riddell, Dr. Ira 
Casson, neurologist at the Long Island Medical Center; Dr. 
Bennet Omalu; we have Lem Barney, three-time conference star, 
quite an impressive record; Scott Hallenbeck, who led USA 
Football, the governing body of America's favorite sport on 
youth and amateur levels since the year 2005; Bob Colgate, the 
Assistant Director of the National Federation of State High 
School Associations; Dr. David Klossner, Associate Director of 
Education Services, the National Collegiate Athletic 
Association; Dr. Joseph Maroon, Certified Clinical Professor of 
Neurological Surgery, the University of Pittsburgh Medical 
Center; and DeMaurice Smith, Executive Director of the National 
Football Players Association, who received his degree from 
University--Cedarville University of Ohio. He began his career 
in the U.S. Attorney's office for the District of Columbia, 
responsible for national security issues, earned numerous 
honors throughout his career, and in March 2009 was elected 
executive director of the NFLPA.
    One of his biggest challenges is negotiating with the NFL 
owners who opted out of the current collective bargaining 
agreement and also feeling the rift between union--the union 
and its retired players. He recently announced the creation of 
a committee within his organization to examine concussions and 
their effects on sports.
    We're delighted to have all of the witnesses here. Their 
statements will be reproduced in the record, and we want to 
begin the discussion with them, and of course, we start off 
with Attorney DeMaurice Smith. Welcome to these hearings.

 TESTIMONY OF DeMAURICE SMITH, EXECUTIVE DIRECTOR, NFL PLAYERS 
                          ASSOCIATION

    Mr. Smith. Thank you, Chairman. It's a pleasure to be back 
in front of the Judiciary Committee and also to be in this 
great state and this great city. I'd also like to say good 
afternoon to Congresswoman Sanchez, Congressman Conyers, and 
Congressman Cohen. I have to apologize for my voice. Everybody 
here will have to suffer through this as my family continues 
to. They're very happy that I'm not at home today.
    Mr. Conyers. Pull the mike a little closer, please.
    Mr. Smith. It's not going to make it sound any better but--
--
    Good afternoon. As I've testified before, I represent 
players, both current and former of the National Football 
League. Please accept our deepest gratitude for shining the 
national spotlight on the issue of concussions and brain trauma 
in football. To answer your question, Congresswoman Sanchez, 
you did make a difference. Congress made a difference. By 
shining its spotlight and its attention on this issue, you have 
achieved a significant amount of change in a few short weeks.
    I'm happy to talk about a number of the changes that the 
National Football League has instituted, as well as a number of 
programs and changes that the players have taken over the last 
several weeks. In conjunction with this Committee, we have made 
strides each and every day to make this game safer for those 
who play football on a professional level, for those who play 
in college, and for the many players who play in youth sports.
    During the next few minutes, I'd just like to outline a 
couple of the steps that we mentioned during our--my last 
testimony to give you an update of where we are and where we 
hope to be. During the October 28th hearing, we agreed to do 
the following and have provided you with written testimony on 
our status and our progress.
    First: We promised to objectively and honestly embrace all 
of the studies related to the issue of traumatic brain injury 
and to create a roadmap to prevent significant and serious 
injury for football players going forward. In May of this year, 
the players of the National Football League formed its own 
players' concussion committee. That committee was designed to 
do one thing: To get the answer right. That committee, I am 
proud to say, was not formed by the executive director. It was 
formed by a player of the National Football League, Sean Morey, 
who was a special-teamer with the Arizona Cardinals, met with 
me in the executive committee, and he was committed to do one 
thing, to get the answer right. He challenged each and every 
player on that executive committee to get the answer right.
    We proudly formed that committee, and many of the people 
who are on the panel today, including Dr. Omalu, Dr. Nowinski, 
have agreed to serve on that committee. We will strive to do 
one simple thing, to get the answer right.
    Second: To verify the scientific relevancy of the ongoing 
studies regarding current and former players. In an attempt to 
verify the scientific relevancy of the current and previous 
studies, we have asked, and we, indeed, encourage the National 
Football League to release to the players any and all 
communications regarding studies surrounding head injuries in 
football so that both of our organizations can be working with 
the same information and can build upon the valuable research.
    Third: We have renewed our request, as we have pointed out 
to your staff, renewed the request for the NFL to provide the 
injury data and the aggregate injury data that they collect 
from every player in the National Football League from 2006 to 
2008. We believe that that data would not only serve to improve 
and enhance the ongoing studies, but also, it would serve to--
serve as a platform for new studies, not only in the area of 
head injury, but also in the area of joint rehabilitation, 
effects of the aging, and a myriad of other ailments that not 
only plague professional football players and retired players, 
but also players on every level.
    We have committed ourselves to improving the 88 plan. The 
NFL Players Association called upon the NFL, and I'm glad that 
they responded, to accept new applicants for the 88 plan in the 
NCAP year. I am proud to say that they have agreed to do so.
    And lastly, we believe that the National Football League 
and the players in this game owe an obligation not only to 
those who have played this game, but to those who will play 
this game in the future. You are right, the National Football 
League is the standard bearer. If we set the standard, others 
will follow. As Executive Director of the Players Association, 
my primary goal is to serve the players who have played this 
game and those who will play this game.
    It is an honor for me to commend people like Sean Morey and 
Kevin Mawae for forming the Players Concussion Committee. I 
look forward to working with Dr. Tom Mayer and others on the 
committee as we move forward to get the answer right to help 
prevent these injuries where we can and to treat those injuries 
where they occur.
    Ladies and gentlemen of not only the panel but----
    (Whereupon the lights in the auditorium went out at 1:33 
p.m.)
    Mr. Smith. You know, normally, I have that effect on----
    (Whereupon the lights came back on at 1:33 p.m.)
    Mr. Smith. Oh. Chairman Conyers, Congresswoman Sanchez, and 
Congressman Cohen, on behalf of the players of the National 
Football League and the retired players, I promise to do one 
thing, to get this answer right, to come before you on each and 
every opportunity when you have questions, and to serve the men 
and the families of this great game. Thank you.
    [The prepared statement of Mr. Smith follows:]

                 Prepared Statement of DeMaurice Smith

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thank you very much. I think you're doing a 
great job.
    Mr. Smith. Thank you.
    Mr. Conyers. The light went out just as a signal that you 
were approaching near the end of our allotted time, a very 
delicate end.
    We know that you may have to leave early, so please take 
our leave whenever you feel it appropriate.
    Mr. Smith. Thank you.
    Mr. Conyers. Welcome, Dr. Joseph Maroon, a neurological 
surgery professor at University of Pittsburgh Medical Center. 
In 1999, along with Joe Montana, Kareem Abdul-Jabbar, you were 
inducted into the Lou Holtz Ohio Valley Hall of Fame for your 
athletics, for your accomplishments and contributions to sports 
and medicine. We're very pleased to have you here, and we note 
that along with another neuropsychologist, Mark Lovell, Dr. 
Mark Lovell, you developed the Immediate Postconcussion 
Assessment and Cognitive Testing, the first computerized system 
to deal with some of the problems that bring us here this 
afternoon. We welcome you to the hearings.

    TESTIMONY OF JOSEPH C. MAROON, M.D., PROFESSOR AND VICE-
CHAIRMAN, DEPARTMENT OF NEUROSURGERY, UNIVERSITY OF PITTSBURGH 
                         MEDICAL CENTER

    Dr. Maroon. It's my great pleasure, Mr. Chairman, thank you 
very much, and also Congressman Cohen and Congressman Sanchez, 
I deeply appreciate your preliminary comments, specifically 
speaking to be proactive and a catalyst for change, and I'm 
going to address those issues later on in my discussion, but I 
want to bring up, first, the fact that the MTBI Committee, the 
Traumatic Brain Injury Committee of the NFL, was formed in 1994 
after traumatic brain injuries to Al Toon for the New York Jets 
and Merril Hoge for the Pittsburgh Steelers and also the 
Chicago Bears, these gentlemen were both forced to retire 
because of their head injuries in 1994.
    It was at this time that Commissioner Tagliabue 
commissioned the formation of the MTBI committee with the 
express purpose of supporting independent, scientific research 
to further the understanding of the causes, diagnosis, 
treatment, and prevention of concussion as well as investigate 
helmet standards and the long-term effects of concussion. That 
was the mission statement in '94.
    In this past October, I presented to you what was being 
done from '94 to the present time relative to management of 
concussions, and there were five things. Number one, I outlined 
for you the educational efforts on behalf of the NFL with the 
players, the coaches, the trainers, informing them of the 
potential dangers of concussion. They also instituted 
neurocognitive testing as a mandatory test, which I think 
speaks for itself. There were stricter return-to-play 
guidelines and, also, penalties and fines for head hits, as 
well as a hotline for any individual in the NFL who feels he is 
being coerced into playing can call the hotline and make it 
known that this is inappropriate. Perhaps, that might have 
helped in Texas, Congressman.
    Regardless, I'm here today to show you and to illustrate 
for you the additional steps that have been taken since our 
last meeting relative to protection of players and, also, the 
catalyst for change that the NFL hopes to be in the recent--
recent (sic) future. Number one, besides the criteria for 
return to play that I outlined, being asymptomatic and normal 
neurological examination and without symptoms on exertion, the 
NFL Players Association with Mr. Smith and Commissioner Goodell 
have formulated an independent neurological consultant as being 
mandatory for the NFL teams. These are to be mutually approved 
by the NFL Players Association and the NFL.
    Number two, it's a two-way street. The NFL is doing a 
considerable amount to initiate changes and educate the 
players, but there's also a player responsibility in this, and 
that is to report when they have concussions. And yes, I know 
the motivating factors against that having participated in 
football at the collegiate level, myself, and the fact that 
concussions are difficult to diagnose, but we must make an 
effort on the players to let the physicians and the team 
personnel know when a concussion has occurred so that it can, 
indeed, be addressed appropriately.
    Third, aware that the NFL is, indeed, now the model for 
concussion management in the United States, they're speaking to 
Congressman Sanchez's dictum that with this awareness, with the 
fact that it is a model of concussion management, how do we get 
it to the 1.1 million high school kids in the United States and 
the 3 million youth sport participants in the United States?
    And to that end, recently in December, in conjunction with 
the CDC, the NFL is working on public service announcements 
that will be shown during the playoff games, as well as during 
the regular season emphasizing to parents, coaches at the youth 
league, and also the players, themselves, that concussions at 
any level is a significant major problem.
    Number four, because of the importance of head injuries in 
the NFL, the commissioner is now strengthening and expanding 
the membership of the MTBI committee, and the national search 
is underway at the present time in the recruitment of a new 
chairman and/or cochairman to continue the work of the 
committee in a very, very unbiased, independent fashion.
    Number six, in terms of equipment safety, in response to 
the equipment managers who have complained that many different 
equipment manufacturers come to them complaining that they all 
say that their helmets reduce concussions by X percent or that 
percent, the equipment managers wanted objective data just like 
the impact test is an objective instrument when an athlete can 
return to play, and the NFL, together with the NFLPA, is 
working with engineers to grade, to look at, to evaluate 
various helmets for their protective effect.
    When I first started in sports medicine 20, 25 years ago 
with the Pittsburgh Steelers, the incidence of concussions was 
1 in 5 individuals. Every five players had a concussion during 
the season. That incidence is now into 1 in 20 because of the 
rules changes, the improvement in equipment, etcetera.
    And then finally, working with John Madden as a special 
adviser to the commissioner, we're looking at ways to cut down 
on the head impacts, not only during the game with fines and 
penalties, but also during practice, and in summary, then, the 
NFL committee has long recognized the long-term effects of 
concussions.
    I think the goal at the present time matches your goals. 
That is, to make the game safer, to address the needs of 
retired players, and also to set the right example for players, 
coaches, and trainers at all levels, and not just for football. 
It's said that in science, many, many scientific innovations 
proceed through three stages. The first is confusion when a new 
idea is introduced. The second is controversy, which we are all 
familiar with, and then the four--the third is consensus, and I 
think with the help of your Committee, the spotlight that Mr. 
Smith emphasized you're shining on this problem, we are at a 
point, in my opinion after 25 years in this, of consensus. 
Thank you.
    [The prepared statement of Dr. Maroon follows:]

                 Prepared Statement of Joseph C. Maroon

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thank you very much, Doctor. David Klossner is 
a doctor, but he's a Ph.D., and he is the associate director of 
education services with the National Collegiate Athletic 
Association with primary duties on health and safety aspects. 
He's also a Liaison to the Committee on Competitive Safeguards 
and Medical Aspects of Sports. He has a distinguished previous 
career at DePaul, then at Bloomington, Indiana University prior 
to completing his Doctorate in Philosophy from Ohio University. 
Welcome this afternoon, sir.

            TESTIMONY OF DAVID KLOSSNER, DIRECTOR, 
                    HEALTH AND SAFETY, NCAA

    Mr. Klossner. Thank you, Chairman Conyers, Congresswoman 
Sanchez, and Congressman Cohen, and other distinguished guests 
in attendance. On behalf of the National Collegiate Athletic 
Association, thank you for inviting me to appear before you 
today to discuss the NCAA's multifaceted approach in 
preventing, identifying, and treating mild traumatic brain 
injuries and concussions. I've been with the NCAA for 7 years. 
I, as mentioned by Congressman Conyers, I served as liaison to 
the NCAA's Membership Committee on Competitive Safeguards and 
Medical Aspects of Sports, the committee charged with providing 
leadership on health and safety recommendations to more than 
1300 conferences, colleges, and universities that are members 
of the association.
    I appreciate the opportunity to respond to your request for 
information on a critical medical issue at the core of student 
athlete well-being. The NCAA and its membership have devoted 
significant resources to study, educate, and enforce various 
health and safety standards, including those in the area of 
football related mild traumatic brain injury.
    Chairman Conyers, you'll be interested in learning that 
since we provided you with the response in October, the NCAA 
has taken additional steps to further ensure student athlete 
well-being, and I'll respond--expand upon those in a moment. 
The NCAA's health and safety recommendations and policies are 
addressed through the collaborative efforts of national office 
staff, governance committees, sport playing rules committees, 
sport issues committees, and external associations for our 23 
sports.
    Since 1976, the NCAA has warned against using the head as a 
weapon in football and other contact sports, and for the past 
15 years, the NCAA has provided member institutions with 
specific recommendations regarding concussion management in its 
sport medicine handbook. In the sport of football, the NCAA 
football rules committee has made changes over the past 5 years 
to further protect players against sustaining concussions.
    As part of its ongoing review of concussions, the NCAA 
committee on Competitive Safeguards and Medical Aspects of 
Sports met on December 13th through the 15th, 2009, to discuss 
the most recent developments in athletic related brain injury 
and concussion. The committee reviewed the NCAA injury 
surveillance data, current policies of the National Federation 
of State High School Associations, the National Athletic 
Trainers Association, and the National Football League, and 
discussed findings of a recent expert conference related to 
concussions conducted in Zurich, Switzerland.
    During its meeting, the committee also consulted with 
authorities who recommended possible courses of action. As an 
outcome of this ongoing evaluation of concussions in all 23 
NCAA sports, the committee determined that a common playing 
rule is necessary to provide an emphasis on the significance of 
head injuries, their prevalence, and the importance to refer 
for appropriate medical care. This action is also accompanied 
by a Concussion in Collegiate Sports Summit that will be held 
in 2010 to review NCAA policies for medical management of 
concussions and prevention strategies appropriate to the 
collegiate environment and the NCAA membership at large.
    In addition, the committee will lead a collaborative 
educational initiative for coaches, officials, and student 
athletes. The proposed playing rules subject to review by the 
NCAA Playing Rules Oversight Panel as early as mid-January 2010 
would mandate removing from competition and practice a student 
athlete who exhibits signs, symptoms, or behaviors consistent 
with a concussion. The proposed concussion rules enforce the 
fundamental principle that the medical care and return-to-play 
decisions for concussions are best handled at the local level 
as with any other medical conditions.
    Pending consideration of the rule change, the committee 
also revised its guideline in the NCAA Sports Medicine 
Handbook, advising member institutions on responses to 
concussion injuries and procedures for returning student 
athletes to competition or practice. The NCAA will produce a 
video by fall 2010 to further educate student athletes about 
the dangers of concussions and approve awareness of the issues 
among coaches and game officials.
    The NCAA sponsored Concussion in Collegiate Sports Summit 
will also provide an opportunity to explore emerging trends in 
medical management of concussions. On behalf of the NCAA and 
its more than 400,000 student athletes, I would like to thank 
Chairman Conyers for his leadership on this important matter. 
Mild traumatic brain injuries have and continue to be a 
significant concern to the NCAA and its membership. The NCAA's 
long-standing and ongoing commitment to the health and safety 
of its student athletes is reflected in the comprehensive 
approach taken to address concerns in this specific injury.
    We look forward to the continued work with medical 
professionals and athletics personnel as we continue to search 
for new and effective tools to prevent, identify, and treat 
mild traumatic brain injuries. Thank you.
    [The prepared statement of Mr. Klossner follows:]

                  Prepared Statement of David Klossner

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Conyers. Thanks, Dr. Klossner.
    Representing the National Federation of State High School 
Associations is Bob Colgate, Assistant Director from 
Indianapolis, Indiana, has a broad set of responsibilities 
because, as I understand it, your jurisdiction covers all male 
sports, female sports, football, wrestling, track and field, 
golf, football, of course, and probably others.
    He served as Liaison to the Federation's Sports Medicine 
Advisory Committee, Wrestling Rules Committee, Football Rules 
Committee, and the Sports Medicine Advisory Committee. We're 
pleased that you could be with us today. Welcome.

    TESTIMONY OF BOB COLGATE, ASSISTANT DIRECTOR, NATIONAL 
          FEDERATION OF STATE HIGH SCHOOL ASSOCIATIONS

    Mr. Colgate. Thank you, Chairman Conyers and distinguished 
Members of the Judiciary Committee for the opportunity to 
testify today on this important issue. I am an Assistant 
Director of the National Federation of State High School 
Associations, the NFHS. In my work for the NFHS, I serve as the 
editor and national rules interpreter for sports and football, 
wrestling, and staff liaison for our NFHS Sports Medicine 
Advisory Committee.
    Before further discussing head injuries, let me provide 
some context on the role of the NFHS within the high school 
community. The NFHS based in Indianapolis, Indiana, is the 
national leadership organization for high school athletics and 
performing arts programs in speech, debate, theater, and music. 
Since 1920, the NFHS has worked with its member state 
associations on the development of education based 
interscholastic sports and fine arts activities.
    The NFHS sets direction for the future by building 
awareness and support, improving participation, establishing 
consistent standards and rules for competition, and helping 
those oversee high school sports and activities. The NFHS 
writes voluntary playing rules for 17 sports for boys and girls 
at the high school level. Through our 51-member state 
associations, the NFHS reaches more than 19,000 high schools 
and 11 million participants in activities, in high school 
activities programs, including more than 7.5 million in high 
school sports. The NFHS conducts national meetings, produces 
publications for high school coaches, officials, athletic 
directors, and serves as the national information resource for 
interscholastic athletics and activities.
    One of our critical functions is to obtain and disseminate 
health and safety related information. The NFHS Sports Medicine 
Advisory Committee, SMAC, is one facet of the federation that 
addresses medical issues relevant to interscholastic athletics, 
including concussions and concussion management. The membership 
of the Sports Medicine Advisory Committee includes a number of 
highly represented physicians and other healthcare providers 
from around the country.
    The SMAC makes recommendations to the NFHS staff and 
membership about programs and services to the NFHS. The SMAC 
regularly reviews the latest medical evidence regarding sports 
related concussions in high school athletes. The past decade 
has witnessed significant changes in the management of sports 
related concussions as new research findings have been 
published.
    As a result, the SMAC has worked with the Centers For 
Disease Control, CDC, to disseminate concussion management 
information from the CDC to our Nation's high schools. They've 
updated the concussion section of our sports medicine handbook 
and has issued a new NFHS brochure on suggested guidelines for 
management of concussions in sports. The NFHS has made 
concussion management a point of emphasis in rule books in 
recent years. For example, in all rule books for the coming 
academic year, the NFHS provides that any athlete who exhibits 
signs, symptoms, or behaviors consistent with a concussion, 
such as loss of consciousness, headache, dizziness, confusion, 
or balance problems shall be immediately removed from the 
contest and shall not return to play until cleared by an 
appropriate healthcare professional.
    The key concussion related issue for the NFHS is to help 
high school coaches identify the signs and symptoms of 
concussions so they can direct injured athletes to appropriate 
healthcare professionals. We can help coaches with concussion 
recognition. Toward that end, we have extensively circulated 
printed and online educational materials. Our mission is to 
continue this important educational process.
    In summary, with more than seven and a half million 
participants in high school sports, minimizing the risk of 
injury has been and remains one of the chief tasks of our NFHS 
rules committees. The NFHS Sports Medicine Handbook has a six-
page section on dealing with concussions. The third edition of 
this handbook was distributed to virtually every high school in 
the country during the 2008-9 school year. The SMAC was also 
involved with producing the brochure I mentioned entitled 
Suggested Guidelines For Management of Concussion In Sports.
    The issue of concussions is a serious one, and our various 
medical and sport professionals and experts have been reviewing 
the subject for a number of years and will continue to monitor 
developments, but we cannot mandate the adoption of specific 
treatment protocols at the local level. We continue to provide 
up-to-date resources to assist NFHS member state associations 
and high schools in developing policies that are in the best 
interests of the participants.
    Minimizing the risk of injury for high school student 
athletes has been a foremost priority of the NFHS rules writing 
process and we'll continue to champion the task in years to 
come. We would be happy to continue our assistance to the 
Chairman and Members of the Committee on this issue. I look 
forward to answering any questions and providing any additional 
information you require. Thank you.
    [The prepared statement of Mr. Colgate follows:]

                   Prepared Statement of Bob Colgate

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Conyers. Thank you, Mr. Colgate.
    Scott Hallenbeck has led USA Football, the national 
governing body on this sport at the youth and amateur levels 
since 2005. He covers all aspects, football development, 
communications, corporate partnerships, membership programs, 
and the organization has built senior and junior national teams 
for international competition, produced industry leading 
resources to further strengthen coaching and officiating within 
America's football system, established a half-million-dollar-
per-year equipment and grant program, kicked off a 
groundbreaking volunteer youth coach background check program 
to ensure that we get as much positive football experience as 
possible.
    A couple years ago they established coaching, officiating, 
and commission membership programs, including the certified 
coaching education program which conducts 40 full-day youth 
football coaching schools in more than 30 states. He's done a 
great deal of work in this area, and he's President of the Pan 
American Federation of Sports. Mr. Hallenbeck, we're pleased 
that you're with us today.

                TESTIMONY OF SCOTT HALLENBECK, 
               EXECUTIVE DIRECTOR OF USA FOOTBALL

    Mr. Hallenbeck. Thank you very much. Thank you, Chairman 
Conyers, Congresswoman Sanchez, and Congressman Cohen for 
having me here today. Three million American youngsters, aged 6 
to 14, and some 500,000 adult volunteers comprise youth 
football, making it one of our country's most popular youth 
sports. USA Football is the sports national governing body in 
youth and amateur levels. We're an independent nonprofit with 
members in all 50 states and the District of Columbia.
    Our members are youth football coaches, players, league 
commissioners, and game officials. We lead the sports 
development and serve the youth football community. A critical 
part of that leadership is the health and safety information we 
provide, including our work with the CDC on concussion 
awareness.
    USA Football has worked with the CDC for more than 2 years 
to share concussion awareness information throughout youth 
football, and we will do so with even greater emphasis in 2010. 
I'd like to briefly share some background with you on youth 
football.
    Youth football has likely never been stronger or more 
popular than it is right now. Like most all youth sports, it is 
dependent upon committed volunteers. The amount of time that 
they have to learn how to teach this game's fundamentals and 
techniques is limited. Youth football is fragmented. 
Conservatively, 80 percent of leagues are independent and 
community based.
    With such variance in structure, football and every youth 
sport needs clear, concise safety standards so that volunteers 
can comprehend the critical information like concussion 
awareness. This is what we're doing for football in partnership 
with the CDC and others. We encourage youth sports leagues, not 
only those pertaining to football, to adopt our CDC-approved 
concussion awareness and management policy which is found in my 
written testimony.
    Succinctly stated, this covers educating athletes and 
parents about concussion, informing coaches, parents and 
athletes of concussion signs and symptoms, and what to do if a 
concussion is even suspected. When in doubt, sit them out is a 
CDC approved guideline that we stress. Just as important is an 
athlete who endures a concussion can only return to play after 
an appropriate healthcare professional clears his or her 
return. In some, returning to play must be a medical decision.
    This information is prominently posted on our website, 
usafootball.com, and will be distributed to tens of thousands 
of coaches during 85 training events in 27 states and through 
our membership programs. Our events, online education programs, 
and resources for coaches provide a strong knowledge base. No 
physical activity is injury proof, but having coaches who know 
how to teach tackling and blocking fundamentals would likely 
lessen the chance of injury.
    More than 26,000 youth coaches have completed our primary 
online coaching course since May of 2008. By this coming April, 
this eleven-chapter course will be bolstered with new chapters 
on concussion awareness, athlete hydration, and even equipment 
failure. Every chapter is followed by a quiz strengthening 
comprehension, and that's the critical point, strengthening 
comprehension. To successfully complete the course, a coach 
must be reach a cumulative quiz score of 80 percent.
    USA Football's commitment to keeping the sport safe is also 
demonstrated through our equipment grant program. From this 
past November through February of this year alone, we will 
award a million dollars' worth of new helmets and other 
football equipment to more than 800 youth and high school 
programs in 44 states based on need and merit.
    Concussion related legislation in youth sports exists. A 
coalition of Washington State health providers and the CDC 
helped pass a State law there this past May that mirrors much 
of our suggested policy for youth leagues. The American College 
of Sports Medicine has joined forces with that Washington 
coalition to pass similar laws at State or Federal levels. USA 
Football supports such legislation, and we hope that other 
sports national governing bodies will join us. All youth sports 
need to recognize the seriousness of concussions and the need 
for further education among our coaches, the administrators, 
game officials, athletes and parents.
    I thank you, and I'd be happy to answer any questions at 
this time.
    [The prepared statement of Mr. Hallenbeck follows:]

                 Prepared Statement of Scott Hallenbeck

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thanks, Mr. Hallenbeck.
    Lem Barney, welcome.
    Mr. Barney. Thank you.
    Mr. Conyers. We've got so many stats on you.
    Mr. Barney. Don't call them all.
    Mr. Conyers. I'll just put--don't worry, I won't.
    Mr. Barney. Love you, too.
    Mr. Conyers. I'll put them all in the record. You've been 
named all NFL in '68 and '69, all NFC in '72-'75, you are--have 
been a double/triple threat, kickoff return, punt return, 
interception, tailback. We'll let the record speak for itself. 
We're glad that you're with us today, and we welcome any 
reflections that you have on this important subject.

                  TESTIMONY OF LEMUEL BARNEY, 
               DETROIT LIONS HALL OF FAME PLAYER

    Mr. Barney. Thank you very much for this great opportunity, 
Representative Conyers, to Chairperson Sanchez, and to Chairman 
Cohen, and to other members of the House Judiciary Committee, 
to the panel, to my former teammates that's in attendance, and 
to all the attendees, I am Lem Barney, and prior to becoming a 
minister, I played professional football for the Detroit Lions 
for 11 seasons and was inducted into the Professional Football 
Hall of Fame in 1992. I began playing football in 1959 at 
Sturgis Junior in San Bernadino, California. After playing high 
school football in Gulfport, Mississippi, I attended Jackson 
State University where I was three times all-SWAC player.
    I thank you again for inviting me to testify at this 
hearing. I also want to thank the Committee for bringing 
awareness to the important issue of brain injuries in 
professional football. When I played in the sixties and the 
seventies, we did not have the same level of awareness that we 
do now. And we would not--and I repeat--we should not repeat 
the mistakes of the past. I played football for a total of 20 
years, and concussions have always been a part of the game.
    I've had several concussions myself. The first concussion 
that I remember was the result of a knee from Rufus Mays of the 
Cincinnati Bengals, six-nine, 285, a knee to the earhole of my 
helmet while playing the game. I was out on the field for 20 
minutes before moving to the sideline and later returning to 
play.
    The next concussion that I recall was the result of me 
becoming privy to the high-knee action that made Gale Sayers 
the running back that we all know today, and the final 
concussion that I remember was from Robert Newhouse of the 
Dallas Cowboys, known for his powerful running style. In each 
incident, I returned to play immediately.
    Sure, there was examination done by the trainer or the team 
physician on the sideline, and there were general questions I 
asked of players that experienced concussions, questions like 
``How many fingers am I holding up,'' and ``What day of the 
week is it,'' but in reality, the ultimate decision to return 
to the game rested on the desire of the player and sometimes 
the coach.
    Hindsight tells us that we should not have returned to play 
based on those factors alone. New research into the effects of 
these injuries tell us that returning to play may not have been 
in our best interests and more than likely made us more 
susceptible to further injury. Back then, as I'm sure the case 
for some players now, guys just wanted to play the game. I have 
witnessed guys return to the game and seeing firsthand how they 
reacted to their injury. Players would exhibit signs of 
wooziness and imbalance but still in some instances be allowed 
to retake the field.
    As I said before, hindsight tells us that those players 
would have probably been better off not returning. Thankfully, 
the decision is moving closer to the hands of an independent 
third party. The committee of the National Football League 
Players Association should be applauded for raising the public 
awareness of this issue, and in particularly, I want to note 
that the Players Association's new Player Concussions Committee 
will ensure the future of generations of players and provide 
with them the knowledge to make the best possible decision.
    I am delighted and encouraged to see players taking the 
initiative and exerting control over their personal welfare. I 
would also like to commend the NFL on the league's new policy 
to restrict the return of players who have experienced 
concussions and other brain injuries. Football is a great 
sport, and was--I repeat--was one of my favorite passions. But 
no sport should endanger the lives of its participants. This 
holds true for all levels of football from pee wees to 
professionals.
    I have never coached a game of football, but I have played 
the game on every level, including seven Pro Bowl appearances. 
On the way to becoming a member of the National Football League 
Hall of Fame, since my playing days, I've noticed continual 
improvements in the equipment used by players on the fields. 
Helmets used in my days were little more than a thin plastic 
layer with a small donut shaped piece of foam rubber at the 
top.
    And I've brought these two helmets, Pro Bowl helmets, as an 
example for you to examine today for yourself. Today's helmet 
is much more protecting for the players enduring the games and 
competition. I recognize that in today's game, the athletes are 
bigger, stronger, faster, and in some cases more intelligent. 
As a result of the hits, they are harder and the impact from 
each hit is greater. With much research into the way to protect 
the players, we can continue to enjoy this game for years to 
come.
    Thank you again for your hard work on this issue and 
inviting me to be here at this hearing. I'll look forward to 
answering any questions that you may have. Thank you very much.
    [The prepared statement of Mr. Barney follows:]

                  Prepared Statement of Lemuel Barney

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thank you very much, Lem Barney.
    Our next witness is Dr. Bennet Omalu who discovered and 
named chronic traumatic encephalopathy in American football, 
and not only among football players but wrestlers, as well. His 
first case of CTE in a football player was Mike Webster, the 
Pittsburgh Steelers Hall of Famer who died in 2002. His first 
case of CTE in a wrestler was Chris Benoit, a World Wrestling 
Entertainment Champion who died in the year 2007.
    Dr. Omalu has also identified CTE in an 18-year-old high 
school player who died in 2006 10 days after following 
concussions sustained while he was playing football. He's 
examined the largest number of brains of deceased professional 
and amateur athletes with CTE in the United States. His book 
Play Hard, Die Young, Football Dementia, Depression and Death, 
he's published extensively in the medical literature field. He 
has four board certifications, a Master's in Public Health and 
Epidemiology, a Master's in Business Administration, a visiting 
professor at the Blanchette Rockefeller Neurosciences 
Institute, a Co-Director of Brain Injury Research Institute, an 
Associate Clinical Professor of Pathology at the University of 
California - Davis, and Chief Medical Examiner with San Joaquin 
Valley County in California.
    We're delighted to have you, sir, with us today, and we 
welcome you for your testimony.

 TESTIMONY OF BENNET I. OMALU, M.D., CO-DIRECTOR, BRAIN INJURY 
          RESEARCH INSTITUTE, WEST VIRGINIA UNIVERSITY

    Dr. Omalu. Thank you, Chairman Conyers, and good afternoon, 
everybody. Good afternoon, Chairman Conyers, Congresswoman 
Sanchez, and Congressman Cohen.
    I discovered the first eight cases of footballer's dementia 
in football players between 2002 and 2008. My first case was 
Pittsburgh Steelers Hall of Famer, Mike Webster, whose life 
after retirement was marred by progressive symptoms of 
permanent brain damage. Surprisingly, his brain at autopsy 
appeared normal by naked-eye examination.
    I performed extensive tissue analysis which revealed a 
unique type of dementia. As you can see from the following 
slides, a microscopic image on the right is Mike Webster's 
brain. You can see the brown blotches which indicate brain 
damage. That was his brain appeared normal, even on CT scan and 
on MRI.
    The image on the left is that of a normal brain. This 
instigated my definition of a new disease in football players 
which I called chronic traumatic encephalopathy, CTE for short. 
Since Mike Webster, my colleague and I, Dr. Julian Bailes, have 
examined over 20 brains of amateur and professional contact 
sports athletes at the Brain Injury Research Institute, West 
Virginia University School of Medicine. We have identified CTE 
in many football players, including an 18-year-old high school 
football player.
    We have also identified CTE in two WWE wrestlers. I have 
identified CTE changes in the brain of a Vietnam War veteran 
diagnosed with lingering posttraumatic stress disorder which, 
hopefully, should be published soon in the Stars and Stripes. I 
have examined thousands of brains of sufferers of all types of 
brain injuries, including brains of high school students, 
football players who died from brain injury sustained while 
playing football.
    The current focus has primarily been on concussions and has 
remained on concussions, while we are not recognizing 
subconcussions. A concussion may present one end of the 
spectrum of mild traumatic brain injury; however, 
subconcussions or blows to the head which may not manifest with 
incapacitating symptoms are equally as important as 
concussions. For every one documented concussion, there may be 
tens to hundreds of subconcussions. Thousands of subconcussions 
without any documented concussion can equally result in 
permanent brain damage and dementia in football players and 
other individuals at risk for brain injury such as members of 
the Armed Forces.
    We must also consider the neuropathology of traumatic brain 
injury while developing management protocols for concussions. 
Concussions result in the accumulation of certain types of 
proteins in the brain. For example, amyloid precursor protein, 
APP for short. APP begins to accumulate noticeably in brain 
cells and their fibers about one to 3 hours following a 
concussion. APP disappears from the brain after about 3 months 
following a a concussion.
    While a concussed player may be symptom free, several weeks 
after sustaining a concussion, APP accumulation in the brain 
will tell us that a concussed player's brain cells may not have 
recovered after several weeks. Would 1 week, 2 weeks, or even 
several weeks be sufficient postinjury intervals for the 
concussed player to return to play and prevent permanent brain 
damage?
    The human brain becomes fully developed at the age of 18, 
injury to the developing brain of a child is more likely to 
result in more serious adverse outcomes than a developed adult 
brain. The brain cells of children who play football are more 
vulnerable to subconcussions and concussions. A child who plays 
football can be precluded from obtaining the full capacity of 
his cognitive and intellectual functioning as an adult. How can 
we translate and apply this piece of information to the 
administration and management of football in children?
    Rules changes may mitigate the prevalence of subconcussions 
and concussions. Unfortunately, it seems less likely that 
impacts to the head may be completely avoided in the game of 
football. The ultimate focus, therefore, should be on the 
development of biomarkers and the identification of drugs which 
will prevent and cure CTE and other sequelae of subconcussions 
and concussions.
    We have identified proteins which accumulate in the brains 
of CTE sufferers. We also have noted proteins, which accumulate 
in the brain following subconcussions and concussions. There 
are existing drugs which we know can prevent the accumulations 
of these abnormal proteins. If we can prevent the formation and 
accumulation of these abnormal proteins, there is a high 
scientific probability that we can cure CTE and other sequelae 
of subconcussions and concussions.
    We should focus on developing a battery of biomarkers in 
clinical pathology for subconcussions, concussions, and CTE. 
Decades ago, we did not have biomarkers which were specific for 
heart attacks in clinical pathology. Today, fortunately, we 
have a specific diagnostic marker for heart attacks called 
Troponin-I. There is no reason why a similar model cannot be 
developed for the diagnosis and treatment of subconcussions, 
concussions, and CTE in football players.
    Thank you for allowing me to speak with you, and I'm very 
happy and excited to be here today.
    [The prepared statement of Dr. Omalu follows:]

                 Prepared Statement of Bennet I. Omalu

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Conyers. Thank you very much, Dr. Omalu.
    We now welcome Dr. Ira Casson, a neurologist at the Long 
Island Jewish Medical Center, Former Co-Chairman of the 
National Football Leagues' Mild Traumatic Brain Injury 
Committee. He's a graduate of the New York University Medical 
School, and finished his residency there at the same place in 
1979. We're delighted that you can be with us, sir.

TESTIMONY OF IRA R. CASSON, M.D., FORMER CO-CHAIRMAN, NFL MILD 
                TRAUMATIC BRAIN INJURY COMMITTEE

    Dr. Casson. Thank you. I want to thank the Committee for 
inviting me to participate in this hearing. I will directly 
address the issue in question, namely, whether or not a career 
in professional football causes long-term chronic brain damage.
    The media has consistently misrepresented my position. My 
position is that there is not enough valid, reliable, or 
objective scientific evidence at present to determine whether 
or not repeat head impacts in professional football result in 
long-term brain damage. Many have misunderstood my caution in 
jumping to conclusions without convincing scientific evidence 
as a denial of a link between head impact and long-term 
consequence.
    Since I understand the link in boxing, I've been acutely 
sensitive to look into connections in football. I believe that 
there is tau pathology in the brains of some retired 
professional football players and that a number of retired NFL 
players have neurological and behavioral, psychological 
symptoms.
    As a physician, I am very concerned about the possible 
long-term implications of these findings for the health and 
safety of NFL players. I sympathize with the players and the 
families who are affected. As physicians and scientists, it 
behoves us to critically evaluate the evidence before reaching 
definitive conclusions. We must always remember the fundamental 
principle of evidence that the presence of an association does 
not establish causation.
    When tau deposition in the brains of retired NFL players 
was reported, the NFL MTBI committee examined the evidence in 
great deal. We reviewed the relevant scientific literature. I 
took the initiative on behalf of the MTBI committee to consult 
with nationally known experts on tau pathology. Based upon 
these rigorous scientific analyses and consultations, I believe 
that there are a number of significant limitations and 
inconsistencies in the reports of tau deposition. I have 
detailed these in my written statement.
    For example, tau pathology is not exclusive to head trauma. 
Tau deposition is the predominant pathology in a number of 
other neurologic diseases that have never been linked to 
athletics or head trauma. Some of these diseases have genetic 
causes, some have environmental toxic causes, and others are 
still of unknown cause. The clinical picture of these other tau 
diseases is also completely different than that that has been 
reported in the cases by Dr. McKee and Dr. Omalu.
    Since tau pathology has been reported in men who played 
college football but never played professional football and 
even an 18-year-old high school athlete, we must consider the 
possibility that some event or events, possibly head trauma, 
occurring in childhood or adolescence is an important causative 
factor in its development. It is also very hard to imagine how 
tau in the lower regions of the spinal cord could possibly be 
related to head impacts.
    I have also analyzed the three survey studies that 
purportedly show a connection between professional football and 
late onset dementia and depression. These types of survey 
studies suffer from many inherent methodological limitations 
that I have detailed in my written statement. I was the lead 
author of a landmark paper on brain damage in modern boxers 
that was published in JAMA in 1984. Despite harsh criticism 
from the boxing community, I followed the evidence, and I 
published the findings. Despite current harsh criticism from 
the media and others, I will continue to follow the evidence. 
My allegiance is to scientific truth.
    Some have suggested that scientific evidence regarding the 
question at hand is conclusive and that there's no need for 
further research. I strongly disagree with that position. In 
the present state, we have a tau pathology condition that can 
only be diagnosed after death. When treatments aimed at curbing 
tau deposition become available, how will physicians know 
which, if any, football players might benefit from these 
treatments while they are alive?
    We need further scientific research to discover in vivo 
means of diagnosing tau buildup. In the present state, many 
assume that all football players with symptoms of depression or 
dementia have these as a result of tau pathology. This ignores 
all of the other conditions and diseases that are associated 
with dementia and/or depression in the general population. Such 
thinking does retired players a disservice by not considering 
the possibility that their symptoms may be related to treatable 
or otherwise manageable conditions rather than a condition 
which will inexorably lead to deterioration.
    At present, many assume that head injury is the only 
possible cause of this tau deposition. If we ignore the 
possibilities that genetic, environmental, or toxic factors may 
play a role in the development of tau deposition, we may 
overlook strategies that ultimately can prevent its occurrence. 
I believe that studies like the NFL Retired Players Study are 
the most effective way to investigate the possibility that 
professional football causes chronic brain dysfunction.
    The NFL Retired Players Study has been derailed by 
unwarranted and inaccurate media and political attacks. I hope 
that this important study will ultimately withstand this 
hostile environment and continue on to completion. If that does 
not occur, the wealth of clinical information that has already 
been collected from the more than 40 subjects who've been 
thoroughly evaluated should be reported in the medical 
literature.
    My primary goal has always been to advance the scientific 
and medical knowledge of concussions, thereby improving the 
health and safety of NFL players. Toward that end, I made a 
number of recommendations for further scientific research in my 
written statement. Thank you, and I'll be glad to answer any 
questions.
    [The prepared statement of Dr. Casson follows:]

                  Prepared Statement of Ira R. Casson

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Conyers. Thank you very much, Dr. Casson.
    Our next witness is the president of Riddell, Mr. Dan 
Arment. He's a Colgate graduate, played for the Colgate Raiders 
as an outside linebacker for 4 years, has served as vice-
president of national sales for a number of companies, and has 
a broad consumer marketing experience.
    He joined Bell Sports in 2001 as vice-president, has 
previously served as Easton-Bell Sports Executive Vice-
President and General Manager. Mr. Arment, we welcome you here 
this afternoon.

     TESTIMONY OF DAN ARMENT, ASSISTANT DIRECTOR, NATIONAL 
          FEDERATION OF STATE HIGH SCHOOL ASSOCIATIONS

    Mr. Arment. Thank you, Mr. Chairman.
    Mr. Conyers. Pull it closer.
    Mr. Arment. Again, thank you, Mr. Chairman, and Members of 
the Judiciary Committee for the opportunity to speak today.
    For more than 70 years Riddell has passionately been at the 
forefront of providing state-of-the-art helmet technology and 
will continue to be in the future. That commitment is 
demonstrated to Riddell's parent company, Easton-Bell Sports 
where company researchers across all of its brands, Easton, 
Bell, Giro, and Riddell are constantly collaborating on the 
latest in head protection innovation. Riddell has significant 
partnerships with the NFL, the NFLPA, USA Football and American 
Youth Football. We have also collaborated with high-profile 
athletes and equipment managers at all levels and the sports 
medicine community to maintain the highest levels of helmet 
technology and advancement.
    I understand that some will suggest that there has been 
little advancement made in football helmet technology. In fact, 
with the Riddell Revolution, the first helmet designed with the 
intent of reducing the risk of concussion, was introduced in 
2002, it was the first major innovation in this direction for 
football helmets in 25 years. We have independent, peer-
reviewed, published research in the medical journal 
Neurosurgery, February of 2006, showing that the Revolution 
reduces the risks of concussions by 31 percent when compared to 
traditional helmets.
    As the market leader, we have always felt we have an 
obligation, not just as a business but in the public interest, 
to collaborate where possible and maintain the highest standard 
of innovation and research that has continued to stand the test 
of time, scrutiny, and independent research for nearly anyone 
with interest in the issue. Today, over one million high 
school, college, and professional players have made the switch 
from traditional helmets to the Revolution family of helmets.
    The introductions of the Revolution Speed, Revolution IQ, 
and its technology are additional examples of Riddell's 
constant evaluation for potential new technologies in order to 
advance our mission of making the most protective products in 
the game, enhancing performance for players at all levels. That 
is a track record of innovation and demonstrated commitment to 
science and technology yet to be matched by any competitor.
    Regarding Riddell's relationship with the NFL, my 
counterpart, Mr. Ferrara, will imply that the NFL's current 
testing process has been somehow biased due to its licensing 
relationship with Riddell. We want to be very clear that any 
such insinuation is without any merit, whatsoever. Riddell had 
absolutely no role in the selection of the test facilities or 
involvement in any way in the actual tests recently conducted 
by the league. Riddell was made aware of the preliminary test 
results on December 15th, as were all other manufacturers.
    It is important to note that despite read Riddell's 
licensing relationship with the NFL, players are not mandated 
to wear Riddell helmets. Each player may work with their team's 
equipment manager to choose their own helmet from any 
manufacturer. As such, Riddell has worked closely with the NFL 
and the NFL Players Association to provide education on the 
various protection and performance features of our helmets.
    We need our paid players to wear our product and will 
receive any endorsements from players, staff or team. As such, 
it should be noted that Riddell helmets are the helmet of 
choice by approximately 80 percent of the league's players. We 
will continue to work closely with the NFL and NFLPA to ensure 
our innovation and technology provides the very best protection 
possible and maintains their trust in our helmets.
    Thank you very much for your time.
                              ----------                              


    Mr. Conyers. Thank you very much, Mr. Arment.
    Our next witness is David Halstead, technical director of 
the Southern Impact Research Center responsible for the 
technical and scientific actions of the A2LA Accredited Test 
Lab, as well as overseeing the technical aspects of all 
testing, consulting, and other services provided by SIRC staff. 
He's an expert in the field of head injury and helmets.
    We have a long bio here, but the development of new 
machinery drew his attention to it, and he was hired to head of 
Firefighters Equipment Manufacturers Protective Clothing 
Division in New Jersey. He became involved with helmet projects 
in that New Jersey company, and he's immersed himself in the 
study of sports helmetry and head injury. He's also worked 
closely with Dr. Hoshin at Wayne State University and has 
become involved with several committees involved with head gear 
and brain injury. We welcome you to these proceedings, Mr. 
Halstead.

 TESTIMONY OF P. DAVID HALSTEAD, TECHNICAL DIRECTOR, SOUTHERN 
                     IMPACT RESEARCH CENTER

    Mr. Halstead. Thank you, Mr. Chairman. Thank you, Members 
of the Committee; I appreciate the opportunity to be here today 
and address the Committee.
    My name is Dave Halstead, and I teach at the University of 
Tennessee. I also direct the university's sports and 
biomechanics impact research laboratory. I am Technical 
Director of the Southern Impact Research Center, which is an 
independent accredited laboratory, and have a variety of 
responsibilities with various helmet committees. I am chairman 
of the American Society of Testing Committee For Headgear. I'm 
also a Technical Adviser to the National Operating Committee 
For Standards in Athletic Equipment. I'd like to tell you that 
I'm not here representing either one of those groups today. The 
testing that we did on behalf of the NFL is not ASTM testing, 
and it is not NOC-SAE testing, nor were they involved in that 
activity.
    I have for about 25 years worked on trying to understand 
brain injuries and how protective products might be used to 
mitigate them. The most recent testing, which I guess I'd like 
to discuss for the benefit of the Committee, it was based on 
1990's data collected by the National Football League in which 
they used film analysis to understand how players were 
impacted, the velocities involved, and the impact locations 
involved. That data was published back in the nineties, and 
recently, helmet manufacturers made some claims about whether 
their helmets worked better, and I think a very reasonable 
question was asked and that question was asked do they work 
better.
    So the NFL contacted me. I guess in the interests of full 
disclosure, I should tell you that I have worked with the NFL 
Players Association, I have worked for every helmet 
manufacturer in the United States, if not in the world 
probably. I don't think that makes me biased in any way. The 
gentlemen on each side of me are helmet manufacturers, and I've 
worked with both of them. In any case, the work in this case 
involved one additional laboratory from Canada, myself, and 
some guidance from Dr. David Viano who does, I believe, teach 
here at Wayne State and who certainly has served with the NFL 
in the past.
    The job was really quite simple, and it was very complex if 
you want to get into the details of testing, but the concept 
was simple. Take old helmets off the field that were at least 
10 years old, helmets that were being used when the original 
NFL study was undertaken, and test them using the new test 
method, new being developed quite specifically in the last 5 
years, or so, called the linear impacter to deliver impacts to 
the helmet in different locations at different speeds in 
different temperatures.
    The whole idea of testing the old helmets was to compare 
whether the new helmets performed better or worse or the same 
as helmets that were in use when the NFL did its original 
study, but that has not yet been formalized. As the test 
laboratory, I'm only familiar with my data. The other test 
laboratory and I have not shared data, but the standard 
deviation or the difference, if you will, between one test 
lab's results and the other seem to be very, very close.
    I can tell you that the selection of the helmets, the 
selection of the impact location is completely unbiased. The 
data did show some very interesting things. The data will not 
be released until March. I'm not here to discuss the details of 
the data, but I can tell you that several helmets did, in fact, 
perform better than the baseline 10-year-old helmets, some 
helmets did not perform any better, and some did not perform as 
well.
    With that said, I'm not sure how this data will be used, 
and that is my biggest concern. I believe the data to be valid, 
I believe it to be reliable, I believe it will lead to some 
statistically relevant inclusions about how the helmets 
performed. My concern is that the data would be used, perhaps, 
inappropriately.
    I'm not sure that better performance on this test results 
in a significant change in player protection. I do think 
helmets that manage energy better are a good thing, but the 
direct correlation between how they perform and how a player 
may end up injured or not is still somewhat missing, and I 
think that that link has to be connected.
    Even more importantly, I'm afraid that the general 
consensus of what's good for the NFL is good for the rest of 
the playing world at all levels is probably not correct. I 
think that as helmets get larger and heavier given the 
materials in use today, we don't have any magic materials that 
will do the same amount of work in less space, so given that 
the helmets get larger and heavier, this may not be a concern 
for a football player at the NFL level, but it is certainly a 
concern for my 9 year old, and just because the NFL decides to 
use a certain helmet or use a certain protocol to help 
determine which helmets should be on the field, which I can 
certainly get behind, having that trickle down and 
automatically become well, the NFL uses it, it must be the best 
one, and you're not using it, I think that's a real big concern 
that could hurt the sport.
    So how the data is used and how the data is disseminated is 
yet to be determined; I'm not part of that. It's a concern I 
have that the validity of the data, however, I have no doubt 
about. It does accurately reflect how these helmets perform in 
that test scenario, and I'd be glad to answer any questions if 
they should arise.
    [The prepared statement of Mr. Halstead follows:]

                Prepared Statement of P. David Halstead

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thank you for your testimony.
    Our final witness in this panel is Vincent Ferrara, founder 
of Xenith Company that develops helmet technology and sells 
helmets. He, himself, was a football player at Harvard 
undergrad. He received his M.D. From Harvard, and then an 
M.B.A. From Columbia. We're happy to have you here on the 
panel, sir.

   TESTIMONY OF VINCENT R. FERRARA, FOUNDER AND CEO, XENITH, 
                             L.L.C.

    Dr. Ferrara. Thank you, sir. Good afternoon, my name is Vin 
Ferrara. I'm the founder and CEO of Xenith, manufacturer of the 
X1 football helmet.
    After playing quarterback at Harvard and graduating from 
the medical and business schools at Columbia University, I 
founded Xenith in 2004 with the goal of addressing the 
concussion issue for a blend of innovation and education. I've 
experienced concussions myself, and I know players who have 
been debilitated by them. I have four young children who play 
sports in which concussion is a risk. I feel I understand this 
problem and I certainly care about solving it.
    At the last Congressional hearing, it was revealed that the 
NFL's Concussion Committee was performing yet more research, 
this time on helmet testing. The reaction to this testing from 
leading experts has included phrases like, ``terrible stuff,'' 
``very bad,'' and ``should never happen.'' I will try and 
explain this reaction.
    First and foremost, Riddell is the official helmet of the 
NFL. For the past 20 years, this deal, which was just renewed 
in August just before the helmet testing started, has 
overwhelmingly steered players into Riddell helmets based on 
financially driven quotas and royalty famous to the league. 
This deal also mandates that the logos of non-Riddell helmets 
be covered up or pried off.
    Given this conflict of interest and given the league's 
track record on concussion research, the very concept of the 
NFL performing independent helmet testing is inconceivable. The 
NFL's testing protocol, which I would argue is highly unusual 
and nonreproducible, is based upon a minute number of extreme, 
illegal, open field, helmet-to-helmet impacts that should never 
have happened in the first place and should be a thing of the 
past.
    The league's preferred testing apparatus called the linear 
impactor, which you saw in the video before, is not an official 
standard, has no uniform basis for construction, and was 
created using Riddell helmets in one of the labs doing the 
testing with the lead technician listed as an inventor on 
Riddell patents. We're going to see the testing here.
    Thus, these tests and products or products designed to 
mimic them, are linked in a biased way, much of the same way a 
test for, quote/unquote, intelligence would be biased in favor 
of those used to design it or those who are similar. Regardless 
of its results, this test would not provide any meaningful 
information on intelligence, and the NFL's test will not 
provide any meaningful information on the risk--on reducing the 
risk of concussion.
    In fact, the measures taken in this testing are some of the 
same measures that Dr. David Viano, who just resigned as Co-
Chairman of the NFL's Concussion Committee, yet, is still 
running the testing, suggest should be abolished in a 2003 
conference publication. The existing standard organization, 
NOCSAE, for which David Halstead serves as technical director, 
explicitly forbids numerical comparisons because the numbers 
don't correlate to any particular injury risk. Simply put, a 
crash test dummy cannot tell you it has blurry vision, chronic 
headaches, or can't remember the play.
    Designing for a test is not difficult, it has been done for 
decades. The lab tests and player feedback are often not in 
sync. We have, at times, deliberately made choices in 
opposition to machine data based on player feedback. Our 
approach is to address the potential damage of repeated impacts 
which Dr. Omalu spoke of, while offering comparable protection 
at the rare extreme.
    We're confident in our product, and while we will always 
seek improvements, we don't plan on changing our helmet based 
on the NFL's tests. However, NFL equipment manufacturers will 
make and some have already made critical safety decisions based 
on words that at worst, are biased, and at best, don't mean 
anything. These decisions will trickle down to the college, 
high school, and youth levels. Do the individuals responsible 
for this testing or those in the NFL who failed to stop it 
actually want to incur the potential liability associated with 
these decisions?
    I would like the Committee to note that we have offered to 
the NFL Players Association as many helmets as needed at no 
charge to do player-based comparisons of helmet features, which 
would yield useful information. This is something I don't 
believe any other helmet manufacturer has done. But the NFL has 
shown no interest in this. And by the NFL, I mean Dr. Elliott 
Pellman, longtime Chairman of the NFL's Concussion Committee, 
lead author on the NFL's concussion research publications. Dr. 
Pellman maintains the role as, essentially, the league's 
singular voice on player safety and actually stated to a group 
of helmet manufacturers that gathering player data was, 
``difficult to do, and we need to do something quickly.''
    I believe that when things are done quickly, there's a high 
likelihood they will be done wrong. I believe the NFL should 
not be in the business of concussion research or helmet testing 
and should not have an official helmet. I believe that the 
concussion issue can be addressed through a blend of innovation 
and education.
    I sincerely appreciate the invitation of Chairman Conyers 
and the House Judiciary Committee. This story is not just about 
football helmets. What protects football players today may 
protect soldiers and first responders tomorrow, or it may yield 
better innovations in the future. This story is ultimately 
about innovation and the government's role in fostering it in 
an effort to advance the safety of activity and health of your 
constituents. Thank you for the opportunity to share this 
information.
    [The prepared statement of Dr. Ferrara follows:]

                Prepared Statement of Vincent R. Ferrara

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thank you very much, Doctor, and to all of our 
panelists, we're indebted to you all. There are some questions 
that we would like to put to some of you. If Linda Sanchez is 
sufficiently recovered, I'll recognize her for questions.
    Ms. Sanchez. I will do my best, Mr. Chairman.
    I have a lot of questions for many of you, so I'm going to 
try and get through these as quickly as I can, and I'm going to 
start with Dr.--is it pronounced Maroon like the color?
    Dr. Maroon. Yes.
    Ms. Sanchez. Yeah, it's Maroon, and I don't mean to 
necessarily pick on you, but I was struck by a portion of your 
testimony, and I'm going to read from the written testimony, 
you stated, and I wanted to follow up: ``Our committee--'' 
meaning the MTI committee ``--together with the NFL has long 
recognized that concussions can lead to long-term health 
issues, especially if they are not properly managed,'' and I 
would dispute that sentence that it's been ``long recognized'' 
because it seems to me that the NFL has literally been dragging 
its feet on this issue until the last couple of years when it 
came under increased scrutiny.
    And this is why I say that: The committee and even the 
name, itself, mild traumatic brain injury, suggests a 
downplaying of the dangers. I would assert that there's nothing 
mild about traumatic brain injury, but I'm a layperson and not 
a doctor, and that may be a specific medical term. But the 
committee was comprised in 1994, specifically, you stated, due 
to concussions from several players that ended their careers. 
And yet, as early as 2005, there was paper published in 
Neuropsychology saying that it might be okay, it might be safe 
for high school players who've had a concussion to go back into 
the game, and it took until 2009 for the NFL to impose the new 
rules that if you get a concussion in the game you don't go 
back in to that same game. That's about 16 years in my 
estimation, 15 years, at least, give or take.
    Why do you think it took that long for the NFL to bring 
about these rule changes, or am I just, you know, being crazy, 
that 15 years is a short amount of time?
    Dr. Maroon. Well, I wouldn't suggest that you're being 
crazy, and I think it's a very good question, but I think 
there's been a considerable debate over the period of time just 
what constitutes a concussion, and there have been many 
different specialists who debate what is a mild concussion and 
what is a severe concussion. For instance, I'm sure you have a 
child, I believe.
    Ms. Sanchez. A 7-month-old.
    Dr. Maroon. And if you had your child wake up this morning 
with a temperature of 99 or 99.1, I think you would agree that 
that's a fever.
    Ms. Sanchez. Correct.
    Dr. Maroon. If your child woke up with a temperature of 
105, I think you'd be considered--you would be much more 
alarmed.
    Ms. Sanchez. I would likely be more alarmed.
    Dr. Maroon. Right. So if you hit your head getting out of 
your car and you bump it on the jam of your--the frame of your 
automobile, and you're stunned, and you may see a few spots in 
front of your eyes, that would be considered a concussion. If 
you're run over by a PAT bus and are laying unconscious on the 
pavement, you also have a concussion. So there's all gradations 
of concussion, and it has been recognized by, in fact, here at 
Wayne State University, much of the pioneer work in concussions 
have been done by Dr. Gurdjian and others in the sixties and 
seventies that traumatic episodes to the head results in 
injury. I mean it's a--it's----
    Ms. Sanchez. I can accept that there are gradations of 
concussions.
    Dr. Maroon. There are gradations of concussions.
    Ms. Sanchez. I can totally accept that.
    Dr. Maroon. So----
    Ms. Sanchez. But in a high-impact sport like football----
    Dr. Maroon. Yes.
    Ms. Sanchez [continuing]. When somebody has a concussion--
--
    Dr. Maroon. Yes.
    Ms. Sanchez [continuing]. And we heard from Mr. Barney, he 
was out on the field for 21 minutes, then taken to the 
sidelines and later returned to the same game.
    Dr. Maroon. That was in the 1970's.
    Ms. Sanchez. I understand that, that was very early on, but 
I'm saying since 1994, players have been returning to the same 
game with concussions until the NFL just a couple months ago 
changed the rules and said you can no longer return to that--
why did it take 15 years.
    Dr. Maroon. And again, I'm telling you that they're still--
in 1997, the American College of--the American Academy of 
Neurology published guidelines saying that if an athlete 
completely recovers, asymptomatic in terms of no headache, 
nausea, or vomiting, is able to perform aerobic activity on the 
sidelines without--without complaints, has no amnesia, 
confusion, if it's within 15 minutes, they can return to the 
game safely. So this is the American Academy of Neurology's 
guidelines in 1997.
    So when the paper in Neuro--in Neurosurgery was published 
by Dr. Pellman and others saying that a significant percentage 
of athletes had gone back into the game, they had all recovered 
completely. We now recognize the papers that have been 
published in '05 by Dr. Omalu and in '06 by Dr. Omalu, it lead 
immediately to '07 where the NFL convened a committee and a 
meeting in Chicago and invited the Players' Association, the 
athletes, the trainers, and the team physicians and said hey, 
this--yeah, you're right, just like you're saying, it's a 
problem, what can we do about it?
    Ms. Sanchez. So let me get this correct. The same research 
that Dr. Omalu, which gets discounted or was discounted 
recently as not being scientifically valid enough for some 
members of the MTBI committee is the same research you're now 
saying that helped lead to the rules change----
    Dr. Maroon. I'm saying----
    Ms. Sanchez [continuing]. About not allowing players to go 
back into the game.
    Dr. Maroon. Two case reports in the literature don't make a 
major shift in the thinking of medicine. I mean you can't say 
that--you can't--yes, it's an observation, it's an important 
observation, but does it happen in every situation that an 
athlete who has a head injury is going to be demented.
    Ms. Sanchez. I understand that, but if the MTBI committee 
in 1994 was charged with studying this issue and trying to 
prevent it, I just find it completely interesting that on the 
one hand Dr. Omalu's study has been pooh-poohed to some extent, 
and it's not scientific enough and, you know, but on the other 
hand, what you're saying oh, well, it led us to rethink that 
maybe it wouldn't be a good idea to let players--I mean to me, 
the whole point is--was or was not one of the charges of the 
MTBI committee to study to see what the effects were and how to 
prevent them and what the best course of----
    Dr. Maroon. Congresswoman--I'm sorry.
    Ms. Sanchez. No, that's my question.
    Dr. Maroon. No, I deeply respect your questions, but you're 
discounting over 20 publications published in peer reviewed 
journals over the course of 1994 to 2008 discussing the 
problems with concussion, how to prevent them, helmet design, 
now there's still controversy as to helmet design, as we've 
just heard here within the last 10 minutes, so----
    Ms. Sanchez. I understand, but my question was not about 
helmet design----
    Dr. Maroon. In 1997, the NFL commissioned the biogenetics 
laboratory to look at helmet design and ask the question funded 
by the NFL with no helmet manufacturer involved what can we do 
to design the helmets in a better way to protect the athletes 
so that I--I kind of dispute your position that nothing has 
been done since 1994.
    Ms. Sanchez. Very little has been done--and I'm not 
talking--take away the helmet and the equipment testing. It 
seems to me that if the MTBI committee was specifically 
convened as a result of concussions which took some great 
players out of the game, that the singular focus should have 
been on the health and welfare of the players in terms of the 
effects and how to--how to assess what the treatment would be 
for that or what the best course of action would be after a 
player has suffered a concussion. That's just my opinion, and 
you may disagree with it, and you're entitled to do that. It's 
a question I would love to ask you, but I'm going to ask Dr. 
Casson--is it pronounced CASS-in or is it CASE-in?
    Dr. Casson. CASS-in.
    Ms. Sanchez. Casson, thank you. Do you agree with Dr. 
Omalu's statement, and I'm quoting directly from his written 
testimony, it was also in his oral testimony, that the concept 
of permanent brain damage and dementia following repeated blows 
to the head is a very well established and generally accepted 
principle in medicine; would you agree with that statement.
    Dr. Casson. There's a lot more you have to say about yes, I 
agree, or no, I don't agree. Are you talking about in boxing? 
Yes, it's rel----
    Ms. Sanchez. No, no, no, it's not sports specific, it's not 
even specific to sports. It's generally speaking, and I'll 
repeat the quote, ``The concept of permanent brain damage and 
dementia following repeated blows to the head--'' could be 
blows of any kind, could be a blunt object, it could be, you 
know, blows from multiple car crashes, perhaps, ``--is a very 
well established and generally accepted principle in 
medicine.''
    Dr. Casson. First of all, let me say this. You don't 
determine scientific or medical truth by popular vote. You 
don't determine it by consensus. You determine it by evidence. 
Now----
    Ms. Sanchez. I understand that, and I understand that I'm 
not a doctor, but I'm just asking if you accept a statement 
that Dr. Omalu has said is generally accepted in principle.
    Dr. Casson. No, there are specifics you need to know but 
before you say that. You can't just generalize like that. It is 
accepted in the sport of boxing. It's accepted in a few other 
circumstances. It's not necessarily generally accepted in all 
the football players. Now, have there been a few cases that 
maybe it's true? Yes. But we need more evidence. Just because 
there's an association does not prove causation.
    Ms. Sanchez. So would you disagree that if somebody were 
repeatedly hit in the head with a blunt object that there 
likely would not be permanent brain damage and/or dementia that 
would be associated with that.
    Dr. Casson. I'm a physician. I've been treating patients 
like this for my entire career. I trained at Bellevue where I 
have the primary responsibility for the care of hundreds, if 
not thousands, of head injury victims of all severities during 
my residency program. I have a great deal of clinical 
experience in this field. You cannot generalize. Every case is 
different.
    Ms. Sanchez. Okay. All right. I can't get you to agree on 
something that I think most laymen, probably most physicians 
would agree to that, if somebody suffers repeated blows to the 
head, there is going to be some kind of brain damage.
    Dr. Casson. You said dementia.
    Ms. Sanchez. Or dementia even.
    Dr. Casson. Well, dementia is a specific type of brain 
damage. The specific clinical----
    Ms. Sanchez. Well, pardon me, pardon me, I said permanent 
brain damage and/or dementia.
    Dr. Casson. We can disagree.
    Ms. Sanchez. Okay. All right. Now, in your testimony, 
you're very clear about talking about your past experience and 
studying the effects of head trauma in boxers in which you 
conclude that: ``Modern era retired boxers had signs of chronic 
brain damage.''
    I'm interested in knowing how the repeated head trauma in 
boxers is different from the head trauma that's suffered by 
those in professional football or some other activity where 
there's repeated blows to the head.
    Dr. Casson. Okay. First of all, there have been studies 
that have demonstrated that the head trauma in boxing has much 
more rotational forces and accelerations compared to football 
concussions which are more translational in nature, meaning 
more straight lined rather than rotational. There have been 
studies published that have documented that.
    Another difference, secondly, boxers don't wear helmets, 
football players do. Thirdly, boxers are subjected to constant 
repetitive blows from the time they start boxing all through 
their careers in sparring, in training, as well as in their 
fights over very long periods of times, and sustained more 
blows causing rotational forces in a career than football 
players do, so there clearly are differences----
    Ms. Sanchez. Those are the three major differences, would 
be those three then.
    Dr. Casson. Those are three differences.
    Ms. Sanchez. Okay, all right.
    Dr. Klossner, I'd like to ask you, you testified to the 
steps the NCAA has been taking to treat concussions including 
the fact that you're recommending that rules be put in place 
for all sports. Is it your opinion that the effects of repeated 
head trauma are consistent across sports, for example? Are the 
concerns expressed by those who play--by a football player 
getting a concussion and returning too soon to the game also 
applicable, to, say, a women soccer player who might suffer a 
concussion during the course of----
    Mr. Klossner. Well, I'd have to defer the medical opinion 
of what happens with a student athlete who----
    Ms. Sanchez. But is it----
    Mr. Klossner [continuing]. Receives a concussion but----
    Ms. Sanchez [continuing]. Is the concern the same?
    Mr. Klossner. The prevalence of concussion from what we 
measure from the NCAA injury surveillance system notes 
concussions occur across sports, yes.
    Ms. Sanchez. But is the concern the same that the NCAA has 
that if you're a football player who gets a concussion and is 
thinking about returning to play, are you any less concerned 
that it might be a, say, a woman soccer player who gets a 
concussion during a game and might----
    Mr. Klossner. Our guidelines apply to all student athletes 
the same.
    Ms. Sanchez. So it applies to every sport and every student 
athlete.
    Mr. Klossner. That's correct.
    Ms. Sanchez. Okay.
    Dr. Casson, in going back to you, in your testimony, you 
didn't state definitively whether you feel that repeated 
concussions have a long-term health impact and I'm interested 
in knowing, yes or no, in your opinion, do you repeated head 
impacts, regardless of where or how they occur lead to long-
term brain damage?
    Dr. Casson. That is not a yes-or-no question. Maybe in 
certain circumstances.
    Ms. Sanchez. Maybe, okay.
    Dr. Casson. Yes, because you have to take each individual 
case and the facts, that's what a physician does, that's what a 
scientist does----
    Ms. Sanchez. I understand that but--so repeated 
concussions, if somebody has multiple concussions, regardless 
of how they got the concussions, you couldn't say that you'd 
feel confident to say that it would lead to brain damage.
    Dr. Casson. It very well might. I'm not saying that having 
concussions is good for you, it's not. It's bad for the brain 
to have a concussion.
    Ms. Sanchez. Well, that's the strongest statement I've 
gotten you to make on concussions, you know, since you've been 
here today.
    Dr. Casson. No, it's really not. What I stated----
    Ms. Sanchez. In my opinion, it is.
    Dr. Casson. Well, in my opinion, there's not enough 
scientific evidence to jump to the conclusions that many people 
have done. I'm a scientist----
    Ms. Sanchez. How many----
    Dr. Casson.--I follow the evidence.
    Ms. Sanchez. Okay, I'm not even going to ask the question I 
was going to ask, I'm just going to ask you one last question. 
You made a series of recommendations at the end of your 
testimony for what you believe could be done to further the 
study of the effects of concussions. In your time on the MTBI 
committee, did you ever make these recommendations to the NFL.
    Dr. Casson. Yes, we talked about trying to develop in vivo 
methods to measure tau in the brain, that was done very 
recently. We have an NFL Retired Players Study that's now on 
hold, unfortunately, which was to--in-depth clinical 
examinations of retired football players. We had talked about 
and we do have, as part of that study, psychiatric/
psychological evaluations to some extent, we talked about at a 
later date expanding that to do a more detailed psychological 
and psychiatric evaluations.
    One of the goals of the NFL Retired Players Study is to 
determine the accurate incidence of brain dysfunction in 
retired football players, so yes.
    Ms. Sanchez. So those recommendations were made, but they 
were very made very recently; is that what you're telling me.
    Dr. Casson. No, the NFL Retired Players Study we began 
formulating in 2003, so no, it was not made very recently. Now 
the idea that comprehensive----
    Ms. Sanchez. As compared with 1994, I would say that's----
    Dr. Casson. Well, one of the reasons that I was asked to be 
on the NFL Retired Player Committee was because of my expertise 
with CTE of boxers. I know a lot about this field, I have 
expertise in this field. When we started this committee, the 
goal of the committee was to advance the scientific medical 
knowledge of concussions and thereby improve the health and 
safety of NFL players. That is the way you improve health and 
safety, by advancing the science, and that's what we set out to 
do.
    Now you can't start doing everything at once. We started 
with biomechanical studies, we started with epidemiological 
studies of concussion in the NFL. Then we moved on to studying 
retired players. So you can't do everything at once. You have 
to have a plan, and that was the plan, and that's what we were 
following.
    Ms. Sanchez. Okay, one last question for you, Dr. Casson. 
In January of 2005, you along with Dr. David Viano and three 
other authors published an--I referenced it earlier in the 
Journal of Neurosurgery a paper that said it might be safe for 
high school football players who sustained concussions to 
return to the game in which they were injured. Do you believe 
today that it's okay for athletes in their teens whose brains 
are still developing to return to play in the same game after 
suffering a concussion?
    Dr. Casson. I'm glad you asked me that question. In that 
paper, we never suggested that it was okay for high school 
players to return to play on the day of an injury. We had done 
a scientific study analyzing the epidemiology of concussion in 
the NFL. It was aimed at, the study, specifically in this 
paper, the group of players who had returned to play on the 
date of injury to see if they were any different than the 
players who had not returned to play to see what happened to 
them, to see how they--whether they had more concussions down 
the road or had repeat concussions. We specifically stated in 
this paper and every one of our epidemiological papers that 
these studies were on NFL players, and the results applied only 
to NFL players.
    Now, in the discussion of a scientific paper, very often 
what scientists will then do in discussing the data is raise 
questions that, maybe, other people want to look at to try to 
get other people to study the field, and what we suggested that 
was that no one has studied this in high school players or 
college players, and it might be interesting for someone to 
look at it. That's what we said. We didn't say it was okay.
    Ms. Sanchez. But you did say that it may be safe.
    Dr. Casson. What we said--the idea was that they--we don't 
have evidence. What we said was we need evidence.
    Ms. Sanchez. But you never used the words that it may be 
safe.
    Dr. Casson. I may have used those words. Even if we said 
may be, the operative word is may be.
    Ms. Sanchez. I understand, but today do you hold that same 
opinion.
    Dr. Casson. That wasn't my opinion. My opinion was----
    Ms. Sanchez. Is your opinion today that it may be safe for 
high school football players who've suffered a concussion to go 
back into the same game? Your opinion----
    Dr. Casson. Without evidence stating one way or the other, 
you can't answer that question.
    Ms. Sanchez. Okay. All right.
    Dr. Casson. There's no evidence.
    Ms. Sanchez. Okay. Back to Dr. Klossner. In your testimony, 
you stated that student athletes rightfully assume that 
precautions have been made to minimize the risk of injury. Can 
you talk about what the NCAA does to educate student athletes 
about the risk of concussions.
    Mr. Klossner. From the NCAA's perspective, we have an NCAA 
sports medicine handbook that has a guideline on concussions 
that outlines the risks associated with concussions and return-
to-play concerns that is provided to all member institutions 
that help educate their student athletes on the rules of 
concussions in sports.
    Member institutions have responsibility to educate their 
student athletes. At the end of the day, they make the 
decisions of what happens with their student athletes and how 
they educate them on various topics related to their student 
athlete health.
    Ms. Sanchez. Is there any kind of release that students are 
required to sign in order to participate in sports other than 
saying that they understand the risks of concussions.
    Mr. Klossner. Those, again, are what the individual 
institutions decide on how they medically release or provide 
intent-to-play waivers.
    Ms. Sanchez. In your knowledge, are there some institutions 
that require that.
    Mr. Klossner. Yes.
    Ms. Sanchez. Okay, that's what I'm getting at.
    Dr. Omalu, you have mentioned the risk of subconcussions. 
Can you elaborate a little bit on the subconcussions and what 
we can do to identify and treat their effects?
    Dr. Omalu. Well, every day I examine the brains of human 
beings, I've examined thousands of brains. The brain is made up 
of about 80 percent water. God, in his infinite wisdom, did not 
create a brain which floats freely in our skulls to receive 
repeated impact. So any impact, no matter how similarly that it 
could be that makes your brain accelerate/decelerate, the very 
basic laws of physics in issue, acceleration/deceleration 
causes disruption of the proteins which are floating in water, 
and we see that with the evidence since the 1970's at the 
Institute of Neurological Sciences in Scotland results in 
damages to the brain cells and their fibers. When they examined 
these brains, you see accumulations of abnormal proteins, at 
least an hour from when the injury. And unfortunately, many 
times this impact wouldn't present with incapacitating symptoms 
to manifest with headaches that the individual would dismiss--
--
    Ms. Sanchez. Right.
    Dr. Omalu. But on the cellular level, there is extensive 
damage which may be why we did not identify this disease early 
enough. Because on CT scan, the brain would look normal. On 
MRI, the brain would look normal, the symptoms--there are no 
symptoms, but on a cellular level, a lot is going on.
    You saw Mike Webster's brain. Mike Webster's brain looked 
normal, and I repeat, looked normal, but Mike Webster's brain 
on the cellular level and other brains I've looked at were 
extensively, extensively damaged. Every impact to your head has 
the capacity to result in damage, at least on a cellular level.
    Ms. Sanchez. So would it be your opinion that repeated 
impacts to the head would cause some kind of brain damage?
    Dr. Omalu. Yes, this has been established since the early 
20th century. In fact, Dr. Harrison Macklin (ph.), who was a 
forensic pathologist in New York, New Jersey, just like me, 
described dementia in 1928. Proteins will build up in the brain 
as described by Dr. Alzheimer in 1918, and in 1969, Dr. Roberts 
that was commissioned by the House of--House of Lords in 
England published a paper and a position paper by the Royal 
College of Medicine in England that repeated blows to the head, 
no matter how similarly the knock was, has the capacity to 
result in permanent brain damage, and in the journal Lancet in 
1976, it was clearly stated that repeated blows to the head 
could result--in boxers could result in damage, repeated blows 
to the head in other activities, cellular and otherwise, can 
also result in permanent brain damage.
    The issue here we should not make the mistakes of the past 
like Mr. Barney said. The issue here is not really the 
concussions because the concussion is the extreme.
    Ms. Sanchez. Right.
    Dr. Omalu. It is the innocuous repeated blows, repeated 
blows. In football, players are subjected sometimes to 200--or 
to 120 g force. That is a lot of force, a lot of energy for a 
brain that is 80 percent water.
    Ms. Sanchez. So in your opinion, do you think that repeated 
concussions, then, if concussions are the most extreme of the 
brain disruptions that you're talking about in terms of even 
minor blows to the head, do you feel confident in saying that 
repeated concussions would lead to permanent brain damage?
    Dr. Omalu. Yes, but Dr. Julian Bailes, my director at the 
Injury Research Institute with some other authors, Dr. 
Tuszkiewicz came up with the threshold of three, three 
documented concussions increase your risk significantly. In my 
practice, as a forensic pathologist, I have seen severe brain 
damage from even one major concussion. Like Dr. Casson has 
said, yes, there is a genetic variation, there are ameliorating 
factors, there are accentuating factors, but the established 
fact is that repeated blows to your head to a brain that floats 
freely inside your skull to the brain that is made up of 80 
percent water could result in permanent brain damage.
    Ms. Sanchez. Thank you, Doctor, and last and final question 
for you, what are your thoughts about the changes to the NFL 
policy toward concussions that have occurred since our October 
hearing on this issue.
    Dr. Omalu. If you notice in my recent statement, my global 
statement, I had--especially my recent statement, I had stated 
we should not make the same mistakes of the past. We should 
base guidelines, policies, and protocols on the science, 
especially pathology. Neuropathologists since 19--1980, I 
believe, papers were published by Dr. Graham, Dr. Geddes, and 
Dr. Adams who are all Scottish men, that if you suffer a 
concussion or a blow to your head, amyloid precursor protein, 
this is a protein in very big protonated brain cells, would 
accumulate from about 1 hour to 3 hours. These proteins do not 
disappear in your brain until about 99 days; I would usually 
say 3 months.
    So if we have pathologic evidence since 1980 that tells us 
the brain cells do not recover from a concussion till about 3 
months, then the question leads now what is the basis, 
scientific basis for the 2-week, 3-week, 4-week threshold for a 
player to go back to play? And again, I would always advise the 
absence of symptoms does not mean the brain has recovered from 
a concussion.
    Ms. Sanchez. Thank you.
    Dr. Omalu. The neurological evidence confirms that, 
neuropathological evidence confirms that.
    Ms. Sanchez. Thank you, Dr. Omalu, I think your testimony 
has been most instructive, and with that, I would yield back my 
time to the Chairman.
    Dr. Omalu. Thank you.
    Mr. Conyers. Thank you very much. I'm pleased now to 
recognize Steve Cohen, a distinguished Subcommittee Chairman on 
the Committee of Judiciary.
    Mr. Cohen. Thank you, Mr. Chairman, and not that it's 
important at all, but I think I referred to the GMAC Bowl as 
the Motor City Bowl. I'm in the city of the Motor City Bowl, I 
have corrected it.
    Dr. Maroon, Mississippi State, several weeks ago, Mr. 
Aieello--Aiello?
    Dr. Maroon. Yes.
    Mr. Cohen [continuing]. Of the NFL, spokesperson for the 
NFL said that it's quite obvious from the medical research 
that's been done that concussions can lead to long-term 
problems. He said--I believe that is accurate. Are you familiar 
with that quote from him.
    Dr. Maroon. Yes.
    Mr. Cohen. That--is that a conflict of what Dr. Casson has 
told us that there is at present not valid, reliable, or 
objective scientific evidence that prove that impacts from 
professional football are--cause chronic brain damage, aren't 
those kind of----
    Dr. Maroon. No, I don't think they're incompatible at all. 
I think what I heard Dr. Casson saying is that you have to 
evaluate several factors, and going back to what Dr. Omalu 
said, he said it has to be based on science, right? And as 
the--I gave the example to Congresswoman Sanchez that if you 
have a temperature of 99, you have a fever, if you have 106 and 
you're in heat stroke in an ICU, you have fever. There's huge 
variations in what a concussion is and the severity of the 
concussion so that there are very, very minor bumps on the head 
that I don't think lead to permanent dementia and 
incapacitation, even if there are several of these.
    One concussion, on the other hand, may, indeed, lead to 
permanent brain damage. In our clinic at the University of 
Pittsburgh, we see approximately 100 to 150 kids a week for 
postconcussion syndrome evaluation. So when you ask me can head 
injuries--can concussions lead to significant long-term 
effects, there's no question that it can. But I guess going 
back to Dr. Omalu's work, it has to be based on science, and he 
says 2 months, 3 months, how do you base when an individual may 
go back to play?
    Well, going back to one of the comments of Congresswoman 
Sanchez, initially, you mentioned the Pittsburgh Steelers and 
the Bengals game in your introduction, and I think you were 
referring to the quarterback of the Pittsburgh Steelers who was 
not permitted to play in a very critical game because under 
exertion, he developed headaches, and under the guidelines, we 
know that the brain has not completely recovered.
    Not guidelines, but the science has shown us that if you 
remain symptomatic, you haven't recovered, and consequently, 
the neurocognitive tests which assess the processing 
information and processing power of the brain are--are 
objective criteria that were evaluated beginning in 1990 when 
Coach Knoll and Dan Rooney from the Pittsburgh Steelers told me 
Maroon, I don't care what you know about or what you think 
about a concussion, I want objective data.
    And that's why Impact was formed because it gives you 
objective data, so that I think they're not inconsistent, his--
his comments with the questions that were asked.
    Ms. Sanchez. Will the gentleman yield.
    Mr. Cohen. Yes.
    Ms. Sanchez. And I appreciate that, I just want to make 
this point. Dr. Omalu testified that a person can be 
asymptomatic. In that instance, he was symptomatic because 
under stress, there was a problem. Asymptomatic and not fully 
recovered in the brain, and I just wanted to point out that 
important distinction. I now will yield back.
    Mr. Cohen. Thank you.
    Let me ask you this. Dr. Casson--and I respect your study 
and your concern here. You said that association does not prove 
causation, right?
    Dr. Casson. Yes, that's a principle of scientific evidence, 
yes.
    Mr. Cohen. But can't association--would not association 
possibly be sufficient to give people cause for concern, alarm, 
probable cause.
    Dr. Casson. Yes, there is cause for concern, but I'm a 
scientist, and I'm a physician. Scientists and physicians need 
more than that.
    Mr. Cohen. Right. And I understand what you're saying to 
come to a conclusion in your field and in your beliefs and 
studies, but when you have lives in the balance, don't you 
think that maybe association should be sufficient to dictate 
that there be a change in the practice to protect these lives? 
I mean, you know, to err on the said of caution.
    Dr. Casson. Well, in all my involvement on the MTBI 
committee, we have always erred on the side of caution. In all 
my years of clinical practice, I've always acted in the best--
for the best benefits of my patients by erring on the side of 
caution. However, that is not the same as saying that the 
science proves the point, that the science is there. It doesn't 
prove that one thing causes the other.
    Mr. Cohen. It may not prove it, and I'm not--you know and 
Dr. Omalu have different opinions, and others may, too, but 
there is sufficient proof, I believe, you would agree, that 
there is an issue, there's at least probable cause or there's 
reason to believe that there could be a problem, and so if you 
err on the side of caution, shouldn't maybe you in your studies 
or the NFL earlier had set some policy about players maybe not 
staying in the game when they had a concussion or getting 
better helmets or something to protect the players before that?
    Dr. Casson. We did subsequently get the helmets back in the 
mid 1990's----
    Mr. Cohen. Crash helmets, let's go to concussions.
    Dr. Casson. What we did was we studied the prevailing 
practice in the NFL and scientific studies of what would happen 
to these players, the epidemiology of the ones who had 
concussion. We came up with a definition of concussion that was 
extremely broad and was extremely all encompassing, so we 
picked up all of the injuries that could get reported, even the 
mildest of injuries of people who would be dizzy for a few 
seconds, if they told the trainer, that would become a 
concussion, so you had very mild events that were reported, and 
we studied these, and we did epidemiologic studies, we studied 
the data and analyzed what happened to these people, and based 
upon these analyses, we then, once we had the science and the 
evidence, made recommendations of how to proceed.
    For example, at that time, the American Academy of 
Neurology guidelines, which is still in force today, were that 
a player who has a concussion, not even just a professional 
player, any player who has a concussion and gets hit in the 
head and has some symptoms, if the symptoms fully resolve in 15 
minutes and there was no loss of consciousness, that player was 
allowed to return to play without even seeing a doctor.
    At the NFL level, no player was allowed to return to play 
once it was reported, if they reported it, without being 
cleared by a physician. So we were, in a sense, running a 
system that was in opposition to what was a standard guideline 
that everybody was following, and we found that guideline 
wasn't really good enough, and nowadays, nobody believes in 
that guideline.
    Mr. Cohen. How many years did that study take place before 
you came to that guideline.
    Dr. Casson. Well, we didn't come to it--before we made the 
recommendation.
    Mr. Cohen. Yeah.
    Dr. Casson. Well, we started doing the studies in the 
nineties. It took us 6 years of data to collect, so from '97 
through 2001, we collected the data, and then we took a year or 
two to analyze the data and publish it. They were published, I 
believe it was 2002, it might have been 2003, we began to 
publish the data.
    Mr. Cohen. And I don't disagree with your concern for 
science, and with all, you know, deference to Jackson Brown 
who--and that lives in the balance for a different 
circumstances--the 10 years that it went on, there were a whole 
lot of football players getting concussions, and while you were 
doing, which is commendable, your study, and fine tuning your 
research and coming down with exactly what you think, players 
are getting hit and hit and hit and hit, shouldn't there have 
been, maybe, some concern 10 years earlier that said let's err 
on the side of caution, we know that, you know----
    Dr. Casson. Of course there was----
    Mr. Cohen [continuing]. Boxers get pummeled and football 
players are getting pummeled.
    Dr. Casson. Of course there was concern. The standard of 
treatment in the NFL from the time the committee was founded 
was that players would not--were not allowed to return to play 
on the day of injury until they were asymptomatic with a fully 
normal neurologic examination. That was a--what the NFL 
physicians practiced, and that was a standard of care that was 
probably better than the standard of care than anybody else in 
any other sports league was using at the time.
    Mr. Cohen. You suggested that possibly the reason for this 
tau being developed in the players might be because of anabolic 
steroids, the possibility, growth hormones, or other toxic 
contaminants; is that correct.
    Dr. Casson. That's certainly a possibility, yes.
    Mr. Cohen. And I'm sure it may be a possibility. Who here--
and I don't know, y'all look so young, you excluded, you're my 
age, the rest of you, when did they start using anabolic 
steroids in football?
    Mr. Barney, do you have an idea when they started doing 
that?
    Mr. Barney. The first time me hearing of it was about '64-
'65.
    Mr. Cohen. So it's been a long time.
    Mr. Barney. Mm-hmm.
    Mr. Cohen. Were there players that maybe were playing in 
the fifties or early sixties and didn't go into the six--later 
on who wouldn't have been exposed to anabolic steroids who 
developed these problems, Dr. Omalu.
    Dr. Omalu. Yes. The literature, especially in boxers. I 
must emphasize that this again, from the United States, 
literature outside--coming out of the United Kingdom and 
Europe, even while I was a medical student in Nigeria, 
establishes this causation, these associations of traumatic 
brain injury, permanent brain damage in boxers, in other 
sports, contacting sports, and in other activities involving 
impacts to the head, even the so-called punch drunk wife 
syndrome, a woman who has been beaten repeatedly by the 
husband, the issue is repeated transference of kinetic energy 
to the brain. That is 80 percent water that is bouncing around 
in the skull.
    And again, in forensic pathology and in law, there is what 
we call the underlying cause and contributing factors. There is 
no single disease, and I repeat, there is no single disease 
that has only one exclusive cause. An example is diabetes. 
Diabetes is caused by the lack of insulin. However, if you ever 
obese, it increases your risk of suffering diabetes, but it 
does not mean that obesity causes diabetes.
    The same applies to chronic traumatic encephalopathy. 
Underlying cause is not football, it may happen in the game of 
football, but repeated impacts and transference of energy to 
the brain. Could there be other contemporaneous or simultaneous 
factors that would either aggravate the lethality of the 
disease or ameliorate the lethality of the disease? Of course. 
Could genetic predisposition be present? Of course. Like in 
every other disease model.
    Mr. Cohen. So what you're saying is that maybe--you're 
saying a lot, but one of the things I'm trying to get at is 
that prior to the use of anabolic steroids, which is, give or 
take, somewhere in the middle sixties or whatever, there were 
football players, the Leo Nominellies, or whatever in the 
fifties who could have had some type of--or you know had some 
brain damage.
    Dr. Omalu. Yes, there were football players that manifest 
that symptoms of the cases that I have done, yes.
    Mr. Cohen. So it wouldn't have been anabolic steroids or 
growth hormones because those were not factors for those 
players?
    Dr. Omalu. Yes.
    Mr. Cohen. And Dr. Casson, you say--and I find your study 
interesting, ``It's important to also remember that some tau 
deposition can also be seen in normal aging brains,'' well, I 
mean sure it is. Take that case of boxers, I mean you're kind 
of saying because people with normal aging brains can have tau, 
then that says that this may not be the reason why football 
players have it, with that theory, he could never say why 
anybody has it because it's normal aging.
    How many boxers have you studied in your career?
    Dr. Casson. Well, my study that was published in JAMA had 
17.
    Mr. Cohen. Seventeen boxers.
    Dr. Casson. My study in the years up to that time and after 
that study, close to a hundred.
    Mr. Cohen. Haven't some of the studies on the football 
players--have you not criticized them because they weren't 
broad enough and enough participants, the data was too limited.
    Dr. Casson. You're talking about the survey studies.
    Mr. Cohen. Yes, sir.
    Dr. Casson. The survey----
    Mr. Cohen. The surveys were mail-ins, but aren't there some 
scientific, like Dr. Omalu, some study on brains or BU's? Is 
there----
    Dr. Casson. Well, there have been a lot of criticisms. I'm 
not sure which criticism you're asking about. One of the 
criticisms is that there are no contemporaneously obtained 
objective medical data on anybody. There's no doctors' reports. 
There's no postneurologic exams, there's no reports of 
psychiatric exams in what's been published in the literature.
    It all comes from talking to the family members afterwards. 
I'm not minimizing what family members might say and the 
suffering that they have gone through, but you need objective, 
scientific, medical examinations and studies so you can try to 
see if there's a clinical correlation between what you're 
finding in the brain and the clinical picture of the subjects, 
and that's not available.
    Mr. Cohen. You and Dr. Viano have both resigned from the 
concussion committee; is that correct.
    Dr. Casson. Yes.
    Mr. Cohen. What were the circumstances surrounding that, 
and was this a voluntary resignation.
    Dr. Casson. I can speak for me, okay? The topic of 
concussions, as you well know, has recently become highly 
politicized. Scientific considerations took a back seat to 
political media and labor relations issue. Personal attacks 
upon me were distracting from the central issue of my role on 
the committee, which was to improve the health and safety of 
the players.
    Throughout my years on the committee, my main goal was to 
advance the medical, scientific knowledge of concussions to 
help improve the health and safety of the players. The 
commissioner and I agreed that the best way to allow the 
committee to continue to do that work was for me to resign, so, 
hopefully, the distraction of me being there would help them 
get back on being able to focus on the science.
    Mr. Cohen. Well, you agree that the new NFL policy is wise; 
do you not.
    Dr. Casson. Which NFL policy are you talking about.
    Mr. Cohen. This new one about you get out of the game if 
you have a concussion, and you have to have an independent 
doctor, etcetera, etcetera, etcetera, the one that came out, I 
think, last month.
    Dr. Casson. There are a number of different parts to that 
policy.
    Mr. Cohen. Which do you agree with.
    Dr. Casson. Well, certainly, that certain players with 
certain types of concussions should not be allowed to return to 
the play on the day of the game.
    Mr. Cohen. And which do you disagree with.
    Dr. Casson. I don't necessarily disagree with any of the 
policies; however, the idea that independent neurological 
examinations by independent--``independent neurologists'' is 
going to give you a better result than the evidence-based 
experience that we know that NFL team doctors have been 
exhibiting throughout the years--because we have studies 
documenting the efficacy of their decisions--we don't know what 
the results are going to be of these independent neurologic 
examinations.
    We don't know if these independent neurologists have 
expertise in head injury. We don't know if their opinions are 
going to be valid and reliable and stand up to scrutiny. We do 
know that the NFL team physicians' decisions have stood up to 
scientific study because we've published those studies.
    Mr. Cohen. I respect you as a doctor, I respect the 
positions and the study you've done, and your work, and I'm 
sure you're an outstanding physician, and I have no question 
about that and as a researcher, but you condemn, somewhat, 
which is my particular avocation--or vocation, excuse me--
politics, and you said that the politicization of this issue 
has harmed the scientific study. But without the quote/unquote 
politicization of this issue, none of these changes in policy 
that you agree with would have taken place.
    So isn't politicization a little bit more important, just 
like erring on the side of caution and lives in the balance 
rather than waiting for the ultimate perfect scientific data 
and how many more football players might have brain damage? And 
I would submit to you, sir, that these areas and the quote/
unquote politicization have caused the NFL to do the right 
thing that they might not otherwise have done. And your 
research at some point might get them to do the same thing, but 
in the interim, there are players who are being used without 
precautions that are in--that I think are advisable. And so, 
you know, I'd just--I've got to question some of your research 
here or some of your conclusions----
    Dr. Casson. Let me just say in response to what you just 
said----
    Mr. Cohen. Yes, sir.
    Dr. Casson. I'm a scientist, I'm not a politician, I'm not 
a labor negotiator, I'm not a media expert, so I can speak to 
the science. I don't have the expertise to speak to those other 
issues.
    Mr. Cohen. But don't you think the science is leading us in 
a certain direction? I mean you might not be able to put the 
stamp there and say it's done, finished, Warren Commission, 
case closed, but don't you think it's leading us somewhere, and 
don't you think there's a point to where the evidence tilts? 
There's a preponderance of the evidence, there's--you know, 
chancery court's different than a criminal court, preponderance 
of the evidence.
    Dr. Casson. Preponderance of the evidence is a legal term. 
Again, I----
    Mr. Cohen. More likely than not, more likely than not.
    Dr. Casson. I'm a scientist, I don't see enough evidence to 
make that statement at this time.
    Mr. Cohen. Well, as a scientist, don't you want to see like 
guilt beyond a reasonable doubt? Aren't you looking for, like, 
the----
    Dr. Casson. No, I'm looking for evidence.
    Mr. Cohen. You're looking for what you can firmly say 
without question. But you're talking about lives and brains. 
Don't you think at some point you say let's put some changes in 
here, let's do something because, obviously, we've got a 
problem.
    Dr. Casson. And certainly, as I said before, since the time 
of the inception of the committee, we've been doing that, the 
committee did that, and the characterization that the committee 
was doing nothing, the characterization that the NFL physicians 
were ignoring this problem and blatantly sending players back 
in to play without concern for their health, I submit to you, 
is completely incorrect, and we have scientific data to verify 
that that's incorrect.
    I think that the NFL MTBI committee has been 
mischaracterized and has been given a bad, I don't know what 
you want to say about it, has been given a lot of bad press and 
a lot of bad things have been said about it because of 
political media and labor concerns that really don't have 
anything to do with the science and the real work of the 
committee.
    Mr. Cohen. Mr. Barney, let me ask you something back to 
anabolic steroids. Whether or not they or hormone growth drugs 
that folks are taking might have some effect on their brains, 
does that not make football players bigger, stronger, and when 
they hurl themselves at the opposite player a more dangerous 
force.
    Do you need a mic? Thank you, sir.
    Mr. Barney. Thank you, Dr. Omalu and Chairman Cohen, I have 
no idea, in sincerity, about the anabolic steroids only other 
than what I've read about them, what I've heard other players 
talk about, it was something that was somewhat wiped out when I 
got into the league. Not totally wiped out because of certain 
ball players were crippled by it, but I never had a chance to 
see it, don't know what it looks like, don't want to know what 
it looks like, either, but understanding what it would do to 
you, it was almost like an hallucination trip, and you thought 
you were still bombed on the planet, that's what I heard one 
ball player say.
    Mr. Cohen. Thank you, sir. I've just--you know, I've 
watched, and I just see it, and back to what Ms. Sanchez says, 
it's hard to fathom when you watch the game, and I love it, I 
mean they are so much larger, the players, and it's, you know, 
linemen used to be in college, 210. Now, you know, they're 310 
and more.
    Mr. Barney. Yeah, they're 210 in middle school now.
    Mr. Cohen. Yeah. It's just--I understand science, but it 
doesn't--I don't think it really takes a scientist of the 
nature of the caliber and the brilliance of Dr. Casson to tell 
you that something's happening, and it necessarily good.
    Mr. Barney. Absolutely.
    Mr. Cohen. Yeah, I'm just kind of there. Let me ask you, 
Mr. Ferrara, about the helmets. Do you think your helmet's a 
good helmet, you're going to save some players some 
concussions.
    Mr. Ferrara. Sir, I've spent the entire 15--last 15 or 16 
years building up to this moment. I certainly wouldn't be in 
business if I didn't feel like our helmet could do a better 
job.
    Mr. Cohen. Mr. Halstead said that you shouldn't necessarily 
take some example of a better helmet that weighs more in an NFL 
standard and apply it to these lesser, I guess, college but you 
were probably talking about high school, or something, kids, 
but aren't the pro players bigger, stronger, more likely to 
take anabolic steroids, and a more dangerous ball player than 
you might have in a pee wee league.
    I thought some of my political opponents were here.
    [Recess.]
    Mr. Cohen. But pro football's a different caliber and more 
violent, so shouldn't--that helmet there wouldn't necessarily 
be the helmet you want to have used in high school because of 
the potential damage.
    Mr. Ferrara. It's very important to point out what you 
actually want a helmet to do. What causes brain injury is 
actually sudden movement of the head. So we're talking about 
impact. It's really important to understand that it's the 
motion that results from the impact that would cause the 
damage. And all things being equal, more sudden movement means 
more damage.
    So what you want a helmet to do is actually minimize how 
suddenly the head moves. In order to do that, it actually needs 
to adapt to impacts in different energies and different 
directions. What happens in the NFL, and it is quite extreme, 
and the NFL's testing protocol is based upon the most extreme 
events and the most extreme circumstances. Designing for the 
extreme will lead to worse performance in normal circumstances, 
and while I'm in Detroit, if I can use an automotive analogy.
    What you really want the helmet to do is apply the brakes 
to whatever's being impacted. If the government were to come 
along and say we're setting a new standard for automotive 
brakes and those brakes need to stop a Mack truck travelling 70 
miles an hour in 50 feet, you can imagine the brakes that would 
be needed to do that would be incredibly massive and powerful. 
If you put those brakes on a Honda Civic traveling 35 miles an 
hour, that car would actually be undrivable. It, in fact, would 
be dangerous. As soon as you touched the brakes, the driver 
would jolt forward.
    And that's what's happening to the brain when you use 
extreme engineering. The head jolts to a stop, and the brain 
jolts forward. So extreme events are not a good basis for 
construction.
    Mr. Cohen. Thank you, sir, and to be fair to Mr. Arment 
here, you--I had a Riddell, I mean that was kind of standard in 
1966 when I made that famous catch that you missed, Chairman 
Conyers, but can even your helmet, which is kind of a standard, 
can it be improved upon to protect the players.
    Mr. Arment. Well, I think, you know, that with ongoing 
research and ongoing partnerships and some of the information 
that's coming out of the hearings today, clearly, helmets can 
be improved, and we continue it at Easton-Bell Sports and 
Riddell to really drive to what is the next level of 
technology, what is the next improvement that we can make to, 
you know, offer further protection and performance products for 
our, you know, our athletes.
    Mr. Cohen. Thank you. Mr. Klossner, let me ask you a 
question. We had this situation at Texas Tech, and while Dr. 
Maroon suggested, maybe, that some causation, it probably was 
because player Adam James's father was an ESPN broadcaster 
maybe why it got the attention it did, and protected him, and 
maybe it wouldn't have happened. There's probably some other 
schools where the same type of activity might have occurred 
where some coach didn't like a player, thought maybe he was a 
malingerer because he had a concussion and didn't want to 
practice the next day, and at Texas Tech, the university has 
responded.
    Is this the conduct that the NCAA wants to leave to each 
school to take care of, or should the NCAA react and control it 
on a systemwide basis?
    Mr. Klossner. I can't speculate on the alleged situation in 
Texas. Our position is to do what is in the best interests for 
our student athletes' well-being and continue to study the 
issue, as we've done since 1976 and before. At the end of the 
day, you know, student wellbeing is paramount. We provide 
playing rules, we provide sports medicine handbook guidelines, 
we provide videos on appropriate practices for our members to 
utilize and to make the best decisions at the end of the day 
that they can at the local level.
    From a proposed rules standpoint, we are making changes as 
far as putting it in the hands of the officials to remove 
student athletes who exhibit signs of concussions and that the 
individuals are then assessed by medical professionals, 
particularly, a physician, and even though that may be 
happening on some campuses, as you note, it may not be 
happening on all campuses. So we think that the proposal rule, 
one, highlights the prevalence and importance of concussion but 
also sends a signal that these individual student athletes need 
to be evaluated appropriately and have appropriate return-to-
play standards in place.
    Mr. Cohen. All right, my final question is kind of to Dr. 
Maroon and maybe Mr. Halstead on this helmet issue. You said 
your study is not going to be finished or released until 
March--or I think it was March. I would think it would be--if 
it's not complete, I understand that, but at that time--and 
will the NFL--is the NFL willing to share all prior 
communications and research regarding helmet safety, testing, 
and protocols.
    Dr. Maroon. I, quite frankly, Congressman, I'm not sure 
what the NFL's intention is to do with the data. I'm aware that 
the testing was carried out at the request of the equipment 
managers to somehow bring--to obtain objective data so that the 
individuals relative to each team would have some better idea 
on how to obtain the specific helmets that might be most 
protective.
    At the present time, we know that this--that up to 40 
percent, for instance, of the athletes on the Pittsburgh 
Steelers team are wearing older model helmets that, in my 
opinion, could be upgraded, but for various reasons, they're 
not wearing the newer helmets, and I think that there needs to 
be some nudging in that regard. How the NFL proposes to do that 
and what data and how it's going to be released, I don't know.
    Mr. Cohen. Mr. Halstead.
    Mr. Halstead. Yes. My understanding is that the data will 
be released in March. I'm not exactly sure how it will be used. 
It is my understanding that the intent is as Dr. Maroon opined, 
many football players are wearing much older technologies. The 
data thus far shows, that I've seen at least, it is still being 
analyzed by an independent analysis team, as I understand it, 
but the data does show that some new helmets do attenuate 
energy in those tests much better. Some, not so much. So I 
think it will be interesting data.
    Again, I'm concerned about how it gets used. I think that 
the concept of players being able to make and equipment men 
being able to help them make better decisions because of how a 
helmet performs on this test is a possibility. I think that 
taking the data quite literally and saying well, this helmet 
performed 20 percent better than our old helmet, maybe it 
reduces the risk of injury 20 percent, that would be absolutely 
incorrect.
    So I have some real concerns about how it's used, and we 
are talking about energies and accelerations to the head, and 
I've heard a hundred g's mentioned by Dr. Omalu, and you know, 
I'm not a politician, and I don't understand, maybe, a lot of 
these debates, but Congressman Sanchez, you sneezed a while 
ago, and that was a head acceleration. I don't know that you're 
brain damaged, and I don't know that you'll be demented----
    Ms. Sanchez. Others will argue with you about that.
    Mr. Halstead. Right, I don't know that you'll suffer 
dementia later, that really is the issue here is how, without 
being able to see into the brain, do you know that the impact's 
been one of a sufficient magnitude to cause the concern? I 
think that's why things have moved slowly, and I'm not 
defending anybody, I don't belong to any of these MTBI 
committees and don't know, but I do know from studying helmets 
for a long time somebody's got to give me the target, and 
that's somewhat related to the input energies.
    And helmet manufacturers have looked at this testing and 
have said we can do better, so the NFL has extended to them an 
opportunity to submit additional helmets for testing. They may 
do better. But whether or not they, you know, actually work 
better in the field to reduce or limit concussions, I think 
remains to be seen, but I have a hard time arguing with a 
helmet that manages more energy than some other helmet.
    Mr. Cohen. Thank you. And if either of the two helmet 
manufacturers' representatives want to comment, you don't have 
to, but if you wanted to, I'd like to give you the opportunity. 
Mr. Ferrara.
    Mr. Ferrara. I feel it is important to take note of what 
Dr. Maroon, who I would consider a good ally, pointed out that 
it appears there's a stated corporate goal on the NFL's part to 
move players into modern helmets. A corporate goal is not a 
scientific study. The idea of creating an older helmet profile 
is highly unusual.
    Some of the helmets were literally taken out of locker 
rooms, apparently. Some of them were taken off of the shelves. 
Given that helmets other than ours consist of multiple 
components with unknown histories, no date stamps, that get 
shuffled year after year in the reconditioning process, these 
helmets would be entirely unreproducible. It would be as if you 
walked out on the street right now and you grabbed a dozen 
people who appeared to be older, whatever that meant to you, 
and you took measures of their health and said this is the 
profile of an older person, we're now going to test younger 
people versus older people to see who's healthier. It simply 
doesn't make sense. It's not credible science.
    Mr. Cohen. Thank you, sir.
    Mr. Halstead. May I give a response.
    Mr. Cohen. Surely, go ahead, sir.
    Mr. Halstead. Yes. The old helmets consisted of Pro R 2s 
and VSR 4s, some of which I actually went and got off the 
field, and I have a pretty good idea of what they looked like, 
but Dr. Ferrara is correct, it's my assessment of what they 
look like.
    However, we were able to get from Schutt Sports 
Manufacturing two 10-year-old Pro R 2 helmets that had been 
never been put into play, and we were able to get from Riddell 
at least two for each lab. The VSR 4 helmets had never been put 
into play. So we had a pretty good idea of those constructions. 
Whether they were hermitically sealed and somehow stored for 
all those years is another question, but we did have unused 
helmets, and we had used helmets, and their performance on the 
test was statistically so close so as to render the argument 
that Dr. Ferrara just made kind of inert.
    Mr. Arment. My comments would center around--I want to go 
back to my comments before where I said clearly, there is 
opportunities to improve helmets, and a brought range of 
research and debate and--is important to the topic. Our 
commitment at Riddell is to ensure that we continue to put the 
best technology on the field and that we use science and 
independent research to verify that those helmets are, indeed, 
as good as we say they are.
    And that is our commitment, and I think that, you know, is 
evidenced by the history of our helmets and the peer reviewed 
research that we have, and that's a commitment that we're going 
to maintain and continue to follow through with all of our 
product development.
    Mr. Cohen. Thank you. Doctor.
    Dr. Omalu. Can I make a comment as a physician and also as 
a forensic pathologist. We've been talking about scientific 
evidence, scientific testing, but I must warn that medicine is 
not an absolute science. We cannot make absolute derivations 
from a laboratory simulation what happens in the human body. 
Findings like what they're talking about, statistical 
significance, if you change your end point, epidemiology is not 
an absolute science. There are multiple factors involved. The 
end point, the outcome, the cause will be different if you 
change your limits or if you change your study definition.
    And as a physician, you cannot base the plight of the 
player on a single published paper or on a single study 
formula. Again, the guideline as a physician who's sworn to the 
Hippocratic Oath should be the players, themselves. The focus 
should be the players, and again, like the law recognizes, 
generally accepted principles and common knowledge should try 
and guide our decisions and the decision making in concussions, 
not laboratory simulations and corporate derivations. Medicine 
is not an absolute science like mathematics or physics.
    The human body cannot be simply reduced to an index or just 
a number, and this is what the Hippocratic Oath is all about. 
We must always have that behind our minds while we're 
discussing these issues.
    Mr. Cohen. Thank you, sir. One last issue on the helmet 
issue, the issue's been raised, I guess, by this testimony 
about the NFL's endorsement, long-term endorsement with 
Riddell. I guess it's the helmet of the NFL or something like 
that.
    Mr. Arment. It's the official helmet of the NFL.
    Mr. Cohen. Official. Does that create a conflict of 
interest, Mr. Halstead, for anybody when you get into helmet 
tests? I mean you got the helmet of the NFL, this is the helmet 
that protects the brains of the NFL players which, in essence, 
you know, some of these owners might not belive that they are 
the NFL, it's not the owners, they get a big share, it's like I 
won, and they didn't do anything, they just bought the team. 
It's the players who are the NFL. And so the helmet's 
protecting their brains. Shouldn't be there some reason to 
believe that maybe there shouldn't be an endorsement so there 
might not be some proclivity to favor one helmet over another, 
whether it's Mr. Ferrara's or Mr. Arment's and just have the 
helmet?
    Mr. Halstead. Sure, I'll give you my personal opinion. I'm 
not a marketing person. When I see these things, I think of 
them as marketing decisions. Frankly, I--my personal 
experience, which is somewhat limited with the league, is I've 
had players and equipment managers and trainers and physicians 
call me and say I've got So-and-So's been injured, you know, 
what helmet should I put him in? And I don't have an answer for 
that because I don't have any data to support that any helmet's 
better than any other at preventing the next injury. The real 
issue is not hitting your head again, and that goes back to 
return-to-play guidelines and things that are beyond my ilk. 
Frankly----
    Mr. Cohen. But you said your study shows that some helmets 
didn't do any good, and some did a lot of good, and some did a 
little bit of good, you got a number----
    Mr. Halstead. No, I think that's a mischaracterization. 
What I said is that in these impacts, the study did show that 
some newer helmets managed energy significantly better.
    Mr. Cohen. Right.
    Mr. Halstead. And some did not, which is kind of surprising 
because the real difference between new helmets and old helmets 
is how much standoff there is and how much distance there is 
from the outside of the skull to the inside of the shell, and 
as helmets get larger, they're able to manage more energy. 
Whether that makes a better helmet for certain levels of play 
is very, very questionable.
    To specifically answer your question, I think any kind of 
an indication or any emphasis that would have a player choose 
one product over another just because of the name that's on 
their product, probably not a good plan.
    Mr. Cohen. Yeah, and I guess, you know, you pay the NFL, is 
that right.
    Mr. Arment. We have a licensing agreement with the NFL.
    Mr. Cohen. How much is that? How much does that generate a 
year.
    Mr. Arment. Our licensing agreement generates--it's about a 
15 percent royalty rate.
    Mr. Cohen. And what's that come to in dollars.
    Mr. Arment. It's off of our consumer products business, so 
historically, it's been, you know, less than a million dollars.
    Mr. Cohen. Just, you know, I understand that it's good for 
you, and it would be good for Mr. Ferrara if he could be it, 
but it just seems like Delta being--or Planters being the 
peanut of Delta, or Coke being the beverage of Delta is 
different than the helmet. Nobody's going to get hurt too much 
with the peanuts and the Coke.
    Mr. Arment. Yeah, you know, I would hope to come back to 
the fact that it is player choice and every manufacturer has 
complete access, the same access that Riddell has, and we have 
worked very, very hard with the NFL and with the NFLPA to 
educate the players on the differences between--and the 
features and benefits of our helmets.
    I think the, you know, business relationship between the 
NFL and Riddell is completely separate from the on-field 
choices that were made. If that wasn't the case, we would have 
a hundred percent, and we have an 80 percent number.
    Mr. Cohen. I appreciate your testimony, I appreciate your 
product, and I thank the Chairman for his having the Committee 
and this outstanding panel he's put together, and I yield back 
the remainder of my time.
    Mr. Conyers. Thank you so much.
    Mr. Hallenbeck, would you like to have the second to last 
word in this hearing before the panel?
    Mr. Hallenbeck. Thank you, Chairman. I guess as I sit here, 
I look at it from the view of probably all your constituents, 
the mom, the dad, you know, worrying about our sons and 
daughters playing the sport, and what I said in my statement 
and testimony, which I think is absolutely critical in all of 
this, a lot of healthy debate, if you will, but in the end, if 
we don't come to a solution that is clear, concise, and simple 
application so that the moms and dads and the kids can 
understand it, we've all done something terribly wrong.
    So I guess the important statement here is, you know, we 
need to make sure we can boil this down and people can 
understand it. It's my job then to get it out in the hands of 
these parents and players, and so forth. So I think there's 
clearly been some very positive action taking place in the last 
3 months, and I know there's been work done before that in my 
own organization. We've been meeting with the American College 
of Sports Medicine and a lot of other groups to try to make 
some positive strides in this area, and--but certainly in the 
last 3 months, there's been a sea change, and so I credit all 
of the parties involved, including, certainly, this Committee, 
the NFL Player Association, and so forth, and it's been said 
already what happens at that level absolutely trickles down.
    And so it's for my sole view of, you know, focused on youth 
football and amateur football, I just hope all of us focus on 
the fact that we've got to get to the point where we can offer 
some real credible, concise, clear protocols that we can get 
out and help these young players understand what the details 
are around this and ultimately how to return to play safely. 
Thank you very much.
    Mr. Conyers. You're welcome. And Bob Colgate, high school, 
you have the last word on this panel.
    Mr. Colgate. Thank you, Chairman Conyers. I'd have the same 
comments Mr. Hallenbeck brought forth. You know, I know we're 
talking about football, but from our perspective of writing the 
playing rules for 17 sports and dealing with 7.5 million young 
men and woman participating in high school sports across the 
country, concussions goes across all areas. And so we've got to 
look at it from that perspective.
    We're very, very interested in the ongoing discussions that 
this committee has, also, the research, and also the equipment. 
It plays a part, not only in football, but in all of our 
sports. So any assistance that we can get to work with our 
19,000 high schools across the country would be of benefit. 
Thank you.
    Mr. Conyers. You're more than welcome. I thank all the 
panelists. There are eight other witnesses, doctors, former 
players, trainers, Luther Campbell, and others. We will now 
take a short break and eight other witnesses will resume, and I 
thank you for your patience.
    [recess.]
    Mr. Conyers. We welcome our second and final panel, and I'd 
like to just make a point of order that the second panel is not 
inferior to the first panel. This is not some kind of ranking. 
It was just that we couldn't get all 18 of you all up on the 
same panel at the same time. We're happy to have Bernie 
Parrish, former Cleveland Browns pick and choice for many 
years; Luther Campbell, the much sought after professional 
trainer of athletes in the country who is particularly occupied 
in the Metro Detroit area and has trained athletes in both 
football, basketball, and boxing; George Martin who was 14 
years with the New York Giants, we're delighted that he's with 
us; the founder of the Vince Lombardi Foundation, Robert 
Schmidt, and we're delighted that he is here; Kyle Turley spent 
9 years with the New Orleans Saints, the St. Louis Rams, Kansas 
City Chiefs, an NFL All Pro; Chris Nowinski, best known as the 
Former World Wrestling Entertainment Professional Wrestler who 
turned his background as an all-ivy Harvard football player 
into one of the most prominent figures on television these days 
and nights; Dr. Jeffrey Kutcher, a hockey player since 
childhood, who developed an interest in sports neurology at the 
University of Michigan is with us, and our first presenter will 
be Dr. Randall Benson.
    He's the only fellowship trained behavioral neurologist at 
the Detroit Medical Center. He's been on both DMC and Wayne 
State University since 2001, an active member of the teaching 
faculty, and has a very distinguished background in clinical 
and research in traumatic brain injury and now fully engaged in 
studying both impact and nonimpact head injuries, seeking to 
understand the biomechanical mechanisms, treatment, and 
prevention of injuries.
    We're delighted that Linda Sanchez, who I hope you don't 
have to find out how difficult it was for her to get here 
today, in route, we deeply welcome her dedication for the work 
that all of us love, and Steve Cohen, from Memphis, Tennessee, 
is a valued friend of ours, as well, who's contribution is very 
significant.
    I would invite all of you in this final part of our 
discussion to add any comments that you would feel ought to be 
in this very extensive record that will be reproduced and 
studied and examined by people from all professional walks, as 
well as from the sports industry, itself, to make comments 
about anything you may have heard in the--during the discussion 
of the first panel or anything that came up in the first panel 
that you would like to have a comment made about that.
    This out of the way, I'd like to invite Dr. Randall Benson 
to begin our discussion. Welcome, sir.

 TESTIMONY OF RANDALL R. BENSON, M.D., ASSISTANT PROFESSOR OF 
               NEUROLOGY, WAYNE STATE UNIVERSITY

    Dr. Benson. Thank you very much, Chairman Conyers, Mr. 
Cohen, Ms. Sanchez. It's, indeed, a pleasure to have the 
opportunity to speak to you today on something that is so 
important. In fact, like most of us, I'm a lover of football. I 
moved to Pittsburgh in 1969, and left to go to St. Louis in 
'78. And so I was indoctrinated in the Steeler tradition, one 
might call it a religion almost, and I just had the pleasure of 
meeting Mike Richter's son, Garrett, out in the hall, and I 
asked him who he plays for, and he said he didn't play, and my 
jaw dropped, and then he explained to me that he had a knee 
injury, but I trust that his head is fine.
    So I actually wear two distinctively different hats, and 
I'm going to speak to you from both perspectives. On the one 
hand, I--I treat TBI and have done so since 2001. On the other 
hand, I spent some time being nurtured in Boston first at 
Boston University where Chris Nowinski has ties, and then at 
Mass. General where I get into the imaging and also trained in 
behavioral neurology, and so I think it was only a matter of 
time before I came to head trauma; although, I came to it kind 
of in a backwards fashion, looking at stroke and working on 
something called functional MRI at Mass. General.
    So since my arrival at Wayne State in 2001, my research 
emphasis has greatly shifted to the application of what one 
might call functional MRI methods to traumatic brain injury. 
This was in large part driven by cross-campus strengths in TBI 
at Wayne. Wayne State University, as has been mentioned, has a 
long and illustrious history of biomechanics, head trauma 
research beginning in the forties with Gurdjian and Lissner's 
studies using cadaver brains, which led to the Wayne State 
Concussion Tolerance Curve which continues to be the foundation 
for most currently accepted head injury indices.
    Over the last three decades, Dr. Albert King has been 
leading the biomechanics and bioengineering department here at 
Wayne State and continues the tradition of excellent 
biomechanics research. In particular, he has developed some of 
the vast three-dimensional mathematical models of the brain's 
response to impact and blast forces which have resulted in 
improvements of automobile cabin safety and, also, football 
helmet design he's taken a look at.
    I'd like to introduce Dr. King, who I must say I'm 
disappointed that he's not on the panel. Dr. King?
    On the medical side, hospitals at the Detroit Medical 
Center are world leaders in the acute and rehabilitation stages 
of TBI respectively and have had continued NIH research 
support. My clinic is comprised largely of patients with brain 
disorders, the majority of which are dementia evaluations and 
traumatic brain injury cases. In a given week, I'll see as many 
as three to four new patients with TBI and an equal number of 
memory disorder cases.
    What I'd like to do now is very quickly share some 
observations from my 8 years of evaluating TBI, and I think 
they're germane to sports related concussions, as well. Now, 
the vast majority of my TBI cases I will get neuropsychological 
testing and advanced MRI imaging or MNR imaging on. The first 
observation is that people with TBI are frequently 
misdiagnosed, often by multiple physicians.
    The second is the most frequent diagnostic category given 
is psychiatric, anxiety, depression, conversion disorder.
    Number three, two neuropsychologists studying the same 
patient may differ considerably regarding the existence of TBI, 
and I think that's really important that neuropsychology is not 
an exact science.
    Number four, TBI symptoms overlap considerably with those 
of primary psychiatric disorders, and some researchers believe 
that it's actually a continuum, that posttraumatic stress 
disorder may, indeed, be a very mild form of TBI.
    Number five, without the ability to see the brain injury 
with imaging, there is no completely objective way to determine 
what is TBI and what is something else, for example, 
posttraumatic stress, conversion disorder, malingering.
    Number six, people with brain injuries seem to vary 
considerably in severity of symptoms and in recovery in the 
face of similar falls, crashes, etcetera. This may speak to 
population differences in resistance to injury or effectiveness 
of neuro recovery mechanisms, and it's in agreement with Mickey 
Collins from the University of Pittsburgh who found large 
differences in recovery from single concussion, and this work 
was presented at the North American Brain Injury Society annual 
meeting just a few months ago in Texas.
    Finally, advanced MR imaging techniques, I believe, 
including susceptibility weighted imaging, diffusion tensor 
imaging, and something called MR spectroscopy are able to 
reveal brain injuries where CT scans and conventional MRI 
appear normal. Sports related TBI or concussion is not 
different from sports related TBI, except that the severity is 
usually mild, but repetitive concussions are the rule in sports 
which have an increasingly poor prognosis.
    So I'm involved in several ongoing research studies 
involving TBI which have in common the application of newer 
imaging methods but which differ by severity, time frame to 
imaging, funding status, specifics of scanning sequences, and 
mechanisms of injury. Each of these imaging studies is done at 
the MR research center at Wayne State University under the 
directorship of a Ph.D. Physicist, by the name of Mark Haacke. 
He's internationally recognized for his achievements in 
vascular susceptibility mapping which are very relevant to 
concussive brain injury.
    For example, one study looks at acute, mild TBI or 
concussion. We scan these people right out of the emergency 
room. A second study looks at more severe TBI when medically 
stabilized. Another study has been going on for 15 years 
supported by NIH, but an imaging component was added to this. 
We have more recently studied former NFL players in two 
capacities, the first sponsored by the NFL is an imaging study 
using imaging methods prescribed by our group with imaging 
performed at a clinical imaging facility, ProHealth, in New 
York.
    Images are then sent by CD Rom to us for analysis. To date, 
we've received and analyzed 41 scans sending reports back to 
Drs. Casson and Viano in New York. Of course, we know that this 
is on hold now. My role is as a consultant on both image 
quality and data analysis and reporting. This study projected 
to scan more than twice this number and, thus, is incomplete at 
this juncture. The second study is a pilot imaging study of 
former NFL players withstanding an analysis performed in 
Detroit. To date, we've enrolled eight subjects, and I'm going 
to present some very preliminary data on--on some of these 
former NFL players.
    I'd like now to review some of the imaging methods we've 
developed and applied to TBI. The unabashed emphasis of our 
work is the image traumatic axonal injury, also known as 
diffuse axonal injury, which I'm sure this panel is aware of, 
this panel and the committee, which is responsible for the bulk 
of chronic cognitive deficit following TBI. In addition, the 
most devastating consequence of repetitive TBI, chronic 
traumatic encephalopathy, is thought to be the result of 
diffusion axonal injury, possibly caused by a series of 
concussions before full recovery occurs from the prior 
concussion, okay?
    This weekend I had the opportunity to e-mail Dr. McKee 
repeatedly in preparation for my testimony, and she gave me the 
go ahead to quote her. Specifically, there's a hypothesis that 
she supports that phosphorylated tau, which we've heard 
something about, within damaged axons is toxic to these 
neurons, and in fact, Dr. Omalu mentions that amyloid--the 
precursor protein may be the catalyst for triggering the tau 
protein deposition, which is, as we understand, cytotoxic and 
may underlie CTE.
    Electrophysiologic data from an EEG, known as the event 
related potentials, indicate that even after symptoms have 
abated from sports concussion, the brain has not normalized, 
and again, Dr. Omalu mentions 99 days, all right? So certainly, 
it raises the question of whether people should be returning to 
activity before that 3-month period. This suggests that 
clinical symptoms are not a reliable indicator of recovery and 
that to rely on symptoms exclusively to guide your turn is to 
put the athlete at risk.
    Okay. So now I'd like to show you a movie. Actually, this 
is a movie that was--it was made from a series of MRI images, 
okay, with a volunteer moving his head back and forth inside 
the MRI. And if we could cycle that a few times, what I want 
the attendees to appreciate is that this is sub-injury 
threshold movement, and I think what you can appreciate--now 
the matrix was something that was superimposed over the brain--
is a movement of the brain, itself, within the cranial cavity, 
all right?
    And again, this is a person like you or me simply moving 
their head back and forth repeatedly. This work was done by Dr. 
Phil Bailey, who has his own neurotrauma lab at Washington 
University. I also have a similar image that was obtained by 
Dr. Van Wedeen at Mass. General Hospital and looks very, very 
similar. So again, the notion that you can sneeze and cause 
brain injury may be a little bit farfetched, but it's not 
farfetched to think that there is brain movement occurring with 
relatively moderate head movement.
    Okay. Okay, next slide? Okay. So I don't know that you 
can--I don't know if we can turn the lights down, but I think 
that would maybe help with visualizing some of these images. So 
the first image type that I want to tell you about that we now 
have plenty of experience with is something called 
susceptibility weighted imaging.
    In 2004, we had the opportunity to scan an 11-year-old boy 
whose vehicle skidded off a mountain while his parents were 
driving in the mountains of Colorado, and his parents both died 
in the crash, he survived. He came to us in a coma. His family 
was originally from Michigan, and we scanned him with these new 
techniques, and what I'd like to point out--I don't know if you 
have a pointer, I'm not even sure it's necessary--the image on 
the left is a standard conventional MRI, a so-called T1 
weighted MRI.
    The image on the right is a susceptibility weighted image 
developed by Dr. Haacke, and what I want you to appreciate are 
the multiple black holes in that image. I trust that you can 
see those. And those are microhemorrhages. Those are an 
indicator of what we call diffuse axonal injury. He--he has 
gone on to come out of his coma. He is by no means normal, he's 
quite impaired, and--and I think the imaging, certainly the way 
we do it, gave us some indication of what his prognosis was.
    Next? Okay. Another example, even more striking, I think, 
this is not a TBI case, this is a condition known as cerebral 
amyloid angiopathy. So it has that word ``amyloid'' in there, 
and there is a relationship. You tend to see this in older 
individuals, frequently with Alzheimer's disease, and again, 
appreciate the absence of holes in the standard clinical T1 
image and the plethora of hemorrhages, and the pathologists, I 
believe they did biopsy her. The imaging was done postbiopsy. 
The pathologist told me that there was an excellent correlation 
between the imaging and the pathology.
    Now, it's also true that individuals can have more mild 
injuries, as we know. This--this patient was involved in--in a 
motor vehicle accident. We scanned her 3 days post her 
accident. Her Glasgow Coma Score was 13, which is classified as 
mild, and again, you see the hemorrhages which are apparent in 
the frontal lobe on the SWICN but not the conventional image. 
Next?
    Okay. Another mild case, this time, not diffuse axonal 
injury but a bruise or a contusion in her frontal lobe. This 
was an employee at Wayne State who slipped and fell and hit her 
head on an iron--an iron bar of some sort and went back to work 
but wasn't right, and eventually, she took an early retirement 
because cognitively, she never did recover back to her prior 
baseline. Next?
    Okay. Now, we move on to really what I think is the most 
sensitive technique in looking at diffuse axonal injury, and 
this is called diffusion tensor imaging. Panel A shows you 
schematically what a normal axon looks like. B shows you 
changes that occur early after stretch trauma or other kind of 
deformation, and then C is the end stage. And the reason I'm 
showing you the change in shape is that this is what allows us 
to image and to identify axonal injury, all right? So C is the 
late stage. You see the so-called retraction ball? Okay.
    What we did is we looked at 20 patients with trauma that 
came through our doors, and we looked at 14 normals, and we 
plotted the distribution of an index which I won't bore you 
with, it's called fractional anisotropy, or FA, and what we 
find is that there's clear separation between the trauma cases 
and the control cases, and furthermore, because of good 
correlation between the severity of the injury and what we find 
in the imaging, and we've gone on to refine this--can you back 
up one slide--and we now do a regional analysis. Well, we can 
now look at the injury in standard atlas defined regions rather 
than just looking at the global brain. Next?
    Okay. And we also compared each individual brain to 50 
normal brains, and we did a statistical analysis, and this 
allows us now to identify specific voxels, specific pixels, if 
you will, that are showing an abnormality in this diffusion in 
these. Okay? So now, this puts it altogether. This is a 
comparison for a single subject on a single slice showing the 
SWI with microhemorrhages and BTI with axonal injury, and 
something called MR spectroscopy, which is a way to look at the 
biochemistry, and they're all showing us abnormalities in the 
lighting on it.
    All right, in the first NFL case, we actually had the 
opportunity to scan both in New York and at Wayne State, and 
this allowed us, in a sense, to calibrate the imaging that was 
done in New York for the NFL, and what I want to show you is 
that there's striking similarity between the findings. The left 
column is the Wayne State image of the three select slices. The 
middle column was obtained in New York, and then the third 
column is the average of the two, all right? Clearly, this 
former NFL player has an axonal injury, I would say, based on 
my experience, that he does.
    Next slide, and the last slide. Thank you for indulging me. 
This person is a 36-year-old, 11-year vet of the NFL, he's a 
fullback. He retired 3 years ago. Now, interestingly, I went 
back and looked at his questionnaire, he has by his report over 
50 episodes of hits that rendered him blind for about a minute. 
He said that he needed help to get back to the huddle. He 
states he has no visual impairment now. The one area of 
abnormality he has in the area called the splenium of the 
corpus callosum, and that, of course, that contains crossing 
fibers from the two visual cortices of the brain.
    And so what I would suggest and my opinion is that if we're 
going to get to the bottom of the issues, we need to do a large 
scale imaging study, not just imaging. We know about the 
individual variability. We need to look at ApoE. We need to 
look at many factors, but we need to do a cross-sectional 
study. We also then, possibly contemporaneously, need to look 
prospect--we need to follow NFL players throughout their 
career, charting concussions in order to identify the 
predictors of cognitive deficit and, in particular, CTE. Thank 
you for allowing me to testify.
    [The statements of Dr. Benson follows:]

                Prepared Statement of Randall R. Benson

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thank you very much, Dr. Benson.
    Dr. Jeffrey Kutcher comes from a bit different point of 
view, a hockey player since childhood, but at the same 
developed an interest in sports neurology at the University of 
Michigan and then served his neurology residency after 
graduating from Tulane Medical School. Since then, he's been on 
the University of Michigan staff as director of Michigan 
NeuroSport, an academic and clinical program focused on 
improving the neurological care of athletes. His interests 
focus on sports injury and the management of neurological 
diseases in the athlete. Particular areas of research include 
concussion, migraine headache, and sleep disorders.
    We welcome you and await your testimony, Dr. Kutcher.

    TESTIMONY OF JEFFREY KUTCHER, M.D., DIRECTOR, MICHIGAN 
                           NEUROSPORT

    Dr. Kutcher. Thank you, Chairman Conyers, Congressman 
Cohen, Congresswoman Sanchez, thank you for giving me the 
opportunity to speak today. As you mentioned, I'm a neurologist 
at the University of Michigan where I am both Chief of 
Inpatient Neurological Services, as well as the Director of 
Michigan NeuroSport. You mentioned it is a comprehensive 
academic program of sports neurology. We care for athletes of 
all levels from youth sports to professional leagues. We 
conduct research on concussion, provide education to healthcare 
providers and the community about concussion, as well.
    I'm also the team neurologist for the University of 
Michigan, Eastern Michigan University athletic programs, and 
through these roles, I conduct preseason baseline testing, 
diagnose and manage concussion on the sidelines, and follow 
patients after concussion in the training rooms and in my 
clinic. I'm also honored to be the Chair of the American 
Academy of Neurology's Section on Sports Neurology, which was 
founded in 2009 with the express purpose of improving 
neurological care of athletes at all levels, through education, 
advocacy, and research.
    I should also note that I recently accepted an invitation 
from the National Football League to serve on their concussion 
committee as it's being reformed. I look forward to working 
with the group to help ensure the safety of the sport.
    With that in mind, however, I'm encouraged that today's 
hearing goes beyond the scope of the NFL. While professional 
contact sport athletes may have a longer period of exposure, 
they represent only a small fraction of those at risk. With my 
time, I'd like to address three particular points.
    First, concussion is a complicated injury. We've heard some 
testimony today to that effect. The brain is complicated in 
dynamic. We know from other brain disorders that there is a 
tremendous amount of variability between individuals. When a 
mechanical force is applied, we do not expect one brain to 
react the same as another.
    To understand the short-term and long-term effects of 
concussion, we must first understand how concussion varies 
between individuals, what risk factors lead to worse outcomes, 
and how much risk can be attributed to genetic versus 
environmental factors. To accomplish this, I urge researchers 
to focus on these specific questions and more importantly, 
funding agencies to help provide the support needed to find the 
answers.
    My second point is that because of the brain's complexity 
and the degree of individual variation, concussion management 
does not lend itself well to the use of protocols, clinical 
protocols. It is an injury that is best managed on a case-by-
case basis by people with neurological expertise and experience 
treating athletes.
    Such a large portion of concussion management involves 
determining when an athlete is back to their neurological 
baseline, it is extremely helpful if the physician has personal 
preinjury knowledge of that athlete, including their cognitive 
abilities and personality. This makes the team physician and 
athletic training staff a central component of any 
comprehensive concussion program.
    At both the University of Michigan and Eastern Michigan 
Universities, we use our own surveillance data to determine 
which sports to enroll in our concussion-monitoring programs. 
Sports like football, wrestling, and ice hockey are some 
obvious choices, but we have also found the need to include 
many other sports at our schools, including water polo, field 
hockey, cheerleading, and diving, among others.
    When each athlete enters our program as a new student 
athlete, we take a careful concussion history, we want to know 
what happened to them in the past before they came to us, as 
well as a detailed review of other diagnoses or family history 
that may be relevant to their concussion risk, such as 
dementing illnesses and headache disorders. We consider the 
acquisition of preinjury baseline data to be essential in 
conducting an evaluation that includes a neurological 
examination, neurocognitive testing, and a sideline concussion 
assessment tool in the preseason.
    When a concussion is suspected, the student athlete 
undergoes an immediate clinical evaluation by the onsite 
certified athletic trainer and/or the team physician if they 
are present. The team physician then follows the patient 
closely until that concussion has resolved. Return-to-play 
decisions are not entertained until the student athlete is 
completely free of symptoms, has a normal examination, and has 
progressed through a graded exercise challenge program that we 
use.
    Computerized neurocognitive testing is used as an extension 
of our physical examination, rather than a decision tool unto 
itself. Return-to-play decisions, as well as retirement 
decisions, are made with careful consideration of each 
athlete's history, as well as looking for certain red flags, a 
few of which are any change in their baseline function that we 
can tell on objective testing or through school work or more 
personal stories from their family members, escalating severity 
of symptoms in subsequent injuries, or if they're getting 
concussions too easily. We very carefully take a history of 
what caused each concussion, so we know what their threshold 
is, in other words.
    However, with little published clinical data to help make 
these decisions, there is very little that we can point to and 
say this is when it's safe to go back. The key to making these 
programs work is the involvement of an experienced and 
knowledgeable medical staff. Relying on protocols is, in my 
opinion, potentially dangerous, clinical protocols, as they 
assume that conclussions are similar enough to each other to 
fit a predetermined paradigm.
    The final point I'll make is that realizing that proper 
concussion management requires resources that are not available 
to the vast majority of high schools in the country and many 
colleges, we must address a larger public health need. To that 
end, the American Academy of Neurology has recently undergone a 
process of creating new practice perimeter guidelines. Dr. 
Casson in the first half was talking about the '97 American 
Academy Guidelines with the one-two-three business, that is 
being revisited and we'll be coming up with new guidelines, we 
started that process a couple of months ago.
    To accomplish that, we have assembled a panel of experts 
from the fields of neurology, neurosurgery, sports medicine, 
athletic training, emergency medicine, rehabilitation medicine 
and neuropsychology, being careful to choose members who are 
without a commercial conflict of interest. The sports neurology 
section of the academy is promoting awareness of concussion 
among primary caregivers and general neurologists, working to 
increase the number of neurologists specializing in sports 
neurology and developing the educational tools necessary to 
provide optimal care. We also feel that a central component of 
athlete safety is to increase the number of certified athletic 
trainers that are at all contact sport competitions and 
practices.
    As evidenced by this hearing today, the management of 
concussion is evolving, and I'm glad to see that it is. I'm 
also honored to be part of the effort, grateful to be working 
with colleagues of such talent and focus, and I'm confident 
that together as a group, we'll be able to do what's best for 
athletes at all levels. Thank you.
    [The prepared statement of Dr. Kutcher follows:]

                 Prepared Statement of Jeffrey Kutcher

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thank you, Dr. Kutcher.
    Well, most people have seen Chris Nowinski, former world 
wrestling professional, entertainment, came out of Harvard 
playing football, and has been doing a lot of television work 
during his career. Then he came into this state of his health 
diagnosed with postconcussion syndrome, and along with Dr. 
Robert Cantu, has put together the Sports Legacy Institute, and 
what I think is amazing about him is that his relentless effort 
to get into the sports concussion crisis has uncovered and 
changed the way concussions are treated in sports.
    These a pretty big order for a person who stakes no claim 
on medical background or expertise, but he began looking at the 
deaths of Chris Benoit, Andre Waters, and so some of that 
investigation to end up--ended up on HBO, Bryant Gumbel, SBN, 
CBC, The New York Times, Boston Globe, National Public Radio, 
and we're interested in hearing about that journey. Chris 
Nowinski, welcome to our panel this evening.

 TESTIMONY OF CHRISTOPHER NOWINSKI, CO-DIRECTOR FOR THE CENTER 
 FOR THE STUDY OF TRAUMATIC ENCEPHALOPATHY, BOSTON UNIVERSITY 
 SCHOOL OF MEDICINE, PRESIDENT AND CEO, SPORTS LEGACY INSTITUTE

    Mr. Nowinski. Thank you, Chairman Conyers, thank you for 
that very kind introduction. And thank you, Members of the 
Committee, for having me again to testify as part of the second 
hearing on brain trauma in football. I'm not going to go into 
my personal history like I did last time, I'm going to focus on 
moving forward, but I'd like to say first it's also an honor to 
be sitting on a panel with Kyle Turley, who's 1 of the over 250 
athletes who have pledged to donate his brain to our Center for 
the Study of Traumatic Encephalopathy at Boston University 
School of Medicine, and to be studied throughout his life and 
will be coming to Boston to be scanned this month.
    It's also an honor to testify in Detroit where former 
Detroit Lions star and Hall of Famer, Lou Creekmur, played. Dr. 
Ann McKee recently diagnosed him with CTF after he died while 
suffering from dementia, one of the first victim who actually 
played definitively prior to the steroid era. I will not repeat 
the substance of my prior testimony, but I will reiterate that 
it focused on two major battles in what is appropriately 
described as a two-front concussion crisis.
    Football is plagued by a problem with concussions and also 
a problem with chronic traumatic encephalopathy, which we've 
discussed, a disease caused by both concussions and 
subconcussion injuries. The disease has been known for nearly a 
hundred years. It was termed traumatic encephalopathy by Parker 
in 1934, and then the term chronic genetic encephalopathy was 
first used by Miller in 1966, and has been widely used by 
researchers since.
    The problem with concussions in football is that there are 
too many. They need to be better prevented, reported, 
diagnosed, and managed. The problem with CTE in football is 
that our research at the center has yet to find a brain of a 
deceased athlete who played football in college or beyond that 
doesn't show signs of the disease. This becomes more and more 
shocking with each additional case.
    Unfortunately, we cannot predict with any accuracy the risk 
to athletes who only played football through high school, but 
there is evidence to suggest the brain damage may begin at the 
youth level. Fortunately, the solution to both problems appears 
to be virtually the same, fewer impacts to the head reduce 
total brain trauma, fewer concussions, and better diagnosis and 
treatment from concussions.
    In October, the top problems were that truthful information 
on the risks of CTE and the magnitude of the problem, as well 
as meaningful information on how to reduce risks was not 
reaching these athletes, coaches, or parents. The National 
Football League by refusing to acknowledge the clear link 
between CTE and brain trauma was allowing this public health 
crisis to flourish.
    I'm amazed and delighted to see how much it changed in the 
last few months. The combination of the Congressional hearings, 
promoting research, and a changing culture appears to have 
motivated the NFL to now arguably set the standard on 
concussion-bearing research, along with finally acknowledging 
the link between brain trauma and CTE.
    Among the changes that have been announced since the 
previous hearing, the NFL, with input from the NFLPAs, changed 
the leadership of the committee and influenced change in youth 
education through public service announcements that have been 
approved by the CDC and also coach training. There have also 
been significant changes on the CTE research front. The 
National Football League Players Association has continued to 
strong push to address this issue in all levels by officially 
collaborating with our center at BU, and they will encourage 
actively retired players to participate in the center's 
research.
    The NFL has also announced it will take an active role in 
our independent research, recently announcing that they will 
encourage athletes and retired players like Kyle to participate 
in our brain donation program and clinical research. In 
addition, the NFL has pledged to support the center's research 
financially with at least a million-dollar donation. Our 
research team must always have complete independence from 
outside interests to maintain the integrity of the scientific 
vigor of the research. In early conversations with the NFL, 
they have expressed their willingness to support us in a way 
that will maintain our independence. We look forward at the NFL 
and Boston University Leadership ironing out these important 
issues in weeks to come.
    The changes the NFL's made since October launched a 
dramatic step forward in addressing this crisis. The 
researchers and advocates can spend more time addressing the 
actual problem of concussions and CTE rather than the prior 
focus on changing the minds of the football leadership. It's 
time focus on what needs to be accomplished going forward.
    In a perfect world, athletes do not suffer unnecessary 
concussions, do not suffer too many concussions, the 
concussions are actually reported, properly diagnosed, and 
properly managed. In a perfect world, sports evolve to reduce 
total brain trauma, (including those milder, repetitive 
subconcussive hits to the head) to a tolerable level, whatever 
that may be, so that athletes do not eventually develop CTE due 
to recreational sports.
    Reaching this perfect world has always required a culture 
change, and a culture change in football has always required a 
change in attitudes of NFL players. NFL players are role models 
and heros to younger football players. Because of the 
educational efforts of outsiders and the change of incentives 
in the NFL, we've seen that attitude change happen virtually 
overnight. I was overjoyed to hear Kurt Warner, the quarterback 
for the Arizona Cardinals after a concussion say in December he 
was tempted to lie about his concussion symptoms to the staff, 
but, ``I had to go what are you thinking, this is bigger than 
that.''
    The culture change will almost certainly trickle down to 
youth sports, especially at the high school level, where 
athletes are mature enough to understand the risks but less 
able to incorporate that understanding into behaviors. We must 
always remember that 95 percent of football players are under 
the age of 18 and under the age of consent, and so it is our 
responsibility to not let them throw away their futures with 
our endorsement.
    At the first hearing on this issue, I entered into the 
record the Sports Legacy Institute's 10-point plan to save 
football. It provides a strong framework to assess our progress 
in addressing the options available to us to make sports saver. 
Using the framework, if I could snap my fingers and make 
changes prior to the 2010 season, I would change the following:
    First, education for coaches. We, the Sports Legacy 
Institute, gives live presentations about an hour and a half 
long, but we can't be everywhere. The CDC informed me last week 
that they are in the process of developing a simple 20-minute 
certification course using their widely accepted Heads-Up 
program that they hope will be ready in 6 months. When it's up 
and running, I would make an online concussion certification 
program mandatory for all coaches similar to CORI checks. That 
should be done voluntarily by leaders of these sports 
organizations, or if they drag their feet, it can also be done 
legislatively state by state like was done in Washington.
    I also plan to make sure parents know this program is 
available and to ask them the following question: ``Is a coach 
that refuses to invest 20 minutes to protect your child's 
health responsible enough to coach your child?'' If they answer 
no, I would ask that parents refuse to sign their kids up for 
programs that do not require CDC certification.
    Number two, I would change concussion management. The 
latest concussion management guidelines support the 
recommendation that no youth player who is diagnosed with 
concussion be allowed to return to the same game. I would ask 
that all organizations formally adopt this guideline and expand 
this, as the NFL has, to include practices.
    And number three, I think we need to focus on practice. We 
need to put together a commission of medical experts, youth 
coaches, and youth sports organizations to investigate where we 
can reduce unnecessary brain trauma in practice, and consider 
reducing how many days of full contact younger players are 
allowed. If a handful of drills with higher risk for brain 
trauma aren't discourage or banned by the fall of 2010, then we 
aren't really trying.
    I believe the biggest barrier to making sports safer for 
the brain has been overcome. Now that the NFL is putting their 
immense resources behind solving the concussion crisis, it's up 
to us to execute the solutions. Thank you for the opportunity 
to present today.
    [The prepared statement of Mr. Nowinski follows:]

               Prepared Statement of Christopher Nowinski

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thank you, Mr. Nowinski, we appreciate your 
articulate presentation out of--it came out of your own 
experience, actually.
    Kyle Turley, 9 years NFL, and St. Louis, Kansas, and NFL 
All Pro. His life has been turned around and redirected as a 
result of what's happened to him in the activity he loves. He's 
now a member of a number of boards. He's educating and raising 
money and, I think, inspiring a lot of other people in this 
field who, probably like Mr. Turley, hadn't really thought 
about this part of this profession, and I--I just believe he's 
affecting lots of people. We're pleased that you're with us 
tonight.

          TESTIMONY OF KYLE TURLEY, RETIRED NFL PLAYER

    Mr. Turley. Thank you. It's an honor to be here. Thank you, 
Chairman Conyers, and the respected panel. Before I get 
started, I've been requested to introduce a video statement by 
Mr. Mike Ditka, as I call him, ``coach,'' is the chairman and 
founder of the Gridiron Greats organization that I sit on the 
board of, so if we could bring that up before I get started, we 
would like to have this played.
    (Whereupon the following is the audio from the videotape 
that was played by Mr. Turley.)
    ``Mr. Ditka. Thank you, Chairman Conyers and Members of the 
Committee. My name's Mike Ditka. I work with the Gridiron 
Greats assistance fund, and let me tell you a little bit how 
about we got all involved in this stuff so people--I'm not an 
expert about anything. All I know is we put a good thing 
together a few years ago called the Hall of Fame Assistance 
Trust to who try to help former hall-of-famers who were in dire 
need, and we raised some money and we did help some people.
    ``The reason it came to my attention, I notice (inaudible) 
of the guys that were in the Hall of Fame, people with mental 
problems, dementia, Alzheimers', whatever you want to call it, 
and so we put this fund together, and we did help a certain 
amount of people, so we had a--some people came up against us 
and claimed this and that and like they always do. If you're 
doing some something good, then you're doing something bad, I 
guess.
    ``So we resolved that front and we started the Gridiron 
Greats, and we've tried to help all players, all retired 
players who need help regardless of whether they're hall-of-
famers or not, and over the last few years, we helped a 
significant number of people, but more than helping people, 
we've created an awareness of the problem, and even the NFLPA 
and the NFL now is starting to understand when we talked about 
concussions. And you can have all of the expert doctors, I'm 
sure you have some there, and they're going to tell you well, 
this and that, and there's no--no definite evidence that 
concussions cause dementia or Alzheimer's, and you can say 
anything you want to.
    ``You know, some doctor might tell you smoking doesn't 
cause cancer because in some people it probably wouldn't. But 
you know, it gets silly after a while. The only thing we did--
that we are trying to do is to help people, and like I said, we 
created a lot of awareness because there are people out there 
who need help.
    ``Now the National Football League Players Association is 
an association that we all pay dues into. I was here when it 
started. We all fought for it, we all went on strike, we all 
know what it's all about. Whether we agree with everything they 
do or not, the core obligation and responsibility is to 
represent the players. The players are the National Football 
League. Present, future, and past. And past. We're all a part 
of it. This league didn't become a billion-dollar business, 
these owners didn't get rich today or these players didn't get 
rich just because somebody waved a magic wand.
    ``What happened is there was a time where guys played this 
game, played a lovely game, made very little money, got a lot 
of injuries, suffered a lot of hardships after football, always 
had to have two jobs, these guys are the foundation, whether it 
was in the thirties, the forties, the fifties, the sixties, or 
the seventies. These guys were the foundation of what now 
gets--what's called the National Football League, which is a 
multi-billion-dollar business. Nobody's losing any money.
    ``But there are guys losing their health. There ought to be 
some kind of a program where we can put in place to help these 
guys who are having these health problems, and that's all we're 
trying to do. But every time we try to do something, somebody 
points the finger at us and says, oh, you're wrong, or somebody 
from the NFLPA says well, you can't do that. Well, why can't we 
do it? What's wrong with it? Why haven't you done it? Why 
haven't you cared enough to do something?
    ``And the National Football League owners, too. They took 
every pound of blood they could out of these players. Give some 
of it back. Now (inaudible) why we paid them (inaudible).
    ``But there are certain risks that came with that playing 
and they gave you everything they had, give them something 
back. If you're going to take a pound of flesh, give them a 
pound of flesh back, that's all I'm trying to say. I don't have 
the answers to all of this, and I don't want to get into an 
argument with anybody. I'm just what we're doing and why we're 
doing it.
    ``Now if that's wrong, then maybe you can assist us with 
doing what we're doing. And we'll let the might National 
Football League or the player's association take care of the 
guys that need help then. But we're not going to do that for 
the time being.
    ``So it's about time somebody woke up. You know, we talk 
about all the things, we talk about politics and change and 
this and that. Let's just use some common sense. Get away from 
this nonsense where everybody wants to get up there and 
pontificate about this and that and that, and we have this 
article, we came--you know, we don't care about that. These are 
guys who helped found the National Football League. Give them a 
break, will you? Let them live out their life with some 
dignity. Do the right thing.''
    [Applause.]
    Mr. Turley. With that, I'd like to go into my prepared 
statement. Again, thank you, Chairman Conyers, Congresswoman 
Sanchez and Congressman Cohen. It is an honor for me to be with 
you today to discuss this great interest to the public of the 
issue of head injuries in professional football or football in 
general.
    As this committee has begun to demonstrate, that issue 
extends to football at all levels, from youth leagues to NFL, 
from football to other sports. I feel a double measure of honor 
and responsibility today since I have been given the 
opportunity to speak for many who have no voice, for countless 
men, women, and children who, though they never played a `down' 
in the NFL, nevertheless, face the reality of life after 
traumatic brain injuries.
    I am here to further assist the great work that has been 
done by this committee by some of the distinguished medical 
experts on this panel--and I'd emphasize distinguished because 
there are some that aren't, and by others, some of them ex-NFL 
players--to educate and find solutions for this epidemic. 
Having personally suffered multiple concussions, I can speak 
firsthand of the terrifying symptoms I continue to experience 
as a result, not only immediately following brain injury but 
years afterward as my faculties continue to degenerate, and my 
life continues to change.
    For myself, I can actually take some solace from the fact 
every one of my injuries is a direct result of living my dream 
of having a storied career in the NFL, even through the tough 
times I can say to myself that it was worth of all to have 
lived that dream and wear my scars like so many badges of 
honor, but there are others to think of, some of them ex-
football players, some not. For their sake, for their pain, I 
cannot allow myself to be silenced by my own sense of 
consolation.
    Among those others is my newborn son. As we celebrated his 
first Christmas, I brooded on the thought that he might have 
his own future of playing sports and that if he does and the 
current mentality on head trauma does not change, he will 
likely face the same problems I'm facing now. No amount of 
consolation will make me silent for that prospect. Like anyone, 
I want my child to live in a better world than I did.
    My presence before you today represents my commitment to 
that idea. As I watched the hearing on--that your Committee 
held recently in Washington, I cannot help but to notice the 
comments of some Members of Congress, and in my view, all of 
the representatives of the NFL that still seem to be reactive 
rather than proactive in confronting the issue of traumatic 
brain injury in football, as if it had only recently been 
discovered. The fact that it is--the fact that has been 
represented by many is that the Center For Disease Control 
characterized second impact syndrome and traumatic brain injury 
in 1984 in a report that presented recommendations developed by 
the American Academy of Neurology to prevent recurrent brain 
injuries in sports and their adverse consequences.
    A subsequent version of that report includes the following 
case: During a 1991 game, a 17-year-old high school football 
player was tackled on the last play of the first half of a 
varsity game and struck his head on the ground. During halftime 
intermission he told the teammate that he felt ill and had a 
headache. He did not tell his coach. He played again during the 
third quarter and received several routine blows to the helmet 
during blocks and tackles. He then collapsed on the field and 
was taken to a local hospital in a coma.
    A computed tomography or CT scan revealed diffuse swelling 
of the brain and a small subdural hematoma. He was transferred 
to a regional trauma center where attempts to reduce elevated 
intracranial pressure were unsuccessful, and he was pronounced 
dead, brain dead 4 days later. Autopsy revealed diffuse brain 
swelling, focal areas of subcortical ischemia, and a small 
subdural hematoma.
    This example is not common, but it is not nearly as rare as 
it should be, either. This problem does not need more review. 
It doesn't need more doctors, it needs action now. As Merril 
Hoge suggested in your last hearing, coaches at all levels of 
the game, but particularly in high school and youth league 
football, need to be systematically educated about concussions 
and the implication of playing through the pain of a head 
injury, but all injuries in my mind, so that examples like this 
one that are not just rare, but nonexistent in the future.
    That educational effort must have the full public support 
of the NFL, the Player's Association, and every player in the 
league, past and present. Like it or not, as professional 
football players, we are role models. Kids not only look up to 
us, they emulate us in every way we play the game. If human 
casualties are not enough to move us all to action, let us have 
a hard look at the financial toll traumatic brain injury has 
inflicted on the United States alone.
    According to another CDC study, at least 5.3 million 
Americans currently have a long-term or lifelong need for help 
to perform the tasks and engage in daily activities of living 
as a result of TBI, traumatic brain injury. In the year 2000 
alone, the study confirmed that direct and indirect costs of 
traumatic brain injury in the United States totaled an 
estimated $60 billion. As we sit and continue to discuss these 
matters, our country continues to suffer from one of the worst 
medical epidemics and financial disasters it has ever known.
    Members of the Committee, what follows is a description for 
the diagnosis and treatment of a grade 3 concussion suggested 
by the American Academy of Neurology in a 1997 report and is 
contrary, as I go through my example of it, of what Dr. Casson 
believes is the medical practice of the National Football 
League since these studies came out.
    A grade 3 concussion, the definition is a loss of 
consciousness, either brief, seconds, or prolonged. The 
management, the athlete should be removed from sports activity 
one full week without symptoms if the loss of consciousness is 
brief or two full weeks without symptoms if the loss of 
consciousness is prolonged. If still unconscious or if abnormal 
neurological signs are present at the time of the initial 
evaluation, the athlete should be transported by ambulance to 
the nearest hospital emergency department.
    An athlete who suffers a second grade 3 concussion should 
be removed from sports activity until asymptomatic for 1 month. 
Any athlete with an abnormality on computed tomography or 
magnetic reconnaissance (sic) imaging/brain scan consistent 
with brain swelling, contusion, or other intracranial pathology 
should be removed from sports activities for the season and 
discouraged from future return and participation in contact 
sports. Pretty detailed. A lot of examples there, very 
detailed.
    Now, I would like to explain to you my experience. After 
having suffered a grade 3 concussion in 2003, again, 2003, 
while playing for the St. Louis Rams. On the last play of the 
third quarter in a Sunday game versus the Green Bay Packers, I 
was struck in the back of the head by an opposing player's 
knee. I lay unconscious for close to a minute and was revived 
by the team medical staff by the use of ammonia caps.
    I was then guided to the sideline, placed on the bench. 
While sitting on the bench, I was approached by players, 
coaches, and medical staff, all of which I had very little 
recollection. Out of concern for my wife, I remember trying to 
look for her so that I could wave and give her some peace of 
mind, but I was unable to remember that our seats, which we 
have all season long, were located just over my left shoulder.
    After what seemed like only a few minutes, I was approached 
by a member of the team medical staff and escorted to the 
locker room. While walking off the field, I glanced up at the 
scoreboard to see that there was just over a minute left in the 
game. I was knocked unconscious the last play of the third 
quarter. A quarter of football can take up to an hour. Yet, I 
sensed virtually no passage of time.
    After being taken to the locker room, I went through the 
usual motions of getting ready to go home. The medical staff 
then led me to a small room where they had my wife wait for me. 
They released me into her care with the suggestion that she 
take me to the hospital. As my wife guided me down to the 
hallway toward the stadium exit, I was fortunate enough to run 
into an old teammate who assessed the state I was in and told 
my wife that she needed to get someone to help her take me to 
the hospital since she could hardly hold me upright.
    She found a police officer who kindly took us in his car 
and drove us directly to the emergency room. There I was given 
an immediate CT scan and was kept overnight for observation. 
After being released from the hospital, I was told by the team 
to go home and rest and that I would be reevaluated by the team 
medical staff on Wednesday. After meeting with the Rams' 
medical staff, I was not examined but merely asked how I felt. 
I was then told not to participate in practice that day and 
that they would reevaluate me the next day, Thursday.
    After their evaluation on Thursday, I was cleared for 
practice and full contact drills, though I still had a severe 
headache. I went on to practice that day, frustrated with being 
injured, and wanting to prove my toughness to my teammates and 
coaches, I used my head more aggressively than I normally would 
have in practice, not understanding the damage I was doing to 
my brain.
    I would like to tell you that this was an isolated 
incident, just as Dr. Casson would, and that the situation was 
unique, but my experience, both as a player and as a board 
member of the charity focused on the needs of injured and 
retired players, it is that the negligence of the NFL medical 
staff is fairly universal, that its effects are perpetuated and 
magnified by the NFL disability committees, the protection they 
enjoy under the collective bargaining agreement comprised of 
the owners and players' union representatives which continually 
deny retired players disability claims wrongfully and that 
acting players continue to be put into the game after suffering 
concussions, which I viewed during this football season.
    Like my fellow Gridiron Greats board member, Mike Ditka, I 
hope that my fellow panelists today, DeMaurice Smith, who's not 
with us now, will forge a new path for the NFL Players 
Association, but history has taught me to cast a very skeptical 
eye. As Mike said, if Mr. Smith's deeds match his words and 
retired players, who found little help at the hands of his 
predecessor, begin to experience solid benefits as a result, he 
will have my firm support, as many others. Like all of my 
retired brethren and their families, I will be watching.
    As a child, I dreamed of playing in the NFL and being a 
part of an elite fraternity of brothers. The reality of my 
exper--the reality I have experienced, however, is quite the 
contrary. From the inside, I have watched the continued 
arrogance of the NFL owners and player's association as they 
neglect the health of those whose careers they should protect. 
In my retirement and in my work as an advocate for other 
retirees, I continue to see myself, my friends, and the heros 
of my youth dismissed and thrown away as if all the hard work 
and dedication they put into building the NFL into the success 
it is today meant absolutely nothing.
    Mr. Chairman, Members of the Committee, I'm here to say 
that we are not commodities. We are made of flesh and blood, we 
have families that need to be cared for as they care for us. It 
is my recommendation of the many others that it be a legal 
obligation backed by serious sanctions for every athletic team, 
professional or otherwise, to have the information of the CDC 
reports on concussions be prominently posted in every locker 
room that it be mandated that those materials be read and 
clearly explained to all players and coaches by a neurological 
medical professional.
    Moreover, once a player presents with complaints or 
symptoms associated with head injury, that player should be 
immediately taken out of the game or practice in which he is 
participating for the rest of that day and be examined by a 
neurological professional immediately. I also propose that this 
committee undertake an investigation of the history of benefit 
and disability denials by the NFL and National Football League 
Players Association a disability system that is conflicted in 
the way it serves to align the interests of both the NFL and 
the NFLPA against those of the disabled players whose welfare 
both organizations are supposed to consider objectively. To 
date, they have not.
    In closing, I would like to say the key element that has 
brought us together here is a general loss of focus on the most 
important purpose of playing sports, promoting health while 
having fun. Instead, the NFL has become a game literally about 
life and death. With the Committee's help, I hope we can all 
work together to change that and put health back into the game. 
It has been sidelined long enough. Thank you for the 
opportunity to testify before you today. I yield.
    [The prepared statement of Mr. Turley follows:]

                   Prepared Statement of Kyle Turley

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thanks so much. [Applause.]
    Your testimony has been most moving.
    Mr. Turley. Thank you.
    Mr. Conyers. I appreciate your continued commitment to make 
sure that we do something.
    I yield to Linda Sanchez to take her leave from us this 
evening.
    Ms. Sanchez. Thank you, Mr. Chairman, and I just wanted to 
let the second panel know I've heard about half of the 
testimony, and I'm sorry I'm going to miss the second half of 
the second panel. I have a flight to catch back home to my 7-
month-old who just celebrated his first Christmas. But I wanted 
to assure you, Mr. Turley, based on your testimony, we started 
the investigation into this issue based on denied claims of 
disability for retired players, and that is still the goal of 
this committee, to continue that work until we feel like those 
have been taken care of in a way that they deserve to be. So 
rest assured that that is not forgotten about, that issue.
    I want to thank the Chairman again for holding the 
wonderful hearing here in Detroit, and we hope to continue 
working on this issue to follow up on some of these other 
issues that need to be addressed.
    Mr. Conyers. Thank you very much.
    We haven't had a lawyer here today----
    Mr. Cohen. Will you yield for a minute.
    Mr. Conyers. Yes.
    Mr. Cohen. Ms. Sanchez, when you see the sun, would you 
call me and remind me what it looks like.
    Ms. Sanchez. Yes.
    Mr. Conyers. Robert L. Schmidt, Founder and Chairman of the 
Vincent Lombardi Foundation, former member of the Board of 
Governors of Georgetown University, distinguished lawyer in his 
own right, and who has spent so much time in the media 
industry, television and a whole variety of communications' 
organizations, that he's either led or been a part of, we're 
certainly pleased that you could be with us today.

         TESTIMONY OF ROBERT L. SCHMIDT, CHAIRMAN AND 
           CO-FOUNDER, VINCENT T. LOMBARDI FOUNDATION

    Mr. Schmidt. Mr. Chairman, Congressman Cohen, I'm humbled 
to be here. First of all I want to brag on the man sitting to 
my right. He's the real deal, and as you know, there is been a 
schism that I think is on its way to being healed whereby the 
NFL owners and the NFL Players' Association in previous 
hearings clearly stated they didn't represent the retired 
players, and I remember your words specifically, Mr. Chairman, 
and I--I wrote them down.
    Kyle Turley was one of the first players who was still 
employed as a player to donate a game check. He was severely 
criticized for doing so by many of his fellow players and 
others. Now, that shows you the absolute irony that Mike Ditka 
was talking about in his video, and to me, you know, the issue 
here, which I'll get into about concussions, and so on, begs 
the question. The question is your oversight is absolutely 
critical to maintain some level of equity that these players, 
retired and soon to be retired, do not have the leverage in 
this equation.
    The 32 owners of the NFL teams have built a $40 billion 
business, it generates $8 billion annually. How I got involved 
goes back to 2006. I'm still a working man. I'm an 
entrepreneur, I have a small business in the broadband wireless 
area, but I'm here today because of my passion and commitment 
to a teammate. Willie Wood and I were teammates at the 
University of Southern California. Willie Wood has an 
incredible distinguished career. I transferred from the 
University of Notre Dame, where I had brief experience as a 
quarterback there and showed up at USC, and Willie was the 
first Black quarterback in post World War II in college, in a 
major college environment. Willie beat me out for the 
quarterback job, but I say I got even, I became his lawyer. Now 
I'm his guardian, and as I tell people, we've been friends for 
over 50 years, he's my Black brother from another mother, and 
that's the way it's gonna be.
    Now, what we can do about it is something that I want to 
play whatever role necessary to help facilitate. I think Willie 
Woods' story is not unique. I think it's very, very similar to 
many, many players, and in his case, he's living a quality of 
life today because he has friends and family and others who've 
surrounded him. There are many players who don't have that. And 
specifically, I don't want to be ungrateful, there is a program 
called the John Mackey 88 Fund.
    And you should know that John's wife, Sylvia, is probably 
the single reason why that program is in existence. She 
personally lobbied Paul Tagliabue, then-head of the NFLPA Dean 
Upshaw, to make it happen. We now receive benefits because 
Willie is declared a beneficiary of that because of his 
dementia. In addition to his dementia, Willie's had two major 
knee surgeries, two new hips, and three major back surgeries.
    Today, I have him in an assisted living facility in 
Washington, D.C., a wonderful place that takes great care of 
him, but he has to be lifted out of bed, he cannot get out 
himself. He will always be in a wheelchair, but I have to tell 
you he's got the same sunny disposition he's always had since 
the day we met. He hasn't got an unkind word for anybody, but 
he did say to me, ``Bob, you have to give the best you can to 
help my brethren.''
    These men, in my opinion, are the modern day version of 
gladiators, and they have, as Kyle said aptly, been treated 
like a commodity. Now, I can't say that it's universal. There's 
one owner that I can speak of, Al Davis, who happened to 
recruit Willie out of high school at the University of Southern 
California, who's maintained his loyalty and has given 
financial support to us, but I can't name any other owner. Now, 
the point is the 88 Fund is a good attempt, but it needs to be 
revised.
    If you tell me that a program that's designed for dementia 
is geared to the former players' number, No. 88, and this is 
the maximum benefits of $88,000, I'm telling you something's 
wrong with that plan. Today, we receive $7,333 a month for 
Willie's support. We have a deficit of about a hundred dollars 
a day that we make up through card signing, his small NFL 
pension, and his Social Security, but it's a struggle every 
month. But guess, what? It's our struggle. And I can't think 
enough the Gridiron Greats, the Pro Football Hall of Fame, Mike 
Ditka's foundation, his former NFL teammates, his Packer 
teammates.
    The people who care have rallied, but that begs the 
question. The system is broken; it needs to be fixed. 
Concussions is a huge part of the problem. But at the same 
time, as long as the leverage is in the hands of those 32 
owners--and that's why your role is so important--you have to 
help continue to create this oversight because the light you 
put on this issue keeps the issue burning, and as long as it's 
burning, you're going to see results like you've been able to 
get in this big step of acknowledgment of concussions and a 
correlation with dementia and Alzheimer's. Thank you very much.
    [The statement of Mr. Schmidt follows:]

                Prepared Statement of Robert L. Schmidt

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Conyers. Thank you, Mr. Schmidt, that was a very moving 
statement. I'm so glad that you're here.
    Mr. Schmidt. Thank you.
    Mr. Conyers. George Martin is a--has been elected by the 
search committee going through 140 candidates to be the 
executive director of the NFL Alumni Association, my 
congratulations to you.
    Mr. Martin. Thanks.
    Mr. Conyers. The record is another one of those kinds of 
records that go down in the history books. You've played with 
the New York Giants for 14 years, and like some of the rest of 
you, his commitment has led him to do things quite unusual. 
He's walked across the country to raise medical care for first 
responders in 9/11 and raised close to $3 million for those 
families.
    I'll let you tell the rest of the--your story and the views 
that you bring with you after being in the game so long. 
Welcome to the Committee, Mr. Martin.

        TESTIMONY OF GEORGE MARTIN, EXECUTIVE DIRECTOR, 
                     NFL ALUMNI ASSOCIATION

    Mr. Martin. Thank you very much, Chairman. Again, I'd like 
to reiterate to Chairman Conyers it is an honor to be here, so 
thank you so very much. I'd like to sort of highlight some of 
the things that the respected Mike Ditka said, and certainly my 
colleague, Turk, said as well.
    This marks the second such illustrious occasion in which 
key, high-profile, notable dignitaries from all facets of the 
sporting world have been summoned and assembled in order to 
provide valuable testimony toward the growing and mounting 
health issue in sports. I, myself, am once again honored to 
lend both my personal experience as well as sharing real-life 
events that have sharply added to this mounting debate. By my 
presence here today, it is my sincere hope that we can move 
closer to identifying the scope of the existing problems in all 
sports effecting and preventing any such future medical 
occurrence, and most importantly, identifying and implementing 
meaningful and practical solutions for those that have been 
adversely impacted going forward.
    As a former professional athlete, I wish to reiterate once 
again for the record that my unique perspective lends valuable 
credence to the overall severity of this potentially tragic and 
devastating situation. As a seasoned veteran of the National 
Football League, 14 improbable years as a defensive lineman, I 
brutally toiled in the very trenches of NFL warfare delivering, 
as well as being the recipient of countless acts of physical 
depravity (sic).
    I will also add that 14 NFL seasons of yesteryear, from 
1975 to 1988, would actually calculate into more than one full 
year, more than 365 full complete days of unimaginable 
physicality. Realizing that what was then two a day, and 
sometimes three full-contact practice seasons (sic) per day, 
oftentimes without the benefit of a single drop of water today 
would constitute the very definition of insanity.
    It is extremely noteworthy that the standard nomenclature 
of the bygone era must be properly translated for the 
unsuspecting public in order to fully appreciate the magnitude, 
and more importantly, the severity of these vitally universally 
accepted situations. Conversely, it would represent the height 
of naivete on my part for me to believe that I could ever 
adequately replicate the overall scope of afflictions that 
occurred during this era to you, the audience in the allotted 
time frame.
    Nevertheless, the terms of combative engagement, drills 
such as 1 on 1, 3 on 3, 5 on 5, and 7 on 7 are representative 
events and practice segments that were devised to brutally 
segment, as was popular in its day, the men from the boys. 
These daily activities represented the epitome of physical 
combat or trench warfare during the course of an entire NFL 
season and was particularly highlighted and emphatically 
implemented during the NFL training camps.
    Additionally, industry terms such as ``bull in the ring,'' 
as well as the infamous ``nut cracker'' drill, were certainly 
not references to Spanish traditions of domestic cows running 
down the streets of Spain, nor a holiday ballet performances at 
the Lincoln Center. These signified a physical tariff measured 
in bloody noses and extremities, persistent headaches, broken 
bones, and mangled limbs. Yes, these were the immediate prices 
of sacrifice that I and far too many of my comrades paid in 
order to become, as was said earlier, modern day gladiators of 
the NFL, and I might add that this situation, this injurious 
impact was merely exacerbated on Sunday afternoons.
    Now, unfortunately, a shocking day of reckoning is 
occurring at an alarming rate among NFL alumni, and thankfully, 
the world is finally taking notice. As a former NFL player 
representative for 12 of my 14 years, it quickly became evident 
to me that far too many of our predecessors were falling victim 
to the same sense of invincibility that we so foolishly 
exhibited during our earlier respective careers. However, as an 
NFL player rep, we cannot ignore the constant clamor for 
assistance in hearing grievances while filing and pursuing the 
necessary post career benefits.
    Little did we realize their prophetic predictions and 
eventual medical destinations were representative of an eerily 
identical foreshadowing of our own futures. As they say, 
``Youth is, after all, wasted on the young.''
    The progressive need for continuous medical attention, 
diagnosis, and eventual treatment for former professional 
athletes reads like a contiguous sequential almanac. The 
overall situation, to coin a phrase, this is complicated. It's 
predictable, though, not preventable. It's treatable but not 
necessarily identifiable. It's pervasive, but as yet, 
undetermined. So it was said at that time that more study needs 
to be done. But little did any of us realize it then that with 
the passage of time, some of us would pay an even greater 
physical tariff for our youthful indiscretions.
    As a former president of the National Football League 
Players' Association, with longevity, oftentimes, comes wisdom. 
Witnessing the deteriorating plight of the pre 1959 NFL alumni 
gave rise to the sense of fraternal obligation, and, thus, a 
collective approval was consented by players to include those 
warriors of yesterday era into the progressive and updated 
pension benefit package of the NFLPA. At that time, it was 
simply an act of responsibleness and good stewardship on our 
part as then acting players.
    Now, for us, in retrospect to this day, I'd say none of us, 
in retrospect to this day, have ever regretted making that 
initial and intricate part of our marquee demands for a 
collective bargaining agreement. Perhaps we realized that 
eventually, the future would--the future fortunes would be 
reversed, and we would sincerely hope that history with repeat 
itself and that the simple act of fraternal respect and 
obligations would be enacted on behalf of us as NFL alumni by 
our successors. However, it remains a desire that is, as yet, 
unfulfilled.
    As representative of such senior alumnis (sic), it is our 
hope that this Congressional action will have that desired 
effect. Today as the executive director of NFL Alumni 
Association, as one who represents a vast and diverse 
constituency of NFL alumni, I want to personally and 
wholeheartedly commend Congressman Conyers and this 
distinguished assembly on its noble pursuits.
    Obviously, there have been careful and concise 
considerations to the widely diverse representatives who have 
been called upon to bear witness to the state of affairs 
regarding this issue, despite, however, the casualty of 
senatorial statesmen, commissioners, executive directors, 
doctors, and endless inconclusive data, there still remains an 
indeterminate impact along with insufficient data to 
conclusively ascertain the magnitude of this situation.
    I, myself, am acutely aware of the necessary protocols and 
due diligence that are vital requisites in order to derive upon 
an accurate conclusion. However, I would humbly and 
respectfully add the following indelible element into our 
ongoing equation, and that is simple. Expedience. Expedience 
without sacrifice. For I represent a segment of NFL alumnis 
whose hourglass of hope diminishes with each passing day, and 
their optimism is fading as the patient has worn thin through 
the passage of time.
    Their contribution and recognition to the success of this 
industry should not be cloaked in posthumous accolades, but, 
rather, extolled proudly, publicly, prominently while they 
still live. Thank you very much, sir.
    [The prepared statement of Mr. Martin follows:]

                  Prepared Statement of George Martin

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thank you very much, Mr. Martin.
    Our next witness is Luther Campbell, who after a 
distinguished football, pro football career, has turned with 
great energy and competence to the training of athletes from 
not only football but basketball and boxing, as well, and he 
not only trains athletes, young ones that are up and coming, 
but he trains the--many of the pros in between the seasons, as 
well, and I've gotten to know him very well. He's distinguished 
in this, the metropolitan area for his passion for young people 
getting the proper training and attitude to make contributions 
that they might not otherwise make in their life experience.
    So I'm very happy to welcome him here tonight, Lu Campbell.

                 TESTIMONY OF LUTHER CAMPBELL, 
                TRAINER OF PROFESSIONAL ATHLETES

    Mr. Campbell. I appreciate that, Honorable Congressman John 
Conyers. Mr. 89. That's a personal joke.
    What we've experienced here, or at least what I've 
experienced here today is by pure definition of the word, 
expostulating, to earnestly, to earnestly plead with someone, 
some institution about a warning that is there and that's so 
evident. Yes, this is a hearing technically, but it's an 
expostulating event that we're having and we're sharing all, 
one with another.
    I'm a former educator in the public school system, and I 
have a love for the English language, I'm not a grammarian, nor 
a polyglot, nor a linguist, or an etymologist, but I have a 
love for the English language, and I always like to understand 
it, so when I'm in the gym, I teach. I heard the word 
``amyloid'' used today. I use that quite frequently in the gym, 
and I tell the fellows--many of professional athletes were here 
today, eight or nine of them were sitting in the audience 
today, and they know--I'm sure they sat straight up in their 
seats when they heard that term, and they said that's what Lu 
gave us, and they remembered what it was, where there was a 
mass of protein in the brain that causes Alzheimer's disease, 
that's one of the first things I told them.
    No, I'm not a clinician, no, I'm not a doctor, I'm a self-
taught individual about the human body, and I pride myself in 
that. I'm sort of like the Johnny Mercer, if you will, and some 
of you don't know who Johnny Mercer was. Well, Johnny Mercer 
founded Capital Records. He sided Nat King Cole and Billie 
Holliday, virtually unknown but extremely productive.
    I talked about--and this is not in my--in my notes. By the 
way, I'd like to say this. If I known it was going to be this 
way, I would have double-spaced and in bold-lettered and 
everything else so I could see what I'm doing. I can say 
everything is blurry at this point.
    But the number one injury that I found out in the gym--and 
I have to digress on this, and just bear with me for a minute. 
The number one injury in the gym is a rotator cuff glenoid 
joint. The number two injury we find out is your ACL and PCL, 
your lateral collateral ligament, your MCL, your medial 
collateral ligament. Those are the things that, as late as 
yesterday, if we looked at the football games of the NFL, we 
had more collateral ACL injuries than you have anything else.
    Yes, trauma to the head is paramount, yes, we have to do 
that, and in my testimony, you'll hear me say about that event 
that happened to me while playing football, but there are--
there are a lot more severe injuries, and we must turn our 
attention to the youth. It was said that there are 
approximately 3.5 million youth that are engaged between the 
ages of 8 and 14 in contact football, a million, one million in 
high school football, approximately, approximately a hundred 
thousand in professional football. That means arena (ph.) 
Football, too, and the statistics go on and on and on with 
this.
    But I'm going to get into my written testimony, and I'll 
read it verbatim in here, and I'll read it rather slowly trying 
to discern what I've read (sic) in these late hours.
    Mr. Chairman, again, I'm Luther Campbell. My moniker, my 
sobriquet is Big Lu, (I started my Ph.D. work in 1975 at Wayne, 
at this illustrious institution here, Wayne State University, 
``Apocope and Apheresis in the Black esoteric idiom''), and 
breaking that down, not trying to be too wordy for you, but 
understand why we as Black folk talk to each other and leave 
out a syllable or a letter at the end of a word: ``Why did you 
dis' me, man?'' In other words, why did you disrespect me? That 
was going to be my main thrust, not what they so-called 
Ebonics.
    The title affixed to my name during the past decade is 
trainer of professional athletes. Among those I have helped 
prepare for their professional careers are Tommy Hearns, who 
was with me for any number of years, eight-time World Boxing 
champ; Chris Weber, first-round draft choice; Leon Spinks, 
World Boxing champ; Jalen Rose, who we see on ESPN now, first 
round NBA for many years; Braylon Edwards since he's been 13 
years of age; Brian Westbrook, No. 1, first round NFL; Derrick 
Coleman, first round NFL (sic); Robert Traylor, first round 
NBA; Rod Hill, Dallas Cowboys; and the list continues. It's not 
stroking, but the list continues.
    I was recruited by former Michigan All-American Mike 
Keller, general manager of the United States Football League, 
Michigan Panthers to lead our first tryout camp at Oakland 
University in 1982. Some of you are trying to figure out my 
age, I'm closer to 70 than I am to 60, now you go from there.
    The late judge, Judge Peter Spivak, and former commissioner 
of the United States Football League, and his partner, Al Low, 
currently Commissioner of the Unarmed Combat Commission, State 
of Michigan, acclaimed me as, quote/unquote their ``greatest 
asset'' when the Panthers subsequently became world champs, 
excuse me, in 1983.
    Joe Paterno, the incomparable head coach of Penn State 
University, flew to Detroit and asked me to come and lecture to 
his entire team on the importance of winning, as well as being 
and staying healthy and in shape, especially, his concern was 
the consumption of alcohol, and he had a very passionate 
concern on that and about that.
    I have done both the same lectures at Tennessee State 
University with Joe Gilliam, Florida A&M University, Dr. Al 
Lawson; Columbia University up in New York right outside of 
Harlem, and an array of other institutions, coaches, and 
various individuals including many actors, singers, and 
politicians (notably the Honorable and most distinguished 
Congressman John Conyers), have been under my guidance and 
health concern and fitness and nutritional needs for many, many 
years.
    My brother, Wayne Campbell, bless him----
    Mr. Conyers. If you want, Mr. Campbell, let me go to Bernie 
Parrish and come back to you if that would be appropriate.
    Mr. Campbell. I'm all right, Mr. Chairman. Thank you. My 
brother, Wayne Campbell, who left us several years ago, played 
football with the Oakland Raiders. When Jack Tatum placed that 
draconian, crippling blow on Darryl Stingly, resulting in 
lifelong paralysis, Wayne was never the same after that. He 
faded out of professional football.
    We must concern ourselves with the entire physicality of 
the game. Surely, we are absorbed with the closed-head 
injuries. However, if we populate the discussion with 
connective issues, one may, perhaps, help resolve another. We 
need formative discussion, not debate; resolution of issues, 
not dissolvement and stalemates.
    The possible contributory symptoms for those players might 
have the following incorporated in the evaluation of the 
injury: Headaches, which, in my opinion, is an elementary step 
in diagnosing even from a trainer's standpoint, a coach's 
standpoint, or a health professional's observation, 
intellectual impairment where the player responds with 
practical judgment, confusion, accompanied with mild hearing 
loss. We did not touch on that to date. Difficulty with short-
term memory, I find this especially important. All you have to 
do ``What day is it? What time is it? Where are you? What is 
happening?''
    These are elementary questions we should be asking the 
young folk as well as older folk that play this game. 
Drowsiness, eye problems, and focusing and clarity, personality 
and behavior modifications, especially in a negative manner. 
Problems, the youth, the coach, in discerning his opinion and 
delivering of transparency--bear with me--or clearness of his 
speech, clarity of speech, including spelling and 
pronunciation. Look for balance of movement, especially linear, 
back and forth. Walking the sidelines for five to ten yards is 
just one simple thing that you can do in what we call deductive 
reasoning.
    I've trained six world boxing champions, and I want to 
reiterate that, six of them. I can attest to the debilitating 
results can occur from constant beating to the head. Muhammad 
Ali, one of my greatest--Muhammad Ali and I sat together at 
ringside in Toronto (4-26-1975) right next to each other, not 
at ringside but juxtaposed to each other. After George 
Foreman's initial fight with him, he was taunting him at 
ringside, and I thought I would do it, too, until George threw 
the chair at me, but in any event, as we discussed body 
punishment, both giving and taking, you'd be amazed by how much 
he took. Today because of who I am and what I've accomplished 
over these years, I'll qualify in saying that much of his 
physicality, his physical breakdown is and was due to constant 
blows to his body, as well as directly to his head.
    Empirical knowledge, empirical knowledge allows me to 
qualify my judgment. Ali's apparent and demonstrative changes 
and his physical condition should have been noted earlier, and 
a proactive medical intervention should have taken place at 
that time. I know you say well, Lu, that's hindsight, 20/20, 
that was 1973, it should have been taken place. The individuals 
that are around him should have known. We talk about it in the 
game of football, people, your coaches, your players see 
those--those things happening to you in life, as with my 
brother and see those things happening and should have stepped 
in and said something about it at that point in time.
    Three years prior to the Lions moving to Ford Field--I hope 
I didn't skip--I skipped a paragraph, I'm very sorry. All 
coaches must know and certainly be credentialed, and this is 
very important by the way, I'm very sorry, all coaches must 
know and certainly be credentialed and authentically educated 
on what signs, conditions, and physical impairments to look for 
and determine what disposition is called for. You don't have to 
be a doctor or a clinic or a functioning clinician, just have 
the knowledge and coachable judgment to assess the problem and 
move on from there. Have a fatherly degree of empathy when a 
player's hurt and not so dispassionate.
    The grammatical conjunction ``if'' always leaves us 
wondering what the supposition implies. Now, let's role play. 
What if your son was lying on the 50-yard line unconscious as a 
result of a legal blow? And a legal blow to the head? Stay with 
me on this analogy and the strategy. Tell me truthfully who 
would you point to? How many tears would you have? How many 
what ifs? Let's continue to meet, to prod, to search, to 
possibly research until we have some acceptable resolvement of 
this problem.
    Three years ago, prior to the Lions moving to Ford Field, 
I'm sorry, that should not have been three, that should have 
been 8 years ago, prior to the Lions moving to Ford Field, 
Detroit Lions Vice-President, Larry Lee, invited me to his 
Silverdome office and suggested the Lions were working on 
bringing me on as the Lions' strength coach. That was probably 
based on the fact that seemingly ever year, the Lions sent me 
all their new players that needed to be redefined, including 
All-Pro William Gay, Allen Hughes, and the insidious Kerwin 
Waldrop, and the list continues. I met with Matt Millen 
immediately after that, he took charge, and he shook the shut 
the door in my face. Hurray for the Lions.
    During preseason football in 1965, I suffered a very, very 
severe concussion. Years after, reflecting on my personality, 
disposition, and headaches, I assessed the traumatic blow. It 
amazes me that I have not yet recovered. 1965. This is the year 
2010. I have not yet recovered. Ensuing information will show 
you why. One obvious factor is so overwhelming that I didn't 
even come full circle with it is my attention span.
    Over all these years, the vision problems still come and 
go, and the absolute number one thing is the grinding in my 
neck, because when you get a very severe head problem, it has 
an effect on your spinal cord. That hasn't been touched on 
today, but I'm here to attest to that and can testify to that. 
And every time I turn my head, it just grinds and grinds and 
grinds on that axis. And I see George, you're nodding your 
head, so you understand.
    Those are played this game and have had concussions 
understand that. Not only do I have firsthand testimony but 
empathetic transference of knowledge to those who have 
suffered. There's not much someone can offer me in terms of 
injury and how the injury feels or occurs, but how I can 
chronicle it and you can possibly learn from me and certainly, 
it should not happen on your watch.
    The game is violent, and the rules are adjusted and 
modified yearly. Penalties, again, are regulated along with 
other obligatory changes. They feel it's necessary to change 
this and change that if it's necessary to look good on paper. 
However, injuries haven't abated. Perhaps revising the design 
and materials of football helmets. Having all equipment 
modified, research analysis on composition, absorption, and 
possibly buoyancy of the field, making orthopaedists and 
neurologists mandatory, mandatory on staff would address some 
of the problems. The caveat, however, when you make them 
mandatory, is to get the doctors to engage themselves more 
objectively about the player's condition instead of possibly 
thinking subjectively, meaning fix you up, put you in to win.
    Articles on my ability have been listed in several local 
papers, Detroit Free Press, Detroit News, and Michigan 
Chronicle on 48 occasions, and numerous times on electronic 
media. Perhaps one that has received more international 
attention appeared on the front page of the Detroit News and 
subsequently took up four pages to explain on how I took all 
544 pounds, I'll repeat that, 544 pounds off of three 
individuals in less than 6 months. That was Tuesday, March 
30th, 1999, pages 1F, 6F, 7 and 8F in the Detroit News.
    Just the opposite, I put muscle mass on naturally, I'm a 
vegetarian. I've been a vegetarian for 35 years, and thus 
believe in a more natural wholistic approach to the human body. 
I don't smoke. I don't drink. I won't and don't approve of it 
being used, especially by athletes. As an example, the Detroit 
News Health and Fitness Magazine, front page again, Wednesday, 
December 22, 2001, section 8, headlines, ``How he built his 
body, Novi Man Goings From Skinny 144 pounds at age 18 to 210 
Pounds of Pure Muscle,'' (A Gain of 66 Pounds Under the 
Training of Big Lu).
    A subsequent story appears in Men's Fitness magazine. 
October 2004, page 64-66, the Oakland--the current--the 
current, as we sit here today, the current center at Oakland 
University, Keith Benson was sent to me as a high school junior 
by Chris Weber's brother. It doesn't say that in here, but 
that's who sent him. His six-eleven frame, please imagine this 
if you close our eyes, or keep them open, whatever your 
pleasure is, he's 6'11'' and 172 pounds. I'll let you soak that 
in for a minute.
    It had to be a dramatic change that was getting ready to 
happen. Keith didn't start as a junior and rarely played as a 
senior at Country Day. He listened, came to the gym and 
listened to me, bought into my abilities, and last week, last 
week was projected as an NBA first-round draft choice, minimum 
signing, $40 million. Over the years, I've trained seven Mr. 
Basketballs here in the state of Michigan, Robert ``Tractor'' 
Traylor, who I took 48 pounds off of, Willie Mitchell, Mike 
Tally, who appeared in today's paper, led Michigan basketball 
to three State championships at Cooley High School, and his son 
right is in the papers of All-American Basketball. Chris 
Webber, Derrick Nix of--starting center at Michigan State, Dion 
Harris, Winfred Walton who was placed above Kobe Bryant when he 
came out of high school, as well as Miss Basketball, Maxanne 
Reese, and I'm currently training Nick Perry, 2001 at USC, and 
if you saw the high school All-American game last night, 
William Gholston, who was most valuable, 2009, he's headed for 
Michigan State, both Mr. Footballs, and a plethora of 
unheralded other athletes.
    This fall, and I will conclude it with this one, this my 
favorite and this is that touches me, I hope my son is still 
here, he's the tall, good looking gentleman back in the back. 
This fall, my grandson, Jayru Campbell, age 13, led the P.A.L. 
Westside Steelers to a perfect season, undefeated, and unscored 
on regular season play, during the championship game at Ford 
Field, November 14, 2009, Jayru threw three touchdown passes. 
He was named MVP of the game. In 5 years, he has never lost a 
game as a starter.
    The Steelers are the same team with the same coaches as 
Devin Gardner, University of Michigan No. 1 recruit 
quarterback. The Detroit Free Press this past Tuesday, December 
29, 2009, page 2B, quote: ``ESPN Scouts, Inc., National 
Recruiting Director Tom Luginbill said ``Devin has been far 
more prepared in the passing game and playing in a scheme that 
has required him to do some things with his arm on a more--much 
more consistent basis than Terrelle Pryor, who's the current 
quarterback at Ohio State, ever was. I write this because Jayru 
came up just one TD short of Devin's record. Devin had 18.
    My son Shawn, who again is sitting in back, the good 
looking tall one, Jayru's father, ex-pro basketball player, 
6'8, 242 pounds, and of course, I am 6'6 at 278. I talked to 
Jayru about it, I said 'Ru--I call him 'Ru, I said Jayru, what 
is your genetic projection? Your genetic projection at age 17 
will be 6'7, possibly 250 pounds. Imagine that.
    He hasn't had any head injuries because Shawn made sure 
that he has incorporated special training and education, 
especially with technique tackling, and I'm ending this now, 
and I'm sorry to be so long with this. Shawn will not allow him 
to lead with his head. I will repeat that. Shawn won't allow 
Jayru to lead with his head. He also wears the proper and best 
helmets. Now you see why I'm overly involved in this direct 
attention bringing to football players and the whole conference 
on head injuries to a climax today. I plan to see Jayru through 
until his name is called as the No. 1 draft choice in the NFL. 
By the way, he averages 20 points in basketball, also league 
MVP, and he maintains a 3.4 GP or better, and I won't continue 
this. I'll leave it at that point. [Applause.]
    [The prepared statement of Mr. Campbell follows:]

                 Prepared Statement of Luther Campbell

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Well, thank you.
    Mr. Cohen. There's a spot at the University of Memphis for 
him, I'll offer him the scholarship here.
    Mr. Campbell. That's his daddy over there.
    Mr. Martin. I must take my leave, sir.
    Thank you.
    Mr. Conyers. We close with Bernie Parrish, and I think 
appropriately so. He's the author of a best selling book ``They 
Call It A Game,'' about the economics and politics of the NFL, 
and he has the distinction of being named an All-American in 
both basketball and football.
    Mr. Parrish. Baseball.
    Mr. Conyers. Oh, in baseball, I'm sorry, and I'm delighted 
that you had the staying power to be with us and close us out. 
Thank you very much.

        TESTIMONY OF BERNIE PARRISH, RETIRED NFL PLAYER

    Mr. Parrish. Thank you very much for having me here, and 
I'm, well, a fan of yours, Chairperson Conyers, and I 
particularly want to thank you for being here, Mr. Cohen, and 
Linda Sanchez is just terrific. She's been a wonderful advocate 
for us, and we got to give credit to Maxine--Representative 
Maxine Waters, who has been our angel, and Sheila Jackson Lee, 
as well, from Houston, who has been a great asset and a great 
advocate for us, and I want to thank Alan Schwarz, whether he's 
here or not, for the articles that have moved this ahead, and I 
haven't always agreed with everything he's written, but he's 
done a terrific job. So he deserves credit for it.
    I did--I wrote They Call It A Game some decades ago, and 
the subtitle of it is An Indictment of the Pro Football 
Establishment, How It Manipulates and Protects It's Billion 
Dollar Monopoly At the Expense of the Players and the Public. 
It was 1971 when I published that, and nothing's changed except 
the numbers are bigger.
    This hearing sort of reminds me of the Watergate era. I--
I--and two of my other personal heros, Senator Sam Ervin and 
Senator Philip Hart, and I was fortunate enough to meet those 
two political giants at a hearing much like this one, focused 
on the NFL and abuses of their antitrust exemptions, and here's 
what--here's what Senator Ervin had to say at that hearing: 
``Mr. President, I shall vote against the bill for two reasons. 
First, the bill makes it lawful for persons who operate 
professional football clubs to do things for which other 
Americans are to be subjected to damages, fines, or imprisoned. 
Second, the bill makes every person in America who possesses 
skill in a athletic career the economic slave of those who are 
engaged in these sports on a professional basis for commercial 
gain.''
    The wheels turn slowly. This yellowed copy of the 
Congressional record is from August 31, 1965. That's what 
Senator Sam had to say, and I was at that hearing, so I've 
been--I've been at this a long time. I'm as yellow as the book, 
probably, at 73.
    In 1976, there was another hearing, and I won't bore you 
with this but this is my statement to the Subcommittee on 
Antitrust and Monopoly of the United States Senate in 1976, and 
I can make it available if you----
    Mr. Conyers. We'll accept it into the record and return it 
to you.
    Mr. Parrish. One of the reasons that I really was so happy 
that you had this in Detroit is my brother is--teaches here at 
Wayne State as a political science professor. He helped edit 
that book, and he is head of the teacher's union here at Wayne 
State. So I'm--I'm very happy to get to spend some time with 
him, too.
    You know, when I got here and I heard that first panel, I 
thought I had come to the wrong room and that I was at a 
tobacco industry hearing where the tobacco industry 
spokespersons, the doctors, the experts that they created were 
here talking on their behalf, and actually, the NFL uses the 
same merchants-of-death business model as the tobacco 
industries do, and it was--has created a tobacco council just 
the way Covington & Burling who represent the NFL today 
represented Philip Morris and the other tobacco companies when 
they set up the tobacco council.
    This mild traumatic brain injury committee is the sequel to 
the tobacco council which produced its own bogus studies, paid 
experts to testify that tobacco products do not cause cancer, 
and it exactly parallels the way that Covington & Burling 
partnered Paul Tagliabue, who was commissioner of the NFL, set 
up and created the NFL's Mild Traumatic Injury Committee.
    He named the first chairman, Elliott Pellman, who was his 
personal physician and a graduate of Guadalajara's Medical 
School in Rheumatology, who had absolutely no expertise on 
brain injuries, was forced to resign when he testified at the 
steroid hearings for baseball. The New York Times then exposed 
him as having padded his resum and not being an expert on 
steroids anymore than he was an expert on concussions. But he 
had to step down.
    He resigned just as these two fellows, Casson and Viano, 
had resigned but remained on the payroll. In fact, he--Mr. 
Pellman is described as the--NFL's liaison for Commissioner 
Goodell, so he gets all of his information on--oh, the 
concussions through this filter of Pellman today. The people--
the Dr. No here, Dr. Casson was, you know, telling us about the 
progress they had made. Well, the neurological training 
physicians on the sidelines, and now, we're, you know--they 
were--they are being selected by Dr. Pellman and Dr. Mayer, who 
is the expert, who's the medical expert from the NFLPA, and Dr. 
Pellman have selected those particular doctors to be on the 
sidelines.
    Well, I'm--Mr. Mayer doesn't have anymore brain injury 
training or expertise than Mr. Pellman does. So we're, you 
know, we're kind of--keep going back to square one, and I keep 
going back--it takes me right back to the tobacco industry, the 
way they sold the fact that using tobacco products doesn't 
cause cancer, playing professional football doesn't cause 
dementia eventually, etcetera. And the idea that the--they have 
perfected deny--the delay and deny process, delay, delay, study 
it, study it to death, and make magnanimous statements about 
what they're going to do, etcetera, etcetera, wind up denying.
    We've sort of gotten the mild brain trauma committee mixed 
up with the retirement board. It is the retirement board that 
turns down all of the disabled fellows who apply for disability 
and get turned down, and that is composed of three players and 
three owners' representatives, and the commissioner of the 
National Football League, who doesn't get his due credit for 
being the chairman of that committee that Mike--I was 
interested in hearing Dr. Maroon's testimony about concussions, 
and then after it was over, I asked him if he was Mike 
Webster's doctor ever since he was the team doctor for the 
Steelers. He said yes.
    Well, the appeals court said that the--that the NFL had 
abused its discretion when it had turned down Mike Webster, and 
the appellate court approved him and approved--or disapproved 
turning him down, and he won. He finally won, like, a million 
and a half dollars and which is certainly not due compensation 
for what he went through, and his son Garret is here, and I'm 
sure he can assure you of that. But it is--it was a--not just a 
very sad event, but far too typical of what has gone on in the 
National Football League, and it ought--and the thing is you 
have to relate it back to the operation of the league, and 
the--if there has ever been an example of medical--oh, medical 
fraud and abuse, it is the disapproval of so many disabled 
players. That money has to come from somewhere when they are 
disabled, and they have to be treated, anyway, and that comes 
from Medicare, Social Security, and Medicaid, and if that's not 
medical fraud and abuse, I don't know what is.
    They do it by hiring doctors and experts who will make the 
denials that are needed in order for them to keep their money 
in their pocket, the same way that the tobacco industry does 
it. I'm--I heard so many--you know, look, what can Congress do 
it about it? Okay? You've been at this thing since at least 
1965, but it's still--you know, we're still at it. You know, 
what in the hell can we do?
    I heard so many times Gene Upshaw repeat that retired 
players are not in the bargaining union, the union, the NFLPA, 
does not represent retired players. Well, actually, nobody 
represents retired players. Mr. Martin does not represent 
retired players. That's--that's--the NFL alumni is a hoax being 
perpetrated by Roger Goodell in order to make it appear that 
the retired players have a representative. There are less than 
a hundred players in the NFL alumni, less than a hundred 
retired players. They don't represent diddly in the--in the 
overall scheme of things.
    Now, I had had an interesting go-around with Gerald Toner, 
who is the chief of labor racketeering for the Department of 
Justice, and in the mid-term elections in 2006, I got a 32-page 
e-mail from Mr. Toner apologizing and--for holding my 
complaints to him about the NFLPA and the NFL since June of 
the--of that year, and he waited until the elections had been 
determined that the Democrats had carried both houses, the 
House and the Senate, and then sends me this 32-page e-mail 
saying sorry, but--sorry, but I'm separating these, whoever--
Mrs. Elizabeth Bond's labor department, well, Liz Bond has 
danced this around already for 2 years before he sent it to 
her, and his conclusion to me was you need to get a lawyer and 
sue him, so I did. And I won $28.1 million for--for 2000 
players who supported me.
    There really were more players involved, but they--there--
the scheme was devised by my--our lawyers and the NFLPA 
lawyers, and the judge, in order to--to minimize the damages 
you had to, in order to be included in the lawsuit, you had to 
have signed what was called a group licensing agreement, and 
only a certain number of guys even had an opportunity to sign 
it. They--there were 2,062, according to what the NFLPA 
produced in the way of records there, we actually know that 
there were many more than that, but there--at least over 3,000, 
but they produced 2,062, which minimized the damages, and we--
but we wound up--we are now in the process of settling this 
lawsuit for $26.25 million, and in this process of settling 
we've--we had--we gave up our attorney and our class 
representative gave up the rights to sue Electronic Arts Video 
Games, which were using our images without paying us anything, 
Magna Video Games, who collected over $130 million of royalties 
and paid us nothing, and there are 80 other vendors who are 
included, and--and our guys, our lawyers, and Herb Adderley, 
who is your class representative, gave up the rights to those.
    So since I'm the only one who reads any of the case stuff, 
I found out that wait a minute, you know, they can't do that. 
So I sent out an e-mail to all--all around 1800 retired players 
that I stay in contact with, and the judge reversed that, he 
threw that part of the--of the settlement out and changed 
wording, and so now we can sue VA, and Madden, and these are--
it was a $300 million giveaway had we not found it and the 
judge not responded it to it. Thank God the judge responded to 
it.
    But now I'm sorry that DeMaurice Smith wasn't here because 
he was the other side of the 300 million. He--he and our 
attorneys made the deal, and we were--we were screwed 
temporarily for 300 million so--but that is--is a--is the way--
that's the sort of business that we have faced for years and 
years, and we need your help.
    We need Congress to do some things for us. Now you have--
well, I won't say you, but government, the NLRB made a ruling 
that the--that the retired players could not be represented by 
the union. You have--so you have no vote in the union.
    [The prepared statement of Mr. Parrish follows:]

                  Prepared Statement of Bernie Parrish

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Cohen. Mr. Chairman, may I have the floor for a moment.
    Mr. Conyers. Yes.
    Mr. Cohen. Mr. Parrish, I skimmed your book, and I 
appreciate your references, but were you here for the testimony 
earlier by Dr. No and Dr. Yes.
    Mr. Parrish. Yes, I was.
    Mr. Cohen. Is that a proper synopsis of your evaluation of 
their testimonies.
    Mr. Parrish. I have never heard more P.R. B.S. In my life. 
It was absurd. Is this--I understand from--from Linda, 
Representative Sanchez, that you cannot lie with this Committee 
even though you didn't swear us in, you still can't lie to the 
Committee, it is still perjury; is that correct?[No verbal 
response.]
    Mr. Parrish. Well, there was a lot of lying going on, 
fellas.
    Mr. Conyers. Well, that's why we have transcripts.
    Mr. Cohen. If you don't mind, Mr. Parrish, for a second, 
I'd like to ask Dr. Benson and Dr. Kutcher did you find 
anything that Dr. Casson said that you all agreed with? In 
essence, the bulk of his testimony that there's not any 
reasonable scientific foundation to the beliefs that 
concussions cause dementia or other type of brain damage, 
there's not sound evidence at this time, do you concur in that, 
or do you find that to be a little bit----
    Dr. Benson. Ridiculous.
    Mr. Cohen [continuing]. Yeah, that's a nice----
    Dr. Benson. Yeah, I think that it's easy in medicine and 
science to wait for absolutes. There are no absolutes, though, 
in what we do. I think Dr. Omalu said it right. You know, our 
first priority is--is the welfare of the citizenry, in this 
case, the athletes and to wait for absolute truth, and I'm not 
sure he really addressed that question that Congressman Sanchez 
posed, which was why the difference between the studies on the 
boxers, with 17, I think was the number that he throughout, 
versus what Boston U has, for instance.
    So I think every point he refuted, negated, turned around 
the question, and I think that it's--I think it's common sense 
that playing football causes brain injuries. I showed you a 
movie showing you with just normal movement how much movement 
there is of the brain within the cranium. So it's not a 
stretch, and, you know, frankly, I--I think it was somewhat a 
waste of time, the questioning, because I think we all knew 
what Dr. Casson was going to respond with. I think we need to 
remove on, get past that, and----
    Mr. Cohen. So if I can synthesize your response, you don't 
to be a brain surgeon to figure this out.
    Dr. Benson. Or a brain scientist.
    Mr. Cohen. Dr. Kutcher, what's your thought about that 
testimony.
    Dr. Kutcher. I would actually have to say that in a lot of 
ways, they were saying similar things. I know you don't--may 
find that hard to believe, but from a scientific standpoint, 
they were. Dr. Casson was saying that, as a scientist, you 
can't say X. Dr. Omalu was also saying that as a scientist, I 
can't tell you that head trauma is the only factor. They said 
similar things, but they were emphasizing the exact opposite 
ends of the spectrum.
    I saw some common ground there, believe it or not. I think 
that it's reasonable to make a judgment that repetitive head 
injuries to the degree that athletes experience can lead to 
dementing illness, I think that's a reasonable medical opinion 
to make. I agree with Dr. Omalu that medical science is not an 
absolute science like physics, and so there's got to be some 
kind of guesswork there.
    But I think it's also important to note that the medical 
argument and the policy argument, you can make policies and you 
can make decisions that make sense as a physician without 
having the science all lined up yet, and I think that's kind of 
the difference that those two guys are explaining.
    Mr. Parrish. There was no doubt in Dr. No's answers when 
Representative Sanchez showed the video at the last hearing. He 
answered three times ``no'' when he was asked if there was any 
connection. He didn't equivocate, he didn't say that it wasn't 
good science or any of that. All he said was ``no.'' Three 
times, right?
    Mr. Cohen. Yes, sir.
    Mr. Parrish. You guys remember it? I mean I'm not the 
only--I mean I didn't even make it to the last one for some 
unforeseen reasons, and I want to apologize for not being 
there, but it really wasn't my fault.
    Mr. Cohen. Thank you, sir. And a digression before I go to 
Mr. Turley, I think Chairman Conyers might want him to close, 
did--and in skimming your book, I saw Tommy Bronson, I grew up 
in Memphis, and there was a Tommy Bronson Sporting Goods, is 
that the same----
    Mr. Parrish. No, Tommy Bronson, we grew up together in 
Gainesville, Florida, and then he went to the University of 
Tennessee and made All American 2 years in a row.
    Mr. Cohen. He didn't get in the sporting goods business.
    Mr. Parrish. No, he's not in the sporting----
    Mr. Cohen. Just a coincidence.
    Mr. Parrish. No, he owned--they owned mining companies all 
around.
    Mr. Cohen. And Mr. Turley.
    Mr. Turley. I'm not a doctor, but since we have a 
distinguished panel, Mr.--or Dr. Casson made a few statements 
that I would like to bring to light in relating boxing compared 
to football, and since we have Mr. Campbell here, my question 
to Mr. Campbell is in your experience as a trainer to boxing 
professionals, how often in the practice and training sessions 
are boxers submitted to full contact before entering the fight?
    Mr. Campbell. Sparring sessions or training sessions.
    Mr. Turley. Training sessions, sparring sessions, how 
frequently in preparing for a competition is a boxer submitted 
to full contact blows.
    Mr. Campbell. Well, they do have it, and sometimes they 
have the head gear on, and sometimes it's without the head 
gear. That depends on their trainer.
    Mr. Turley. So they do wear head gear.
    Mr. Campbell. Sometimes.
    Mr. Turley. Right, and in a boxing competition, how many 
fights that you experienced would you say blows to the head 
consisted of per fight on the relative scale.
    Mr. Campbell. Sometimes two to--two to----
    Mr. Turley. On an average fight, how many blows to the head 
would a fighter take.
    Mr. Campbell. Say upwards of 125, 140.
    Mr. Turley. 125, 140. In my 9-year career, I played in over 
a hundred football games. During those years, I never missed 
one practice, maybe--well, maybe one or two. As a football--as 
a linemen on the football team, we are expected to go a hundred 
percent in every play and--as many of the linemen here can 
attest to that. That being said, over that career span, I 
suffered probably over 130,000 blows to the head, and that 
includes probably training camp where we're expected to go full 
speed every play.
    Might not be the same for other positions, but as a 
lineman, as Mike Webster, as Justin Strelzyk, others who have, 
unfortunately, had to experience what I've gone through, Andre 
Waters, Chris Benoit, who's chalked up to having his incident 
be blamed on his steroid use when his signature move was a 
folding aluminum chair to the head off the ropes.
    I find it offensive that Dr. Casson would make such 
statements and a complete contradiction and a lack of 
credibility to his medical career that he would make such 
statements without understanding the knowledge of head trauma 
that actually goes on in professional football, being that he 
was the chairman of that committee. He made a lot of statements 
that I find offensive and would like to place that in the 
record, and thank you Mr. Campbell, for your statements on 
that. I kind of find that it's very comparable to a boxing 
career, to a football career, and yet, I find it hard to 
believe that a doctor of his so-called qualifications would not 
understand that.
    Mr. Campbell. I agree with you and concur. He was very 
evasive on the undefinable, and he didn't vacillate, he just 
didn't want to answer.
    Mr. Cohen. Mr. Chairman, I yield back my time to the Chair. 
Thank you, sir.
    Mr. Conyers. Do you have a concluding comment, Mr. Parrish.
    Mr. Parrish. I do, and I will conclude, but John Updike 
once said in a quote ``It is difficult to make someone 
understand when his salary depends on him not understanding.'' 
That suits Roger Goodell, as well as Mr. Casson, but if you--
what my conclusion is is that Congress--Chris Nowinski his 
left, I had agreed to donate my brain, but I'm here to tell you 
I'm taking it back if he takes the money from the league. I 
want my brain back.
    If the league is putting a million dollars into a project, 
they're going to control it, believe me. I've only been at this 
for a while, so you know, no, I'm not participating if that's 
the way it's going to go. And the Government should fund this 
through the NIH, and the Government show oversee it. OSHA 
should be out watching the practices and watching the games and 
what the hell's going on, and it's, basically, you know, we 
feel as though this is--this is a--we don't want--going to 
court was a long, hard battle, and you guys can change things a 
whole lot quicker than we can.
    I mean there are things that can be done, give the retired 
players a vote in the union. I mean that would change a lot of 
things in a hurry. So we're looking to guys, you folks for 
help, and actually, you're giving it to us. And I've been 
waiting since Senator Sam in 1965, but you folks, and including 
the ladies, Linda Sanchez, Maxine Waters, and Sheila Jackson 
Lee, and any other Members of the Committee. In fact, you have 
one owner, NFL owner on your committee, don't you, Tom Rudy? Is 
it Tim Rudy? Rooney? From Florida, a representative?
    Mr. Conyers. Yes.
    Mr. Parrish. He's an owner. Be careful of him. But I thank 
you for having this, and we can't do it without you, that's 
all. We're asking for your help, and you know, we got to have 
it, and it--all the things that Mr. Turley and all the other 
fellows have said, I agree wholeheartedly with, and you can do 
us more good than anybody else, and we don't have to--I mean 
all--every time I turn around, Monty Clark here died, one of my 
old teammates, and believe me, I'm 73, okay, and I'm--and most 
of my guys are looking at the calendar now to tell time, and we 
need--we need some help now.
    Mr. Conyers. Of course your brother is a great help and 
assistance to you, he looks like he's in pretty good condition.
    Mr. Parrish. Well, he's doing all right. He loves this 
Detroit weather and all the folks here, he's been here forever, 
I'm trying to get him to come back to Florida, and he won't do 
it. He just loves it here.
    Mr. Conyers. I thank you so much. Mr. Schmidt, you have the 
last word this evening before we close down.
    Mr. Schmidt. Thank you, Mr. Chairman. You know, I'm a great 
believer that there--there's--the glass is half full, and I 
have a lot of respect for Bernie and Bernie's advocacy over 
time, but I don't want to live on the history. I happen to 
believe that we can go forward here, but you have to stay and 
play, you and other Members of the Committee and other Members 
of the Senate as a referee. We don't need you to be on our 
side. That's not the name of this game. But we need you to be 
the referee to ensure the game is played fair, and right now, 
the balance of equities is way, way disproportionate.
    All the leverage is in the hands of the owners, and I can 
speak from my relationship with Willie, I can speak for my 
son's--my youngest son played in the NFL 3 years ago. He 
injured himself after he played for the Jets and the Lions in 
NFL Europe. They brought him to Alabama to the famous Dr. 
Andrews, and they said we can't certify you to play anymore. 
This is a young man, 24 years old. They said we're going to 
settle with you for $2500.
    Now, if you think this is an old person's issue, this 
affects everybody. So these folks, you know, have way, way too 
much leverage, and you've got to continue to be the referee. 
That's where the equity's going to be balanced.
    Mr. Parrish. Let me make one more important statement here. 
There is a Supreme Court case going right now, American Needle, 
all right? That is a--that will give--if the Supreme Court 
rules in favor of the NFL over American Needle, that will be 
the most devastating blow that we have--that we retired 
players, also, all players, and the public will have suffered 
at the hands of the NFL owners.
    Now, Eric Holder is--was the--was working for Covington & 
Burling, and he represented the NFL against American Needle, 
and we--he needs to recuse himself from having anything to do 
with that case, and we need--we need for them--and I know that, 
you know, you--you can't influence the--the Supreme Court but 
the--the--oh, the Solicitor General has--has asked the Supreme 
Court to send it back to the Appeal Court who ruled against us, 
okay? We need you on our side. Yes, we do. Believe me, we do, 
but--and if it goes back and for further clarification and they 
still uphold the--the victory for the NFL owners, we--we're 
going--it's going to--this will be the most devastating blow 
that we have ever suffered at the hands of the NFL.
    Mr. Conyers. I'm going to thank my staff, which has worked 
with me. This has been several--well, it's been a couple of 
months that it took to put all of the pieces together for this 
hearing, and they have been with me and worked many hours and 
on occasions when I didn't even know that they were working. 
I'd like to thank them from the bottom of my heart. [Applause.]
    And, also, all of you because those of you here have made a 
record that has never been compiled before. As you know, these 
transcripts become public. They're published in the course of 
our work. This is an official hearing.
    We invited every Member of the House Judiciary Committee 
that wanted to to come to be in attendance in this hearing, and 
so this is a huge step forward. As a matter of fact, we've 
received so much new information, so much past history, so many 
court decisions, so much other extraordinary government agency 
activity and executive branch activity that we're going to take 
a while before we make our next step so as to very carefully go 
over this. Fortunately, I have an incredible staff, both here 
in Detroit and in Washington, of a combination of lawyers, 
investigators, and scholars that can help us parse through the 
tremendous record that has been compiled here at Wayne 
University Medical School. I'm grateful to you all, and with 
that, the hearing is declared to be ended.
    [Whereupon, at 6:56 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

           Prepared Statement of the Honorable James Moran, 
        a Representative in Congress from the State of Virginia

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

  Material submitted by the Honorable Steve King, a Representative in 
Congress from the State of Iowa, and Member, Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                                <F-dash>

    Response to Questions submitted to Roger Goodell, Commissioner, 
    National Football League, by the Honorable Linda T. Sanchez, a 
 Representative in Congress from the State of California, and Member, 
                       Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

     Follow-Up Material submitted by Roger Goodell, Commissioner, 
                        National Football League

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

   Post-Hearing Questions submitted to Roger Goodell, Commissioner, 
                        National Football League

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                <F-dash>

 Letter from Roger Goodell, Commissioner, National Football League, to 
 the Honorable Steve King, a Representative in Congress from the State 
            of Iowa, and Member, Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
